APPENDIX


TABLE OF CONTENTS
Appendix A: Court of Appeal Decision,
June 26, 2020 …………………………..................................1a
Appendix B: Final Written Decision IPR2017-01276,
September 28, 2018………………………….........................18a
Appendix C: Final Written Decision IPR2017-01275,
October 26, 2015…………………………..............................77a
Appendix D: Decision on Request for Rehearing,
April 13, 2017……………………………............................. 132a
Appendix E: Petition IPR2017-01276,
April 13, 2017..................................................................... 142a
Appendix F: Petition IPR2017-01275,
April 13, 2017..................................................................... 219a
Appendix G: Declaration of Alan J. Anderson,
April 12, 2017..................................................................... 319a
Appendix H: U.S. Patent No. 9,440,742…………………………................... 477a
Appendix I: U.S. Patent No. 9,073,641........................................................503a

1a
APPENDIX A
United States Court of Appeals
for the Federal Circuit
B/E AEROSPACE, INC.,
Appellant
v.
C&D ZODIAC, INC,
Appellee
2019-1935, 2019-1936
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board
in Nos. IPR2017-01275, IPR2017-01276.
Decided: June 26, 2020
MORGAN CHU, Irell & Manella LLP, Los
Angeles, CA, for appellant. Also represented by
MICHAEL RICHARD FLEMING.
JOHN C. ALEMANNI, Kilpatrick Townsend &
Stockton LLP, Raleigh, NC, for appellee. Also
represented by MICHAEL T. MORLOCK, DAVID A.
REED, Atlanta, GA; STEVEN MOORE, San
Francisco, CA; ANDREW WILLIAM RINEHART,
Winston-Salem, NC.

2a
Before LOURIE, REYNA, and HUGHES, Circuit
Judges.
REYNA, Circuit Judge.
B/E Aerospace, Inc. appeals a final written
decision of the Patent Trial and Appeal Board that
found certain claims of B/E’s aircraft lavatoryrelated patents obvious. B/E contends that the
Board’s decision is erroneous because the Board
incorporated a claim limitation that is not present in
the prior art. B/E also contends that the Board erred
by relying on printed matter that does not qualify as
prior art under 35 U.S.C. § 311(b). We conclude that
the Board’s final determination of obviousness is
correct, and we do not reach the § 311(b) issue. On
that basis we affirm the Board’s final written
decision.
BACKGROUND
This appeal arises from an inter partes review
(“IPR”) proceeding. Petitioner, C&D Zodiac, Inc.
(“Zodiac”), challenged two patents owned by B/E
Aerospace, Inc. (“B/E”), U.S. Patent No. 9,073,641
(“the ’641 patent”) and U.S. Patent No. 9,440,742
(“the ’742 patent”) (collectively, “the challenged
patents”).
The technology involved in this appeal is simple.
The challenged patents relate to space-saving
technologies for aircraft enclosures such as lavatory
enclosures, closets, and galleys. C&D Zodiac, Inc. v.
B/E Aerospace, Inc., No. IPR2017-01275 at 4

3a
(P.T.A.B. Oct. 23, 2018). Each patent contains a twopage written description that teaches an enclosure
with contoured walls designed to “reduce or
eliminate the gaps and volumes of space required
between lavatory enclosures and adjacent
structures.” ’641 patent at 1:52–56. In other words,
the patents are directed to space-saving
modifications to the walls of aircraft enclosures; they
are not directed to the structures contained within
those walls. Id.; see IPR2017-01275 at 15.
The parties agree that, for purposes of this
appeal, the challenged patents and claims are not
materially different and that claim 1 of the ’641
patent is representative of the challenged claims.
Claim 1 of the ’641 patent provides:
1. An aircraft lavatory for a cabin of an
aircraft of a type that includes a forwardfacing passenger seat that includes an
upwardly and aftwardly inclined seat back
and an aft-extending seat support disposed
below the seat back, the lavatory comprising:
a lavatory unit including a forward wall
portion and defining an enclosed interior
lavatory space, said forward wall portion
configured to be disposed proximate to and
aft of the passenger seat and including an
exterior surface having a shape that is
substantially not flat in a vertical plane;
and

4a
wherein said forward wall portion is shaped
to substantially conform to the shape of
the upwardly and aftwardly inclined seat
back of the passenger seat, and includes a
first recess configured to receive at least
a portion of the upwardly and aftwardly
inclined seat back of the passenger seat
therein, and further includes a second
recess configured to receive at least a
portion of the aft-extending seat support
therein when at least a portion of the
upwardly and aftwardly inclined seat back
of the passenger seat is received within the
first recess.
’641 patent at 4:63–5:17 (emphases added).
This appeal focuses on the “first recess” and
“second recess” limitations, labeled as elements 34
and 100, respectively, in Figure 2 below.

5a
’641 patent at Fig. 2.
A. Prior Art
Zodiac’s petition asserted two grounds of
unpatentability. The Board instituted on both
grounds. During the proceeding, Zodiac requested a
partial adverse judgment, which the Board granted.
This left only one instituted ground: that the
challenged claims were obvious over the so-called
“Admitted Prior Art” and U.S. Patent No. 3,738,497
(“Betts”).
In its petition, Zodiac defined the “Admitted
Prior Art” as certain portions of the challenged
patents, including Figure 1. See ’641 patent at 1:65–
67. As shown below, Figure 1 of the Admitted Prior
Art discloses a flat, forward-facing lavatory wall
immediately behind a passenger seat that has a rear
seat leg extending toward the back of the plane
(referred to as an “aft-extending seat support”).

6a
Betts discloses an airplane passenger seat with a
tilting backrest. Behind the seat is a coat closet that
has luggage space along the floor and an overhead
coat compartment. Betts at 2:8–14. Rather than a
flat forward-facing wall, Betts discloses a contoured
forward-facing wall to receive the tilted backrest. Id.
at 2:19–24. The “lower portion 30 of the coat
compartment 18” of Betts “slants rearwardly to
provide a space for seatback 12 to be tilted
rearwardly.” Id. The “top 32 of storage space 16 also
slants rearwardly so as not to interfere with
seatback 12 when tilted.” Id.
B. Obviousness
In its final written decision, the Board concluded
that Zodiac had proven that the challenged claims
would have been “obvious over the Admitted Prior
Art and Betts.” IPR2017-01275 at 39. The Board
determined that Betts’s contoured wall design met
the “first recess” claim limitation. Id. at 17 (citing
Betts at 2:19–24).1 The Board also found that skilled
artisans (airplane interior designers) would have
been motivated to modify the flat forward-facing
wall of the lavatory in the Admitted Prior Art with
Betts’s contoured, forward-facing wall because
skilled artisans were interested in adding space to
airplane cabins, and Betts’s design added space by
permitting the seat to be moved further aft. Id. at
14–17.

B/E does not challenge the Board’s finding that Betts teaches
the “first recess” limitation.

1

7a
The Board found that a skilled artisan would
have found it “obvious to further modify the
Admitted Prior Art/Betts combination to include the
‘second recess’ to receive passenger seat supports.”
Id. at 22. The Board used two separate approaches
presented by Zodiac to reach that conclusion.2
First, Zodiac argued that “the logic of using a
recess to receive the seat back applies equally to
using another recess to receive the aft extending
seat support.” Id. At 18. The Board found Zodiac’s
arguments and testimony “credible and convincing.”
Id. at 22. The Board agreed with Zodiac that
creating a recess in the wall to receive the seat
support was an obvious solution to a known problem.
The Board relied on the testimony of Zodiac’s expert,
Mr. Anderson, who opined that the addition of a
second recess “is nothing more than the application
of a known technology (i.e., Betts) for its intended
purpose with a predictable result (i.e., to position the
seat as far back as possible). Id. at 18, 23. Mr.
Anderson explained that a skilled artisan “would be
motivated to modify an enclosure, such as a
lavatory, to include a second recess to receive aft
facing seat supports”; that this “modification is
nothing more than the application of known
technology for its intended purpose”; and that the
“result of such a modification is predictable, allowing
the seat to be positioned further aft in an aircraft.”
J.A. 1850 ¶191; see also IPR2017-01275 at 23, 26.

The Board stated that it reached its obviousness conclusion
through a “traditional approach” and a “common sense”
approach. J.A. 156 n.1.

2

8a
Second, the Board found that Zodiac “established
a strong case of obviousness based on the Admitted
Prior Art and Betts, coupled with common sense and
the knowledge of a person of ordinary skill in the
art.” IPR2017-01275 at 34. Relying on the testimony
of Mr. Anderson, the Board found that recesses
configured to receive seat supports “were known in
the art” and that “it would have been a matter of
common sense” to incorporate a second recess in the
Admitted Prior Art/Betts combination. Id. at 26.
C. Design Drawings
Zodiac attached to its petition three “design
drawings” that undisputedly depict “enclosures that
include a lower recess to receive a seat support,” i.e.,
a “second recess.” Id. at 19. Zodiac did not identify
these design drawings as prior art references for any
of the enumerated grounds of unpatentability.
Instead, Zodiac asserted the drawings as evidence
that lower recesses to receive a seat support were
“known in the art.” Id. at 21.
B/E moved to exclude the design drawings and
the related testimony on the basis that Zodiac had
not shown that the drawings were “patents” or
“printed publications” within the meaning of 35
U.S.C. § 311(b). J.A. 513–18. Section 311(b) provides
that, in an IPR proceeding, claims may be cancelled
as unpatentable only on the basis of prior art
consisting of “patents or printed publications.”
The Board denied the motion to exclude.
IPR2017-01275 at 22–23, 40–41. The Board
determined that two of the designs, the SAS MD-90

9a
and the 737 Storage, were in public use or on sale
prior to the critical date of the challenged patents.
Id. But the Board explained that it considered the
design drawings only for the purpose of
“identify[ing], specifically, the knowledge of those
skilled in the art.” Id. at 24. When used for those
purposes, the Board explained, the drawings “need
not be ‘printed publication’ prior art.” Id. at 41-42;
see also id. at 24.
B/E requested a rehearing of the Board’s
determination regarding the design drawings. B/E
argued that the Board “misapprehended and/or
overlooked the statute defining the scope of IPRs, 35
U.S.C. § 311(b).” J.A. 652. B/E argued that the
design drawings and the related testimony “fall[]
outside the scope of IPRs, which are instituted only
on the basis of prior art consisting of patents or
printed publications.’’ Id. B/E also challenged the
Board’s reliance on “common sense” in finding
obviousness. The Board denied the request for
rehearing.
B/E timely appealed. We have jurisdiction under
28 U.S.C. § 1295(a)(4)(A).
ANALYSIS
We review final written decisions of the Board in
accordance with the Administrative Procedure Act,
5 U.S.C. § 706(2) (2012). HTC Corp. v. Cellular
Commc’ns Equip., LLC, 877 F.3d 1361, 1367 (Fed.
Cir. 2017). Obviousness is a question of law with
underlying factual findings relating to the scope and
content of the prior art; differences between the

10a
prior art and the claims at issue; the level of
ordinary skill in the pertinent art; the presence or
absence of a motivation to combine or modify prior
art with a reasonable expectation of success; and any
objective indicia of non-obviousness. Acoustic Tech.,
Inc. v. Itron Networked Sols., Inc., 949 F.3d 1366,
1373 (Fed. Cir. 2020). We review de novo the Board’s
legal conclusions of obviousness and its factual
findings for substantial evidence. HTC Corp. v.
Cellular Commc’ns Equip., LLC, 877 F.3d 1361,
1369 (Fed. Cir. 2017). Substantial evidence is “such
relevant evidence as a reasonable mind might accept
as adequate to support a conclusion.” Consol. Edison
Co. v. NLRB, 305 U.S. 197, 229 (1938). We do not
reweigh evidence on appeal. Impax Labs. Inc. v.
Lannett Holdings Inc., 893 F.3d 1372, 1382 (Fed.
Cir. 2018).
B/E raises two general issues on appeal. First,
B/E argues that the Board’s obviousness
determination is erroneous because it improperly
incorporated a second recess limitation not disclosed
in the prior art. Second, B/E contends that the Board
erred by relying on the design drawings, which are
not prior art “patents or printed publications” under
35 U.S.C. § 311(b).
A. Obviousness
The Board found that Zodiac established a
“strong case of obviousness.” We agree. There is no
dispute that Betts’s contoured wall design meets the
“first recess” claim limitation. Nor do the parties
dispute that a skilled artisan would have been
motivated to modify the Admitted Prior Art with

11a
Betts’s contoured wall because skilled artisans were
interested in maximizing space in airplane cabins.
IPR2017-01275 at 14–17. Only the “second recess”
limitation is at issue.
We find no error in the Board’s conclusion that—
under both approaches it employed—“it would have
been obvious to further modify the Admitted Prior
Art/Betts combination to include the claimed ‘second
recess’ to receive passenger seat supports.” Id. at 22.
First, we affirm the Board’s conclusion that the
challenged claims would have been obvious because
modifying the Admitted Prior Art/Betts combination
to include a second recess was nothing more than the
predictable application of known technology. Id. at
23. The prior art yields a predictable result, the
“second recess,” because a person of skill in the art
would have applied a variation of the first recess and
would have seen the benefit of doing so. KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 416 (2007) (“The
combination of familiar elements according to
known methods is likely to be obvious when it does
no more than yield predictable results. . . . If a person
of ordinary skill in the art can implement a
predictable variation § 103 likely bars its
patentability.”). The Board’s conclusion is supported
by substantial evidence, namely the expert
testimony of Mr. Anderson, who opined:
[A] person of ordinary skill in the art would
recognize that as a seat is moved further aft
the seat support necessarily is also moved
further aft. As the seat is moved aft the feet of
the seat support may come into contact with

12a
the lower section of the wall. Creating one or
more recesses to accommodate whatever
portion(s) of the seat support that would
contact the forward wall of the enclosure is
the obvious solution to this known problem.
J.A. 1787 ¶ 74.
Second, we also affirm the Board’s conclusion
that the challenged claims would have been obvious
because “it would have been a matter of common
sense” to incorporate a second recess in the Admitted
Prior Art/Betts combination. IPR2017-01275 at 26,
38. B/E asserts that the Board legally erred by
relying on “an unsupported assertion of common
sense” to “fill a hole in the evidence formed by a
missing limitation in the prior art.” Appellant Br.
14. B/E argues that the Board acted contrary to our
precedent in Arendi S.A.R.L. v. Apple Inc., 832 F.3d
1355, 1361 (Fed. Cir. 2016), because the Board failed
to provide a “reasoned explanation and record
evidence to support its position.” Id. at 25. We
disagree.
In KSR, the Supreme Court opined that common
sense serves a critical role in determining
obviousness. 550 U.S. at 421. As the Court
explained, common sense teaches that familiar
items may have obvious uses beyond their primary
purposes, and in many cases a person of ordinary
skill will be able to fit the teachings of multiple
patents together like pieces of a puzzle. Id. (“A
person of ordinary skill is also a person of ordinary
creativity, not an automaton.”). The Court held that

13a
“rules that deny factfinders recourse to common
sense” are inconsistent with our case law. Id.
After KSR, we recognized that courts must
“consider common sense, common wisdom, and
common knowledge in analyzing obviousness.”
Arendi, 832 F.3d at 1361. However, we cautioned
that common sense cannot be used as a “wholesale
substitute for reasoned analysis and evidentiary
support, especially when dealing with a limitation
missing from the prior art references specified.” Id.
at 1362. Likewise, in Perfect Web Techs, Inc. v.
InfoUSA, Inc., we reiterated that “[c]ommon sense
has long been recognized to inform the analysis of
obviousness if explained with sufficient reasoning.”
587 F.3d 1324, 1328 (Fed. Cir. 2009).
Here, the Board’s invocation of common sense
was properly accompanied by reasoned analysis and
evidentiary support. The Board dedicated more than
eight pages of analysis to the “second recess”
limitation and relied on Mr. Anderson’s detailed
expert testimony. IPR2017-01275 at 21 (citing J.A.
1786–88 ¶¶ 74–75, J.A. 1849–50 ¶¶ 189–92). The
Board noted Mr. Anderson’s opinion that a “person
of ordinary skill in the art would recognize that as a
seat is moved further aft the seat support
necessarily is also moved further aft.” Id. (citing J.A.
1786–87 ¶¶ 74–75). The Board also cited Mr.
Anderson’s opinion that “lower recesses were a wellknown solution to provide space for seat supports
where a recess for a seat back in the forward wall of
the enclosure unit permitted the seat to be located
further aft.” Id.; J.A. 1787–88 ¶ 75.

14a
In Perfect Web, we affirmed a district court’s
invocation of common sense to supply a missing
claim limitation. 587 F.3d at 1338. The missing
limitation was step D of steps A–D of a method for
delivering a predetermined quantity of emails. Id. at
1328. The record showed that the technology was
simple and that “step (D) merely involves repeating
earlier steps” until success is achieved. Id. at 1330.
We also determined that the district court
“adequately explained its invocation of common
sense.” Id.
Here, just like in Perfect Web, the evidence shows
that the technology of the claimed invention is
simple. The patents relate to contoured walls that
“reduce or eliminate the gaps and volumes of space
required between lavatory enclosures and adjacent
structures.” ’641 patent at 1:52–56. See also
IPR2017-01275 at 23 (rejecting B/E’s argument that
the enclosures at issue are quite complex); J.A. 403.
The missing claim limitation (the “second recess”)
involves repetition of an existing element (the “first
recess”) until success is achieved. IPR2017-01275 at
18 (reasoning that the logic of using a recess to
receive the seat back applies equally to using
another recess to receive the aft extending seat
support).
We find no error in the Board’s conclusion that a
skilled artisan would have used common sense to
incorporate a second recess in the Admitted Prior
Art/Betts combination. We therefore affirm the
Board’s obviousness conclusion under both of its
approaches.

15a
B. Design Drawings
B/E asserts that the Board violated 35 U.S.C.
§ 311(b) by relying on the design drawings because
they are neither patents nor printed publications.
The Board, however, did not rely on the design
drawings when it found the challenged claims
obvious. When the Board found the challenged
claims obvious under a “traditional obviousness
approach,” it relied on expert testimony:
While we found Petitioner’s common sense
rationale persuasive, Petitioner’s argument
and evidence, including the testimony of
Petitioner’s expert, support the conclusion
that the challenged claims are obvious under
a traditional obviousness approach that does
not rely on the “common sense” rationale
supported by [the design drawings].
J.A. 156 n.1. Likewise, when the Board separately
found the challenged claims obvious based on
“common sense,” its conclusion did not rest on its
consideration of those drawings:
We concluded that Petitioner met [the Arendi
common sense] standard based not only on
the citation to second recesses in the [design
drawings], but also on the rationale and
related analysis provided by Petitioner’s
expert that we credited and found convincing
before addressing the public use/on sale
references. We also credited the testimony of
Petitioner’s expert that the proposed
modification would have been predictable.

16a
Accordingly, because our analysis relied on
the analysis and reasoning of Petitioner’s
expert regarding why it would have been
obvious and a matter of common sense to add
a second recess, . . . [the design drawings]
were instead used as further evidence in
support of the common sense argument.
...
Because we found the expert analysis credible
apart from its reliance on the [design
drawings], we need not reach whether
supplying a missing limitation via a “common
sense” argument, based solely on public
uses/sales, runs afoul of § 311(b).
J.A. 165–66, n.2.
We agree that the Board’s obviousness
conclusions are independently supported by
“Petitioner’s argument and evidence, including the
testimony of Petitioner’s expert.” J.A. 156 n.1. The
Board instituted on grounds supported by the
Admitted Prior Art and Betts. The Board fully
articulated its conclusion of obviousness, and we
conclude that substantial evidence supports the
Board’s determination of obviousness independent
of the design drawings. Accordingly, we need not
reach the issues raised by B/E on whether the Board
ran afoul of § 311(b) by considering the design
drawings.
Conclusion

17a
We have considered B/E’s other arguments and
find them unpersuasive. For the reasons stated
above, we affirm the Board’s determination that
claims 1, 3–10, and 12–17 of U.S. Patent No.
9,073,641, and claims 8 and 10–16 of U.S. Patent No.
9,440,742, are invalid as obvious.
AFFIRMED

18a
APPENDIX B
UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
C&D ZODIAC, INC.,
Petitioner
v.
B/E AEROSPACE, INC.,
Patent Owner.
Case IPR2017-01276
Patent 9,440,742 B2
Before JENNIFER S. BISK, SCOTT A.
DANIELS, and RICHARD H. MARSCHALL,
Administrative Patent Judges.
MARSCHALL, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
C&D Zodiac, Inc. (“Petitioner”), filed a petition to
institute an inter partes review of claims 8 and 10–

19a
16 of U.S. Patent No. 9,440,742 B2 (Ex. 1001, “the
’742 patent”). Paper 2 (“Pet.”). 35 U.S.C. § 311. B/E
Aerospace, Inc. (“Patent Owner”), filed a
Preliminary Response. Papers 6, 7 (“Prelim.
Resp.”).1 Upon consideration of the Petition and
Preliminary Response, we instituted an inter partes
review pursuant to 35 U.S.C. § 314, as to claims 8
and 10–16. Paper 12 (“Inst. Dec.”).
Subsequent to institution, Patent Owner filed a
Patent Owner Response (Paper 21, 22, “PO Resp.”)2
and Petitioner filed a Reply to Patent Owner’s
Response (Paper 28, “Reply”). Patent Owner filed a
Motion to Exclude (Paper 34, “Mot. Exclude”),
Petitioner filed an Opposition to Patent Owner’s
Motion (Paper 37, “Opp.”), and Patent Owner filed a
Reply (Paper 38, “PO Reply to Mot. Exclude”).
Patent Owner also filed two unopposed Motions to
Seal. Papers 8, 20.
On June 28, 2018, in response to the Board’s
Orders instituting on Ground 2 based on the
Supreme Court’s decision in SAS Institute Inc. v.
Iancu, 138 S. Ct. 1348 (2018), Petitioner filed a
Request for Partial Adverse Judgment against itself

Patent Owner filed two versions of the Preliminary Response:
Paper 6, to which access is restricted to the parties and the
Board; and Paper 7, a publicly available, redacted version of
Paper 6.

1

Patent Owner filed two versions of the Patent Owner
Response: Paper 21, to which access is restricted to the parties
and the Board; and Paper 22, a publicly available, redacted
version of Paper 21.

2

20a
with respect to Ground 2, pursuant to 37 C.F.R.
§ 42.73(b). See Paper 30 (modifying institution
decision to institute on all challenged grounds
presented in Petition); Paper 33 (Petitioner’s
Request for Partial Adverse Judgment as to Ground
2). We granted Petitioner’s Request for Partial
Adverse Judgment on July 5, 2018. Paper 36
(granting adverse judgment as to Ground 2).
On August 3, 2018, we held an oral hearing.
Paper 40 (“Tr.”).3
This Final Written Decision is entered pursuant
to 35 U.S.C. § 318(a). For the reasons that follow, we
determine that Petitioner has demonstrated by a
preponderance of the evidence that claims 8 and 10–
16 of the ’742 patent are unpatentable.
A. Related Matters
Patent Owner asserted the ’742 patent along
with related patents, U.S. Patent Nos. 9,073,641,
9,365,292, 9,434,476, and D764,031, against
Petitioner in B/E Aerospace, Inc. v. Zodiac
Aerospace, Inc., No. 2:14-cv-01417 (E.D. Tex.) (the
“district court litigation”), that is currently stayed.
Pet. 2; Paper 5, 2. All five of these patents claim
priority to a U.S. application that issued as U.S.
Patent No. 8,590,838 (“the ’838 patent”), which
patent was the subject of Case IPR2014-00727
between Petitioner and Patent Owner. In the final

The oral hearing included related proceedings, IPR201701275 and PGR2017-00019. Paper 40.

3

21a
written decision in that case, the Board held that
claims 1, 3–7, 9, 10, 12–14, 16–19, 21, 22, 24–29, 31,
and 33–37 had been proven unpatentable, and
claims 8, 20, 30, and 38 had not been proven
unpatentable. IPR2014-00727, Paper 65. Both sides
appealed, and the Court of Appeals affirmed. See
B/E Aerospace, Inc. v. C&D Zodiac, Inc., 709 F.
App’x 687, 2017 WL 4387223 (Fed. Cir. Oct. 3, 2017).
Each of the additional four related patents
identified above is the subject of a petition for an
inter partes or post-grant review filed by Petitioner.
See Cases IPR2017-01273 (involving Patent
9,434,476); IPR2017-01274 (involving Patent
9,365,292); IPR2017-01275 (involving Patent
9,073,641); PGR2017-00019 (involving Patent
D764,031).
B. The ’742 Patent
The ’742 patent relates to space-saving aircraft
enclosures, including lavatories, closets, and galleys.
Ex. 1001, 1:20–6, 2:26–31. Figure 2 of the ’742 patent
is reproduced below.

22a

Figure 2, reproduced above, illustrates enclosure
10, such as a lavatory, positioned aft of aircraft cabin
12. Ex. 1001, 4:22–27. The lavatory has walls that
define interior lavatory space 30. Id. at 4:33–36.
Forward wall 28 of the lavatory is described as
“substantially not flat in a vertical plane” and
“disposed immediately aft of and adjacent to or
abutting the exterior aft surface of” passenger seat
16. Id. at 4:36–43. In particular, the forward wall is
shaped to provide recess 34, which accommodates
the partially-reclined backrest of the passenger seat,
as shown in Figure 2. Id. at 4:39–43. In addition, the
forward wall is shaped to also provide second, lower
recess 100, which accommodates “at least a portion
of an aft-extending seat support 17.” Id. at 4:46–51.
The ’742 patent contrasts the embodiment of Figure
2 with a prior art configuration shown in Figure 1,
which is reproduced below.

23a

Figure 1, reproduced above, illustrates “a prior
art installation of an aircraft lavatory immediately
aft of and adjacent to an aircraft passenger seat.” Ex.
1001, 4:11–13. In the depiction of the prior art in
Figure 1, a forward wall of the lavatory (double-lined
structure immediately aft of seat) is flat and in a
vertical plane.
As can be seen by comparing FIG. 1 and FIG.
2, the recess 34 and the lower recess 100
combine to permit the passenger seat 16 to be
positioned farther aft in the cabin than would
be possible if the lavatory enclosure 10
included a conventional flat and vertical
forward wall without recesses like that shown
in FIG. 1, or included a forward wall that did
not include both recesses 34, 100.
Id. at 4:51–57. Notably, the passenger seat in the
Figure 1 depiction of the prior art is identical to the
passenger seat in the Figure 2 illustration of the
invention.

24a
Petitioner challenges claims 8 and 10–16. Claim
8 is independent, and claims 10–16 ultimately
depend from claim 8. Claim 8 is reproduced below.
8. A method for reducing a volume of
unusable space in a cabin area of a passenger
aircraft, comprising:
replacing at least a previously-installed
forward partition of a pre-existing aircraft
lavatory in the cabin area of the passenger
aircraft with a contoured forward
partition, wherein
an outward facing vertical surface of the
previously-installed forward partition
is substantially flat, and
the contoured forward partition comprises
at least one first recess configured to
receive at least a portion of an
upwardly and aftwardly inclined
seat back of a passenger seat
therein, and
at least one second recess configured to
receive at least a portion of an aftextending seat support of the
passenger seat therein; and
installing the passenger seat in front of the
contoured forward partition;
wherein, upon installation,

25a
the at least one first recess receives at
least a portion of the upwardly and
aftwardly inclined seat back, and
the second recess receives at least a
portion of the aft-extending seat
support,
thereby reducing the volume of unusable
space in the cabin area by reducing or
eliminating gaps that existed between
the previously-installed forward wall
and the passenger seat.
Ex. 1001, 6:4–29.
C. Instituted Grounds of Unpatentability
We instituted trial based on all asserted grounds
of unpatentability. Inst. Dec. 27; Paper 30. After
granting Petitioner’s Request for Partial Adverse
Judgment (Paper 36), the following ground remains
for our consideration: whether the Admitted Prior
Art4 and Betts5 render claims 8 and 10–16 obvious
under 35 U.S.C. § 103(a).6

Petitioner defines “Admitted Prior Art” as certain portions of
the ’742 patent, including Figure 1. Pet. 11–12 (citing Ex. 1001,
1:27–29, Fig. 1; Ex. 1004 ¶ 86).

4

U.S. Patent No. 3,738,497, issued June 12, 1973 (Ex. 1005)
(“Betts”).

5

The Leahy-Smith America Invents Act (“AIA”), Pub. L. No.
112–29, took effect on March 18, 2013. Because the application
from which the ’742 patent issued was filed before that date,

6

26a
II. ANALYSIS
A.

Principles of Law

To prevail in its challenge to Patent Owner’s
claims, Petitioner must demonstrate by a
preponderance of the evidence that the claims are
unpatentable. 35 U.S.C. § 316(e); 37 C.F.R. § 42.1(d).
A claim is unpatentable under 35 U.S.C. § 103(a)
if the differences between the claimed subject matter
and the prior art are such that the subject matter,
as a whole, would have been obvious at the time of
the invention to a person having ordinary skill in the
art. KSR Int ’l Co. v. Teleflex, Inc., 550 U.S. 398, 406
(2007). The question of obviousness is resolved on
the basis of underlying factual determinations
including: (1) the scope and content of the prior art;
(2) any differences between the claimed subject
matter and the prior art; (3) the level of ordinary
skill in the art; and (4) objective evidence of
nonobviousness. Graham v. John Deere Co., 383 U.S.
1, 17–18 (1966).
B. Level of Ordinary Skill
In determining the level of ordinary skill in the
art, various factors may be considered, including the
“type of problems encountered in the art; prior art
solutions to those problems; rapidity with which
innovations are made; sophistication of the

any citations to 35 U.S.C. §§ 102 and 103 are to their pre-AIA
version.

27a
technology; and educational level of active workers
in the field.” In re GPAC Inc., 57 F.3d 1573, 1579
(Fed. Cir. 1995) (citation omitted).
Petitioner relies on the testimony of Alan
Anderson, who testifies that a person with ordinary
skill in the art “would have had a bachelor’s degree
in mechanical engineering, industrial design, or a
similar discipline, or the equivalent experience, with
at least two years of experience in the field of aircraft
interior design.” Pet. 29 (citing Ex. 1004 27–29).
Patent Owner does not address Petitioner’s
proposal, or offer a competing proposal for a person
of ordinary skill in the art. Based on our review of
the record, we adopt Petitioner’s definition of the
level of ordinary skill in the art.
C. Claim Construction
In an inter partes review, we construe claim
terms in an unexpired patent according to their
broadest reasonable construction in light of the
specification of the patent in which they appear.7 37
C.F.R. § 42.100(b). Consistent with the broadest
reasonable construction, claim terms are presumed
to have their ordinary and customary meaning as
understood by a person of ordinary skill in the art in
the context of the entire patent disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.
2007). Only terms that are in controversy need to be

The outcome of this case would be the same using the claim
construction approach articulated in Phillips v. AWH Corp.,
415 F.3d 1303 (Fed. Cir. 2005) (en banc).

7

28a
construed, and then only to the extent necessary to
resolve the controversy. Vivid Techs., Inc. v. Am. Sci.
& Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999).
In the Institution Decision, we declined to
construe two terms that Petitioner contended
needed construction. Inst. Dec. 10–12. After
institution, neither party has asked us to provide a
construction of those terms or any other terms.
Accordingly, we need not expressly construe any
terms in this proceeding.
D. Obviousness in View of Admitted Prior Art and
Betts
Petitioner asserts that the subject matter of
claims 8 and 10–16 would have been obvious over
the Admitted Prior Art and Betts. Pet. 32–47. For
the reasons explained below, we determine
Petitioner has established by a preponderance of the
evidence that claims 8 and 10–16 are unpatentable
over the Admitted Prior Art and Betts.
1. The Admitted Prior Art
Petitioner asserts as Admitted Prior Art the
illustration and related disclosure of Figure 1 in the
’742 patent, which is discussed above. See Pet. 11–
14 (citing Ex. 1001, 1:27–29, Fig. 1; Ex. 1004 1 86).
In the Institution Decision, we found that the
asserted Admitted Prior Art constitutes prior art.
Inst. Dec. (citing Ex. 1001, 4:11–14 (“FIG. 1 is a
schematic diagram of a prior art installation of a
lavatory immediately aft of and adjacent to an
aircraft passenger seat.”) (emphasis added)). Patent

29a
Owner does not contend that the Admitted Prior Art
is not prior art, or that it cannot be used in this
proceeding as a basis for finding limitations
disclosed by the prior art.
Of particular relevance here is that the Admitted
Prior Art includes a flat forward-facing lavatory wall
with the passenger seat shown in Figure 1 of the ’742
patent immediately in front of that wall, with an aftextending seat support.
2. Betts
Betts notes a desire to “provide more room for
passengers in an aircraft or other vehicle.” Ex. 1005,
1:6–7. Figure 1 of Betts is reproduced below.

Figure 1 discloses airplane passenger seat 10
having tiltable backrest 12. Ex. 1005, 2:8–9. Behind

30a
the seat is coat closet 14, which has luggage space 16
along the floor and overhead coat compartment 18.
Id. at 2:9–14. “The lower portion 30 of the coat
compartment 18 slants rearwardly to provide a
space for seatback 12 to be tilted rearwardly as
desired by the occupant. The top 32 of storage space
16 also slants rearwardly so as not to interfere with
seatback 12 when tilted.” Id. at 2:19–24.
3. Obviousness of Claim 8
Petitioner relies on the Declarations of Alan
Anderson (Ex. 1004, “Anderson Declaration”), Scott
Savian (Ex. 1018), and Vince Huard (Ex. 1019) in
support of its assertions that the combination of the
Admitted Prior Art and Betts discloses or renders
obvious all of the limitations of claim 8. Pet. 21–26,
32–40; Reply 4–15. Patent Owner relies on the
Declarations of Dr. Adam Dershowitz (Ex. 2104,
“Dershowitz Declaration”), R. Kaus Brauer (Ex.
2046), and James Brunke (Ex. 2097) in its Response,
and argues that Petitioner failed to establish that
the proposed combination discloses the claimed
“second recess” and “reducing a volume of unusable
space”/“reducing or eliminating gaps” limitations,
and failed to establish an adequate motivation to
combine. PO Resp. 8–30. The parties also dispute
the relevance and impact of Patent Owner’s alleged
objective evidence of nonobviousness on the
obviousness issues in this case. See Pet. 61–64; PO
Resp. 31–45; Reply 15–27.
i. Motivation to Combine

31a
Petitioner alleges that it would have been
obvious to modify the prior art flat wall lavatory, as
shown in the Admitted Prior Art, with a contoured
forward wall as shown in Betts. Pet. 22 (citing Ex.
1004 ¶¶ 56–64). We first consider Petitioner’s
argument that we are collaterally estopped from
considering the merits of this issue, because the
Board already found in the related inter partes
review of the ’838 patent that “it would have been
obvious to apply the recessed forward wall design of
Betts to other enclosures, including single-spaced
lavatories.” Reply 3 (quoting Case IPR2014-00727,
12 (Paper 65) (emphasis removed)). Petitioner relies
on the Federal Circuit’s affirmance of that decision
after the Petition was filed in this case as the basis
for its collateral estoppel argument. Id. (citing Ex.
1026 (B/E Aerospace, Inc. v. C&D Zodiac, Inc., 709
F. App’x 687 (Fed. Cir. Oct. 3, 2017))). According to
Petitioner, Patent Owner should be precluded from
arguing that “it would not have been obvious to
apply the recessed forward wall design of Betts to
other
enclosures,
including
single-spaced
lavatories.” Id. at 3–4. Petitioner only devotes a few
sentences of argument to collateral estoppel, does
not assess the relevant factors when determining
whether to apply collateral estoppel, and does not
assess the differences in the claims at issue in the
’838 patent and claim 8 here. See Reply 3–4; Banner
v. U.S., 238 F.3d 1348, 1354 (Fed. Cir. 2001)
(“Collateral estoppel requires four factors: (1) the
issues are identical to those in a prior proceeding, (2)
the issues were actually litigated, (3) the
determination of the issues was necessary to the
resulting judgment, and (4) the party defending

32a
against preclusion had a full and fair opportunity to
litigate the issues.”). In addition, Patent Owner has
had no meaningful opportunity to address the issue
in its own briefing because the collateral estoppel
issue was raised for the first time in Petitioner’s
Reply. Under these circumstances, where the issue
has not been fully developed by Petitioner or
addressed by Patent Owner, we decline to apply
collateral estoppel. We do, however, view the
findings in the prior case as informative when they
closely resemble the issues we address here.
In support of the proposed modification of the
Admitted Prior Art with the contoured wall of Betts,
Petitioner relies on the testimony in the Anderson
Declaration, explaining that a primary goal of
airplane interior design is efficient use of passenger
cabin space so that more passengers can fit in the
cabin or to make the passengers more comfortable.
Pet. 22–23 (citing Ex. 1004 ¶ 57). According to
Petitioner, because Betts uses the contoured forward
wall to provide more passenger space in the cabin,
one of ordinary skill in the art would have been
motivated to replace the prior art flat forward
lavatory wall with the contoured wall of Betts to
provide that same additional space. Id. at 23 (citing
Ex. 1004 ¶ 58). Petitioner points to the recess in the
contoured wall Betts discloses as evidence of that
approach, which allows the passenger chairs to be
pushed back further aft, accommodating a portion of
the seat back. Id. at 24–25 (citing Ex. 1004 ¶ 59).
Patent Owner argues “that those of skill in the
art had no reason to make the combination
proposed” by Petitioner. PO Resp. 24. Patent Owner

33a
relies on the allegedly long co-existence of the Betts
design within planes that included the prior art flat
lavatory walls, suggesting that there was no
motivation to make the modification. Id. at 24–26.
Patent Owner also argues that the proposed
combination would require “total destruction” of
Betts, if the coat closet in Betts were turned into a
lavatory. Id. at 27–29. Patent Owner also contends
that Petitioner and Mr. Anderson fail to establish a
reasonable expectation of success in light of this
total deconstruction of Betts. Id. at 29–30.
Based on our review of the evidence and
arguments, we find that one of ordinary skill in the
art would have been motivated to modify the
Admitted Prior Art lavatory by replacing the flat
forward wall with the contoured forward wall of
Betts. Petitioner submits convincing argument,
based on the testimony of Mr. Anderson, that
designers of airplane interiors were concerned about
adding space to the cabin and that the Betts
contoured wall increased interior space. Pet. 22–25
(citing Ex. 1004 ¶¶ 57–59). Betts itself backs up this
testimony by stating that one of the goals of its
design is “to provide more passenger room.” Ex.
1005, Abstract. We also agree with Petitioner’s
assertion that Figure 1 of Betts depicts a passenger
seat further aft in the cabin than it could have been
if the wall were flat with no recess, and merely
extended up from the bottom portion of the wall. See
Betts Fig. 1; Pet. 23–24. Betts therefore depicts how
the contoured wall and recess provide more
passenger space when compared to a flat, vertical
wall, and Betts discusses the ability of its design to
save space. As such, Betts adequately supports the

34a
proposed modification of the prior art flat forward
wall as shown in the Admitted Prior Art.
Patent Owner’s argument that flat forward
lavatory walls co-existed with the Betts design for
years without modification, even if accurate, does
not outweigh the more convincing evidence and
argument supporting Petitioner’s position based on
Betts and the Anderson Declaration. In addition,
Patent Owner’s argument that one would need to
“totally deconstruct” Betts in order to add a lavatory
to Betts misapprehends Petitioner’s proposed
modification. Petitioner proposes to replace a
lavatory flat forward wall as shown in the Admitted
Prior Art with the Betts contoured wall, not add a
lavatory behind the Betts contoured wall. See Pet.
22, 24; Reply 4–5. Although we do not apply
collateral estoppel for the reasons provided above,
we note that our findings regarding the proposed
combination and modification are consistent with
the Federal Circuit’s decision in the related case. See
B/E Aerospace, 709 F. App’x at 694 (rejecting Patent
Owner’s argument that Petitioner’s combination
required adding lavatory to Betts).
Based on the foregoing, we find that one of
ordinary skill in the art at the time of the invention
would have been motivated to modify the lavatory
flat forward wall in the Admitted Prior Art by
replacing it with the contoured forward wall of Betts.
ii. The “Replacing,” “Installing,” and “First Recess”
Limitations

35a
Claim 8 contains several limitations that are
indisputably8 disclosed by the proposed combination
of Betts and the Admitted Prior Art. For example,
claim 8 recites “replacing at least a previouslyinstalled forward partition of a pre-existing aircraft
lavatory in the cabin area of the passenger aircraft
with a contoured forward partition, wherein an
outward facing vertical surface of the previouslyinstalled forward partition is substantially flat.”
Petitioner argues that a person of ordinary skill in
the art would know that the contoured forward wall
of Betts could be used in place of a flat forward wall
to allow the seat to be placed further aft in an
aircraft cabin. Pet. 34 (citing Ex. 1004 ¶ 246). This
replacing step logically follows from the proposed
combination discussed above, where the flat forward
lavatory wall of the Admitted Prior Art is replaced
by the contoured wall of Betts. We find that a person
of ordinary skill in the art would have known about
flat forward walls such as that the Admitted Prior
Art discloses, and contoured forward walls such as
that Betts discloses, and in light of the teachings in
Betts that such a contoured wall provides more
passenger room, a person of ordinary skill in the art
would have been motivated to use a contoured wall
to save space in the cabin. See, e.g., Ex. 1001, Fig. 1;
Ex. 1005, Fig. 1; Ex. 1004 ¶ 246. Once the proposed
modification is made, at least the contoured forward

Patent Owner does not argue that, once the proposed
combination is made, the combination fails to disclose these
limitations.

8

partition portion
performed.

36a
of the

“replacing”

step

is

Claim 8 recites that “the contoured forward
partition comprises at least one first recess
configured to receive at least a portion of an
upwardly and aftwardly inclined seat back of a
passenger seat therein.” Petitioner contends that
Betts discloses this portion of the replacing
limitation. See Pet. 34–35 (citing Ex. 1005, Fig. 1;
Ex. 1004 ¶¶ 247–48). We agree. Figure 1 of Betts
discloses slanted walls 30, 32 that form a recess
configured to receive at least a portion of inclined
seat back 12. See Ex. 1005, Fig. 1, 2:19–24 (“The
lower portion 30 of the coat compartment 18 slants
rearwardly to provide a space for seatback 12 to be
tilted rearwardly as desired by the occupant. The top
32 of storage space 16 also slants rearwardly so as
not to interfere with seatback 12 when tilted.”); see
also B/E Aerospace, 709 F. App’x at 693 (“Walls 30
and 32 [in Figure 1 of Betts] slant rearwardly to
allow the occupant to recline seatback 12 of
passenger seat 10.” (citing Ex. 1005, 2:7–24)).
Claim 8 recites “installing the passenger seat in
front of the contoured forward partition; wherein,
upon installation, the at least one first recess
receives at least a portion of the upwardly and
aftwardly inclined seat back.” Petitioner argues that
the Admitted Prior Art discloses a seat with an aft
extending seat support and that Betts discloses a
passenger seat in front of a contoured forward
partition, with the seat positioned at least partially
within the contour. Pet. 38 (citing Ex. 1004 ¶¶ 118,
175, 188, 216, 247–248, 251–252). We agree with

37a
Petitioner’s position. Betts discloses this limitation.
See Ex. 1005, Fig. 1, 2:19–24; see also B/E
Aerospace, 709 F. App’x at 693.
iii. “Second Recess”
Claim 8 recites two limitations related to a
“second recess”: “the contoured forward partition
comprises . . . at least one second recess configured
to receive at least a portion of an aft-extending seat
support of the passenger seat therein” and “wherein,
upon installation [of the passenger seat], . . . the
second recess receives at least a portion of the aftextending seat support.” Petitioner does not contend
that the Admitted Prior Art or Betts alone discloses
the second recess. Instead, Petitioner argues that
one of ordinary skill in the art would have found it
obvious and would have been motivated to add a
second recess to a flat forward facing wall. Pet. 35.
In support of its assertion, Petitioner first notes that
the Admitted Prior Art includes “[a] seat with an aft
extending seat support.” Pet. 36 (citing Ex. 1001,
Fig. 1). Petitioner argues that the logic of using a
recess to receive the seat back applies equally to
using another recess to receive the aft extending
seat support. Pet. 36 (citing Ex. 1004 ¶¶ 189, 191,
250). According to Petitioner, as the seat is moved
further aft, the seat support may come into contact
with the lower section of the wall, impeding
movement, and the addition of the second recess to
accommodate the seat support will allow the seat to
move further back. Reply 6 (quoting Ex. 1004 ¶ 74).
Petitioner further points out that adding a second
recess is nothing more than the application of known
technology (i.e., Betts) for its intended purpose, with

38a
a predictable result (i.e., to position the seat as far
back as possible). Pet. 36. Petitioner relies on Mr.
Anderson’s testimony that the second recess,
although not disclosed by either of the two
references, would have been obvious to add to the
combination. Id. at 37 (citing Ex. 1004 ¶¶ 186–192,
250). Petitioner also relies on Mr. Anderson’s
citation to three alleged examples of additional
enclosures that include a lower recess to receive a
seat support. Id. at 37–38 (citing Ex. 1004 ¶¶ 192,
250); Reply 6–10 (citing Ex. 1004 ¶¶ 74–79; Ex.
1018, 62; Ex. 1019 ¶¶ 8–11, 17–20). Petitioner
contends that it does not matter that the three
enclosures were not available as prior art in these
proceedings, or prior art at all, as long as they are
evidence of what was known in the art. Reply 9–10.
According to Petitioner, these designs support
Petitioner’s position that “it was a common sense
solution to include a recess in a wall to enable a seat
support to be positioned further aft.” Reply 10 (citing
Ex. 1004 ¶ 75).
Patent Owner argues that Petitioner’s contention
that the second recess would have been obvious “is
supported by nothing more than Mr. Anderson’s
opinion.” PO Resp. 15. Patent Owner asserts that
“actual evidence is required because the claimed
second recess is ‘more than a peripheral issue’ and
‘therefore requires a core factual finding.’” Id.
(quoting K/S HIMPP v. Hear-Wear Techs., LLC, 751
F.3d 1362, 1365 (Fed. Cir. 2014)). Relying on the
Dershowitz Declaration, Patent Owner argues that
such recesses were not common knowledge and that
one could not move seats further aft as Mr. Anderson
suggests, if using the prior art flat wall. Id. at 15–17

39a
(citing Ex. 2104 ¶¶ 146–147). Patent Owner also
argues that adding a second recess is not supported
by the intended purpose of Betts, which is limited to
providing a first recess for seat recline, and adding a
second recess would not be predictable due to
unpredictable impacts on the lavatory. Id. at 17–18
(citing hearing and deposition testimony; Ex. 2104
¶¶ 147, 154, 165; Ex. 2046 ¶ 36; Ex. 2097 ¶¶ 86, 88).
Patent Owner also contends that the three recess
examples used by Petitioner were not publicly
available because the drawings in question were
confidential and not for public use, and cannot be
used to show what was known in the art. Id. at 18–
19.9
We agree with Patent Owner that use of common
sense to supply a missing limitation must be
carefully circumscribed and requires supporting
evidence in the situation presented here, but
disagree that Petitioner has failed to support its
obviousness argument with proper reasoning and
evidence. Patent Owner correctly notes that in K/S
HIMPP, the court held that when a limitation
“presents more than a peripheral issue,”
determination of patentability requires a “core
factual finding” that in turn requires “point[ing] to
some concrete evidence in the record in support of
these findings.” K/S HIMPP, 751 F.3d at 1365
(quoting In re Zurko, 258 F.3d 1379, 1386 (Fed. Cir.
2001)). Similarly, in Arendi S.A.R.L. v. Apple Inc.,
Patent Owner moves to exclude the three references and
related testimony, which we deny for the reasons discussed
below. See infra II.D.

9

40a
832 F.3d 1355, 1361–62 (Fed. Cir. 2016), the Federal
Circuit held that common sense, common wisdom,
and common knowledge may be properly considered
in an obviousness analysis, but “cannot be used as a
wholesale substitute for reasoned analysis and
evidentiary support, especially when dealing with a
limitation missing from the prior art references
specified.” Arendi distinguished the situation
involving a “central” limitation, at issue in Arendi,
from the situation in Perfect Web, where common
sense was used to supply a missing limitation. See
Perfect Web Techs., Ins. v. InfoUSA, Inc., 587 F.3d
1324 (Fed. Cir. 2009). In Perfect Web, the court
affirmed a summary judgment decision finding
claims invalid as obvious, where the lower court
determined that a missing limitation would have
been obvious based on common sense, even without
reliance on record evidence such as expert
testimony. See id. at 1329 (“[U]se of common sense
does not require a ‘specific hint or suggestion in a
particular reference,’ only a reasoned explanation
that avoids conclusory generalizations.”), id. at 1330
(“No expert opinion is required to appreciate the
potential value to persons of such skill in this art of
[the missing limitation].”).
We need not reach the issue of whether the
“second recess” is so peripheral that Petitioner need
not have pointed to evidence or expert opinions to
support its argument that the missing limitation
would have been obvious. Petitioner has supplied
reasoned explanation and record evidence to support
its position. Petitioner relies on the testimony of Mr.
Anderson, who stated that

41a
a person of ordinary skill in the art would
recognize that as a seat is moved further aft
the seat support necessarily is also moved
further aft. As the seat is moved aft the feet of
the seat support may come into contact with
the lower section of the wall. Creating one or
more recesses to accommodate whatever
portion(s) of the seat support that would
contact the forward wall of the enclosure is
the obvious solution to this known problem.
Ex. 1004 1 74; see also id. at ¶ 191.
Petitioner also relies on evidence tending to show
that recesses adjacent the floor of cabin, configured
to receive a seat support, were known in the art. Pet.
37–38 (citing Ex. 1004 ¶¶ 192, 250); Reply 6–10
(citing Ex. 1004 ¶¶ 74–79; Ex. 1018, 62; Ex. 1019
¶¶ 8–11, 17–20). The Petition shows three designs
with such a recess side-by-side as shown in the
figure from page 38 of the Petition, reproduced
below:

42a
The figure depicts three designs labelled “SAS MD90 Aft-Storage” dated October 2004, “737 Storage”
dated February 1994, and “747 Storage” dated
December 2009. Pet. 38. All three designs show
recesses near the floor of the cabin, which Petitioner
circled in annotations. Id. The first design, shown on
the left, also shows a passenger seat in dotted lines,
with the aft seat support shown within the recess.
Id. Petitioner submitted declarations from third
parties familiar with the designs that show the
recesses were designed to receive passenger seat
legs, and the dates that the designs were in public
use or on sale. See Ex. 1018, 62 (corresponding to
SAS MD-90 Aft-Storage); Ex. 1019 ¶¶ 8–11
(corresponding to 737 Storage); Ex. 1019 ¶¶ 17–20
(corresponding to 747 Storage). We find this
testimony and evidence credible and convincing, and
find that Petitioner has established that it would
have been obvious to further modify the Admitted
Prior Art/Betts combination to include the claimed
“second recess” to receive passenger seat supports.
Patent Owner’s arguments, as a whole, are not
persuasive. As noted above, we agree with Patent
Owner’s interpretation of the relevant law to require
more than conclusory allegations to establish that a
missing claim limitation would have been obvious
based on common sense. Petitioner provides more
than bare, conclusory allegations, however,
including reliance on other references that predate
the ’742 patent to support its common sense
argument. Patent Owner also argues that adding
the second recess would have been unpredictable
due to the unpredictable nature of lavatory design.
PO Resp. 17–18. Much of Patent Owner’s cited

43a
evidence does not seem focused on the second recess
at all, and instead is directed more generally to
lavatories as a whole. See Ex. 2052, 37:5–42:17,
53:10–14; Ex. 2075, 36:18–37:15; Ex. 2097 ¶¶ 86, 88.
We credit the testimony of Mr. Anderson on behalf
of Petitioner, that the “result of such a modification
is predictable, allowing the seat to be positioned
further aft in an aircraft.” Ex. 1004 ¶ 191. We are
not persuaded that adding a recess near the cabin
floor, standing alone, would introduce unpredictable
results due to modifications that would be necessary
to that limited area of the lavatory.
Patent Owner’s arguments attacking Mr.
Anderson’s use of the three examples of recesses in
the prior art also bear little fruit. Patent Owner
argues, without citation to any support, that in order
to support the “common sense” argument, Mr.
Anderson could not rely on references that were not
available as prior art in inter partes reviews, i.e.,
patents and printed publications. PO Resp. 18.
Petitioner does not argue that any of the three
drawings are prior art that can be combined with the
Admitted Prior Art and Betts as part of a ground of
unpatentability, and therefore has not run afoul of
the rules governing these proceedings. 35 U.S.C.
§ 311(b) (“A petitioner in an inter partes review may
request to cancel as unpatentable 1 or more claims
of a patent only on a ground that could be raised
under section 102 or 103 and only on the basis of
prior art consisting of patents or printed
publications”). Petitioner uses the references to
support its common sense argument and identify,
specifically, the knowledge of those skilled in the art,
and Patent Owner points to no authority for the

44a
proposition that such evidence must take a
particular form, much less be limited to qualifying
patent and printed publication prior art under
§ 311(b).
Patent Owner also argues that Petitioner failed
to establish that the designs shown in the three
drawings were prior art at all, and were not publicly
known. Id. While the drawings themselves may have
been confidential as Patent Owner notes, the
declarations accompanying the drawings posit that
the drawings reflect designs that were on sale and
in public use years before the earliest priority date
of the ’742 patent. See Ex. 1018, 62 (corresponding
to SAS MD-90 Aft-Storage); Ex. 1019 ¶¶ 8–11
(corresponding to 737 Storage); Ex. 1019 ¶¶ 17–20
(corresponding to 747 Storage). Patent Owner uses
the deposition testimony of one of the declarants to
cast doubt on whether the design with the recess
was part of the product that was sold, but does not
attack the other assertions of prior art. PO Resp. 19
(citing Ex. 2079, 54:20–55:4 (corresponding to 747
Storage)). We find the unrebutted testimony
establishes that those two designs were in public use
or on sale prior to the critical date of the ’742 patent.
See Ex. 1018, 62 (drawing), ¶¶ 11–15 (corresponding
to SAS MD-90 Aft-Storage); Ex. 1019 ¶¶ 8–11
(corresponding to 737 Storage)). We find the
unrebutted testimony regarding these designs, the
SAS MD-90 Aft-Storage and 737 Storage, sufficient
to establish that the designs are prior art.
Accordingly, two of the designs Petitioner relies on
were not only “known” internally within the art,

45a
they were disclosed in prior art designs.10 An
annotated view of the design for the SAS MD-90 AftStorage is reproduced below:

10 Petitioner argues that the three references need not qualify
as prior art at all to be considered as part of its “common sense”
argument. See Reply 10 (“But even if these design documents
themselves were never made public, they still demonstrate
that airplane designers had long known that it was a common
sense solution to include a recess in a wall to enable a seat
support to be positioned further aft.”); Opp. 8 (citing cases in
support of argument). Although not necessary to our Decision,
because we find that two of the references are prior art, we
agree that such non-prior art references, such as these
confidential drawings, can be considered in an obviousness
analysis. Here, they constitute concrete evidence in support of
Petitioner’s common sense argument.

46a

Reply 7 (citing Ex. 1018, 62). The figure above shows
a recess adjacent to the cabin floor configured to
receive the aftwardly extending rear seat support
within the recess. This prior art design convincingly
supports Petitioner’s position that recesses
configured to receive seat supports were known in
the art, and it would have been a matter of common
sense to incorporate such a known structure in the
Admitted Prior Art/Betts combination.
Based on the foregoing, Petitioner has
established adequately that it would have been
obvious to add a second recess in a manner that

47a
satisfies the “second recess” requirements of claim 8:
“the contoured forward partition comprises . . . at
least one second recess configured to receive at least
a portion of an aft-extending seat support of the
passenger seat therein” and “wherein, upon
installation [of the passenger seat], . . . the second
recess receives at least a portion of the aft-extending
seat support.”
iv. “Reducing a Volume of Unusable Space ” /
“Reducing or Eliminating Gaps . . .”
Claim 8 recites “thereby reducing the volume of
unusable space in the cabin area by reducing or
eliminating gaps that existed between the
previously-installed forward wall and the passenger
seat.” In other words, replacing the flat forward wall
with a contoured wall and installing that contoured
wall as required by claim 8, results in reducing the
volume of unusable space in the cabin by reducing or
eliminating gaps that existed between the
previously-installed forward wall and the passenger
seat. Petitioner argues that the design that results
from combining Betts with the Admitted Prior Art
would naturally meet these requirements of claim 8.
Pet. 39 (citing Ex. 1004 ¶¶ 253–254). Petitioner
contends that Figure 1 of Betts shows the seat
already positioned within the contour, and therefore
reduces or eliminates gaps that existed if a
previously-installed flat forward wall remained in
place. Id. at 39–40. Petitioner’s annotated version of
Betts Figure 1 is reproduced below.

48a

Annotated Figure 1 includes a line, adding by
Petitioner, extending upward from a vertical portion
of the forward wall near the cabin floor. Pet. 40. The
line intersects a portion of the seat back, with a
portion of the seat back extending into the first
recess formed by angled walls 30, 32. Id. According
to Petitioner, the figure confirms that Betts discloses
a seat already moved further back than it could have

49a
been if the prior art flat forward wall as shown in the
Admitted Prior Art remained in place. Id.; Reply 11.
Patent Owner argues that none of the prior art
teaches anything about reducing volume of unused
space between the seat and the lavatory. PO Resp.
10. Patent Owner acknowledges that “[i]t is no secret
that cabin space has always been at a premium in
aircraft,” but argues that Betts teaches saving space
in different ways than by reducing the gaps behind
the seat as claimed. Id. Patent Owner also contends
that to the extent Petitioner again relies on common
sense to teach this limitation, that the assertion
lacks a reasoned explanation and evidentiary
support. Id. at 11–12. Patent Owner also argues that
Figure 1 of Betts shows the seat in a reclined
position, but does not add usable space to the cabin
because if the contoured wall merely adds a recline
function, it does not allow a seat to be positioned
further aft to reduce gaps as claimed. Id. at 12–13
(citing Ex. 2104 ¶¶ 140, 151).
We are persuaded by Petitioner’s arguments and
evidence, and find that the combination of Betts and
the Admitted Prior Art teaches this limitation. As
noted above, we find that the Petitioner established
adequately that one of ordinary skill in the art would
have been motivated to replace the flat forward
lavatory wall, such as that shown in the Admitted
Prior Art, with the contoured forward wall of Betts.
Once that modification is made, as Petitioner points
out, the passenger seat will already be placed in a
position more aft than it would have been if the
previously-installed flat forward wall were still in
place. See Reply 11. This conclusion is supported by

50a
Figure 1 of Betts depicted above, and is consistent
with the Board’s previous finding in the related
IPR2014-00727 that “[w]all 30 projects partly above
the seatback even in the non-reclined configuration
shown in [Betts] Figure 1.” Ex. 1003, 18. Locating
the seats in Betts as far back as possible is also
consistent with the goal of providing “more room for
passengers in an aircraft” with the proposed design
in Betts. Ex. 1005, 1:6–7, Abstract. Accordingly, once
the proposed modification is made and a seat
positioned as shown in Betts, the result is a design
“reducing the volume of unusable space in the cabin
area by reducing or eliminating gaps that existed
between the previously-installed forward wall and
the passenger seat.”
Patent Owner’s arguments largely miss the
mark. When Patent Owner argues that none of the
prior art, standing alone, discloses the claim
limitation, the argument fails to address the results
of the proposed modification, as discussed above.
Betts may not expressly mention reducing unusable
space or reducing gaps, but that is the result of the
modification using the Betts design. Further,
because the proposed combination discloses the
limitation, we do not view Petitioner’s argument as
one involving resort to common sense, although if
viewed in that manner Petitioner has articulated
sound reasoning, supported by Betts, for the
conclusion that the limitation would have been
obvious. See Pet. 39–40; Reply 11–12. Finally,
although Patent Owner argues that Betts merely
shows a seat in a reclined position, and that is why
it occupies a portion of the first recess/contoured
area in Betts, we find Petitioner’s argument and

51a
related expert testimony more credible. See id.
(citing Ex. 1004 ¶¶ 58 (“As shown in the figure
below, the seat shown in Betts could not be located
in the position in which it is shown if the forward
wall were flat.”), 254).
Based on the foregoing, we find that Petitioner
has established adequately that the combination of
Betts and the Admitted Prior Art discloses “thereby
reducing the volume of unusable space in the cabin
area by reducing or eliminating gaps that existed
between the previously-installed forward wall and
the passenger seat.”
v. Objective Evidence of Non-Obviousness
We turn now to the secondary considerations
evidence that Patent Owner has cited in this
proceeding
as
purportedly
demonstrating
nonobviousness of claim 8, as well as the other
challenged claims. See PO Resp. 31–45. Petitioner
argues that Patent Owner has failed to establish the
required nexus, and that we should follow the
approach taken by the Federal Circuit in the related
inter partes review and conclude that the claims
would have been obvious even if we consider the
Patent Owner’s evidence of objective indicia. Reply
15.
Nexus. “For objective [evidence of secondary
considerations] to be accorded substantial weight,
its proponent must establish a nexus between the
evidence and the merits of the claimed invention.”
Wyers v. Master Lock Co., 616 F.3d 1231, 1246 (Fed.
Cir. 2010) (alteration and emphasis in original)

52a
(quoting In re GPAC Inc., 57 F.3d 1573, 1580 (Fed.
Cir. 1995)). Patent Owner only addresses nexus in
the context of its argument regarding commercial
success. PO Resp. 37–38. Patent Owner argues that
nexus here “is presumed” because “[t]here is no
dispute that [Patent Owner’s] Spacewall product,
which has been so commercially successful, is an
embodiment of the patent.” Id. at 38 (citing Ex. 2093,
36:16–37:3). Patent Owner also asserts that other
documents show that the commercial success of the
Spacewall product stemmed from the “curved shape”
of the lavatory forward wall or the “lavatory
structure design.” Id. (citing Ex. 2078; Ex. 2090,
136:14–137:11). Such general allegations that
Patent Owner’s product “is an embodiment of the
patent” and led to sales due to a “curved design”
ordinarily fail to establish that a product contains all
of the limitations of the claim at issue, which is
necessary to trigger a presumption of nexus. See
WBIP, LLC v. Kohler Co., 829 F.3d 1317, 1330 (Fed.
Cir. 2016) (holding that nexus is presumed when
patentee establishes that commercial product is an
embodiment of the claimed invention). However,
Petitioner did not address the presumption of nexus
issue in the Petition or the Reply, and did not argue
that Patent Owner’s Spacewall product was not
covered by the challenged claims here. See Reply 15–
16; Tr. 28:10–13, 93:1–2 (Petitioner acknowledging
at the oral hearing that it did not dispute that
Patent Owner’s product met the limitations of the
challenged claims). Accordingly, we apply a
presumption of nexus here.
Petitioner argues that nexus cannot be
established because all of the claim limitations were

53a
known in the prior art. See Pet. 62. Petitioner also
argues that none of Patent Owner’s evidence ties the
“second recess” to the secondary considerations.
Reply 15–16. These arguments do not address the
presumption of nexus issue, and improperly suggest
that Patent Owner must tie the objective indicia to
the supposedly new feature in the claims, the second
recess. See WBIP, 829 F.3d at 1330 (“[P]roof of nexus
is not limited to only when objective evidence is tied
to the supposedly ‘new’ feature(s).”). The arguments
also fail to rebut the presumption, which requires
reliance on evidence of record to successfully rebut
the presumption. See id. at 1329 (holding that the
presumption of a nexus cannot be rebutted
adequately by argument alone). Although we find a
presumption of a nexus, we will consider Petitioner’s
arguments regarding a lack of nexus, to the extent
they also bear on the weight we give any alleged
objective indicia, where appropriate below.
Copying. Patent Owner alleges that Petitioner
copied the patented technology. PO Resp. 32–33.
More specifically, Patent Owner alleges that
Petitioner encountered problems with implementing
the “curvature of the lavatory forward wall” and
rather than turn to a prior art solution, “copied the
curvature” of Patent Owner’s lavatory wall. Id.
(citing Ex. 2091, 138:5142:17, 141:18–22, 142:10–13;
Ex. 2104 ¶ 203). Patent Owner relies on Dr.
Dershowitz’s testimony that Petitioner made a
“direct attempt” to use Patent Owner’s patented
solutions, including the “patented shape” of Patent
Owner’s forward lavatory wall.” Id. at 33 (citing Ex.
2104 ¶ 225; Ex. 2075, 111:7–14).

54a
Petitioner argues that Patent Owner fails to
prove copying. Reply 16–18. Petitioner contends that
Patent Owner’s evidence fails to address the “second
recess,” or establish that Petitioner copied that
aspect of Patent Owner’s design. Id. at 16. Petitioner
also argues that Patent Owner misinterprets the
deposition testimony from Petitioner’s witness,
which was not suggesting problems with the forward
lavatory wall at all, but instead concerned problems
with the curved side wall facing the exterior of the
airplane. Id. at 16–17 (citing Ex. 2091–37, 144:18–
145:5). Petitioner asserts that the statements from
the Dershowitz Declaration merely rely on this
faulty reading of the deposition. Id. at 17.
We agree with Petitioner that Patent Owner has
failed to establish copying here. First, as Petitioner
notes, Patent Owner has made no attempt to
establish that the claimed invention was copied by
Petitioner, including the claimed “second recess.”
See PO Resp. 3–33. At most, Patent Owner alleges
that Petitioner copied one aspect of the claimed
design—the contoured forward wall. See Ex. 1005,
Fig. 1. Further, Patent Owner’s copying allegation
rests on an apparent misinterpretation of deposition
testimony dealing with problems in the design of the
“sidewall” facing the exterior of the aircraft, not the
lavatory forward wall that is at issue in this case.
See Ex. 2091, 144:18–145:5; Reply 16–17. Although
the forward wall is also mentioned in the testimony
cited by Patent Owner, that testimony does not
suggest that the problem was focused on the
lavatory forward wall, or that copying the forward
wall would alleviate the problems with the sidewall.
At best, the testimony and related expert analysis

55a
show a weak case of copying, made weaker by the
failure to address the “second recess” and other
claim limitations and establish that Petitioner
copied a design covered by claim 8.
Skepticism. Patent Owner argues that
“skepticism and disbelief expressed by industry
participants” regarding its curved wall design
supports the nonobviousness of claim 8. PO Resp. 34.
Patent Owner contends that customers demanded
mock ups of the new designs and tested them to
ensure the lavatory still provided sufficient comfort
before concluding that the design would work. Id. at
34–35 (citing Ex. 2046 ¶¶ 19–25; Ex. 2077, 27:15–
31:15, 107:1–13; Ex. 2097, 245:2–24; Ex. 2104
¶ 216). Patent Owner also contends that Petitioner’s
expert Mr. Anderson tried and failed to do what
Patent Owner “has done with its patents.” Id. at
35.11
Petitioner argues that none of the alleged
skepticism mentions the claimed “second recess” and
that the testimony introduced amounts to hearsay.
Reply 18–19 (referring to Exs. 2046, 2097).
Petitioner also argues that testimony showing mere
“corporate prudence” when evaluating designs
before a purchase does not establish skepticism. Id.
at 19. Regarding Mr. Anderson’s testimony,
Petitioner contends that Patent Owner takes the
comments out of context, and Mr. Anderson was
11 Patent Owner’s argument may be viewed as “failure of
others” rather than “skepticism,” but we address it in the
manner that Patent Owner framed the issue.

56a
talking more generally about adding seats to a cabin.
Id. at 19–20.
While we agree with Patent Owner that there
appeared to be some skepticism regarding its design,
Patent Owner has not convincingly established that
there was skepticism about the claimed method.
Instead, the testimony appears to reflect normal
testing one would expect whenever making a large
order of goods, with some skepticism aimed at the
size and comfort of the resulting lavatory, which
does not bear on the claim language. See PO Resp.
34–35. In addition, the testimony of Mr. Anderson
does not establish that he tried and failed to arrive
at the claimed design at issue here—he merely
expressed his experience in not being able to simply
add a row of seats to a plane based on saving six
inches of room. Reply 19–20. Overall, we view
Patent Owner’s evidence of industry skepticism
regarding the claimed method as weak.
Proceeding Contrary to Conventional Wisdom.
Patent Owner argues that conventional wisdom
required a flat forward wall and using the space
between the seats and the wall for small storage bins
known as “dog houses.” PO Resp. 36. According to
Patent Owner, its “design cut directly against this
conventional wisdom” by removing the spaces for the
dog houses and allowing the “seat to closely nestle
with the lavatory wall behind it.” Id. at 37.
Petitioner argues that Patent Owner again bases its
argument on the contoured wall, which was well
known in the art. Reply 21. Petitioner also argues
that the mere passage of time without a curved-wall

57a
lavatory does not establish nonobviousness. Id. at
22.
We accord Patent Owner’s evidence that its
design was contrary to the ordinary use of dog
houses behind seats some weight. However, this
argument amounts to little more than an assertion
that using a curved lavatory wall was new, when
curved walls were known in airplane design and the
claims at issue here require far more than a
contoured wall. See Reply 21; Ex. 1005, Fig. 1.
Accordingly, we view the evidence on this point as
weak.
Commercial Success. Patent Owner argues that
its Spacewall product achieved substantial
commercial success based on a desire of its
customers to add seats to the aircraft, which the
claimed design made possible. PO Resp. 38. Patent
Owner relies on “a nearly $800 million, 10-year
contract as the exclusive lavatory provider on all
new Boeing 737 aircraft,” which was the “direct
result of the patented technology.” Id. at 39. Patent
Owner also contends that its market share in this
market went from 0% to 20% by 2018. Id.
Petitioner argues that Patent Owner’s $800
million sales figure in a vacuum means little when
Patent Owner did not include the contract as
evidence, and the contract would reveal that it
included sales of unpatented lavatory designs. Reply
22–23. Petitioner also contends that Patent Owner’s
expert testimony cannot fill the gap because he
admitted that he had not reviewed the contract. Id.
at 24–25.

58a
As noted above, we presume that a nexus exists
between Patent Owner’s Spacewall product and the
claims at issue here. But that nexus does not extend
to non-Spacewall products, and Patent Owner’s
decision not to introduce the $800 million contract
undermines its ability to allege that the sales were
due to the Spacewall design. Instead, it appears that
at least some portion of those sales correspond to
unpatented designs. See Reply 24 (citing testimony).
These same sales, including patented and
unpatented products, presumably helped create the
20% market share increase. PO Resp. 39. Without
the contract or a breakdown of the sales and market
share attributable to the patented Spacewall design,
Patent Owner limits the potential impact of the $800
million contract and growing market share on our
analysis here. That said, Patent Owner does
introduce evidence that at least some customers
bought the Spacewall product due to its contoured
wall and space-saving design, and sales for the
Spacewall were likely substantial even if they were
a fraction of the $800 million contract. PO Resp. 38–
39. Based on the foregoing, we view Patent Owner’s
evidence of commercial success as moderate.
Industry Praise. Patent Owner argues that
numerous instances of industry praise support the
nonobviousness of the claims here. PO Resp. 41–42
(citing Ex. 2046 ¶¶ 26–33; Ex. 2055–2059; Ex. 2096).
The alleged praise for the claimed invention include
an industry award and positive comments in trade
publications. Id. Patent Owner contends that “the
objective evidence ties directly to claimed features”
because it notes that Patent Owner’s design frees up
floor space and includes curved walls. Id. at 43.

59a
Petitioner argues that, upon closer inspection, the
industry award was “voted on by a panel of the
inventor’s colleagues, while he was in the room
watching their vote, [and] hardly reflects unbiased
industry praise.” Reply 26 (emphasis omitted).
Petitioner contends that the other purported praise
lacks credibility because there is no evidence that
the praise was from one of ordinary skill in the art,
and the articles suggest that unclaimed features
drove the success of the design, including the
vacuum toilet, LED lighting, and oxygen system. Id.
at 26–27 (citing Exs. 2055–2059).
While Petitioner makes some credible arguments
that go to the weight to be accorded the industry
praise, we find that Patent Owner has established
industry praise for the Spacewall product, which we
presume has a nexus to the claimed invention.12 The
praise specifically references features relevant to the
claimed inventions, such as the curved walls and
space savings. See PO Resp. 41–42 (citing Ex. 2046
¶¶ 26–33; Ex. 2055–2059; Ex. 2096). Therefore,
although the praise also notes unclaimed features of
the lavatory design, and the industry award process
may have been flawed, the award and praise of
claimed features are sufficient to establish industry
12 Petitioner has arguably rebutted the presumption of a nexus,
or significantly undermined its import, by pointing to evidence
that some of the praise was tied to unclaimed features. Reply
26–27 (citing Exs. 2055–2059). We need not determine whether
Petitioner has adequately rebutted the presumption because
even if we presume the nexus remains, Patent Owner has not
established sufficient objective indicia to support a finding of
nonobviousness of claim 8.

60a
praise of the claimed invention. We view the
evidence of industry praise as moderate.13
vi. Conclusion as to Claim 8
Patent Owner has established a moderate level
of objective indicia of nonobviousness related to
commercial success and industry praise, but
Petitioner has established a strong case of
obviousness based on the Admitted Prior Art and
Betts, coupled with common sense and the
knowledge of a person of ordinary skill in the art.
Based on the foregoing, after consideration of all of
the Graham factors and the full record before us, we
are persuaded that Petitioner has established, by a
preponderance of evidence, that claim 8 would have
been obvious over the Admitted Prior Art and Betts.
4. Obviousness of Claims 10–16
Claim 10 depends from claim 8 and recites
“wherein the at least one first recess substantially
conforms to a contour of an aft surface of the
upwardly and aftwardly inclined seat back.”
Petitioner argues that Betts discloses a wall that
conforms to a contour of an inclined seat back, as
claimed, and notes the similarities between Figure 1

13 We note that our analysis of the objective indicia generally
tracks the analysis in the related IPR, although we accord more
weight to the commercial success evidence. See IPR201400727, 22–24 (Paper 65); B/E Aerospace, 709 F. App’x at 695–
96. The record here included further allegations and evidence,
including that related to market share, that was not considered
in the prior, related decisions. See id.

61a
of Betts and Figure 2 of the ’742 patent in this
regard. Pet. 40–41 (citing Ex. 1001, Fig. 2; Ex. 1004
¶¶ 255–256, 258; Ex. 1005, Fig. 1). Patent Owner
does not address claim 10. We are persuaded by
Petitioner’s argument and evidence, and find that
Betts discloses the limitations of claim 10.
Claim 11 depends from claim 8 and recites
“wherein the contoured forward partition further
comprises an upper projection that, upon
installation, protrudes forward over a top of the
upwardly and aftwardly inclined seat back.”
Petitioner argues that Figure 1 of Betts discloses the
claimed upward projection that protrudes over the
top of the inclined seat back, as claimed. Pet. 41–42
(citing Ex. 1004 ¶¶ 259–260; Ex. 1005, Fig. 1).
Patent Owner does not address claim 11. We are
persuaded by Petitioner’s argument and evidence,
and find that Betts discloses the limitations of claim
11.
Claim 12 depends from claim 11 and recites
“wherein the upper projection is configured to abut
an upper surface of the cabin area.” Petitioner
argues that the Admitted Prior Art discloses an
upper portion of the forward wall configured to abut
an upper surface of the cabin area. Pet. 42–43 (citing
Ex. 1004 ¶ 262; Ex. 1001, Fig. 1). Patent Owner does
not address claim 12. We are persuaded by
Petitioner’s argument and evidence, and find that
the Admitted Prior Art discloses the limitations of
claim 12.
Claim 13 depends from claim 11 and recites
“wherein the upper projection defines an interior

62a
storage space in the aircraft lavatory.” Petitioner
argues that the Admitted Prior Art discloses a
secondary space in the lavatory above the seat back
and points to those spaces within both Figures 1 and
2 of the ’742 patent. Pet. 43–44 (citing Ex. 1001,
4:43–45, Figs. 1, 2; Ex. 1004 ¶¶ 205–207, 263).
Petitioner also argues that prior art lavatories
containing such storage spaces were known, and
that the lavatory “would continue to contain the
prior art interior storage spaces after applying a
contour to the forward wall [from Betts].” Id. (citing
Ex. 1004 ¶ 207). Patent Owner does not address
claim 13. We are persuaded by Petitioner’s
argument and evidence, and find that the Admitted
Prior Art discloses the limitations of claim 13.
Claim 14 depends from claim 8 and recites
“wherein the upwardly and aftwardly inclined seat
back is in an upright and not a reclined position.”
Petitioner argues that Betts discloses the claimed
seat position, and notes the similarities between its
position and that shown in the ’742 patent. Pet. 4445
(citing Ex. 1001, Fig. 2; Ex. 1004 ¶¶ 264–265; Ex.
1005, Fig. 1). Petitioner argues that “a person of
ordinary skill in the art would recognize that the
seat shown in Betts is in an upright and unreclined
position.” Id. at 45. Patent Owner does not address
claim 14. We are persuaded by Petitioner’s
argument and evidence, and find that Betts
discloses the limitations of claim 14.
Claim 15 depends from claim 8 and recites
“wherein the at least one first recess extends along
substantially a full width of the contoured forward
partition.” Petitioner argues Figure 1 of Betts

63a
“shows a side elevation view of the coat closet
enclosure” and that “[o]ne of ordinary skill in the art
would understand from Figure 1 that the recess
extends the full width of the forward wall.” Pet. 45
(citing Ex. 1004 ¶¶ 234–235, 267; Ex. 1005, 1:5859,
Fig. 1). Petitioner also argues that “nothing in Betts
suggest that the recess only extends [for] a portion
of the width of the forward wall” and that “one of
ordinary skill in the art would be motivated to
extend the recess the full width of the forward wall
in order accommodate the full row of seats installed
immediately forward of the wall.” Id. at 45–46
(citing Ex. 1004 ¶ 236). Patent Owner does not
address claim 15. We are persuaded by Petitioner’s
argument and evidence, and find that Betts
discloses the limitations of claim 15.
Claim 16 depends from claim 8 and recites
“wherein replacing the previously-installed forward
partition with the contoured forward partition
permits the aft-extending seat support to be
positioned farther aft in the cabin area than was
possible when the previously-installed forward
partition was installed in the cabin area.” Petitioner
argues that the design that results from combining
Betts with the Admitted Prior Art would naturally
meet the requirements of claim 16. Pet. 46 (citing
Ex. 1004 ¶¶ 268–269). Petitioner contends that
Betts shows the seat already positioned “further aft
than it could be positioned if there were no recess in
the forward wall because the seat back is within the
recess.” Id. Petitioner also argues that, as discussed
above, it would have been obvious to add a second
recess to receive an aft-extending seat support,
which also allows the seat to be positioned further

64a
aft. Id. at 47. Patent Owner argues that “in Betts the
seat support cannot be positioned any further aft to
reduce unused space between the seat and the
closet” and “[t]here is nothing in Betts that teaches
moving or repositioning the seat at all.” PO Resp. 20
(citing Ex. 2046 ¶ 40–41). Patent Owner also repeats
its argument that Figure 1 of Betts is not drawn to
scale, and therefore one cannot conclude that the
seat lies within the recess in an unreclined position.
Id. at 21–22 (citing Ex. 1005, 2:19–22, 4:63–67, Fig.
1; Ex. 2093, 51:11–52:7, 70:4–15, 88:19–22; Ex. 2096,
81:13–82:21). According to Patent Owner, if the wall
in Betts “were flat, the seat could simply stay put.”
Id. at 23 (citing Ex. 2104 ¶ 159).
The issues raised by Patent Owner here are
similar to those already addressed above. We
already found, as we did in the related inter partes
review, that Figure 1 of Betts discloses a seat
partially within the first recess in an unreclined
position, such that the seat is positioned further aft
than it would have been if Betts employed a flat
forward wall. We also found that it would have been
obvious to modify the Admitted Prior Art by
replacing the flat forward wall with the contoured
wall of Betts, and that the result would be a seat
position that is further aft than it would have been
using the flat forward wall. Similarly here, based on
Petitioner’s argument and evidence, which we find
persuasive, we find that once the combination is
made, it “permits the aft-extending seat support to
be positioned farther aft in the cabin area than was
possible when the previously-installed forward

65a
partition was installed in the cabin area.”14 Based on
the foregoing, we are persuaded that Petitioner has
established that claim 16 would have been obvious
in view of the Admitted Prior Art and Betts.
In summary, we are persuaded that Petitioner
has established by a preponderance of the evidence
that claims 10–16 would have been obvious over the
Admitted Prior Art and Betts.
E. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude exhibits 1004,
1006, 1007, 1008, 1018, 1019, and 1020,15 and any
reliance thereon. Mot. Exclude 2. Petitioner opposes
the Motion, and argues that Patent Owner waived
the majority of the objections made with respect to
Exhibit 1004. Opp. 2. Petitioner also argues that
Patent Owner mischaracterizes the content of a
number of the exhibits that bear on the ground at
issue in this proceeding. Id. at 3–4. We need not
reach these issues given that we deny Patent
Owner’s Motion on other grounds.

We note that claim 16 does not require moving a seat, as
Patent Owner suggests, but instead requires the structure
resulting from replacing the flat forward wall with the
contoured wall merely to “permit” the “farther aft” positioning
of the seat.
14

15 Patent Owner references “Exhibit 1118, Exhibit 1119” in the
Motion to Exclude, but the argument section references
Exhibits 1018 and 1019, and we interpret the references to
Exhibits 1118 and 1119 as typographical errors. See Mot.
Exclude 2, 7–9.

66a
1. Exhibit 1004
Regarding Exhibit 1004, the Anderson
Declaration, Patent Owner argues that the entire
declaration “must be excluded under F.R.E. 401,
402, 403, 702, 703, and 37 C.F.R. § 42.65 as
irrelevant, prejudicial, and unreliable expert
testimony because Mr. Anderson only provides
conclusory statements without sufficient citation to
evidence or explanation.” Id. at 3. Patent Owner
does not support this broad, undeveloped, exclusion
effort further, and to the extent that Patent Owner
seeks to exclude the entire declaration rather than
the enumerated paragraphs later addressed by
Patent Owner, we decline to do so.
Patent Owner then focuses on an extensive list of
paragraphs as “not relevant to Betts” and
“unreliable because they are based on Ex. 1009,
‘KLM Crew Rest,’ which is not a prior art reference
that is available for use in this IPR.” Id. at 3–4. We
granted Petitioner’s request for partial adverse
judgment as to the second ground in the Petition
based in part on the KLM Crew Rest reference.
Paper 36. We did not rely on the KLM Crew Rest in
this Decision, nor any of Mr. Anderson’s opinions
related to the KLM Crew Rest, and we therefore
deny Patent Owner’s motion to exclude Ex. 1004 as
moot to the extent that it seeks to exclude opinions
based on the KLM Crew Rest. See Mot. Exclude 3–4.
Patent Owner also seeks to exclude certain
paragraphs of Exhibit 1004 as too conclusory and
lacking sufficient citation. Id. at 4–6. We view these
arguments as going to the weight to be accorded the

67a
opinions rather than a proper basis for exclusion,
and we deny the motion as to these paragraphs on
that basis. In addition, with respect to paragraphs
75–79 and 93 related to the three “second recess”
references we addressed above, we deny Patent
Owner’s Motion for the additional reason that those
references need not be “printed publication” prior art
in order to be considered by Mr. Anderson. See id. at
5–7 (arguing that the declarants submitting the
alleged prior art did not declare that the references
were printed publications available to the public).
Patent Owner cites no authority for its position that
references must be excluded and not considered in
any manner if they are not “printed publication”
prior art under 35 U.S.C. § 311(b). Accordingly, we
deny Patent Owner’s Motion to Exclude Exhibit
1004.
2. Exhibits 1018 and 1019
Patent Owner argues that Exhibits 1018 and
1019 should be excluded because Petitioner only
relied on the exhibits for the second ground based on
the KLM Crew Rest, and not for the Betts ground.
Mot. Exclude 7–8. This argument is misleading.
While Exhibits 1018 and 1019 were not cited directly
in the Petition, Patent Owner is aware that the
exhibits refer to drawings related to the “second
recess” issue that are relied upon by Mr. Anderson
and reproduced in the Petition. See Pet. 38.
Petitioner also cites directly to Exhibits 1018 and
1019 in the Reply for that purpose. Reply 7–8.
Patent Owner’s argument that we should exclude
the entirety of the exhibits because they do not
relate to the Betts ground lacks merit.

68a
Patent Owner also argues that Petitioner has not
shown that the exhibits are prior art. Mot. Exclude
8 (“Petitioner has not shown [that Ex. 1018] is prior
art available for use during this IPR.”), 9 (“Petitioner
has not shown that these declaration exhibits are
prior art.”). As discussed above, Petitioner
introduced unrebutted testimony that two of the
three references are prior art, and as to the third
Patent Owner raised some doubt as to which version
of the product was in public use or on sale. We
decline to exclude the references that we already
find are prior art. Again, Patent Owner provides no
authority for the proposition that we can only
consider “printed publication” prior art in this
proceeding, even for background art that goes to the
common sense issue here. In addition, as to the third
reference, where Patent Owner established some
doubt about the content of the product in public use
and on sale, we need not rely on that reference to
find the claims obvious and granting this Motion
with respect to that exhibit would have no impact on
the outcome of this case.16 We decline to exclude the
references because they are not printed publications
or prior art.

16 Even if none of the references were prior art, we see no basis
to exclude any of the references. They are still germane to
Petitioner’s argument that adding a second recess was known
in the art, even if only in the internal, non-public documents of
multiple parties in the industry. See Opp. 8. Accordingly, even
if not prior art, we would not exclude the references and would
assess their weight in the context of Petitioner’s common sense
argument.

69a
Patent Owner also argues that Exhibits 1018 and
1019 are not properly authenticated because they
are not self-authenticating. Id. at 7–8. Petitioner
argues that Patent Owner waived this objection
because it never objected to the exhibits to the
declarations on the basis of authenticity. Opp. 11
(citing Paper 15, 3–5). Petitioner also argues that
Patent Owner’s position is baseless and frivolous
because “[e]vidence may be authenticated through
the testimony of a witness with knowledge that the
exhibit is what it is claimed to be.” Id. (citing FRE
901(b)(1)). Petitioner points to portions of each
declaration stating that the witnesses had such
“personal knowledge” and that the exhibits to the
declarations contain “true and correct copies.” Id.
(citing Ex. 1018 ¶¶ 1, 15; Ex. 1019 ¶¶ 1, 8, 17).
Petitioner also submitted deposition testimony from
the district court litigation that allegedly
authenticates the exhibits. Id. at 11–12 (citing Exs.
1024, 1025). Patent Owner did not respond to
Petitioner’s specific arguments in its Reply.
We need not reach Petitioner’s waiver argument.
Patent Owner made a boilerplate, undeveloped
argument regarding lack of authenticity, and then
failed to respond to Petitioner’s detailed arguments
in support of its showing of authenticity. We agree
with Petitioner’s arguments and evidence on this
issue, and decline to exclude the exhibits on that
basis that they were not properly authenticated.
3. Exhibits 1006, 1007, 1008, and 1020
For Exhibits 1006, 1007, 1008, and 1020, Patent
Owner seeks to exclude the exhibits for the same

70a
reasons discussed above—because they do not relate
to the Betts ground, only the KLM Crew Rest
ground; because they are not prior art available for
use in an IPR; and because they are not properly
authenticated. Mot. Exclude 9. These arguments are
not developed further, and Patent Owner does not
refer to the specific contents of these exhibits. Id. We
deny Patent Owner’s Motion to Exclude these
exhibits for the same reasons provided above when
addressing these same arguments.
F. Patent Owner’s Motions to Seal
Patent Owner filed two unopposed Motions to
Seal. Papers 8, 20. In the first, Patent Owner seeks
to seal exhibits 2020, 2038, 2039, 2040, 2048, 2049,
2050, 2051, 2053, 2060, 2061, 2062, 2063, 2064,
2065, and 2066 as well as Patent Owner’s
Preliminary Response. Paper 8, 1. The Motion also
seeks entry of a protective order that deviates from
our standard protective order in several respects. Id.
at 7–8. In the second Motion to Seal, Patent Owner
seeks to seal exhibits 2077, 2078, 2079, 2089, 2090,
2091, 2092, 2096, 2097, 2098, and 2104, as well as
Patent Owner’s Response. Paper 20, 1.
There is a strong public policy that favors making
information filed in inter partes review proceedings
open to the public. See Garmin Int’l v. Cuozzo Speed
Techs., LLC, Case IPR2012-00001 (PTAB March 14,
2013) (Paper 34) (discussing the standards of the
Board applied to motions to seal). The moving party
bears the burden of showing that the relief
requested should be granted. 37 C.F.R. § 42.20(c).

71a
[A] movant to seal must demonstrate
adequately that (1) the information sought to
be sealed is truly confidential, (2) a concrete
harm would result upon public disclosure, (3)
there exists a genuine need to rely in the trial
on the specific information sought to be
sealed, and (4), on balance, an interest in
maintaining confidentiality outweighs the
strong public interest in having an open
record.
Argentum Pharms. LLC v. Alcon Research, Ltd.,
Case IPR2017-01053, 4 (PTAB January 19, 2018)
(Paper 27) (informative).
In both Motions, Patent Owner asserts that
confidential information has been exchanged in the
underlying district court litigation and the parties
have agreed that the information can be used in this
proceeding, provided that it is filed under seal.
Paper 8, 1; Paper 20, 1. Patent Owner asserts that
the “material includes confidential and business
sensitive information of Patent Owner, Petitioner,
and Related Entities.” Paper 8, 2; Paper 20, 1.
Patent Owner also contends that disclosure of the
information would cause competitive harm to one or
more of those entities. Id. Patent Owner then
explains why each exhibit contains confidential
information that justifies sealing the exhibit. Paper
8, 2–6; Paper 20, 2–4. For example, Patent Owner
contends that Exhibits 2048–2050, 2053, 2061, and
2062 “include competitively-sensitive information
regarding the technical composition and operation of
systems created and provide[d] by Patent Owner’s
successor-in-interest.” Paper 8, 2; see also Paper 20,

72a
2 (addressing Exhibits 2077, 2096, and 2098 using a
similar rationale). Patent Owner and Petitioner also
contend that Exhibits 2020, 2038, 2039, 2040, 2051,
2060, and 2063–66 contain competitively-sensitive
information of Petitioner, including technical
schematics for aircrafts manufactured by Petitioner
that were exchanged under an “Attorney’s Eyes
Only” designation in the district court litigation.
Paper 8, at 3–6; see also Paper 20, 2 (addressing
Exhibits 2078, 2089, 2092, and 2097, which include
information produced under “Attorney’s Eyes Only”
designation in district court litigation), 3
(addressing Exhibits 2079, 2090, and 2091, which
contain
Petitioner’s
competitively-sensitive
information).
Based on our review of the record and Patent
Owner’s Motions, we agree that a sufficient basis
exists to seal the exhibits in question. Although
sealing the entirety of all of the exhibits in question
is undoubtedly overbroad in that portions of each
exhibit contain non-confidential material, we
understand the burden imposed in determining, on
a line-by-line basis, after consultation with all
parties involved, which material is truly confidential
and which is not. The public interest in reviewing
non-confidential information in exhibits that may
not be germane to the issues in the case is also lower
than with respect to exhibits at the core of the
parties’ dispute. Accordingly, we grant Patent
Owner’s Motion to Seal (Paper 8) as to Exhibits
2020, 2038, 2039, 2040, 2048, 2049, 2050, 2051,
2053, 2060, 2061, 2062, 2063, 2064, 2065, and 2066,
and grant Patent Owner’s Motion to Seal (Paper 20)

73a
as to Exhibits 2077, 2078, 2079, 2089, 2090, 2091,
2092, 2096, 2097, 2098, and 2104.
We reach a different conclusion regarding the
redacted versions of Patent Owner’s Preliminary
Response and Patent Owner’s Response. See Papers
7, 22. The Motions do not separately address the
specific material redacted from those documents, or
justify their exclusion from the public record. The
redacted material appears to quote from or
summarize information from exhibits subject to the
motion to seal. However, as noted above, although
we grant the motion to seal the exhibits, that does
not mean that every line of every exhibit contains
confidential information. In addition, the public
interest is perhaps highest when addressing the
ability of the public to view the information in the
briefs of record. That information, by dint of its
inclusion in the briefs, is arguably the most germane
to the issues in the case and the basis for our
Decision. On balance, we conclude that the interest
in maintaining the confidentiality of the redacted
portions of the Patent Owner’s Preliminary
Response and Patent Owner’s Response are
outweighed by the public interest in viewing the
material. Accordingly, we deny the Motion to Seal
Patent Owner’s Preliminary Response and Patent
Owner’s Response.
Patent Owner also seeks entry of an agreed
Protective Order. Paper 8, 7, Ex. A. According to
Patent Owner, the parties’ agreed Protective Order
deviates from the Board’s default protective order by
modifying the list of individuals that can receive
confidential information, and by clarifying that the

74a
Protective Order only governs documents marked
“PROTECTIVE ORDER MATERIAL” in connection
with this proceeding. Id. at 7–8. Patent Owner states
that similar orders have been entered in related
inter partes reviews. Id. at 7. We are amenable to the
changes to our default protective order proposed by
the parties. Accordingly, we grant Patent Owner’s
Motion for entry of the Protective Order attached to
the Motion to Seal (Paper 8) as Exhibit A.
III. CONCLUSION
For all of the above reasons, we determine that
Petitioner has shown by a preponderance of the
evidence that claims 8 and 10–16 of the ’742 patent
are unpatentable. We also deny Patent Owner’s
Motion to Exclude and grant Patent Owner’s Motion
to Seal certain exhibits and to enter an agreed
Protective Order, but deny Patent Owner’s Motion
to Seal the Patent Owner’s Preliminary Response
and Patent Owner’s Response.
IV. ORDER
It is
ORDERED that claims 8 and 10–16 of the ’742
patent have been shown to be unpatentable;
FURTHER ORDERED that Patent Owner’s
Motion to Exclude is DENIED;
FURTHER ORDERED that Patent Owner’s
Motion to Seal (Paper 8) as to Exhibits 2020, 2038,
2039, 2040, 2048, 2049, 2050, 2051, 2053, 2060,

75a
2061, 2062, 2063, 2064, 2065, and 2066 is
GRANTED;
FURTHER ORDERED that Patent Owner’s
Motion to Seal (Paper 20) as to Exhibits 2077, 2078,
2079, 2089, 2090, 2091, 2092, 2096, 2097, 2098, and
2104 is GRANTED;
FURTHER ORDERED that Patent Owner’s
Motion for entry of an agreed Protective Order
(Paper 8, Ex. A) is GRANTED;
FURTHER ORDERED that Patent Owner’s
Motion to Seal its Patent Owner Preliminary
Response (Paper 8) and Patent Owner Response
(Paper 20) is DENIED, and Patent Owner shall file
unredacted versions of both documents within ten
(10) calendar days of the date of this Decision; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37
C.F.R. § 90.2.
PETITIONER:
John Alemanni
Dean Russell
David Reed
Andrew Rinehart
Michael Morlock
KILPATRICK TOWNSEND STOCKTON LLP
jalemanni@kilpatricktownsend.com
drussell@kilpatricktownsend.com
dreed@kilpatricktownsend.com

76a
arinehart@kilpatricktownsend.com
mmorlock@kilpatricktownsend.com
PATENT OWNER:
Michael R. Fleming
Talin Gordnia
IRELL & MANELLA LLP
mfleming@irell .com
tgordnia@irell.com

77a
APPENDIX C
UNITED STATES PATENT AND TRADEMARK
OFFICE
________________________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
________________________
C&D ZODIAC, INC.,
Petitioner,
v.
B/E AEROSPACE, INC.,
Patent Owner.
________________________
Case IPR2017-01275
Patent 9,073,641 B2
________________________
Before JENNIFER S. BISK, SCOTT A. DANIELS,
and RICHARD H. MARSCHALL, Administrative
Patent Judges.
BISK, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I.

INTRODUCTION

C&D Zodiac, Inc. (“Petitioner”), filed a
petition to institute an inter partes review of claims
1, 3-10, and 12-17 of U.S. Patent No. 9,073,641 B2
(Ex. 1001, “the ’641 patent”). Paper 2 (“Pet.”). 35
U.S.C. § 311. B/E Aerospace, Inc. (“Patent Owner”),

78a
filed a Preliminary Response. Papers 6, 7 (“Prelim.
Resp.”).1 Upon consideration of the Petition and
Preliminary Response, we instituted an inter partes
review pursuant to 35 U. S.C. § 314, as to claims 1,
3-10, and 12-17. Paper 12 (“Inst. Dec.”).
Subsequent to institution, Patent Owner filed
a Patent Owner Response (Paper 20, 21, “PO
Resp.”)2 and Petitioner filed a Reply to Patent
Owner’s Response (Paper 28, “Reply”). Patent
Owner filed a Motion to Exclude (Paper 34, “Mot.
Exclude”), Petitioner filed an Opposition to Patent
Owner’s Motion (Paper 37, “Opp.”), and Patent
Owner filed a Reply (Paper 38, “PO Reply to Mot.
Exclude”). Patent Owner also filed two unopposed
Motions to Seal. Papers 8, 22.
On June 28, 2018, in response to the Board’s
Orders instituting on Ground 2 based on the
Supreme Court’s decision in SAS Institute Inc. v.
Iancu, 138 S. Ct. 1348 (2018), Petitioner filed a
Request for Partial Adverse Judgment against itself
with respect to Ground 2, pursuant to 37 C.F.R.
§ 42.73(b). See Paper 30 (modifying institution
decision to institute on all challenged grounds
presented in Petition); Paper 33 (Petitioner’s
Request for Partial Adverse Judgment as to Ground
Patent Owner filed two versions of the Preliminary Response:
Paper 6, to which access is restricted to the parties and the
Board; and Paper 7, a publicly available, redacted version of
Paper 6.

1

Patent Owner filed two versions of the Patent Owner
Response: Paper 20, to which access is restricted to the parties
and the Board; and Paper 21, a publicly available, redacted
version of Paper 20.

2

79a
2). We granted Petitioner’s Request for Partial
Adverse Judgment on July 5, 2018. Paper 36
(granting adverse judgment as to Ground 2).
On August 3, 2018, we held an oral hearing. P
aper 40 (“T r. ”).3
This Final Written Decision is entered
pursuant to 35 U.S.C. § 318(a). For the reasons that
follow, we determine that Petitioner has
demonstrated by a preponderance of the evidence
that claims 1, 3-10, and 12-17 of the ’641 patent are
unpatentable.
A.
Related Matters
Patent Owner asserted the ’641 patent along
with related patents, U.S. Patent Nos. 9,444,742,
9,365,292, 9,434,476, and D764,031, against
Petitioner in B/E Aerospace, Inc. v. Zodiac
Aerospace, Inc., No. 2:14-cv- 01417 (E.D. Tex.) (the
“district court litigation”), that is currently stayed.
Pet. 2; Paper 5, 2. All five of these patents claim
priority to a U.S. application that issued as U.S.
Patent No. 8,590,838 (“the ’838 patent”), which
patent was the subject of Case IPR2014-00727
between Petitioner and Patent Owner. In the final
written decision in that case, the Board held that
claims 1, 3-7, 9, 10, 12-14, 16-19, 21, 22, 24-29, 31,
and 33-37 had been proven unpatentable, and
claims 8, 20, 30, and 38 had not been proven
unpatentable. IPR2014-00727, Paper 65. Both sides
appealed, and the Court of Appeals affirmed. See

The oral hearing included related proceedings, IPR201701276 and PGR2017-00019. Paper 40.

3

80a
B/E Aerospace, Inc. v. C&D Zodiac, Inc., 709 F.
App’x 687, 2017 WL 4387223 (Fed. Cir. Oct. 3, 2017).
Each of the additional four related patents
identified above is the subject of a petition for an
inter partes or post-grant review filed by Petitioner.
See Cases IPR2017-01273 (involving Patent
9,434,476); IPR2017-01274 (involving Patent
9,365,292); IPR2017-01276 (involving Patent
9,440,742); PGR2017-00019 (involving Patent
D764,031).
B.
The ’641 Patent
The ’641 patent relates to space-saving
aircraft enclosures, including lavatories, closets, and
galleys. Ex. 1001, 1:15-20, 2:14-19. Figure 2 of the
’641 patent is reproduced below.

81a
Figure 2, reproduced above, illustrates
enclosure 10, such as a lavatory, positioned aft of
aircraft cabin 12. Ex. 1001, 4:1-3, 4:8-13. The
lavatory has walls that define interior lavatory
space 30. Id. at 4:15-24. Forward wall 28 of the
lavatory is described as “substantially not flat in a
vertical plane” and “disposed immediately aft of and
adjacent to or abutting the exterior aft surface of”
passenger seat 16. Id. at 4:15-24. In particular, the
forward wall is shaped to provide recess 34, which
accommodates the partially-reclined backrest of the
passenger seat, as shown in Figure 2. Id. at 4:24-28.
In addition, the forward wall is shaped to also
provide second, lower recess 100, which
accommodates “at least a portion of an aftextending seat support 17.” Id. at 4:31-36.
The ’641 patent contrasts the embodiment of
Figure 2 with a prior art configuration shown in
Figure 1, which is reproduced below.

82a
Figure 1, reproduced above, illustrates “a prior art
installation of an [aircraft] lavatory immediately aft
of and adjacent to an aircraft passenger seat.” Ex.
1001, 3:65-67. In the depiction of the prior art in
Figure 1, a forward wall of the lavatory (double-lined
structure immediately aft of seat) is flat and in a
vertical plane.
As can be seen by comparing FIG. 1 and FIG.
2, the recess 34 and the lower recess 100
combine to permit the passenger seat 16 to be
positioned farther aft in the cabin than would
be possible if the lavatory enclosure 10
included a conventional flat and vertical
forward wall without recesses like that shown
in FIG. 1, or included a forward wall that did
not include both recesses 34, 100.
Id. at 4:36-42. Notably, the passenger seat in the
Figure 1 depiction of the prior art is identical to the
passenger seat in the Figure 2 illustration of the
invention.
Petitioner challenges claims 1, 3-10, and 1217. Claims 1 and 8 are independent. Claims 3-7
depend directly from claim 1 and claims 9, 10, and
12-17 ultimately depend from claim 8. Claims 1 and
8 are reproduced below.
1. An aircraft lavatory for a cabin of an
aircraft of a type that includes a forwardfacing passenger seat that includes an
upwardly and aftwardly inclined seat back
and an aft-extending seat support disposed
below the seat back, the lavatory comprising:
a lavatory unit including a forward wall
portion and defining an enclosed interior

83a
lavatory space, said forward wall portion
configured to be disposed proximate to and
aft of the passenger seat and including an
exterior surface having a shape that is
substantially not flat in a vertical plane;
and
wherein the said forward wall portion is
shaped to substantially conform to the
shape of the upwardly and aftwardly
inclined seat back of the passenger seat,
and includes a first recess configured to
receive at least a portion of the upwardly
and aftwardly inclined seat back of the
passenger seat therein, and further
includes a second recess configured to
receive at least a portion of the aftextending seat support therein when at
least a portion of the upwardly and
aftwardly inclined seat back of the
passenger seat is received within the first
recess.
Ex 1001, 4:63-5:17.
8. An aircraft lavatory for an aircraft, the
lavatory comprising:
a forward partition;
an aft partition; and
a lavatory space disposed between the
forward partition and the aft partition;
wherein the forward partition comprises:

84a
a forward-extending upper portion;
an aft-extending mid-portion; and
wherein the forward-extending upper
portion, the aft- extending mid-portion,
and the forward-extending lower
portion combine to define a first aftextending recess disposed between the
upper forward-extending portion and
the forward-extending lower portion,
and
wherein the forward partition further defines
a second aft- extending recess proximate to
a lower end of the forward partition, the
second
aft-extending
recess
being
configured to receive at least a portion of
an aft-extending seat support of a forwardpositioned passenger seat therein.
Id. at 5:43-6:14.
C.
Instituted Grounds of Unpatentability
We instituted trial based on all asserted
grounds of unpatentability. Inst. Dec. 23; Paper 30.
After granting Petitioner’s Request for Partial
Adverse Judgment (Paper 36), the following ground
remains for our consideration: whether the

85a
Admitted Prior Art4 and Betts5 render claims 1, 310, and 12-17 obvious under 35 U.S.C. § 103(a).6
II.
ANALYSIS
A.

Principles of Law

To prevail in its challenge to Patent Owner’s
claims, Petitioner must demonstrate by a
preponderance of the evidence that the claims are
unpatentable. 35 U.S.C. § 316(e); 37 C.F.R. § 42.1(d).
A claim is unpatentable under 35 U.S.C. §
103(a) if the differences between the claimed subject
matter and the prior art are such that the subject
matter, as a whole, would have been obvious at the
time of the invention to a person having ordinary
skill in the art. KSR Int’l Co. v. Teleflex, Inc., 550 U.
S. 398, 406 (2007). The question of obviousness is
resolved on the basis of underlying factual
determinations including: (1) the scope and content
of the prior art; (2) any differences between the
claimed subject matter and the prior art; (3) the level
of ordinary skill in the art; and (4) objective evidence

Petitioner defines “Admitted Prior Art” as certain portions of
the ’641 patent, including Figure 1. Pet. 11-12 (citing Ex. 1001,
1:21-22, Fig. 1; Ex. 1004 186).

4

U.S. Patent No. 3,738,497, issued June 12, 1973 (Ex. 1005)
(“Betts”).

5

The Leahy-Smith America Invents Act (“ALA”), Pub. L. No.
112-29, took effect on March 18, 2013. Because the application
from which the ’641 patent issued was filed before that date,
any citations to 35 U.S.C. §§ 102 and 103 are to their pre-AIA
version.

6

86a
of nonobviousness. Graham v. John Deere Co., 383
U.S. 1, 17-18 (1966).
B.
Level of Ordinary Skill
In determining the level of ordinary skill in
the art, various factors may be considered, including
the “type of problems encountered in the art; prior
art solutions to those problems; rapidity with which
innovations are made; sophistication of the
technology; and educational level of active workers
in the field.” In re GPAC Inc., 57 F.3d 1573, 1579
(Fed. Cir. 1995) (citation omitted).
Petitioner relies on the testimony of Alan
Anderson, who testifies that a person with ordinary
skill in the art “would have had a bachelor’s degree
in mechanical engineering, industrial design, or a
similar discipline, or the equivalent experience, with
at least two years of experience in the field of aircraft
interior design.” Pet. 29 (citing Ex. 1004 ¶¶ 27-29).
Patent Owner does not address Petitioner’s
proposal, or offer a competing proposal for a person
of ordinary skill in the art. Based on our review of
the record, we adopt Petitioner’s definition of the
level of ordinary skill in the art.
C.
Claim Construction
In an inter partes review, we construe claim
terms in an unexpired patent according to their
broadest reasonable construction in light of the
specification of the patent in which they appear.7 37
The outcome of this case would be the same using the claim
construction approach articulated in Phillips v. AWH Corp.,
415 F.3d 1303 (Fed. Cir. 2005) (en banc).

7

87a
C.F.R. § 42.100(b). Consistent with the broadest
reasonable construction, claim terms are presumed
to have their ordinary and customary meaning as
understood by a person of ordinary skill in the art in
the context of the entire patent disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.
2007). Only terms that are in controversy need to be
construed, and then only to the extent necessary to
resolve the controversy. Vivid Techs., Inc. v. Am. Sci.
& Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999).
In the Institution Decision, we declined to
construe two terms that Petitioner contended
needed construction. Inst. Dec. 8-10. After
institution, neither party has asked us to provide a
construction of those terms or any other terms.
Accordingly, we need not expressly construe any
terms in this proceeding.
D.
Obviousness in View of Admitted Prior
Art and Betts
Petitioner asserts that the subject matter of
claims 1, 3-10, and 12-17 would have been obvious
over the Admitted Prior Art and Betts. Pet. 31-57.
For the reasons explained below, we determine
Petitioner has established by a preponderance of the
evidence that claims 1, 3-10, and 12-17 are
unpatentable over the Admitted Prior Art and Betts.
1.
The Admitted Prior Art
Petitioner asserts as Admitted Prior Art the
illustration and related disclosure of Figure 1 in the
’641 patent, which is discussed above. See Pet. 11-14
(citing Ex. 1001, 1:21-22, Fig. 1; Ex. 1004 | 86). In
the Institution Decision, we found that the asserted
Admitted Prior Art constitutes prior art. Inst. Dec.

88a
11 (citing Ex. 1001, 3:65-67 (“FIG. 1 is a schematic
diagram of a prior art installation of a lavatory
immediately aft of and adjacent to an aircraft
passenger seat. ”) (emphasis added)). Patent Owner
does not contend that the Admitted Prior Art is not
prior art, or that it cannot be used in this proceeding
as a basis for finding limitations disclosed by the
prior art.
Of particular relevance here is that the
Admitted Prior Art includes a flat forward-facing
lavatory wall with the passenger seat shown in
Figure 1 of the ’641 patent immediately in front of
that wall, with an aft-extending seat support.
2.
Betts
Betts notes a desire to “provide more room for
passengers in an aircraft or other vehicle.” Ex. 1005,
1:6-7. Figure 1 of Betts is reproduced below.

89a

Figure 1 discloses airplane passenger seat 10
having tiltable backrest 12. Ex. 1005, 2:8-9. Behind
the seat is coat closet 14, which has luggage space 16
along the floor and overhead coat compartment 18.
Id. at 2:9-14. “The lower portion 30 of the coat
compartment 18 slants rearwardly to provide a
space for seatback 12 to be tilted rearwardly as
desired by the occupant. The top 32 of storage space

90a
16 also slants rearwardly so as not to interfere with
seatback 12 when tilted.” Id. at 2:19-24.
3.
Obviousness of Independent
Claims 1 and 8
Petitioner relies on the Declarations of Alan
Anderson (Ex. 1004, “Anderson Declaration”), Scott
Savian (Ex. 1018), and Vince Huard (Ex. 1019) in
support of its assertions that the combination of
Admitted Prior Art and Betts discloses or renders
obvious all of the limitations of claims 1 and 8. Pet.
21-26, 31-57; Reply 4-15. Patent Owner relies on the
Declarations of Dr. Adam Dershowitz (Ex. 2104,
“Dershowitz Declaration”), R. Kaus Brauer (Ex.
2046), and James Brunke (Ex. 2097) in its Response,
and argues that Petitioner failed to establish that
the proposed combination discloses the claimed
“second recess” and “reducing a volume of unusable
space”/“reducing or eliminating gaps” limitations,
and failed to establish an adequate motivation to
combine. PO Resp. 7-22. The parties also dispute the
relevance and impact of Patent Owner’s alleged
objective evidence of nonobviousness on the
obviousness issues in this case. See Pet. 77-80; PO
Resp. 22-37; Reply 15-27.
i.
Motivation to Combine
Petitioner alleges that it would have been
obvious to modify the prior art flat wall lavatory, as
shown in the Admitted Prior Art, with a contoured
forward wall as shown in Betts. Pet. 22 (citing Ex.
1004 ¶¶ 56-64). We first consider Petitioner’s
argument that we are collaterally estopped from
considering the merits of this issue, because the
Board already found in the related inter partes

91a
review of the ’838 patent that “it would have been
obvious to apply the recessed forward wall design of
Betts to other enclosures, including single-spaced
lavatories.” Reply 3 (quoting Case IPR2014-00727,
12 (Paper 65) (emphasis removed)). Petitioner relies
on the Federal Circuit’s affirmance of that decision
after the Petition was filed in this case as the basis
for its collateral estoppel argument. Id. (citing Ex.
1026 (B/E Aerospace, Inc. v. C&D Zodiac, Inc., 709
F. App’x 687 (Fed. Cir. Oct. 3, 2017))). According to
Petitioner, Patent Owner should be precluded from
arguing that “it would not have been obvious to
apply the recessed forward wall design of Betts to
other
enclosures,
including
single-spaced
lavatories.” Id. at 3-4. Petitioner only devotes a few
sentences of argument to collateral estoppel, does
not assess the relevant factors when determining
whether to apply collateral estoppel, and does not
assess the differences in the claims at issue in the
’838 patent and claims 1 and 8 here. See Reply 3-4;
Banner v. U.S., 238 F.3d 1348, 1354 (Fed. Cir. 2001)
(“Collateral estoppel requires four factors: (1) the
issues are identical to those in a prior proceeding, (2)
the issues were actually litigated, (3) the
determination of the issues was necessary to the
resulting judgment, and (4) the party defending
against preclusion had a full and fair opportunity to
litigate the issues.”). In addition, Patent Owner has
had no meaningful opportunity to address the issue
in its own briefing because the collateral estoppel
issue was raised for the first time in Petitioner’ s
Reply. Under these circumstances, where the issue
has not been fully developed by Petitioner or
addressed by Patent Owner, we decline to apply

92a
collateral estoppel. We do, however, view the
findings in the prior case as informative when they
closely resemble the issues we address here.
In support of the proposed modification of the
Admitted Prior Art with the contoured wall of Betts,
Petitioner relies on the testimony in the Anderson
Declaration, explaining that a primary goal of
airplane interior design is efficient use of passenger
cabin space so that more passengers can fit in the
cabin or to make the passengers more comfortable.
Pet. 22-23 (citing Ex. 1004 1 57). According to
Petitioner, because Betts uses the contoured forward
wall to provide more passenger space in the cabin,
one of ordinary skill in the art would have been
motivated to replace the prior art flat forward
lavatory wall with the contoured wall of Betts to
provide that same additional space. Id. at 23 (citing
Ex. 1004 ¶ 58). Petitioner points to the recess in the
contoured wall Betts discloses as evidence of that
approach, which allows the passenger chairs to be
pushed back further aft, accommodating a portion of
the seat back. Id. at 24-25 (citing Ex. 1004 ¶ 59).
Patent Owner argues “that those of skill in
the art had no reason to make the combination
proposed” by Petitioner. PO Resp. 24. Patent Owner
relies on the allegedly long co-existence of the Betts
design within planes that included the prior art flat
lavatory walls, suggesting that there was no
motivation to make the modification. Id. at 16-18.
Patent Owner also argues that the proposed
combination would require “total destruction” of
Betts, if the coat closet in Betts were turned into a
lavatory. Id. at 18-21. Patent Owner also contends
that Petitioner and Mr. Anderson fail to establish a

93a
reasonable expectation of success in light of this
total deconstruction of Betts. Id. at 21-22.
Based on our review of the evidence and
arguments, we find that one of ordinary skill in the
art would have been motivated to modify the
Admitted Prior Art lavatory by replacing the flat
forward wall with the contoured forward wall of
Betts. Petitioner submits convincing argument
based on the testimony of Mr. Anderson, that
designers of airplane interiors were concerned about
adding space to the cabin and that the Betts
contoured wall increased interior space. Pet. 22-25
(citing Ex. 1004 ¶¶ 57-59). Betts itself backs up this
testimony by stating that one of the goals of its
design is “to provide more passenger room.” Ex.
1005, Abstract. We also agree with Petitioner’s
assertion that Figure 1 of Betts depicts a passenger
seat further aft in the cabin than it could have been
if the wall were flat with no recess, and merely
extended up from the bottom portion of the wall. See
Betts Fig. 1; Pet. 23-24. Betts therefore depicts how
the contoured wall and recess provide more
passenger space when compared to a flat, vertical
wall, and Betts discusses the ability of its design to
save space. As such, Betts adequately supports the
proposed modification of the prior art flat forward
wall as shown in the Admitted Prior Art.
Patent Owner’s argument that flat forward
lavatory walls co-existed with the Betts design for
years without modification, even if accurate, does
not outweigh the more convincing evidence and
argument supporting Petitioner’s position based on
Betts and the Anderson Declaration. In addition,
Patent Owner’s argument that one would need to

94a
“totally deconstruct” Betts in order to add a lavatory
to Betts misapprehends Petitioner’s proposed
modification. Petitioner proposes to replace a
lavatory flat forward wall as shown in the Admitted
Prior Art with the Betts contoured wall, not add a
lavatory behind the Betts contoured wall. See Pet.
22, 24; Reply 4-5. Although we do not apply
collateral estoppel for the reasons provided above,
we note that our findings regarding the proposed
combination and modification are consistent with
the Federal Circuit’s decision in the related case. See
B/E Aerospace, 709 F. App’x at 694 (rejecting Patent
Owner’s argument that Petitioner’s combination
required adding lavatory to Betts).
Based on the foregoing, we find that one of
ordinary skill in the art at the time of the invention
would have been motivated to modify the lavatory
flat forward wall in the Admitted Prior Art by
replacing it with the contoured forward wall of Betts.
ii.
The “Forward wall ” and
“First Recess ” limitations
Claims 1 and 8 contain several limitations
that are indisputably8 disclosed by the proposed
combination of Betts and the Admitted Prior Art.
For example, claim 1 recites “a lavatory unit
including a forward wall portion and defining an
enclosed interior lavatory space, said forward wall
portion configured to be disposed proximate to and
aft of the passenger seat and including an exterior
Patent Owner does not argue that, once the proposed
combination is made, the combination fails to disclose these
limitations.

8

95a
surface having a shape that is substantially not flat
in the vertical plane” and claim 8 recites “a forward
partition; an aft partition; and a lavatory space
disposed between the forward partition and aft
partition; wherein the forward partition comprises:
a forward-extending upper portion; an aft-extending
mid-portion; and a forward-extending lower
portion.” Petitioner argues that a person of ordinary
skill in the art would know that the contoured
forward wall of Betts could be used in place of a flat
forward wall on an aircraft lavatory. Pet. 33-34
(citing Ex. 1004 ¶ 178), 46 (citing Ex. 1004 ¶¶ 209211). This arrangement follows from the proposed
combination discussed above, where the flat forward
lavatory wall of the Admitted Prior Art is replaced
by the contoured wall of Betts. We find that a person
of ordinary skill in the art would have known about
flat forward walls such as that the Admitted Prior
Art discloses, and contoured forward walls such as
that Betts discloses, and that the latter could be
used in lieu of the former to save space in the cabin.
See, e. g., Ex. 1001, Fig. 1; Ex. 1005, Fig. l; Ex. 10041
246. Once the proposed modification is made, the
resulting forward wall is “substantially not flat in a
vertical plane,” as recited by claim 1 and comprises
“a forward-extending upper portion; an aftextending mid-portion; and a forward-extending
lower portion” as recited by claim 8.
Claim 1 recites that “said forward wall
portion is shaped to substantially conform to the
shape of the upwardly and aftwardly inclined seat
back of the passenger seat, and includes a first
recess configured to receive at least a portion of the
upwardly and aftwardly inclined seat back of the

96a
passenger seat therein” and claim 8 recites that “the
forward-extending upper portion, the aft-extending
mid-portion, and the forward-extending lower
portion combine to define a first aft-extending recess
disposed between the upper forward-extending
portion and the forward-extending lower portion.”
Petitioner contends that Betts discloses these first
recess limitations. See Pet. 34-35 (citing Ex. 1005,
Fig. l; Ex. 1004 ¶¶ 181-183), 47 (citing Ex. 1004
¶¶ 213-214). We agree. Figure 1 of Betts discloses
slanted walls 30, 32 that form a recess configured to
receive at least a portion of inclined seat back 12. See
Ex. 1005, Fig. 1,2:19-24 (“The lower portion 30 of the
coat compartment 18 slants rearwardly to provide a
space for seatback 12 to be tilted rearwardly as
desired by the occupant. The top 32 of storage space
16 also slants rearwardly so as not to interfere with
seatback 12 when tilted.”); see also B/E Aerospace,
709 F. App’x at 693 (“Walls 30 and 32 [in Figure 1 of
Betts] slant rearwardly to allow the occupant to
recline seatback 12 of passenger seat 10.” (citing Ex.
1005, 2:7-24)).
iii.
“Second Recess”
Claim 1 recites “said forward wall portion . . .
further includes a second recess configured to
receive at least a portion of the aft-extending seat
support therein when at least a portion of the
upwardly and aftwardly inclined seat back of the
passenger seat is received within the first recess”
and claim 8 recites “the forward partition further
defines a second aft- extending recess proximate to
a lower end of the forward partition, the second aftextending recess being configured to receive at least
a portion of an aft-extending seat support of a

97a
forward-positioned
passenger
seat
therein.”
Petitioner does not contend that the Admitted Prior
Art or Betts alone discloses the second recess.
Instead, Petitioner argues that one of ordinary skill
in the art would have found it obvious and would
have been motivated to add a second recess to a flat
forward facing wall. Pet. 37. In support of its
assertion, Petitioner first notes that the Admitted
Prior Art includes “[a] seat with an aft extending
seat support.” Pet. 37 (citing Ex. 1001, Fig. 1).
Petitioner argues that the logic of using a recess to
receive the seat back applies equally to using
another recess to receive the aft extending seat
support. Pet. 37-38 (citing Ex. 1004 11 188, 189,
191). According to Petitioner, as the seat is moved
further aft the seat support may come into contact
with the lower section of the wall, impeding
movement, and the addition of the second recess to
accommodate the seat support will allow the seat to
move further back. Reply 6 (quoting Ex. 1004 ¶ 74).
Petitioner further points out that adding a second
recess is nothing more than the application of known
technology (i.e., Betts) for its intended purpose, with
a predictable result (i.e., to position the seat as far
back as possible). Pet. 37. Petitioner relies on
Mr. Anderson’s testimony that the second recess,
although not disclosed by either of the two
references, would have been obvious to add to the
combination. Id. at 38-39 (citing Ex. 1004 ¶¶ 186192). Petitioner also relies on Mr. Anderson’s
citation to three alleged examples of enclosures that
include a lower recess to receive a seat support. Id.
at 39 (citing Ex. 1004 ¶ 192); Reply 6-10 (citing Ex.
1004 ¶¶ 74-79; Ex. 1018, 62; Ex. 1019 ¶¶ 8-11, 17-

98a
20). Petitioner contends that it does not matter that
the three enclosures were not available as prior art
in these proceedings, or prior art at all, as long as
they are evidence of what was known in the art.
Reply 9-10. According to Petitioner, these designs
support Petitioner’s position that “it was a common
sense solution to include a recess in a wall to enable
a seat support to be positioned further aft.” Reply 10
(citing Ex. 1004 ¶¶ 75).
Patent Owner argues that Petitioner’ s
contention that the second recess would have been
obvious “is supported by nothing more than
Mr. Anderson’s opinion. ” PO Resp. 9. Patent Owner
asserts that the claimed second recess is “‘more than
a peripheral issue’ and ‘therefore require[s] a core
factual finding.’” Id. at 10 (quoting K/S HIMPP v.
Hear- Wear Techs., LLC, 751 F.3d 1362, 1365 (Fed.
Cir. 2014)). Relying on the Dershowitz Declaration,
Patent Owner argues that such recesses were not
common knowledge and that one could not move
seats further aft as Mr. Anderson suggests, if using
the prior art flat wall. Id. at 11-12 (citing Ex. 2104
¶¶ 164-165). Patent Owner also argues that adding
a second recess is not supported by the intended
purpose of Betts, which is limited to providing a first
recess for seat recline, and adding a second recess
would not be predictable due to unpredictable
impacts on the lavatory. Id. at 12-13 (citing hearing
and deposition testimony; Ex. 2104 ¶¶ 154, 165; Ex.
2046 ¶ 36; Ex. 2097 ¶¶ 86, 88). Patent Owner also
contends that the three recess examples used by
Petitioner were not publicly available because the
drawings in question were confidential and not for

99a
public use, and cannot be used to show what was
known in the art. Id. at 13-14.9
We agree with Patent Owner that use of
common sense to supply a missing limitation must
be carefully circumscribed and requires supporting
evidence in the situation presented here, but
disagree that Petitioner has failed to support its
obviousness argument with proper reasoning and
evidence. Patent Owner correctly notes that in K/S
HIMPP, the court held that when a limitation
“presents more than a peripheral issue,”
determination of patentability requires a “core
factual finding” that in turn requires “point[ing] to
some concrete evidence in the record in support of
these findings. ” K/S HIMPP, 751 F.3d at 1365
(quoting In re Zurko, 258 F.3d 1379, 1386 (Fed. Cir.
2001)). Similarly, in Arendi S.A.R.L. v. Apple Inc.,
832 F.3d 1355, 1361-62 (Fed. Cir. 2016), the Federal
Circuit held that common sense, common wisdom,
and common knowledge may be properly considered
in an obviousness analysis, but “cannot be used as a
wholesale substitute for reasoned analysis and
evidentiary support, especially when dealing with a
limitation missing from the prior art references
specified.” Arendi distinguished the situation
involving a “central” limitation, at issue in Arendi,
from the situation in Perfect Web, where common
sense was used to supply a missing limitation. See
Perfect Web Techs., Ins. v. InfoUSA, Inc., 587 F.3d
1324 (Fed. Cir. 2009). In Perfect Web, the court
Patent Owner moves to exclude the three references and
related testimony, which we deny for the reasons outlined
below. See infra II.E.

9

100a
affirmed a summary judgment decision finding
claims invalid as obvious, where the lower court
determined that a missing limitation would have
been obvious based on common sense, even without
reliance on record evidence such as expert
testimony. See id. at 1329 (“[U]se of common sense
does not require a ‘specific hint or suggestion in a
particular reference,’ only a reasoned explanation
that avoids conclusory generalizations.”), id. at 1330
(“No expert opinion is required to appreciate the
potential value to persons of such skill in this art of
[the missing limitation].”).
We need not reach the issue of whether the
“second recess” is so peripheral that Petitioner need
not have pointed to evidence or expert opinions to
support its argument that the missing limitation
would have been obvious. Petitioner has supplied
reasoned explanation and record evidence to support
its position. Petitioner relies on the testimony of
Mr. Anderson, who stated that
a person of ordinary skill in the art would
recognize that as a seat is moved further aft
the seat support necessarily is also moved
further aft. As the seat is moved aft the feet of
the seat support may come into contact with
the lower section of the wall. Creating one or
more recesses to accommodate whatever
portion(s) of the seat support that would
contact the forward wall of the enclosure is
the obvious solution to this known problem.
Ex. 1004 ¶ 74; see also id. at ¶ 191.
Petitioner also relies on evidence tending to
show that recesses adjacent the floor of cabin,
configured to receive a seat support, were known in

101a
the art. Pet. 39 (citing Ex. 1004 ¶ 192); Reply 6-10
(citing Ex. 1004 ¶¶ 74-79; Ex. 1018, 62; Ex. 1019
¶¶ 8-11, 17-20). The Petition shows three designs
with such a recess side-by-side as shown in the
figure from page 40 of the Petition, reproduced
below:

The figure depicts three designs labelled “SAS MD90 Aft-Storage” dated October 2004, “737 Storage”
dated February 1994, and “747 Storage” dated
December 2009. Pet. 40. All three designs show
recesses near the floor of the cabin, which Petitioner
circled in annotations. Id. The first design, shown on
the left, also shows a passenger seat in dotted lines,
with the aft seat support shown within the recess.
Id. Petitioner submitted declarations from third
parties familiar with the designs that show the
recesses were designed to receive passenger seat
legs, and the dates that the designs were in public
use or on sale. See Ex. 1018, 62 (corresponding to
SAS MD-90 Aft-Storage); Ex. 1019 ¶¶ 8-11
(corresponding to 737 Storage); Ex. 1019 ¶¶ 17-20
(corresponding to 747 Storage). We find this

102a
testimony and evidence credible and convincing, and
find that Petitioner has established that it would
have been obvious to further modify the Admitted
Prior Art/Betts combination to include the claimed
“second recess” to receive passenger seat supports.
Patent Owner’s arguments, as a whole, are
not persuasive. As noted above, we agree with
Patent Owner’s interpretation of the relevant law to
require more than conclusory allegations to
establish that a missing claim limitation would have
been obvious based on common sense. Petitioner
provides more than bare, conclusory allegations,
however, including reliance on other references that
predate the ’641 patent to support its common sense
argument. Patent Owner also argues that adding
the second recess would have been unpredictable
due to the unpredictable nature of lavatory design.
PO Resp. 12-13. Much of Patent Owner’s cited
evidence does not seem focused on the second recess
at all, and instead is directed more generally to
lavatories as a whole. See Ex. 2052, 37:5-42:17,
53:10-14; Ex. 2075, 36:18-37:15; Ex. 2097 ¶¶ 86, 88.
We credit the testimony of Mr. Anderson on behalf
of Petitioner, that the “result of such a modification
is predictable, allowing the seat to be positioned
further aft in an aircraft.” Ex. 1004 ¶ 191. We are
not persuaded that adding an aft recess near the
cabin floor, standing alone, would introduce
unpredictable results due to modifications that
would be necessary to that limited area of the
lavatory.
Patent
Owner’s
arguments
attacking
Mr. Anderson’s use of the three examples of recesses
in the prior art also bear little fruit. Patent Owner

103a
argues, without citation to any support, that in order
to support the “common sense” argument,
Mr. Anderson could not rely on references that were
not available as prior art in inter partes reviews, i.e.,
patents and printed publications. PO Resp. 10.
Petitioner does not argue that any of the three
drawings are prior art that can be combined with the
Admitted Prior Art and Betts as part of a ground of
unpatentability, and therefore has not run afoul of
the rules governing these proceedings. 35 U.S.C.
§ 311(b) (“A petitioner in an inter partes review may
request to cancel as unpatentable 1 or more claims
of a patent only on a ground that could be raised
under section 102 or 103 and only on the basis of
prior art consisting of patents or printed
publications”). Petitioner uses the references to
support its common sense argument and identify,
specifically, the knowledge of those skilled in the art,
and Patent Owner points to no authority for the
proposition that such evidence must take a
particular form, much less be limited to qualifying
patent and printed publication prior art under
§ 311(b).
Patent Owner also argues that Petitioner
failed to establish that the designs shown in the
three drawings were prior art at all, and were not
publicly known. Id. While the drawings themselves
may have been confidential as Patent Owner notes,
the declarations accompanying the drawings posit
that the drawings reflect designs that were on sale
and in public use years before the earliest priority
date of the ’742 patent. See Ex.
1018.62 (corresponding to SAS MD-90 Aft-Storage);
Ex 1019 ¶¶ 8-11 (corresponding to 737 Storage); Ex.

104a
1019 ¶¶ 17-20 (corresponding to 747 Storage).
Patent Owner uses the deposition testimony of one
of the declarants to cast doubt on whether the design
with the recess was part of the product that was sold,
but does not attack the other assertions of prior art.
PO Resp. 14 (citing Ex 2079, 54:20-55:4
(corresponding to 747 Storage)). We find the
unrebutted testimony establishes that those two
designs were in public use or on sale prior to the
critical date of the ’742 patent. See Ex. 1018.62
(drawing), ¶¶ 11-15 (corresponding to SAS MD-90
Aft-Storage); Ex. 10191 ¶¶ 8-11 (corresponding to
737 Storage)). We find the unrebutted testimony
regarding these designs, the SAS MD-90 Aft-Storage
and 737 Storage, sufficient to establish that the
designs are prior art. Accordingly, two of the designs
Petitioner relies on were not only “known” internally
within the art, they were disclosed in prior art
designs.10 An annotated view of the design for the
SAS MD-90 Aft-Storage is reproduced below:

10 Petitioner argues that the three references need not qualify
as prior art at all to be considered as part of its “common sense”
argument. See Reply 10 (“But even if these design documents
themselves were never made public, they still demonstrate
that airplane designers had long known that it was a common
sense solution to include a recess in a wall to enable a seat
support to be positioned further aft.”); Opp. 8 (citing cases in
support of argument). Although not necessary to our Decision
because we find that two of the references are prior art, we
agree that such non-prior art references, such as these
confidential drawings, can be considered in an obviousness
analysis. Here, they constitute concrete evidence in support of
Petitioner’s common sense argument.

105a

Reply 7 (citing Ex. 1018, 62). The figure above shows
a recess adjacent to the cabin floor configured to
receive the aftwardly extending rear seat support
within the recess. This prior art design convincingly
supports Petitioner’s position that recesses
configured to receive seat supports were known in
the art, and it would have been a matter of common
sense to incorporate such a known structure in the
Admitted Prior Art/Betts combination.
Based on the foregoing, Petitioner has
established adequately that it would have been
obvious to add a second recess in a manner that
satisfies the “second recess” requirements of claims
1 and 8.

106a
iv.
Objective Evidence
Non-Obviousness

of

We turn now to the secondary considerations
evidence that Patent Owner has cited in this
proceeding as purportedly demonstrating nonobviousness of claims 1 and 8 (as well as the other
challenged claims). See PO Resp. 31-45. Petitioner
argues that Patent Owner has failed to establish the
required nexus, and that we should follow the
approach taken by the Federal Circuit in the related
inter partes review and conclude that the claims
would have been obvious even if we consider the
Patent Owner’s evidence of objective indicia. Reply
15-16.
Nexus. “For objective [evidence of secondary
considerations] to be accorded substantial weight,
its proponent must establish a nexus between the
evidence and the merits of the claimed invention.”
Wyers v. Master Lock Co., 616 F.3d 1231, 1246 (Fed.
Cir. 2010) (alteration and emphasis in original)
(quoting In re GPAC Inc., 57 F.3d 1573, 1580 (Fed.
Cir. 1995)). Patent Owner only addresses nexus in
the context of its argument regarding commercial
success. PO Resp. 29-30. Patent Owner argues that
nexus here “is presumed” because “[t]here is no
dispute that [Patent Owner’s] Spacewall product,
which has been so commercially successful, is an
embodiment of the patent.” Id. at 29 (citing Ex. 2093,
36:16-37:3). Patent Owner also asserts that other
documents show that the commercial success of the
Spacewall product stemmed from the “curved shape”
of the lavatory forward wall or the “lavatory
structure design.” Id. (citing Ex. 2078; Ex. 2090,
136:14-137:11). Such general allegations that Patent

107a
Owner’s product “is an embodiment of the patent”
and led to sales due to a “curved shape” ordinarily
fail to establish that a product contains all of the
limitations of the claim at issue, which is necessary
to trigger a presumption of nexus. See WBIP, LLC v.
Kohler Co., 829 F.3d 1317, 1330 (Fed. Cir. 2016)
(holding that nexus is presumed when patentee
establishes that commercial product is embodiment
of the claimed invention). However, Petitioner did
not address the presumption of nexus issue in the
Petition or the Reply, and did not argue that Patent
Owner’s Spacewall product was not covered by the
challenged claims here. See Reply 15-16; Tr. 30:8-19
(Petitioner acknowledging at the oral hearing that it
did not dispute that Patent Owner’s product met the
limitations of the challenged claims). Accordingly,
we apply a presumption of nexus here.
Petitioner argues that nexus cannot be
established because all of the claim limitations were
known in the prior art. See Pet. 77. Petitioner also
argues that none of Patent Owner’s evidence ties the
“second recess” to the secondary considerations.
Reply 15-16. These arguments do not address the
presumption of nexus issue, and improperly suggest
that Patent Owner must tie the objective indicia to
the supposedly new feature in the claims, the second
recess. See WBIP, 829 F.3d at 1330 (“[P]roof of nexus
is not limited to only when objective evidence is tied
to the supposedly ‘new’ feature(s).”). The arguments
also fail to rebut the presumption, which requires
reliance on evidence of record to successfully rebut
the presumption. See id. at 1329 (holding that the
presumption of a nexus cannot be rebutted
adequately by argument alone). Although we find a

108a
presumption of a nexus, we will consider Petitioner’s
arguments regarding a lack of nexus, to the extent
they also bear on the weight we give any alleged
objective indicia, where appropriate below.
Copying. Patent Owner alleges that
Petitioner copied the patented technology. PO Resp.
23-25. More specifically, Patent Owner alleges that
Petitioner encountered problems with implementing
the “curvature of the lavatory forward wall” and
rather than turn to a prior art solution, “copied the
curvature” of Patent Owner’s lavatory wall. Id. at 24
(citing Ex. 2091, 138:5-142:17, 141:18-22, 142:10-13;
Ex 2104 ¶ 203). Patent Owner relies on
Dr. Dershowitz’s testimony that Petitioner made a
“direct attempt” to use Patent Owner’s patented
solutions, including the “patented shape” of Patent
Owner’s forward lavatory wall.” Id. at 24-25 (citing
Ex. 2104 ¶ 225; Ex. 2075, 111:7-14).
Petitioner argues that Patent Owner fails to
prove copying. Reply 16-18. Petitioner contends that
Patent Owner’s evidence fails to address the “second
recess,” or establish that Petitioner copied that
aspect of Patent Owner’s design. Id. at 16. Petitioner
also argues that Patent Owner misinterprets the
deposition testimony from Petitioner’s witness,
which was not suggesting problems with the forward
lavatory wall at all, but instead concerned problems
with the curved side wall facing the exterior of the
airplane. Id. at 16-17 (citing Ex. 2091-37, 144:18145:5). Petitioner asserts that the statements from
the Dershowitz Declaration merely rely on this
faulty reading of the deposition. Id. at 17.
We agree with Petitioner that Patent Owner
has failed to establish copying here. First, as

109a
Petitioner notes, Patent Owner has made no attempt
to establish that the claimed invention was copied
by Petitioner, including the claimed “second recess.”
See PO Resp. 23-35. At most, Patent Owner alleges
that Petitioner copied one aspect of the claimed
design—the contoured forward wall. Id. Further,
Patent Owner’s copying allegation rests on an
apparent misinterpretation of deposition testimony
dealing with problems in the design of the “sidewall”
facing the exterior of the aircraft, not the lavatory
forward wall that is at issue in this case. See Ex.
2091, 144:18-145:5; Reply 16-17. Although the
forward wall is also mentioned in the testimony
cited by Patent Owner, that testimony does not
suggest that the problem was focused on the
lavatory forward wall, or that copying the forward
wall would alleviate the problems with the sidewall.
At best, the testimony and related expert analysis
show a weak case of copying, made weaker by the
failure to address the “second recess” and other
claim limitations and establish that Petitioner
copied a design covered by claims 1 and 8.
Skepticism. Patent Owner argues that
“skepticism and disbelief expressed by industry
participants” regarding its curved wall design
supports the nonobviousness of claims 1 and 8. PO
Resp. 25. Patent Owner contends that customers
demanded mock ups of the new designs and tested
them to ensure the lavatory still provided sufficient
comfort before concluding that the design would
work. Id. at 25-26. Patent Owner also contends that
Petitioner’s expert Mr. Anderson tried and failed to

110a
do what Patent Owner “has done with its patents.”
Id. at 26.11
Petitioner argues that none of the alleged
skepticism mentions the claimed “second recess” and
that the testimony introduced amounts to hearsay.
Reply 18-19. Petitioner also argues that testimony
showing mere “corporate prudence” when
evaluating designs before a purchase does not
establish skepticism. Id. at 19. Regarding
Mr. Anderson’s testimony, Petitioner contends that
Patent Owner takes the comments out of context,
and Mr. Anderson was talking more generally about
adding seats to a cabin. Id. at 19-20.
While we agree with Patent Owner that there
appeared to be some skepticism regarding its design,
Patent Owner has not convincingly established that
there was skepticism about the claimed subject
matter. Instead, the testimony appears to reflect
normal testing one would expect whenever making
a large order of goods, with some skepticism aimed
at the size and comfort of the resulting lavatory,
which does not bear on the claim language. See PO
Resp. 25-26. In addition, the testimony of
Mr. Anderson does not establish that he tried and
failed to arrive at the claimed design at issue here—
he merely expressed his experience in not being able
to simply add a row of seats to a plane based on
saving six inches of room. Reply 19-20. Overall, we
view Patent Owner’s evidence of industry skepticism
regarding the claimed method as weak. Proceeding
11 Patent Owner’s argument may be viewed as “failure of
others” rather than “skepticism,” but we address it in the
manner that Patent Owner framed the issue.

111a
Contrary to Conventional Wisdom. Patent Owner
argues that conventional wisdom required a flat
forward wall and using the space between the seats
and the wall for small storage bins known as “dog
houses.” PO Resp. 27-28. According to Patent
Owner, its “design cut directly against this
conventional wisdom” by removing the spaces for the
dog houses and allowing the “seat to closely nestle
with the lavatory wall behind it.” Id. at 28.
Petitioner argues that Patent Owner again bases its
argument on the contoured wall, which was well
known in the art. Reply 21. Petitioner also argues
that the mere passage of time without a curved-wall
lavatory does not establish nonobviousness. Id. at
22.
We accord Patent Owner’s evidence that its
design was contrary to the ordinary use of dog
houses behind seats some weight. However, this
argument amounts to little more than an assertion
that using a curved lavatory wall was new, when
curved walls were known in airplane design and the
claims at issue here require far more than a
contoured wall. See Reply 21; Ex. 1005, Fig. 1.
Accordingly, we view the evidence on this point as
weak.
Commercial Success. Patent Owner argues
that its Spacewall product achieved substantial
commercial success based on a desire of its
customers to add seats to the aircraft, which the
claimed design made possible. PO Resp. 29. Patent
Owner relies on “a nearly $800 million, 10-year
contract as the exclusive lavatory provider on all
new Boeing 737 aircraft,” which was the “direct
result of the patented technology.” Id. at 30. Patent

112a
Owner also contends that its market share in this
market went from 0% to 20% by 2018. Id. at 31.
Petitioner argues that Patent Owner’s $800
million sales figure in a vacuum means little when
Patent Owner did not include the contract as
evidence, and the contract would reveal that it
included sales of unpatented lavatory designs. Reply
23-24. Petitioner also contends that Patent Owner’s
expert testimony cannot fill the gap because he
admitted that he had not reviewed the contract. Id.
at 24-25.
As noted above, we presume that a nexus
exists between Patent Owner’s Spacewall product
and the claims at issue here. But that nexus does not
extend to non-Spacewall products, and Patent
Owner’s decision not to introduce the $800 million
contract undermines its ability to allege that the
sales were due to the Spacewall design. Instead, it
appears that at least some portion of those sales
correspond to unpatented designs. See Reply 24
(citing testimony). These same sales, including
patented and unpatented products, presumably
helped create the 20% market share increase. PO
Resp. 31. Without the contract or a breakdown of the
sales and market share attributable to the patented
Spacewall design, Patent Owner limits the potential
impact of the $800 million contract and growing
market share on our analysis here. That said, Patent
Owner does introduce evidence that at least some
customers bought the Spacewall product due to its
contoured wall and space-saving design, and sales
for the Spacewall were likely substantial even if they
were a fraction of the $800 million contract. PO
Resp. 29-31. Based on the foregoing, we view Patent

113a
of commercial

Owner’s evidence
success as
moderate.
Industry Praise. Patent Owner argues that
numerous instances of industry praise support the
nonobviousness of the claims here. PO Resp. 32-34
(citing Ex. 2046 ¶¶ 26-33; Ex. 2055-2059; Ex. 2096).
The alleged praise for the claimed invention include
an industry award and positive comments in trade
publications. Id. Patent Owner contends that “the
objective evidence ties directly to claimed features”
because it notes that Patent Owner’s design frees up
floor space and includes curved walls. Id. at 34.
Petitioner argues that, upon closer inspection, the
industry award was “voted on by a panel of the
inventor’s colleagues, while he was in the room
watching their vote, [and] hardly reflects unbiased
industry praise.” Reply 26 (emphasis omitted).
Petitioner contends that the other purported praise
lacks credibility because there is no evidence that
the praise was from one of ordinary skill in the art,
and the articles suggest that unclaimed features
drove the success of the design, including the
vacuum toilet, LED lighting, and oxygen system. Id.
at 26-27 (citing Exs. 2055-2059).
While Petitioner makes some credible
arguments that go to the weight to be accorded the
industry praise, we find that Patent Owner has
established industry praise for the Spacewall
product, which we presume has a nexus to the
claimed invention.12 The praise specifically

Petitioner has arguably rebutted the presumption of a nexus,
or significantly undermined its import, by pointing to evidence
that some of the praise was tied to unclaimed features. Reply
12

114a
references features relevant to the claimed
inventions, such as the curved walls and space
savings. See PO Resp. 32-34 (citing Ex. 2046 ¶¶ 2633; Ex. 2055-2059; Ex. 2096). Therefore, although
the praise also notes unclaimed features of the
lavatory design, and the industry award process
may have been flawed, the award and praise of
claimed features are sufficient to establish industry
praise of the claimed invention. We view the
evidence of industry praise as moderate.13
v.
Conclusion as to Claims 1
and 8
Patent Owner has established a moderate
level of objective indicia of nonobviousness related to
commercial success and industry praise, but
Petitioner has established a strong case of
obviousness based on the Admitted Prior Art and
Betts, coupled with common sense and the
knowledge of a person of ordinary skill in the art.
Based on the foregoing, after consideration of all of
26-27 (citing Exs. 2055-2059). We need not determine whether
Petitioner has adequately rebutted the presumption because
even if we presume the nexus remains, Patent Owner has not
established sufficient objective indicia to support a finding of
nonobviousness of claims 1 and 8.
13 We note that our analysis of the objective indicia generally
tracks the analysis in the related IPR, although we accord more
weight to the commercial success evidence. See IPR201400727, 22-24 (Paper 65); B/E Aerospace, 709 F. App’x at 69596. The record here includes additional allegations and
evidence not available in IPR2014-00727, including that
related to market share, that was not considered in the prior,
related decisions. See id.

115a
the Graham factors and the full record before us, we
are persuaded that Petitioner has established, by a
preponderance of evidence, that claims 1 and 8
would have been obvious over the Admitted Prior
Art and Betts.
4.
Obviousness of Claim 9
Claim 9 depends from claim 1 and recites
“wherein the first aft extending recess defined by the
forward-extending upper portion, the aft- extending
mid-portion, and the forward-extending lower
portion of the forward partition is configured to
receive an aft-extending seat back of the forwardpositioned passenger seat.” Petitioner argues that
Figure 1 of Betts discloses the passenger seat
positioned at least partially within the contoured
forward wall. Pet. 50-51 (citing Ex. 1004 ¶¶ 220-221;
Ex. 1005, Fig. 1). Patent Owner does not address
claim 9. We are persuaded by Petitioner’s argument
and evidence, and find that Betts discloses the
limitations of claim 9.
5.
Obviousness of Claims 3 and 10
Claim 3 depends from claim 1 and recites
“wherein said forward wall portion further includes
a projection configured to project over the passenger
seat back when at least a portion of the upwardly
and aftwardly inclined seat back of the passenger
seat is received within the first recess and at least a
portion of the aft-extending seat support is received
within the second recess.” Similarly, claim 10
depends from claim 9 and recites “wherein said
forward-extending upper portion is configured to
project over at least a portion of the forwardpositioned passenger seat.” Petitioner argues that

116a
Figure 1 of Betts discloses the claimed upward
projection that protrudes over the top of the inclined
seat back, as claimed. Pet. 40-41 (citing Ex. 1004
¶¶ 193-195; Ex. 1005, Fig. 1), 51-52 (citing Ex. 1004
¶¶ 223-224). Patent Owner does not address claims
3 and 10. We are persuaded by Petitioner’s
argument and evidence, and find that Betts
discloses the limitations of claims 3 and 10.
6.
Obviousness of Claims 4 and 12
Claim 4 depends from claim 1 and recites
“wherein said lavatory unit is taller than the
passenger seat.” Similarly, claim 12 depends from
claim 9 and recites “wherein said lavatory is taller
than the forward-positioned passenger seat.”
Petitioner argues that both Betts and the Admitted
Prior Art disclose an enclosure taller than a
passenger seat. Pet. 42 (citing Ex. 1004 ¶¶ 106-108,
197; Ex. 1001, Fig. 1; Ex. 1005, Fig. 1), 52. Patent
Owner does not address claims 4 and 12. We are
persuaded by Petitioner’s argument and evidence,
and find that the Admitted Prior Art and Betts
disclose the limitations of claims 4 and 12.
7.
Obviousness of Claims 5-7 and
13-17
Claim 5 depends from claim 1 and recites
“wherein said forward wall portion includes a lower
portion that is disposed under the passenger seat
back when at least a portion of the upwardly and
aftwardly inclined seat back of the passenger seat is
received within the first recess and at least a portion
of the aft-extending seat support is received with the
second recess.” Petitioner argues that Betts
discloses a passenger seat positioned as claimed and

117a
a person of ordinary skill “would be motivated to
modify a flat forward wall to include a second recess
to receive at least a portion of an aft extending seat
support.” Pet. 42-43 (citing Ex. 1004 ¶¶ 196, 198199, 201; Ex. 1005, Fig. 1). Patent Owner does not
address claim 5. We are persuaded by Petitioner’s
argument and evidence, and find that claim 5 would
have been obvious in view of the Admitted Prior Art
and Betts.
Claim 6 depends from claim 1 and recites
“wherein said first recess in said forward wall
portion is disposed between an upper wall portion
and a lower wall portion.” Petitioner argues that
Betts discloses a recess positioned as claimed. Pet.
44 (citing Ex. 1004 ¶¶ 202-203; Ex. 1005, Fig. 1).
Patent Owner does not address claim 6. We are
persuaded by Petitioner’s argument and evidence,
and find that Betts discloses the limitations of claim
6.
Claim 7 depends from claim 1 and recites
“wherein said forward wall portion defines a
secondary space in said lavatory space above the
passenger seat back.” Petitioner argues that the
Admitted Prior Art discloses a secondary space in
the lavatory above the seat back and points to those
spaces within both Figures 1 and 2 of the ’641
patent. Pet. 45 (citing Ex. 1001, 4:43-45, Figs. 1, 2;
Ex. 1004 ¶¶ 205-207). Petitioner also argues that
prior art lavatories containing such storage spaces
were known, and that the lavatory “would continue
to contain the prior art interior storage spaces after
applying a contour to the forward wall [from Betts].”
Id. (citing Ex. 1004 ¶ 207). Patent Owner does not
address claim 7. We are persuaded by Petitioner’s

118a
argument and evidence, and find that claim 7 would
have been obvious over the Admitted Prior Art and
Betts.
Claim 13 depends from claim 8 and recites
“wherein the aft partition is substantially vertical
and substantially planar.” Petitioner argues that the
Admitted Prior Art discloses an aft partition that is
substantially vertical and substantially planar. Pet.
52-53 (citing Ex. 1001, Fig. 1; Ex. 1004 ¶ 227).
Patent Owner does not address claim 13. We are
persuaded by Petitioner’s argument and evidence,
and find that the Admitted Prior Art discloses the
limitations of claim 13.
Claim 14 depends from claim 8 and recites
“wherein the width of the lavatory space disposed
between the forward partition and the aft partition
comprises an upper width, a lower width, and a midwidth, and wherein the upper width and the lower
width are both substantially wider than the midwidth.” Petitioner argues that “a person of ordinary
skill in the art would recognize” that modifying a
lavatory wall with Betts’s contoured wall “could
impact the interior width of the lavatory.” Pet. 53
(citing Ex. 1004 ¶¶ 228-229). Petitioner adds that
“[t]his is clear from the positioning of the recess
shown in Figure 1 of Betts, which is substantially
the same as Figure 2 of the ’641 Patent.” Id. at 5354 (citing Ex. 1001, Fig. 2; Ex. 1005, Fig. 1). Patent
Owner does not address claim 14. We are persuaded
by Petitioner’s argument and evidence, and find that
claim 14 would have been obvious in view of Betts.
Claim 15 depends from claim 8 and recites
“wherein the upper forward-extending portion, the
aft-extending mid-portion, and the forward-

119a
extending lower portion of the forward partition
form a substantially continuous surface.” Petitioner
argues Figure 1 of Betts discloses the claimed
substantially continuous surface. Pet. 54-55 (citing
Ex. 1004 ¶¶ 231-232; Ex. 1005, Fig. 1). Patent
Owner does not address claim 15. We are persuaded
by Petitioner’s argument and evidence, and find that
Betts discloses the limitations of claim 15.
Claim 16 depends from claim 8 and recites
“wherein said first aft- extending recess extends
along substantially a full width of said forward
partition.” Petitioner argues that “[o]ne of ordinary
skill in the art would understand from Figure 1 [of
Betts] that the recess [of the coat closet enclosure]
extends the full width of the forward wall” and
“would be motivated to extend the recess the full
width of the forward wall in order to accommodate
the full row of seats installed immediately forward
of the wall. Id. at 55-56 (citing Ex. 1004 ¶¶ 234-236;
Ex. 1005, Fig. 1). Petitioner adds that “the side
elevation view shown in Figure 1 [of Betts] is
essentially identical to the schematic diagram of
Figure 2 of the ’641 Patent.” Id. at 56 (citing Ex.
1001, Fig. 2; Ex. 1005, Fig. 1). Patent Owner does
not address claim 16. We are persuaded by
Petitioner’ s argument and evidence, and find that
claim 16 would have been obvious in view of the
Admitted Prior Art and Betts.
Claim 17 depends from claim 8 and recites
“wherein said lavatory has a top, a bottom, a height
therebetween, and a middle therebetween, said
lavatory has varying lengths along the height of the
lavatory, and said lavatory is longer at the top of the
lavatory than at the bottom of the lavatory.”

120a
Petitioner argues that the Admitted Prior Art
discloses a lavatory that has a top, a bottom, a height
therebetween, and middle therebetween. Pet. 56.
Petitioner adds that “a person of ordinary skill in the
art would recognize that [modifying the lavatory
with Betts’s contoured wall] could impact the
interior of the lavatory, e.g., the width or the lengths
along the height of the lavatory.” Id. at 56 (citing Ex.
1005, Fig. 1; Ex. 1004 ¶¶ 238¬239). Petitioner
contends that “[t]his is clear from the positioning
shown in Figure 1 of Betts, which is substantially
the same as Figure 2 of the ’641 Patent.” Id. at 5657 (citing Ex. 1001, Fig. 2; Ex. 1005, Fig. 1). Patent
Owner does not address claim 17. We are persuaded
by Petitioner’s argument and evidence, and find that
claim 17 would have been obvious in view of the
Admitted Prior Art and Betts.
In summary, we are persuaded that
Petitioner has established by a preponderance of the
evidence that claims 5-7 and 13-17 would have been
obvious over the Admitted Prior Art and Betts.
E.
Patent Owner's Motion to
Exclude
Patent Owner moves to exclude Exhibits
1004, 1006, 1007, 1008, 1018, 1019, and 1020, and
any reliance thereon. Mot. Exclude 2. Petitioner
opposes the Motion, and argues that Patent Owner
waived the majority of the objections made with
respect to Exhibit 1004. Opp. 2. Petitioner also
argues that Patent Owner mischaracterizes the
content of a number of the exhibits that bear on the
ground at issue in this proceeding. Id. at 3-4. We
need not reach these issues given that we deny
Patent Owner’s Motion on other grounds.

8.

121a
Exhibit 1004

Regarding Exhibit 1004, the Anderson
Declaration, Patent Owner argues that the entire
declaration “must be excluded under F.R.E. 401,
402, 403, 702, 703, and 37 C.F.R. § 42.65 as
irrelevant, prejudicial, and unreliable expert
testimony because Mr. Anderson only provides
conclusory statements without sufficient citation to
evidence or explanation.” Mot. Exclude 3. Patent
Owner does not support this broad, undeveloped,
exclusion effort further, and to the extent that
Patent Owner seeks to exclude the entire
declaration rather than the enumerated paragraphs
later addressed by Patent Owner, we decline to do
so.
Patent Owner then focuses on an extensive
list of paragraphs as “not relevant to Betts” and
“unreliable because they are based on Ex. 1009,
‘KLM Crew Rest,’ which is not a prior art reference
that is available for use in this IPR.” Id. at 3-4. We
granted Petitioner’s request for partial adverse
judgment as to the second ground in the Petition
based in part on the KLM Crew Rest reference.
Paper 36. We did not rely on the KLM Crew Rest in
this Decision, nor any of Mr. Anderson’s opinions
related to the KLM Crew Rest, and we therefore
deny Patent Owner’s motion to exclude Ex. 1004 as
moot to the extent that it seeks to exclude opinions
based on the KLM Crew Rest. See Mot. Exclude 3-4.
Patent Owner also seeks to exclude certain
paragraphs of Exhibit 1004 as too conclusory and
lacking sufficient citation. Id. at 4-6. We view these
arguments as going to the weight to be accorded the
opinions rather than a proper basis for exclusion,

122a
and we deny the motion as to these paragraphs on
that basis. In addition, with respect to paragraphs
75-79 and 93 related to the three “second recess”
references we addressed above, we deny Patent
Owner’s Motion for the additional reason that
those references need not be “printed publication”
prior art in order to be considered by Mr. Anderson.
See id. at 5-7 (arguing that the declarants
submitting the alleged prior art did not declare that
the references were printed publications available to
the public). Patent Owner cites no authority for its
position that references must be excluded and not
considered in any manner if they are not “printed
publication” prior art under 35 U.S.C. § 311(b).
Accordingly, we deny Patent Owner’s Motion to
Exclude Exhibit 1004.
9.
Exhibits 1018 and 1019
Patent Owner argues that Exhibits 1018 and
1019 should be excluded because Petitioner only
relied on the exhibits for the second ground based on
the KLM Crew Rest, and not for the Betts ground.
Mot. Exclude 7, 8-9. This argument is misleading.
While Exhibits 1018 and 1019 were not cited directly
in the Petition, Patent Owner is aware that the
exhibits refer to drawings related to the “second
recess” issue that are relied upon by Mr. Anderson
and reproduced in the Petition. See Pet. 38.
Petitioner also cites directly to Exhibits 1018 and
1019 in the Reply for that purpose. Reply 7-8. Patent
Owner’s argument that we should exclude the
entirety of the exhibits because they do not relate to
the Betts ground lacks merit.
Patent Owner also argues that Petitioner has
not shown that the exhibits are prior art. Mot.

123a
Exclude 8 (“Petitioner has not shown [that Ex. 1018]
is prior art available for use during this IPR.”), 9
(“Petitioner has not shown that these declaration
exhibits are prior art.”). As discussed above,
Petitioner introduced unrebutted testimony that
two of the three references are prior art, and as to
the third, Patent Owner raised some doubt as to
which version of the product was in public use or on
sale. We decline to exclude the references that we
already find are prior art. Again, Patent Owner
provides no authority for the proposition that we can
only consider “printed publication” prior art in this
proceeding, even for background art that goes to the
common sense issue here. In addition, as to the third
reference, where Patent Owner established some
doubt about the content of the product in public use
and on sale, we need not rely on that reference to
find the claims obvious and granting this Motion
with respect to that exhibit would have no impact on
the outcome of this case.14 We decline to exclude the
references because they are not printed publications
or prior art.
Patent Owner also argues that Exhibits 1018
and 1019 are not properly authenticated because
they are not self-authenticating. Id. at 8-9.

14 Even if none of the references are prior art, we see no basis
to exclude any of the references. They are still germane to
Petitioner’s argument that adding a second recess was known
in the art, even if only in the internal, non-public documents of
multiple parties in the industry. See Opp. 8. Accordingly, even
if not prior art, we would not exclude the documents and would
assess their weight in the context of Petitioner’s common sense
argument.

124a
Petitioner argues that Patent Owner waived this
objection because it never objected to the exhibits to
the declarations on the basis of authenticity. Opp. 11
(citing Paper 15, 3-4). Petitioner also argues that
Patent Owner’s position is baseless and frivolous
because “[e]vidence may be authenticated through
the testimony of a witness with knowledge that the
exhibit is what it is claimed to be.” Id. (citing FRE
901(b)(1)). Petitioner points to portions of each
declaration stating that the witnesses had such
“personal knowledge” and that the exhibits to the
declarations contain “true and correct copies.” Id.
(citing Ex. 1018 || 1, 15; Ex. 1019 || 1, 8, 17).
Petitioner also submitted deposition testimony from
the district court litigation that allegedly
authenticates the exhibits. Id. at 11-12 (citing Exs.
1024, 1025). Patent Owner did not respond to
Petitioner’s specific arguments in its Reply.
We need not reach Petitioner’s waiver
argument. Patent Owner made a boilerplate,
undeveloped
argument
regarding
lack
of
authenticity, and then failed to respond to
Petitioner’s detailed arguments in support of its
showing of authenticity. We agree with Petitioner’s
arguments and evidence on this issue, and decline to
exclude the exhibits on that basis that they were not
properly authenticated.
10.
Exhibits 1006, 1007, 1008, and
1020
For Exhibits 1006, 1007, 1008, and 1020,
Patent Owner seeks to exclude the exhibits for the
same reasons discussed above—because they do not
relate to the Betts ground, only the KLM Crew Rest
ground; because they are not prior art available for

125a
use in an IPR; and because they are not properly
authenticated. Mot. Exclude 9-10. These arguments
are not developed further, and Patent Owner does
not refer to the specific contents of these exhibits. Id.
We deny Patent Owner’s Motion to Exclude these
exhibits for the same reasons provided above when
addressing these same arguments.
F.
Patent Owner's Motions to Seal
Patent Owner filed two unopposed Motions to
Seal. Papers 8, 22. In the first, Patent Owner seeks
to seal exhibits 2020, 2038, 2039, 2040, 2048, 2049,
2050, 2051, 2053, 2060, 2061, 2062, 2063, 2064,
2065, and 2066 as well as Patent Owner’s
Preliminary Response. Paper 8, 1. The Motion also
seeks entry of a protective order that deviates from
our standard protective order in several respects. Id.
at 7-8. In the second Motion to Seal, Patent Owner
seeks to seal exhibits 2077, 2078, 2079, 2089, 2090,
2091, 2092, 2096, 2097, 2098, and 2104, as well as
Patent Owner’s Response. Paper 22, 1.
There is a strong public policy that favors
making information filed in inter partes review
proceedings open to the public. See Garmin Int’l v.
Cuozzo Speed Techs., LLC, Case IPR2012-00001
(PTAB March 14, 2013) (Paper 34) (discussing the
standards of the Board applied to motions to seal).
The moving party bears the burden of showing that
the relief requested should be granted. 37 C.F.R. §
42.20(c).
[A] movant to seal must demonstrate
adequately that (1) the information sought to
be sealed is truly confidential, (2) a concrete
harm would result upon public disclosure, (3)
there exists a genuine need to rely in the trial

126a
on the specific information sought to be
sealed, and (4), on balance, an interest in
maintaining confidentiality outweighs the
strong public interest in having an open
record.
ArgentumPharms. LLC v. Alcon Research, Ltd.,
Case IPR2017-01053, slip op. at 4 (PTAB Jan. 19,
2018) (Paper 27) (informative).
In both Motions, Patent Owner asserts that
confidential information has been exchanged in the
underlying district court litigation and the parties
have agreed that the information can be used in this
proceeding, provided that it is filed under seal.
Paper 8, 1; Paper 22, 1. Patent Owner asserts that
the “material includes confidential and business
sensitive information of Patent Owner, Petitioner,
and Related Entities. ” Paper 8, 2; Paper 22, 1.
Patent Owner also contends that disclosure of the
information would cause competitive harm to one or
more of those entities. Id. Patent Owner then
explains why each exhibit contains confidential
information that justifies sealing the exhibit. Paper
8, 2-6; Paper 22, 2-4. For example, Patent Owner
contends that Exhibits 2048-2050, 2053, 2061, and
2062 “include competitively-sensitive information
regarding the technical composition and operation of
systems created and provide[d] by Patent Owner’s
successor-in- interest.” Paper 8, 2; see also Paper 22,
2 (addressing Exhibits 2077, 2096, and 2098 using a
similar rationale). Patent Owner and Petitioner also
contend that Exhibits 2020, 2038, 2039, 2040, 2051,
2060, and 2063-66 contain competitively-sensitive
information of Petitioner, including technical
schematics for aircrafts manufactured by Petitioner

127a
that were exchanged under an “Attorney’s Eyes
Only” designation in the district court litigation.
Paper 8, at 3-6; see also Paper 22, 2 (addressing
Exhibits 2078, 2089, 2092, and 2097, which include
information produced under “Attorney’s Eyes Only”
designation in district court litigation), 3
(addressing Exhibits 2079, 2090, and 2091, which
contain
Petitioner’s
competitively-sensitive
information).
Based on our review of the record and Patent
Owner’s Motions, we agree that a sufficient basis
exists to seal the exhibits in question. Although
sealing the entirety of all of the exhibits in question
is undoubtedly overbroad in that portions of each
exhibit contain non-confidential material, we
understand the burden imposed in determining, on
a line-by-line basis, after consultation with all
parties involved, which material is truly confidential
and which is not. The public interest in reviewing
non- confidential information in exhibits that may
not be germane to the issues in the case is also lower
than with respect to exhibits at the core of the
parties’ dispute. Accordingly, we grant Patent
Owner’s Motion to Seal (Paper 8) as to Exhibits
2020, 2038, 2039, 2040, 2048, 2049, 2050, 2051,
2053, 2060, 2061, 2062, 2063, 2064, 2065, and 2066,
and grant Patent Owner’s Motion to Seal (Paper 22)
as to Exhibits 2077, 2078, 2079, 2089, 2090, 2091,
2092, 2096, 2097, 2098, and 2104.
We do not grant Patent Owner’s Motion to
Seal (Paper 20) as to Exhibit 2104 because Patent
Owner has not provided any reason or rationale as
to why Dr. Dershowitz’s declaration testimony, on
any subject, is confidential. Indeed, the publically

128a
available version of Dr. Dershowitz’s testimony filed
by Patent Owner contains no redactions or
omissions as compared to the Board and Parties
Only version also filed by Patent Owner.
We also reach a different conclusion
regarding the redacted versions of Patent Owner’s
Preliminary Response and Patent Owner’s
Response. See Papers 7, 22. The Motions do not
separately address the specific material redacted
from those documents, or justify their exclusion from
the public record. The redacted material appears to
quote from or summarize information from exhibits
subject to the motion to seal. However, as noted
above, although we grant the motion to seal the
exhibits, that does not mean that every line of every
exhibit contains confidential information. In
addition, the public interest is perhaps highest when
addressing the ability of the public to view the
information in the briefs of record. That information,
by dint of its inclusion in the briefs, is arguably the
most germane to the issues in the case and the basis
for our Decision. On balance, we conclude that the
interest in maintaining the confidentiality of the
redacted portions of the Patent Owner’s Preliminary
Response and Patent Owner’s Response are
outweighed by the public interest in viewing the
material. Accordingly, we deny the Motion to Seal
Patent Owner’s Preliminary Response and Patent
Owner’s Response.
Patent Owner also seeks entry of an agreed
Protective Order. Paper 8, 7, Ex. A. According to
Patent Owner, the parties’ agreed Protective Order
deviates from the Board’s default protective order by
modifying the list of individuals that can receive

129a
confidential information, and by clarifying that the
Protective Order only governs documents marked
“PROTECTIVE ORDER MATERIAL” in connection
with this proceeding. Id. at 7-8. Patent Owner states
that similar orders have been entered in related
inter partes reviews. Id. at 7. We are amenable to the
changes to our default protective order proposed by
the parties. Accordingly, we grant Patent Owner’s
Motion for entry of the Protective Order attached to
the Motion to Seal (Paper 8) as Exhibit A.
III.
CONCLUSION
For all of the above reasons, we determine
that Petitioner has shown by a preponderance of the
evidence that claims 1, 3-10, and 12-17 of the ’641
patent are unpatentable. We also deny Patent
Owner’s Motion to Exclude and grant Patent
Owner’s Motion to Seal certain exhibits and to enter
an agreed Protective Order, but deny Patent
Owner’s Motion to Seal the Patent Owner’s
Preliminary Response and Patent Owner’s
Response.
IV.
ORDER
It is
ORDERED that claims 1, 3-10, and 12-17 of
the ’641 patent have been shown to be unpatentable;
FURTHER ORDERED that Patent Owner’s
Motion to Exclude is DENIED;
FURTHER ORDERED that Patent Owner’s
Motion to Seal (Paper 8) as to Exhibits 2020, 2038,
2039, 2040, 2048, 2049, 2050, 2051, 2053, 2060,
2061, 2062, 2063, 2064, 2065, and 2066 is
GRANTED;

130a
FURTHER ORDERED that Patent Owner’s
Motion to Seal (Paper 22) as to Exhibits 2077, 2078,
2079, 2089, 2090, 2091, 2092, 2096, 2097, and 2098
is GRANTED;
FURTHER ORDERED that Patent Owner’s
Motion to Seal (P aper 20) as to Exhibit 2104 is
DENIED;
FURTHER ORDERED that Patent Owner’s
Motion for entry of an agreed Protective Order
(Paper 8, Ex. A) is GRANTED;
FURTHER ORDERED that Patent Owner’s
Motion to Seal its Patent Owner Preliminary
Response (Paper 8) and Patent Owner Response
(Paper 22) is DENIED; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37
C.F.R. § 90.2.
PETITIONER:
John Alemanni
Dean Russell
David Reed
Andrew Rinehart
Michael Morlock
KILPATRICK TOWNSEND STOCKTON LLP
jalemanni@kilpatricktownsend.com
drussell@kilpatricktownsend.com
dreed@kilpatricktownsend.com
arinehart@kilpatricktownsend.com
mmorlock@kilpatricktownsend.com

131a
PATENT OWNER:
Michael R. Fleming
Talin Gordnia
IRELL & MANELLA LLP
mfleming@irell.com
tgordnia@irell.com

132a
APPENDIX D
UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
C&D ZODIAC, INC.,
Petitioner
v.
B/E AEROSPACE, INC.,
Patent Owner.
Case IPR2017-01276
Patent 9,440,742 B2
Before JENNIFER S. BISK, SCOTT A. DANIELS,
and RICHARD H. MARSCHALL, Administrative
Patent Judges.
MARSCHALL, Administrative Patent Judge.
DECISION
Denying Patent Owner’s Request for Rehearing
37 C.F.R. § 42.71

133a
INTRODUCTION
C&D Zodiac, Inc. (“Petitioner”), filed a petition to
institute an inter partes review of claims 8 and 10–
16 of U.S. Patent No. 9,440,742 B2 (Ex. 1001, “the
’742 patent”). Paper 2 (“Pet.”). We issued a Final
Decision (Paper 41, “Final Dec.”) finding claims 8
and 10–16 of the ’742 patent unpatentable. B/E
Aerospace, Inc. (“Patent Owner”), filed a Request for
Rehearing (Paper 44, “Reh’g Req.” or “Request”) of
our Final Decision. The Request contends that we
“misapprehended and/or overlooked the statute
defining the scope of IPRs, 35 U.S.C. § 311(b)” and
“relevant Federal Circuit precedent and the
arguments from Patent Owner’s responses that the
Petitioner failed to carry its burden of proving the
claims obvious.” Reh’g Req. 2. In addition, Patent
Owner argues that the 2018 Trial Practice Guide
Update “expressly prohibits making an obviousness
finding by using expert testimony to replace the
disclosures from patent and printed publications
that are required by statute.” Id. at 2–3.
“The burden of showing a decision should be
modified lies with the party challenging the
decision[,]” and that party “must specifically identify
all matters the party believes the Board
misapprehended or overlooked, and the place where
each matter was previously addressed in a motion,
an opposition, or a reply.” 37 C.F.R. § 42.71(d). For
the reasons discussed below, Patent Owner’s
Request for Rehearing is denied.
ANALYSIS

134a
35 U.S.C. § 311(b) and Arendi
Patent Owner’s Request is based on a
disagreement with our determinations that two
references that contain confidential drawings may
be considered in the obviousness analysis even
though we did not consider Patent 9,440,742 B2
them to be prior art under § 311(b), and that
Petitioner’s “common sense” argument passes the
standard set by Arendi S.A.R.L. v. Apple Inc., 832
F.3d 1355 (Fed. Cir. 2016). In its Request, Patent
Owner presents arguments that “[t]he evidence that
the PTAB relies on for the ‘second recess’
limitation—confidential drawings and fact witness
declarations about the alleged prior sale and use—is
neither a patent nor a printed publication” and,
therefore, under 35 U.S.C. § 311(b), may not be used
to support a determination of obviousness in an IPR.
Reh’g Req. 4 (citing Final Dec. 16–26; Paper 6
(“Prelim. Resp.”) 35–37; Paper 22 (“PO Resp.”) 15–
16, 18–20). Patent Owner describes Petitioner’s
expert testimony as “conclusory” despite reliance on
the prior use and sale. Id. at 5–7. According to
Patent Owner, the Final Decision “contradicts the
policy underlying” § 311(b) and “invites Petitioners
to circumvent the statute by requesting IPRs based
on prior use or on sale evidence . . . by merely having
an expert rely on this evidence to conclude that a
limitation was well-known and therefore obvious.”
Id. at 9–10. Finally, Patent Owner argues that by
improperly crediting Petitioner’s evidence, our
decision is at odds with Federal Circuit law
prohibiting using common sense to supply a missing
claim limitation to support a finding of obviousness.
Id. at 10–11 (citing Arendi).

135a
As Patent Owner acknowledges, all of these
arguments were made during the trial and we
addressed each of them in the Final Written
Decision. Final Dec. 17–26. Nothing in Patent
Owner’s request for rehearing persuades us to
change our analysis on this issue.
First, Patent Owner mischaracterizes our
obviousness analysis by describing it as adding a
second recess to the “Admitted Prior Art/Betts
combination” merely “because the second recess was
in public use or on sale.” Reh’g Req. 5. We did not
combine Admitted Prior Art/Betts with the public
use/on sale references. Instead, we specifically
rejected Patent Owner’s attempt to frame
Petitioner’s challenge in that manner. Final Dec.
22–23.
Our analysis focused on whether Petitioner
established adequately that the second recess would
have been obvious as a matter of common sense
under the high standard set forth in Arendi and K/S
HIMPP v. Hear-Wear Technologies, LLC, 751 F.3d
1362, 1365 (Fed. Cir. 2014). Id. at 19–22. We
concluded that Petitioner met that standard based
not only on the citation to second recesses in the
public use/on sale references, but also on the
rationale and related analysis provided by
Petitioner’s expert that we credited and found
convincing before addressing the public use/on sale
references. See id. at 20 (citing Ex. 1004 ¶¶ 74, 191).
We also credited the testimony of Petitioner’s expert
that the proposed modification would have been
predictable. Id. at 22 (citing Ex. 1004 ¶ 191).
Accordingly, because our analysis relied on the

136a
analysis and reasoning of Petitioner’s expert
regarding why it would have been obvious1 and a
matter of common sense to add a second recess, we
did not merely combine the prior art with the public
use/on sale references to arrive at the claimed
invention. The public use/on sale references were
instead used as further evidence in support of the
common sense argument.2

We find Petitioner’s obviousness argument and evidence
persuasive even if not deemed a “common sense” approach. The
common sense moniker was not used in the Petition or
supporting expert declaration, and was instead introduced by
Patent Owner and then addressed in Petitioner’s Reply. See PO
Resp. 11–12; Pet. Reply 10, 12. While we found Petitioner’s
common sense rationale persuasive, Petitioner’s argument and
evidence, including the testimony of Petitioner’s expert,
support the conclusion that the challenged claims are obvious
under a traditional obviousness approach that does not rely on
the “common sense” rationale supported by public use/on sale
references. See Pet. 36–37 (citing Ex. 1004 ¶¶ 74, 186–192,
250); Reply 6, 10–11 (citing Ex. 1004 ¶ 58, 74); Ex. 1004 ¶¶ 58
(Betts teaches that addition of recesses allows for more room to
move seats further aft in an aircraft), 74 (when seat supports
moved further aft and the seat support impacts the closet or
lavatory wall, creating a second recess in wall to accommodate
the seat support “is the obvious solution to this known
problem”), 191 (“[The] modification is nothing more than the
application of known technology for its intended purpose” and
“[t]he result of such a modification is predictable, allowing the
seat to be position further aft in an aircraft.”); see also Final
Dec. 20–22 (citing Ex. 1004 ¶¶ 74, 191, finding the testimony
credible, and rejecting lack of predictability argument).

1

Because we found the expert analysis credible apart from its
reliance on the public use/on sale references, we need not reach
whether supplying a missing limitation via a “common sense”

2

137a
Our analysis also comports with Arendi and K/S
HIMPP. Arendi acknowledges that, even in the
context of inter partes reviews and 35 U.S.C.
§ 311(b), petitioners can rely on evidence other than
that contained within the four corners of a patent or
printed publication, when asserting obviousness.
Arendi, 832 F.3d at 1363 (“[W]hile ‘common sense’
can be invoked, even potentially to supply a
limitation missing from the prior art, it must still be
supported
by
evidence
and
a
reasoned
explanation.”). In fact, when a patent challenger
relies on common sense, Arendi and K/S HIMPP
require resort to some evidence outside the strict
contours of the prior art that forms the basis for the
obviousness ground. See id.; K/S HIMPP, 751 F.3d
at 1365 (referring to the need for more than
conclusory statements as well as the need for
evidence in the record supporting common sense
approach to supply a missing limitation). The proper
use of common sense to supply a missing limitation
presumes that something else in the evidence of
record beyond the patents and printed publications
at issue supports that common sense approach—if
the “missing” limitation were already disclosed in
prior art patents or printed publications there would
be little need to resort to common sense. Neither
Arendi nor K/S HIMPP limit the form the evidence
in support of the common sense approach must take,
or suggest that it must come from patent and printed
publication art.

argument, based solely on public uses/sales, runs afoul of
§ 311(b).

138a
The Federal Circuit’s recent decision in Yeda
Research v. Mylan Pharmaceuticals Inc., 906 F.3d
1031 (2018), supports our approach. In Yeda, the
Patent Owner asserted that the Board improperly
relied on a reference that did “not qualify as
statutory prior art” under 35 U.S.C. § 311(b) and
was improperly relied upon “to supplement gaps in
the prior art in violation of 35 U.S.C. § 311(b).” Id. at
1040–41. The Federal Circuit rejected the argument,
concluding that § 311(b) “is unrelated to the
question of whether the Board’s reliance on [the nonprior art reference] was proper” because “§ 311(b)
only addresses prior art and is silent on the question
of other evidence.” Id. at 1041. The court noted that
the relevant statute and rules allow petitioners to
rely on “evidence beyond the prior art” and
contemplate declarations based on supporting
evidence and opinions. Id. (citing 35 U.S.C.
§ 312(a)(3) and 37 C.F.R. § 42.104(b)). The Federal
Circuit therefore allowed reliance on a reference
that was not prior art as part of the “other evidence”
that petitioners can rely upon to support an
obviousness ground. See id. That result supports our
approach here, where we relied on Petitioner’s use of
references that did not qualify as prior art under
§ 311(b) as part of the “other evidence” that supports
Petitioner’s “common sense” obviousness argument.
We are, therefore, not persuaded that our analysis
runs afoul of § 311(b), Arendi, or other controlling
precedent.
Trial Practice Guide
Patent Owner also argues that the Final Decision
“contradicts the USPTO’s Revised Trial Practice

139a
Guide that went into effect on August 10, 2018,”
before the date the Final Decision was issued. Reh’g
Req. 7. Specifically, Patent Owner points to pages 4
and 5 of the Trial Practice Guide Update that
states“[e]xpert testimony, however, cannot take the
place of a disclosure in a prior art reference, when
that disclosure is required as part of the
unpatentability analysis.” Id. at 8 (quoting Office
Patent Trial Practice Guide August 2018 Update, 83
Fed. Reg. 39,989 at 4 (August 13, 2018) (“Trial
Practice
Guide
Update”)
(https://go.usa.gov/
xU7GP)). The portion of the Trial Practice Guide
Update Patent Owner relies upon also states that “in
an obviousness analysis, conclusory assertions from
a third party about general knowledge in the art
cannot, without supporting evidence of record,
supply a limitation that is not evidently and
indisputably within the common knowledge of those
skilled in the art.” Trial Practice Guide Update, 5
(citing K/S HIMPP, 751 F.3d at 1365).
We are not persuaded that the Trial Practice
Guide Update supports Patent Owner’s position
here. When read in context, the statements from the
Trial Practice Guide Update merely warn against
the use of “conclusory assertions” in expert
testimony to supply a missing limitation. Id. In that
sense, the Trial Practice Guide Update reminds
practitioners of the high bar imposed by K/S
HIMPP when using expert testimony as part of an
effort to supply a limitation missing from the art of
record, a standard we have applied here. We do not
read this portion of the Trial Practice Guide Update
as going further than K/S HIMPP and Arendi,
limiting the type of evidence the expert can rely

140a
upon in an effort to show that a missing limitation
would have been added as a matter of common
sense.
Patent Owner also cites to IPR2015-01222, in
which the PTAB did not credit expert testimony
because it did not “explain the unpatentability of
certain claims over the cited prior art references.”
Reh’g Req. 8 (quoting Global Tel*Link Corp. v.
Securus Techs., Inc., IPR2015-01222, Paper 43, 51
(PTAB July 12, 2017) (emphasis omitted)). However,
that case also involved a situation in which the
testimony was not supported by any cited evidence
and, therefore, is inapplicable to the situation here.
See IPR2015-01222, Paper 43, 3. Moreover, the
testimony at issue in IPR2015-01222 related to
“general knowledge” not “tied to the disclosures” of
the asserted prior art and not “used to explain the
unpatentability of certain claims over the cited prior
art references.” Id. at 4–5. Here, Petitioner and its
expert Mr. Anderson indeed tie his testimony to the
claims and prior art at issue. See, e.g., Pet. 38–39
(citing Ex. 1004); Reply 6–10 (citing Ex. 1004 ¶¶ 74–
79); Ex. 1004 ¶¶ 74, 191, 192.
Accordingly, Patent Owner’s Request does not
apprise us of sufficient reason to modify our Final
Decision.
ORDER
Accordingly, it is:
ORDERED that Patent Owner’s Request is
denied.

141a
PETITIONER:
John Alemanni
Dean Russell
David Reed
Andrew Rinehart
Michael Morlock
KILPATRICK TOWNSEND & STOCKTON LLP
jalemanni@kilpatricktownsend.com
drussell@kilpatricktownsend.com
dreed@kilpatricktownsend.com
arinehart@kilpatricktownsend.com
mmorlock@kilpatricktownsend.com
PATENT OWNER:
Michael R. Fleming
Talin Gordnia
IRELL & MANELLA LLP
mfleming@irell.com
tgordnia@irell.com
kis

142a
APPENDIX E
UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
C&D ZODIAC, INC.,
Petitioner
v.
B/E AEROSPACE, INC.,
Patent Owner.
Patent No. 9,440,742
Filing Date: April 28, 2016
Issue Date: September 13, 2016
Title: AIRCRAFT INTERIOR LAVATORY

Inter Partes Review No. ______
PETITION FOR INTER PARTES REVIEW

143a
TABLE OF CONTENTS
I.

II.

Summary ................................................. 148a
A.

Real Party-in-Interest .................. 149a

B.

Related Matters ............................ 149a

C.

Fees ............................................... 151a

D.

Designation of Lead Counsel and
Backup Counsel ............................ 151a

E.

Service Information ...................... 152a

F.

Power of Attorney ......................... 152a

G.

Standing ........................................ 152a

Background .............................................. 153a
A.

Priority Date and Family ............. 153a

B.

The Written Specification and Figures
....................................................... 153a

C.

The Earlier IPR and Underlying
Litigations ..................................... 155a

III.

Statement of Relief Requested................ 158a

IV.

Summary of the Prior Art ....................... 158a
A.

Admitted Prior Art (Exhibit 1001)158a

B.

Betts (Exhibit 1005) ..................... 161a

C.
V.

VI.

VII.

144a
The KLM Crew Rest Document
(Exhibit 1009) ............................... 163a

Motivation to Combine ............................ 168a
A.

Motivation to Combine APA and Betts
....................................................... 168a

B.

Motivation to Combine APA and the
KLM Crew Rest Document ........... 173a

Factual Background ................................ 176a
A.

Declaration Evidence.................... 176a

B.

Person of Ordinary Skill in the Art
....................................................... 176a

Claim Construction ................................. 177a
A.

“Reducing a Volume of Unusable
Space” ............................................ 177a

B.

“Recess” ......................................... 178a

VIII. Full Statement of the Reasons for the Relief
Requested ................................................ 178a

IX.

A.

Claims 8 and 10-16 are Obvious Under
35 U.S.C. § 103 over APA and Betts.
....................................................... 178a

B.

Claims 8 and 10-16 are Obvious Under
35 U.S.C. § 103 over APA and the
KLM Crew Rest Document. ......... 194a

Any Secondary Considerations Cannot

145a
Overcome the Clear Evidence of
Obviousness. ............................................ 210a
X.

Conclusion ............................................... 213a

146a
LIST OF EXHIBITS
PETITIONER
EXHIBIT
1001
1002
1003
1004
1005
1006
1007
1008

1009

1010
1011
1012
1013

DESCRIPTION
U.S. Patent No. 9,440,742 (“the ’742
Patent”)
Prosecution History of U.S. Patent
No. 9,440,742
Final Written Decision in IPR201400727
Declaration of Alan Anderson
U.S. Patent No. 3,738,497 to Betts
(“Betts”)
Rendering of the KLM Crew Rest
Declaration of Paul Sobotta (Exhibit
in IPR2014-000727
Letters from Petitioner to Patent
Owner Regarding Prior Art, dated
April 7, 2014; April 25, 2014; May
15, 2015; and June 9,
2014
File History from Application No.
09/947,275, which issued as
U.S. Patent No. 6,520,451 to Moore.
U.S. Patent No. 6,520,451 to Moore
(“Moore”)
U.S. Patent No. 4,884,767 to
Shibata (“Shibata”)
US Patent No. 7,284,287 to Cooper
(“Cooper”)
U.S. 2009/0050738 A1 to Breuer
(“Breuer”)

147a
PETITIONER
EXHIBIT
1014

1015

1016
1017
1018
1019
1020

1021

DESCRIPTION
Unopposed Motion to Withdraw
Motion for Preliminary Injunction in
B/E Aerospace, Inc. v. Zodiac
Aerospace, et al., No. 2:14-cv-210,
Dkt. 47 (E.D. Tex. Jun. 6, 2014).
Voluntary Dismissal in B/E
Aerospace, Inc. v. Zodiac Aerospace,
et al., No. 2:14-cv-210, Dkt. 50 (E.D.
Tex. Jun. 19, 2014).

Patent Owner’s Opening Brief in
Federal Circuit Appeal Nos. 161496, 16-1497.
U.S. Patent No. 8,590,838 (“the
’838 Patent”)
Declaration of Scott Savian, dated
March 20, 2017, including Exhibits
A-E thereto.
Declaration of Vince Huard, dated
March 10, 2017, including Exhibits
A-I thereto.
McDonnell Douglas DC-10
Customer Configuration Summary
(a/k/a Orange Book), revised
October 1978 (the “Orange Book”).
U.S. Patent No. 6,742,840 to
Bentley (“Bentley”)

148a

I. Summary
Through counsel, C&D Zodiac, Inc. (“Petitioner”)
hereby petitions for initiation of inter partes review
of claims 8 and 10-16 of U.S. Patent No. 9,440,742
(“the ’742 Patent”), assigned to B/E Aerospace, Inc.
(“Patent Owner”). A copy of the ’742 Patent is
attached as Exhibit 1001 and a copy of the
prosecution history of the ’742 Patent is attached as
Exhibit 1002.
The ’742 Patent includes just four columns of
description, less than one column of which is the
three-paragraph “Detailed Description.” The patent
describes an enclosure for use in an aircraft (e.g., a
closet or a lavatory). The first figure admits that an
enclosure with a flat forward wall was well known
in the art. The only aspect of the purported invention
that is not admitted to be prior art is the recessed
forward wall of the embodiment shown in Figure 2.
And as explained in further detail below, aircraft
enclosures with recessed forward walls have been
known and used in the art for decades.
During an IPR of the parent of the ’742 Patent,
the Board already considered the dispositive issue
here: whether it was obvious to apply a curved
forward wall to a lavatory. The Board found that it
was obvious. Yet, the Examiner inexplicably ignored
the Board’s decision without mentioning it and
allowed Patent Owner’s follow-on claims directed to
the same subject matter already determined to be
obvious—lavatories with a recessed forward wall. In
view of the prior art, Petitioner respectfully requests
that the Board again find that the same subject

149a
matter already determined to be obvious with
respect to the parent patent is also obvious with
respect to the children. Accordingly, Petitioner
requests that the Board cancel the challenged claims
of the ’742 Patent.
A. Real Party-in-Interest
The real party-in-interest, C&D Zodiac, Inc., is a
Delaware corporation with its principal business
address at 5701 Bolsa Avenue, Huntington Beach,
California 92647. No other entity is controlling,
directing, or funding the submission of this petition
and any proceeding initiated as a result therefrom.
B. Related Matters
The ’742 Patent is asserted against Petitioner in
B/E Aerospace, Inc. v. Zodiac Aerospace, Inc. et al.,
No. 2:14-cv-01417 (E.D. Tex., Dec. 15, 2016) (the
“Underlying Litigation”). Patent Owner also asserts
the following four related patents in that case: U.S.
Patent Nos. 9,073,641; 9,365,292; 9,434,476; and
D764,031. Patent Owner has sought a preliminary
injunction against Petitioner in the Underlying
Litigation. On or around the time this Petition is
filed, Petitioner also will file Petitions for Inter
Partes Review challenging the three related utility
patents. On April 10, 2017 Petitioner filed a Post
Grant Review challenging the claim of D764,031,
which has been assigned PGR2017-00019.
All five of the asserted patents in the Underlying
Litigation claim priority to U.S. Patent No.
8,590,838 (“the ’838 Patent”). Patent Owner

150a
previously asserted the ’838 Patent against
Petitioner in B/E Aerospace, Inc. v. Zodiac
Aerospace, Inc. et al., No. 2:14-cv-210 (E.D. Tex.
Mar. 11, 2014) (the “Prior Litigation”). Patent
Owner also sought a preliminary injunction against
Petitioner in that case. During the Prior Litigation,
Petitioner sent Patent Owner a series of letters
containing invalidating prior art. See Ex. 1008.
Patent Owner subsequently withdrew its motion for
preliminary injunction and voluntarily dismissed
the Prior Litigation on June 19, 2014. Exs. 1014;
1015.
Petitioner also filed a Petition for Inter Partes
Review of the ’838 Patent. That earlier IPR was
assigned Case No. IPR2014-00727, and received a
Final Written Decision on October 26, 2015. The
Board held claims 1, 3-7, 9, 10, 12-14, 16-19, 21, 22,
24-29, 31, and 33-37 unpatentable. That Final
Written Decision is attached hereto as Exhibit 1003.
That Decision is currently on appeal to the Federal
Circuit where it is assigned Case Nos. 16-1496, 161497.
There are several entities related to Petitioner
also being sued for infringement of the patents
identified above. Petitioner is an indirectly-owned
subsidiary of Zodiac Aerospace, a Societe Anonyme
organized and existing under the laws of France.
Petitioner is a wholly owned subsidiary of Zodiac US
Corporation, a corporation organized and existing
under the laws of Delaware.
Zodiac Aerospace and Zodiac US Corporation
have been sued for infringement of the patents

151a
identified above in the Underlying Litigation. Also
sued for infringement of the patents identified above
in the Underlying Litigation are:
x

Zodiac Seats US LLC, a limited liability
company organized and existing under the
laws of Texas.

x

Heath Tecna, Inc., a corporation organized
and existing under the laws of Delaware.

x

Northwest Aerospace Technologies, Inc., a
corporation organized and existing under the
laws of Washington.

C. Fees
This petition is accompanied by a fee payment of
$23,000, which includes the $9,000 inter partes
review request fee, and the $14,000 inter partes
review post-institution fee. Petitioner further
authorizes a debit from Deposit Account 20- 1430 for
whatever additional payment is necessary in
granting this petition.
D. Designation of
Backup Counsel

Lead

Counsel

and

Lead Counsel for Petitioner is John C. Alemanni
(Reg. No. 47,384), of Kilpatrick Townsend &
Stockton LLP. Back-up counsel for Petitioner are
Dean W. Russell (Reg. No. 33,452), David A. Reed
(Reg. No. 61,226), Michael T. Morlock (Reg. No.
62,245), and Andrew Rinehart (Reg. No. 75,537).

152a
E. Service Information
As identified in the attached Certificate of
Service, a copy of the present petition, in its entirety,
is being served to the address of the attorneys or
agents of record for the ’742 Patent and to the
attorneys of record in the Underlying Litigation.
Petitioner may be served at its counsel, Kilpatrick
Townsend & Stockton LLP. Petitioner consents to
service via email to its lead and backup counsel at
the
following
email
address:
Zodiac-BEIPR@kilpatricktownsend.com.
F. Power of Attorney
A power of attorney with designation of counsel
is filed herewith in accordance with 37 C.F.R. §
42.10(b).
G. Standing
The ’742 Patent was filed on April 28, 2016 and
claims priority to a utility application filed on April
18, 2011 and therefore is eligible for inter partes
review immediately following the date of the grant
of the patent. 37 C.F.R. § 42.102(a)(2). Further, the
’742 Patent is currently asserted in a co-pending
litigation, and this petition is being filed within one
year of Petitioner being served with a complaint for
infringement. Petitioner certifies that the ’742
Patent is available for inter partes review and that
Petitioner is not barred or estopped from requesting
an inter partes review challenging the patent claims
on the grounds identified in this petition.

153a

II. Background
A. Priority Date and Family
The ’742 Patent issued on September 13, 2016
from Application No. 15/141,338, filed on April 28,
2016. The ’742 Patent claims priority to U.S. Patent
No. 8,590,838, filed on April 18, 2011, and to
Provisional Application No. 61/326,198, filed April
20, 2010, and Provisional Application No. 346,835,
filed May 20, 2010. Thus, the earliest possible
effective filing date is April 20, 2010.
Several other related patents also claim priority
to the ’838 Patent, including U.S. Patent Nos.
9,073,641; 9,365,292; 9,434,476; and D764,031. The
related utility patents share a common disclosure
with the ’742 Patent.
B. The Written Specification and Figures
The ’742 Patent relates to an aircraft enclosure,
“such as a lavatory, an aircraft closet, or an aircraft
galley,” having a forward wall (i.e., the wall toward
the nose of the aircraft) with a recess that
substantially conforms to the aft (i.e., back) surface
of a passenger seat located immediately forward of
the enclosure. See Ex. 1001, 2:21-31.
The challenged claims relate to an enclosure with
a contoured forward wall to allow a row of seats to
be placed slightly further aft in an aircraft. As
explained in further detail below, Figure 1 of the
’742 Patent admits that every claim element, other
than a contoured forward wall, was known in the

154a
prior art. The only other figure—Figure 2—shows
an embodiment with a contoured forward wall with
the same prior art seat as shown in Figure 1
positioned slightly further aft.

Such a contoured forward wall was well known
in the art long before the earliest claimed priority
date, April 20, 2010. This is clear from Figure 1 of
Ex. 1005 (Betts), which shows an airplane enclosure
with a contoured forward wall from the early 1970s.
The forward wall of Betts is almost identical to the
forward wall shown in Figure 2 of the ’742 Patent.
And an embodiment of the Betts enclosure flew on
commercial DC-10 aircraft for decades before the
earliest claimed priority date. Ex. 1004, ¶¶43, 46;
Ex. 1020, at 143-163 (showing commercial
embodiments of Betts). This is a fact that Patent
Owner itself has admitted to the Federal Circuit. Ex.
1016, 26 (“Betts was patented in 1973. It was
actually built and flown on DC-10 aircraft, for
decades.”).

155a
Ex. 1001, Figure 2

C. The Earlier
Litigations

Ex. 1005 (Betts),
Figure 1

IPR

and

Underlying

In an earlier proceeding addressing the claims
of this patent’s parent—the ’838 Patent (Ex.
1017)—the Board invalidated most of those claims
as obvious in view of Betts (Ex. 1005). In so doing,
the Board specifically found that:
Petitioner has shown that it would have
been obvious to apply the recessed forward
wall design of Betts to other enclosures,
including single-spaced lavatories.
Ex. 1003 at 12 (emphasis added).

156a
In addition to Betts, there are many other
examples of contoured wall enclosures in the prior
art. Indeed, one of Patent Owner’s own engineers
designed a prior art enclosure that was installed
in Boeing 747 aircraft in the 1990s. Ex. 1006, 1007.
An annotated image of this enclosure is shown
below.

Further, before the application that led to the
’742 Patent was filed, Patent Owner was aware that
Petitioner commercialized enclosures with recessed
forward walls long before the earliest claimed
priority date. See Ex. 1008.

157a
Ex. 1001, Figure 2 Petitioner’s
Petitioner’s
S4 Enclosure S4
Enclosure

Indeed, when Petitioner identified this prior art
to Patent Owner (Ex. 1008) Patent Owner withdrew
its previous Motion for Preliminary Injunction and
voluntarily dismissed its previous complaint
asserting the ’838 Patent against Petitioner. See
Exs. 1014 and 1015.
In spite of all this, Patent Owner continued filing
applications and convinced an examiner to allow the
’742 Patent along with other continuations of the
’838 Patent. Several of these are now asserted
against Petitioner. Each utility patent shares a
common specification, and claims a contoured
forward wall along with a collection of other
features. Each of these other features are either
admitted to be prior art in Figure 1 or are not
described in the patents’ written description, which
comprises just four columns, less than one column of
which
is
the
three-paragraph
“Detailed
Description.” Ex. 1001.

158a
The prior art discloses or renders obvious every
limitation in the challenged claims. Petitioner
respectfully requests that this inter partes review
proceeding be instituted.

III. Statement of Relief Requested
Pursuant to 35 U.S.C. § 311 and 37 C.F.R. §
42.104(b), this petition requests cancellation of
claims 8 and 10-16 as rendered obvious under 35
U.S.C. § 103 by the following combinations:
x

Admitted Prior Art (“APA”) in Exhibit 1001
and U.S. Patent No. 3,738,497 to Betts et al.
(“Betts”) (Exhibit 1005), in view of the
knowledge of a person of ordinary skill in the
art.

x

APA in Exhibit 1001 and the KLM Crew Rest
documents (Exhibit 1009), in view of the
knowledge of a person of ordinary skill in the
art.

IV. Summary of the Prior Art
A. Admitted Prior Art (Exhibit 1001)
A flat wall lavatory and a passenger seat were
both well known in the art before the earliest
claimed priority date of the ’742 Patent. Figure 1 of
the ’742 Patent shows a flat wall lavatory and
passenger seat and states that these were “prior
art.” Ex. 1001, 4:11-13 (emphasis added) (“FIG. 1 is
a schematic diagram of a prior art installation of a
lavatory immediately aft of and adjacent to an

159a
aircraft passenger seat.”).

Further, the ’742 Patent includes additional
admissions that such lavatories were known prior
art. “Aircraft lavatories, closets and other full height
enclosures commonly have forward walls that are
flat in a vertical plane.” Ex. 1001, 1:27-29. Many of
the features found in the claims are anticipated or
obvious in view of this admitted prior art. A
summary of the admitted prior art shown in Figure
1 is in the graphic below. Ex. 1004, ¶86.

160a

The Board may rely on this admitted prior art.
“Admissions in the specification regarding the prior
art are binding on the patentee for purposes of a
later inquiry into obviousness.” PharmaStem
Therapeutics, Inc. v. ViaCell, Inc., 491 F.3d 1342,
1362 (Fed. Cir. 2007); see also In re Nomiya, 509 F.2d
566, 570-71 (CCPA 1975) (“We see no reason why
appellants’ representations in their application
should not be accepted at face value as admissions
that Figs. 1 and 2 may be considered ‘prior art’ for
any purpose, including use as evidence of
obviousness under § 103.”); Constant v. Advanced
Micro–Devices, Inc., 848 F.2d 1560, 1570 (Fed. Cir.
1988) (“A statement in a patent that something is in
the prior art is binding on the applicant and
patentee for determinations of anticipation and
obviousness.”); I/P Engine, Inc. v. AOL, Inc. 576
Fed.Appx. 982, 987 (Fed. Cir. 2014) (“Given that its
own patents acknowledge that using the original
search query for filtering was a ‘conventional’
technique, I/P Engine cannot now evade invalidity

161a
by arguing that integrating the query into the
filtering process was a non- obvious departure from
the prior art.”).
The only aspect of the purported invention in the
’742 Patent that is not admitted prior art is the
contoured forward wall depicted in Figure 2.

But enclosures with contoured forward walls
were well-known in the art as described below.
B. Betts (Exhibit 1005)
Exhibit 1005, U.S. Patent No. 3,738,497 to Betts
et al. (“Betts”), is assigned to McDonnell Douglas
Corporation and issued on June 12, 1973, and is thus
prior art under 35 U.S.C. § 102(b). Betts describes a
coat closet with a recessed forward wall that
“provide[s] more room for passengers in an aircraft

162a
or other vehicle.” Ex. 1005, 1:5-7. The design shown
in Betts was implemented and flown on commercial
DC-10 aircraft well before the earliest claimed
priority date. Ex. 1004, ¶¶43, 46.
Figure 1 of Betts is a side elevation that shows
an assembly of an overhead coat closet for a cabin of
an aircraft that is located immediately aft of and
adjacent to a passenger seat. The forward wall of
Betts is very similar to that shown in Figure 2 of the
’742 Patent.
Betts Figure 1

Ex. 1001, Figure 2

The Betts passenger seat has an exterior aft
surface that is substantially not flat in a vertical
plane. See Ex. 1005, Fig. 1; 2:7-14. Betts explains
that this contour is positioned “to provide a space for
seatback 12 to be tilted rearwardly.” Ex. 1005, 2:19-

163a
24. One of ordinary skill in the art would understand
that the coat closet includes walls forming a
complete enclosure of the closet. Ex. 1004, ¶45.
Betts states that the passenger seat is “of the
type having a tiltable backrest 12 for the comfort of
the occupant.” Ex. 1005, 2:8-9. Thus, as described
and shown in Betts Figure 1, the passenger seat is
contoured and reclineable and therefore not flat in a
vertical plane. The seat back shown in Betts closely
conforms to the shape of the recess in the forward
wall of the enclosure. Ex. 1004, ¶45.
C. The KLM Crew Rest Document (Exhibit
1009)
In 1991, Flight Structures, Inc. (“FSI”)—a
company B/E now owns—was awarded a contract to
develop a crew rest for Royal Dutch Airlines, better
known as KLM. Ex. 1007, ¶7. Specifically, FSI was
awarded a contract to develop an overhead crew rest
for KLM’s 747-400 aircraft. FSI developed the KLM
Crew Rest during 1991 and 1992. Ex. 1007, ¶7. The
KLM Crew Rest was designed to include berths in
the overhead space of KLM’s 747-400 aircraft for
crew members to rest during lengthy flights. Ex.
1007, ¶9.
To provide access to the overhead crew rest, FSI
designed an entry on the right side of the aircraft.
The entry was modeled on a lavatory envelope (i.e.,
the outer walls forming a lavatory enclosure) and
was located at a typical location for a lavatory on a
747-400 aircraft. Ex. 1007, ¶10. The interior of the
lavatory envelope was modified to include a

164a
staircase in place of a toilet, which allows the crew
to access the overhead space. Ex. 1007, ¶10. A
rendering of the prior art KLM Crew Rest is shown
below.

The image of the KLM Crew Rest above was
included in the file history of an issued patent. See
Ex. 1009, at 70.
The Board may rely on the KLM Crew Rest
document in that file history as prior art. Patent
Owner submitted information regarding the KLM
Crew Rest in an Information Disclosure Statement
during pendency of the application that issued as
U.S. Patent No. 6,520,451. See Ex. 1009, at 66-91.
This Information Disclosure Statement was

165a
submitted on March 18, 1999, more than ten years
before the earliest claimed priority date. Id. at 64.
And U.S. Patent No. 6,520,451 issued on February
18, 2003, several years before the earliest claimed
priority date. Ex. 1010.
Thus, these documents were made available to
the public no later than the issue date of U.S. Patent
No. 6,520,451, February 18, 2003, when its file
history was made available to the public. Ex. 1010;
See 37 C.F.R. § 1.11(a) (“The specification, drawings,
and all papers relating to the file of: A published
application; a patent; or a statutory invention
registration are open to inspection by the public, and
copies may be obtained . . .”). These KLM-related
documents are therefore printed publications that
may be used in this proceeding.
The Board has held previously that a file history
is available as prior art. Duodecad It Servs.
Luxembourg S.A.R.L., IPR2015-01036, 2016 WL
6946904 (Oct. 20, 2016) (“It is undisputed that Chen
FH was fully available to anyone who ordered it. We
find that one of ordinary skill, being aware of Chen,
would consult its file history. We conclude, based on
the record as fully developed, that Chen FH is
available as prior art against the challenged
claims.”). This is fully consistent with the MPEP,
which explains “[i]n the examination of an
application, it is sometimes necessary to inspect the
application papers of some previously abandoned
application (provisional or nonprovisional) or
granted patent.” MPEP § 901.01(a). The MPEP goes
on to provide Examiners with instructions for
locating file wrappers for patented and abandoned

166a
applications. Id.
The Board’s decision in Duodecad is consistent
with Federal Circuit precedent, which holds that to
qualify as a printed publication, a reference “must
have been sufficiently accessible to the public
interested in the art.” In re Cronyn, 890 F.2d 1158,
1160 (Fed. Cir. 1989). A reference is sufficiently
accessible if it has been indexed or cataloged. Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1348
(Fed. Cir. 2016) (“we generally inquire whether the
reference was sufficiently indexed or cataloged.”).
The Federal Circuit has found that an issued patent
is “classified and indexed,” and that this is sufficient
to “provid[e] the roadmap that would have allowed
one skilled in the art to locate the [] application.”
Bruckelmyer v. Ground Heaters, Inc., 445 F.3d 1374,
1378–79 (Fed. Cir. 2006); see also Ultimax Cement
Mfg. Corp. v. CTS Cement Mfg. Corp., 587 F.3d 1339,
1355-56 (Fed. Cir. 2009) (“Information disclosed in a
patent, even a foreign one, is ‘generally known to the
public,’ especially the relevant public . . . Indeed, one
of the primary purposes of patent systems is to
disclose inventions to the public.”); Guardian Media
Technologies, Ltd. v. Amazon.com, Inc., 2014 WL
12561616 *5 (C.D. Cal. Dec. 9, 2014) (finding a
patent application file history as prior art as of the
date the patent issued). Here, the KLM Crew Rest
document was included in the publicly available file
wrapper of an issued patent and thus is prior art.
Further, “[a]ccessibility goes to the issue of
whether interested members of the relevant public
could obtain the information if they wanted to.”
Constant v. Advanced Micro–Devices, Inc., 848 F.2d

167a
1560, 1568 (Fed. Cir. 1988). The Federal Circuit has
further explained that “a published article with an
express citation to the potentially invalidating
reference would [] provide the necessary guidance.”
Blue Calypso, 815 F.3d at 1350. This is also the
case here, as the face of U.S. Patent No. 6,520,451
identifies the KLM Crew Rest submission in a
related technical area. Ex. 1010, 1:11-17 (emphasis
added) (“This invention relates generally to resting
and sleeping quarters for an aircraft crew . . . in a
space-saving and weight-saving configuration
occupying substantially otherwise unused
space aboard an aircraft.”).

Ex. 1010.
Thus, this issued patent provides a “roadmap” for
how to locate that reference, e.g., by accessing the
publicly available file wrapper. And the Board may
therefore rely on the printed publication describing
the KLM Crew Rest.
While Petitioner relies on the black and white
version of the KLM Crew Rest document shown in
Exhibit 1009, a color version is shown below and
attached as Exhibit 1006.1
1

See Ex. 1007, ¶17.

168a

V. Motivation to Combine
A. Motivation to Combine APA and Betts
As discussed in Section IV.A above, the ’742
Patent admits that a flat wall lavatory was well
known in the prior art before its earliest claimed
priority date. This is further evidenced by Exhibit
1011, U.S. Patent No. 4,884,767 to Shibata
(“Shibata”), which issued in 1989 and includes
figures showing flat wall lavatories, which it admits
were prior art as of its filing date, 1988.

169a

It would have been obvious to one of ordinary
skill in the art to modify a prior art flat wall lavatory
to include a contoured forward wall like the wall
shown in Betts. Ex. 1004, ¶¶56-64.
First, the Board has previously considered this
very combination, and found that it would be obvious
to make such a modification. Indeed, the Board
stated:
Petitioner has shown that it would have
been obvious to apply the recessed
forward wall design of Betts to other
enclosures,
including
single-spaced
lavatories.
Ex. 1003 at 12 (emphasis added).

170a
Second, as Mr. Anderson explains, a primary goal
of the design of interiors of commercial aircraft is
efficient use of valuable passenger cabin space. Ex.
1004, ¶57. Efficient use of space allows an aircraft
to accommodate more passengers and/or to
accommodate passengers more comfortably, thereby
increasing the utility of the aircraft. Ex. 1004, ¶57.
As of April 2010, a primary motivation of one of
ordinary skill in the art of aircraft interior design
would have been to make efficient use of space in the
aircraft interior cabin. Ex. 1004, ¶57.
The contoured forward facing wall shown in
Betts advantageously provides additional space to
locate a seat further aft in an aircraft. Ex. 1004, ¶58.
Betts says that the coat hanger rack is elevated “to
provide more passenger room.” Ex. 1005, Abstract.
Betts also describes that it “provide[s] more room for
passengers in an aircraft or other vehicle.” Ex. 1005,
1:5-7. As shown in the annotated figure below, the
seat shown in Betts could not be located in the
position in which it is shown if the forward wall were
flat. Ex. 1004, ¶58; Ex. 1005. Thus, this contoured
forward wall makes more efficient use of the
valuable space in the aircraft passenger cabin than
would be available with a flat forward wall. Ex.
1004, ¶58.

171a

One of ordinary skill in the art would understand
that the forward wall of the enclosure shown in Betts
would also be suitable for use with other aircraft
enclosures, including lavatories. Ex. 1004, ¶59. In an

172a
aircraft, as a row of seats is moved further aft, the
first thing that makes contact with a flat wall is the
top of the back of the seat. Ex. 1004, ¶59. And so
Betts includes a recess that receives that portion of
the seat back. Applying the contoured wall of Betts
to a lavatory allows the row of seats placed
immediately in front of that contoured wall to be
placed further aft. Ex. 1004, ¶59.
The challenged patent does not distinguish
between different types of enclosures, instead
explaining that the recessed forward wall is
applicable to all types of aircraft cabin enclosures,
e.g., “[t]he present invention relates generally to
aircraft enclosures, and more particularly relates to
an aircraft cabin enclosure, such as a lavatory, an
aircraft closet, or an aircraft galley.” Ex. 1001, 1:2023. As Mr. Anderson explains, multiple different
types of prior art enclosures include one or more
recesses to enable seats to be positioned further aft
in a cabin. Ex. 1004, ¶59. Combining different types
of enclosures, designs and shapes of recesses, and
seat geometries would have been obvious to one of
skill in the art and provides the predictable result of
allowing a seat to be positioned further aft.
Patent Owner has argued in the Underlying
Litigation that a person of ordinary skill would not
have applied a recess to a lavatory at least because
the industry had been reluctant to decrease the
width out of concern that airlines and passengers
would not accept narrower lavatory spaces. But even
if Patent Owner were correct, whether a narrower
lavatory would be acceptable to airlines and
passengers has no bearing on the obviousness of

173a
applying a contoured wall to a lavatory. Orthopedic
Equip. Co. v. U.S., 702 F.2d 1005, 1013 (Fed. Cir.
1983) (“[T]he fact that the two disclosed apparatus
would not be combined by businessmen for economic
reasons is not the same as saying that it could not be
done because skilled persons in the art felt that
there was some technological incompatibility that
prevented their combination. Only the latter fact is
telling on the issue of nonobviousness”). Customer
acceptance of a narrow lavatory is a market force,
not a technical challenge. See Friskit, Inc. v. Real
Networks, Inc., 306 Fed. App’x 610, 617-18 (Fed. Cir.
2009).
B. Motivation to Combine APA and the
KLM Crew Rest Document
As discussed in Section IV.A above, a flat wall
lavatory was well known in the prior art before the
earliest claimed priority date of ’742 Patent. It would
have been obvious to one of ordinary skill in the art
to modify a prior art lavatory to include a contoured
forward wall like the wall shown in the KLM Crew
Rest document. Ex. 1004, ¶¶65-72.
As noted above, and explained by Mr. Anderson,
a primary goal of the design of interiors of
commercial aircraft is efficient use of valuable
passenger cabin space. Ex. 1004, ¶66. Efficient use
of space allows an aircraft to accommodate more
passengers and/or to accommodate passengers more
comfortably, thereby increasing the utility of the
aircraft. Ex. 1004, ¶66. As of April 2010, a primary
motivation of one of ordinary skill in the art of
aircraft interior design would have been to make

174a
efficient use of space in the aircraft interior cabin.
Ex. 1004, ¶66. The contoured forward facing wall
shown in the KLM Crew Rest document
advantageously provides additional space to locate a
seat further aft in an aircraft. Ex. 1004, ¶66. The
recess in the forward wall of the KLM Crew Rest was
designed to allow the last row of seats in front of the
contoured wall to sit further aft in the aircraft, yet
still be able to recline. Id.; Ex. 1007, ¶13.
The seat in the KLM Crew Rest could not be
located in the position in which it is shown if the
forward wall was flat, because a flat wall would
restrict the passenger’s ability to recline the seat
and this was not permitted by the customer
requirements for the crew rest; rather, if the wall
were flat, the seat would need to be moved forward.
Ex. 1007, ¶12; Ex. 1004, ¶67. One of ordinary skill
in the art would understand that the forward wall of
the enclosure used by the KLM Crew Rest would be
suitable for use in a lavatory, at least because the
KLM Crew Rest itself is designed for occupancy by
people and is based on a lavatory envelope, without
a toilet, but including “a lavatory sink (and related
plumbing), lighting, a mirror, soap dispenser, shaver
outlet and amenity stowage.” Ex. 1007, ¶16; Ex.
1004, ¶67.
Further one of ordinary skill in the art would
recognize that in an aircraft, as a row of seats is
moved further aft, the first thing that makes contact
with a flat wall is the top of the back of the seat. Ex.
1004, ¶68. And so the KLM Crew Rest includes a
recessed forward wall that receives that portion of
the seat back. Ex. 1004, ¶68. Including the

175a
contoured wall of the KLM Crew Rest document
allows the row of seats placed immediately in front
of that contoured wall to be placed further aft. Ex.
1004, ¶68.
The challenged patent explains that the claimed
concept is equally applicable to all types of aircraft
cabin enclosures, e.g., “[t]he present invention
relates generally to aircraft enclosures, and more
particularly relates to an aircraft cabin enclosure,
such as a lavatory, an aircraft closet, or an aircraft
galley.” Ex. 1001, 1:20-23. As Mr. Anderson
explains, multiple different types of prior art
enclosures include one or more recesses to enable
seats to be positioned further aft in a cabin. Ex.
1004, ¶68. Combining different types of enclosures,
designs and shapes of recesses, and seat geometries
would have been obvious to one of skill in the art and
provides the predictable result of allowing a seat to
be positioned further aft.
Further, one of the designers of the KLM Crew
Rest, Robert Papke, confirmed during direct
testimony elicited by attorneys for Patent Owner
that this contoured wall was really the logical way
to allow seats to be placed further aft in an aircraft.
Ex. 1004, ¶69; Papke Tr. at 190:1-11.

176a

VI. Factual Background
A. Declaration Evidence
This petition is supported by the declaration of
Mr. Alan Anderson. Mr. Anderson worked at Boeing
for 43 years. From 1999-2011 Mr. Anderson was the
Director of Engineering, Payload Systems, where he
oversaw all engineering for interiors for all models
of Boeing aircraft. He was also Chief Engineer for
Interiors for the development of the 787 Interior
from 2002 until 2008. Mr. Anderson’s declaration is
attached as Exhibit 1004.
B. Person of Ordinary Skill in the Art
A person of ordinary skill in the art of the ’742
Patent would have had a bachelor’s degree in
mechanical engineering, industrial design, or a
similar discipline, or the equivalent experience, with
at least two years of experience in the field of aircraft
interior design. Ex. 1004, ¶¶27-29.

177a

VII. Claim Construction
In inter partes review, claim terms are
interpreted
under
a
“broadest
reasonable
construction” standard. See 37 C.F.R. § 42.100(b).
Under 37 C.F.R. § 1.42.104(b)(4), the “claim terms
are presumed to take on their ordinary and
customary meaning.” See 77 Fed. Reg. 48699 (2012),
Response to Comment 35. The interpretation of the
claims presented either implicitly or explicitly
herein should not be viewed as constituting, in whole
or in part, Petitioner’s own interpretation of such
claims for the purposes of any litigation or
proceeding where the claim construction standard
differs from the broadest reasonable interpretation,
but instead should be viewed as a broadest
reasonable claim construction.
A. “Reducing a Volume of Unusable Space”
The ’742 Patent relates to aircraft enclosures. Ex.
1001, 1:19-21. The patent describes that prior art
“flat wall enclosures” positioned next to “contoured
structures” leads to unusable space. Id. at 1:26-35.
The patent describes using a contoured wall in an
enclosure to “eliminate the gaps and volumes of
space previously required between lavatory
enclosures and adjacent structures, to allow the
installation of an increased number of passenger
seats.” Id. at 2:10-15. Thus, a person of ordinary skill
in the art would understand that the broadest
reasonable interpretation of “reducing a volume of
unusable space” is at least broad enough to include
“allowing an airplane seat to be positioned further
aft in an aircraft than is possible with a flat wall

178a
enclosure.”
B. “Recess”
The ’742 Patent describes a forward wall with
one or more recesses that permit a seat positioned in
front of the forward wall to be positioned further aft
than would be possible if the wall were flat. See Ex.
1001, 4:51-57 (“the recess 34 and the lower recess
100 combine to permit the passenger seat 16 to be
positioned farther aft in the cabin than would be
possible if the lavatory enclosure 10 included a
conventional flat and vertical forward wall without
recesses like that shown in FIG. 1, or included a
forward wall that did not include both recesses 34,
100.”). The ’742 Patent further describes that the
recesses cause the forward wall to be “substantially
not flat in the vertical plane.” Ex. 1001, 4:39-41
(“The forward wall portion has a shape that is
substantially not flat in the vertical plane, and
preferably is shaped to include a recess 34 . . .”).
Based on the description, a wall that is substantially
not flat is a wall that includes a contour. Thus, the
broadest reasonable interpretation of a “recess” as
used by the ’742 Patent is at least broad enough to
include “a wall that includes a contour in the vertical
plane.”

VIII. Full Statement of the Reasons for the
Relief Requested

A. Claims 8 and 10-16 are Obvious Under 35
U.S.C. § 103 over APA and Betts.
The combination of APA and Betts teaches or

179a
renders obvious to one of skill in the art each
element of the challenged claims and each
challenged claim as a whole as described in this
section. As discussed in Section V above, one of skill
in the art would be motivated to modify the APA in
view of the teachings of Betts.
[’742 Claim 8 Preamble] A method for
reducing a volume of unusable space in
a cabin area of a passenger aircraft,
comprising:
Figure 1 of Betts is a side elevation that shows
an assembly of an enclosure that is located
immediately aft of and adjacent to a passenger seat
and is nearly identical to Figure 2 of the ’742 Patent.
Ex. 1005; Ex. 1004, ¶¶241-243.
Betts Figure 1

’742 Patent Figure 2

180a
As explained above, a person of ordinary skill in
the art would be motivated to modify a flat wall
lavatory to use the Betts design on the forward wall
of a lavatory. Ex. 1004, ¶243. Such a design would
“reduce[] a volume of unusable space in a cabin area
of a passenger aircraft,” under the broadest
reasonable interpretation of this claim phrase. Id.
For example, the seat in Betts is positioned such
that it resides within the contour, as is shown by the
annotated image below. Id.

[’742 Claim 8 Element A] replacing at
least a previously-installed forward

181a
partition of a pre-existing aircraft
lavatory in the cabin area of the
passenger aircraft with a contoured
forward partition, wherein an outward
facing vertical surface of the previously
installed
forward
partition
is
substantially flat, and
As is shown below, Betts includes a contoured
forward wall. Ex. 1004, ¶246. A person of ordinary
skill in the art would realize that this contoured
forward wall could be used in place of a flat forward
wall to allow the seat be placed further aft in an
aircraft cabin. Ex. 1004, ¶246.
Betts Figure 1

’742 Patent
Figure 2

[’742 Claim 8 Element B] the contoured
forward partition comprises at least one

182a
first recess configured to receive at least
a portion of an upwardly and aftwardly
inclined seat back of a passenger seat
therein, and
As is shown in the annotated figure below, Betts
shows an aircraft passenger seat that is positioned
at least partially within the contoured forward
wall. Ex. 1004, ¶¶247-248. Thus, this seat is
received by the contoured wall. Id. Further, the back
of this seat is both upwardly and aftwardly inclined.
Id.

183a
[’742 Claim 8 Element C] at least one
second recess configured to receive at
least a portion of an aft-extending seat
support of the passenger seat therein;
and
As explained in Section V above, a person
ordinary skill in the art would be motivated
modify a flat forward facing wall of a lavatory
include a recess to allow a passenger seat to
positioned further aft in the aircraft cabin.

of
to
to
be

A seat with an aft extending seat support is well
known in the art. See, e.g., Ex. 1001, Fig. 1.

A person of ordinary skill in the art would realize
that when such a seat is moved further aft, the first
component to impact the wall is the seat back. Ex.
1004, Ex. 1004, ¶¶189, 250. As explained above,
Betts includes a forward facing recess that receives
the seat back. Id.

184a
As the seat is moved further aft, the next
component to impact the wall is the aft seat support.
Ex. 1004, ¶¶191, 250. As Mr. Anderson explains, a
person of ordinary skill in the art would be
motivated to modify an enclosure, such as a
lavatory, to include a second recess to receive aft
facing seat supports. Id. Such a modification is
nothing more than the application of known
technology for its intended purpose. Id. The result of
such a modification is predictable, allowing the seat
to be positioned further aft in an aircraft. Id.
Patent Owner cannot argue this difference
between the above cited prior art is sufficient to
render the claims patentable. The “mere existence of
differences between the prior art and an invention
does not establish the invention’s nonobviousness.
The gap between the prior art and respondent’s
system is simply not so great as to render the system
nonobvious to one reasonably skilled in the art.”
Dann v. Johnston, 425 U.S. 219, 230 (1976); see also
MPEP § 2141 (“The proper analysis is whether the
claimed invention would have been obvious to one of
ordinary skill in the art after consideration of all the
facts.”). Mr. Anderson explains in detail why this
difference would be obvious to one or ordinary skill
in the art. Ex. 1004, ¶¶186-192, 250.
Further, as evidence of this modification being
well known, Mr. Anderson cites to three examples of
prior art enclosures that include a lower recess to
receive a seat support. Ex. 1004, ¶¶192, 250. Each of
these designs was sold and included in passenger
aircraft well before the earliest claimed priority date
of the ’742 Patent. Id. Patent Owner was aware of at

185a
least the SAS MD-90 Aft-Storage during prosecution
of the application that led to the ’742 Patent. Ex.
1008.

[’742 Claim 8 Element D] installing the
passenger seat in front of the contoured
forward
partition;
wherein,
upon
installation, the at least one first recess
receives at least a portion of the
upwardly and aftwardly inclined seat
back, and the second recess receives at
least a portion of the aft-extending seat
support,
As noted above, Figure 1 of the ’742 Patent
admits that a seat with an aft extending seat
support is well known in the art. Ex. 1004, ¶¶118,
188, 216. Further, Figure 1 of Betts shows both a
passenger seat and a contoured forward partition.
Ex. 1005; Ex. 1004, ¶¶175, 251-252. As explained
above in connection with Claim 8, Element B, the
passenger seat is positioned at least partially within

186a
the contour and is thus received by the recess. Ex.
1004, ¶¶247-248.
As explained above , a person of ordinary skill in
the art would be motivated to modify the forward
wall of an enclosure to accommodate known prior art
seat designs that include an aft-extending seat
support. Ex. 1004, ¶¶117-122, 189-192, 215-219.
Such a modification is nothing more than the
application of known technology for its intended
purpose. Id. The result of such a modification is
predictable, allowing the seat to be positioned
further aft in an aircraft. Ex. 1004, ¶¶121, 191, 218.
Further, as explained above, there were multiple
prior art designs that included a lower recess to
accommodate aft extending seat supports. Ex. 1004,
¶¶122, 192.
[’742 Claim 8 Element E] thereby
reducing the volume of unusable space
in the cabin area by reducing or
eliminating gaps that existed between
the previously-installed forward wall
and the passenger seat.
As explained in Section V above, a person of
ordinary skill in the art would be motivated to
modify a flat wall lavatory to use the Betts design on
the forward wall of a lavatory. Such a design would
“reduce[] a volume of unusable space in a cabin area
of a passenger aircraft,” under the broadest
reasonable interpretation of this claim phrase. Ex.
1004, ¶¶253-254. For example, the seat in Betts is
positioned such that it resides within the contour, as

187a
is shown by the annotated image below. Ex. 1005.

The Betts design therefore “reduc[es] or
eliminate[es] gaps that existed between the
previously-installed forward wall and the passenger
seat.”
[’742 Claim 10] The method of claim 8,
wherein the at least one first recess
substantially conforms to a contour of an
aft surface of the upwardly and
aftwardly inclined seat back.

188a
The recess shown in Betts “substantially
conforms to a contour of an aft surface of the
upwardly and aftwardly inclined seat back.” Ex.
1004, ¶¶255-256. As shown below, the design of
Betts Figure 1 is substantially the same as the
design shown in Figure 2 of the ’742 Patent. Id.
Betts Figure 1

’742 Patent Figure 2

Betts further discloses a seat with “a contour of
an aft surface of the upwardly and aftwardly
inclined seat back.” Ex. 1004, ¶258. Further, the
only seat disclosed in the ’742 Patent is admitted to
be prior art. Id.
[’742 Claim 11] The method of claim 8,
wherein
the
contoured
forward

189a
partition further comprises an upper
projection that, upon installation,
protrudes forward over a top of the
upwardly and aftwardly inclined seat
back.
As is shown in the annotated figures below, Betts
discloses “an upper projection that, upon
installation, protrudes forward over a top of the
upwardly and aftwardly inclined seat back.” Ex.
1004, ¶¶259-260.

[’742 Claim 12] The method of claim 11,
wherein the upper projection is

190a
configured to abut an upper surface of
the cabin area.
The upper projection shown in the analysis of
Claim 11 above “is configured to abut an upper
surface of the cabin area.” See Ex. 1004, ¶262.
Further, the admitted prior art discloses a
lavatory wherein the upper portion of the forward
wall is configured to abut an upper surface of the
cabin area.

[’742 Claim 13] The method of claim 11,
wherein the upper projection defines an

191a
interior storage space in the aircraft
lavatory.
To the extent “an interior storage space in the
aircraft lavatory” is described in the ’742 Patent, it
is admitted to be prior art in Figure 1. The admitted
prior art shows “a secondary space in said interior
lavatory space above the passenger seat back.” The
specification of the ’742 Patent describes “the
forward wall portion defines a secondary space 36 in
the interior lavatory space.” Ex. 1001, 4:43-45. Such
a space is shown in both Figure 1 and Figure 2. Ex.
1004, ¶¶205-206, 263. Further, a person of ordinary
skill in the art would recognize that prior art
lavatories often include interior storage spaces, e.g.,
trash receptacles, space for additional paper towels
or toilet paper, space for routing plumbing, etc. Ex.
1004, ¶207. A person of ordinary skill in the art
would further understand that the enclosed space
of a lavatory would continue to contain the prior art
interior storage spaces after applying a contour to
the forward wall. Id.

[’742 Claim 14] The method of claim 8,

192a
wherein the upwardly and aftwardly
inclined seat back is in an upright and
not a reclined position.
The seat shown in Betts is in substantially the
same position as the seat shown in Figure 2 of the
‘742 Patent Ex. 1004, ¶264-265.

Further, a person of ordinary skill in the art
would recognize that the seat shown in Betts is in an
upright and unreclined position. Id.
[’742 Claim 15] The method of claim 8,
wherein the at least one first recess
extends along substantially a full width
of the contoured forward partition.
Figure 1 of Betts shows a side elevational view of
the coat closet enclosure. Ex. 1005, 1:58-59; Ex.
1004, ¶¶234-235, 267. The side elevational view
shows the coat closet enclosure from a horizontal
plane beside the enclosure. Id. One of ordinary skill
in the art would understand from Figure 1 that the

193a
recess extends the full width of the forward wall. Id.
Further, nothing in Betts suggests that the
recess only extends a portion of the width of the
forward wall. Ex. 1004, ¶236. Moreover, one of
ordinary skill in the art would be motivated to
extend the recess the full width of the forward wall
in order to accommodate the full row of seats
installed immediately forward of the wall. Id. In
fact, the commercial embodiments of the Betts closet
(found on DC- 10s) had a recess that extended the
full width of the forward partition. Id.
Further, the side elevation view shown in Figure
1 is essentially identical to the schematic diagram of
Figure 2 of the ’742 Patent. Ex. 1001. The term
“width” appears nowhere in the specification of the
’742 Patent. See Ex. 1001. To the extent that Figure
2 of the ’742 Patent describes this limitation, the
limitation is also disclosed by Figure 1 of Betts.
[’742 Claim 16] The method of claim 8,
wherein replacing the previouslyinstalled forward partition with the
contoured forward partition permits the
aft-extending seat support to be
positioned farther aft in the cabin area
than was possible when the previouslyinstalled forward partition was installed
in the cabin area.
As explained in Section V above, a person of
ordinary skill in the art would be motivated to
modify a flat wall lavatory to use the Betts design on
the forward wall of a lavatory. Ex. 1004, ¶¶268-269.

194a
The seat shown in Betts is positioned further aft
than it could be positioned if there were no recess in
the forward wall because the seat back is within the
recess. Id. Further, the seat shown in Betts is in
substantially the same position as the seat shown in
Figure 2 of the ’742 Patent. Id. And a person of
ordinary skill in the art would recognize that the
seat shown in Betts is in an unreclined position. Id.
Further, as explained above with regard to Claim
8, Element C, it was well known in the prior art to
include a lower recess to receive an aft-extending
seat support. Ex. 1004, ¶¶191-192, 271. As Mr.
Anderson explains, a person of ordinary skill in the
art would be motivated to modify an enclosure, such
as a lavatory, to include a second recess to receive
aft facing seat supports. Id. Such a modification is
nothing more than the application of known
technology for its intended purpose. Id. The result of
such a modification is predictable, allowing the seat
to be positioned further aft in an aircraft. Id.
B. Claims 8 and 10-16 are Obvious Under 35
U.S.C. § 103 over APA and the KLM Crew
Rest Document.
The combination of APA and the KLM Crew Rest
document teaches or renders obvious to one of skill
in the art each element of the challenged claims and
each challenged claim as a whole as described in this
section. As discussed in Section V above, one of skill
in the art would be motivated to modify the APA in
view of the teachings of the KLM Crew Rest
document.

195a
[’742 Claim 8 Preamble] A method for
reducing a volume of unusable space in
a cabin area of a passenger aircraft,
comprising:
As explained above, a person of ordinary skill in
the art would be motivated to modify a flat wall
lavatory to use the KLM Crew Rest design on the
forward wall of a lavatory. Ex. 1004, ¶244. The KLM
Crew Rest document shows an image of a lavatory
enclosure. Id. The enclosure has a contoured wall to
allow space for a seat that is located forward of and
proximate to the aircraft enclosure. Id.

Such a design would “reduce[] a volume of
unusable space in a cabin area of a passenger
aircraft,”
under
the
broadest
reasonable
interpretation of this claim phrase. Ex. 1004, ¶245.
For example, the seat in the KLM Crew Rest

196a
document is positioned such that it can recline into
space made available by the contour. Ex. 1007, ¶13.
This design allows for passenger seats to be placed
further aft than they could be placed with a flat wall.
Id. This allows for additional seating in the cabin of
an aircraft when installed. Id.
[’742 Claim 8 Element A] replacing at
least a previously-installed forward
partition of a pre-existing aircraft
lavatory in the cabin area of the
passenger aircraft with a contoured
forward partition, wherein an outward
facing vertical surface of the previously
installed
forward
partition
is
substantially flat, and
As is shown in the annotated figure below, the
KLM Crew Rest document shows a contoured
forward wall. Ex. 1004, ¶246. A person of ordinary
skill in the art would realize that this contoured
forward wall could be used in place of a flat forward
wall to allow the seat be placed further aft in an
aircraft cabin. Id.

197a

[’742 Claim 8 Element B] the contoured
forward partition comprises at least one
first recess configured to receive at least
a portion of an upwardly and aftwardly
inclined seat back of a passenger seat
therein, and
As is shown in the annotated figure below, the
KLM Crew Rest document shows a contoured
forward wall. Ex. 1004, ¶¶247-249.This contoured
forward wall includes a recess configured to receive
an upwardly and aftwardly inclined seat back of a
passenger seat. Id.

198a

Further, the recess in the KLM Crew Rest was
designed to allow the last row of seats positioned in
front of the contoured wall to sit further aft in the
aircraft, yet still be able to recline. Ex. 1007, ¶13.
Thus, if there were no recess, this seat would need
to be positioned further forward to allow for recline.
Ex. 1004, ¶249. Thus, the contoured wall allows for
this seat to sit further aft than it otherwise would be
able to sit, and therefore receives the seat back. Id.
Further, one of ordinary skill in the art would be
motivated to restrict the recline of the seat and move
the seat further aft into the recess. Id. A motivation
for doing so would be to increase the pitch of seats
between rows or allow for additional rows of seats.
Id.
[’742 Claim 8 Element C] at least one
second recess configured to receive at
least a portion of an aft-extending seat
support of the passenger seat therein;
and
As explained in Section V above, a person of

199a
ordinary skill in the art would be motivated to
modify a flat forward facing wall of a lavatory to
include a recess to allow a passenger seat to be
positioned further aft in the aircraft cabin.
A seat with an aft extending seat support is well
known in the art. See, e.g., Ex. 1001, Fig. 1.

A person of ordinary skill in the art would realize
that when such a seat is moved further aft, the first
component to impact the wall is the seat back. Ex.
1004, ¶¶189-190, 250. As explained above, the KLM
Crew Rest document shows a forward facing recess
that receives the seat back when the seat is reclined.
Id.
As the seat is moved further aft, the next
component to impact the wall is the aft seat support.
Ex. 1004, ¶¶191, 250. As Mr. Anderson explains, a
person of ordinary skill in the art would be
motivated to modify an enclosure, such as a
lavatory, to include a second recess to receive aft
facing seat supports. Id. Such a modification is

200a
nothing more than the application of known
technology for its intended purpose. Id. The result of
such a modification is predictable, allowing the seat
to be positioned further aft in an aircraft. Id.
Patent Owner cannot argue this difference
between the above cited prior art is sufficient to
render the claims patentable. The “mere existence of
differences between the prior art and an invention
does not establish the invention’s nonobviousness.
The gap between the prior art and respondent’s
system is simply not so great as to render the system
nonobvious to one reasonably skilled in the art.”
Dann v. Johnston, 425 U.S. 219, 230 (1976); see also
MPEP § 2141. A person of ordinary skill in the art
would recognize that such a modification was well
known in the art. Ex. 1004, ¶¶186-192, 250.
As evidence of this modification being well
known, Mr. Anderson cites to three examples of
prior art enclosures that include a lower recess to
receive a seat support. Ex. 1004, ¶¶192, 250. Each of
these designs was sold and included in passenger
aircraft well before the earliest claimed priority date
of the ’742 Patent. Id. Patent Owner was aware of at
least the SAS MD-90 Aft-Storage during prosecution
of the application that led to the ’742 Patent. Ex.
1008.

201a

[’742 Claim 8 Element D] installing the
passenger seat in front of the contoured
forward
partition;
wherein,
upon
installation, the at least one first recess
receives at least a portion of the
upwardly and aftwardly inclined seat
back, and the second recess receives at
least a portion of the aft-extending seat
support,
As noted above, Figure 1 of the ’742 Patent
admits that a seat with an aft extending seat
support is well known in the art. Ex. 1004, ¶¶118,
188, 216. Further, the KLM Crew Rest document
shows both a passenger seat and a contoured
forward partition. Ex. 1004, ¶¶175, 251-252. As
explained above in connection with Claim 8,
Element B, the passenger seat is positioned is
positioned such that it could not recline without a
contoured forward wall, thus this seat is at least
partially within the contour and is thus received

202a
by the recess. Ex. 1004, ¶¶247, 249.
As explained above, a person of ordinary skill in
the art would be motivated to modify the forward
wall of an enclosure to accommodate known prior art
seat designs that include an aft-extending seat
support. Ex. 1004, ¶¶117-122, 189-192, 215-219.
Such a modification is nothing more than the
application of known technology for its intended
purpose. Id. The result of such a modification is
predictable, allowing the seat to be positioned
further aft in an aircraft. Ex. 1004, ¶¶121, 191, 218.
Further, as explained above, there were multiple
prior art designs that included a lower recess to
accommodate aft extending seat supports. Ex. 1004,
¶¶122, 192.
[’742 Claim 8 Element E] thereby
reducing the volume of unusable space
in the cabin area by reducing or
eliminating gaps that existed between
the previously-installed forward wall
and the passenger seat.
As explained in Section V above, a person of
ordinary skill in the art would be motivated to
modify a flat wall lavatory to use the KLM Crew
Rest design on the forward wall of a lavatory. Such
a design would “reduce[] a volume of unusable space
in a cabin area of a passenger aircraft,” under the
broadest reasonable interpretation of this claim
phrase. Ex. 1004, ¶¶253-254. For example, the seat
in the KLM Crew Rest rendering is allowed to be
positioned further aft yet still recline as a result of

203a
the contour in the forward wall. Ex. 1007, ¶13. The
KLM Crew Rest design therefore “reduc[es] or
eliminate[es] gaps that existed between the
previously-installed forward wall and the passenger
seat.”
[’742 Claim 10] The method of claim 8,
wherein the at least one first recess
substantially conforms to a contour of an
aft surface of the upwardly and
aftwardly inclined seat back.
The recess shown in the KLM Crew Rest
document “substantially conforms to a contour of an
aft surface of the upwardly and aftwardly inclined
seat back.” Ex. 1004, ¶257. As Mr. Sobotta explains,
the design includes a “recess that would receive the
seatback of the row of seats located in front of the
entry enclosure.” Ex. 1007, ¶13. This is shown in the
annotated figure below.

[’742 Claim 11] The method of claim 8,

204a
wherein
the
contoured
forward
partition further comprises an upper
projection that, upon installation,
protrudes forward over a top of the
upwardly and aftwardly inclined seat
back.
As explained above, the seat shown in the KLM
Crew Rest rendering reclines into the contour in the
forward wall. Ex. 1004, ¶259, 261. Thus, at least
part of the forward wall is protrudes overtop of the
upwardly and aftwardly reclined seat back. Id.
[’742 Claim 12] The method of claim 11,
wherein the upper projection is
configured to abut an upper surface of
the cabin area.
As is shown in the annotated figure below, the
upper part of the KLM Crew Rest, which includes a
projection, is configured to abut an upper surface of
the cabin area, e.g., the ceiling of the cabin. Ex. 1004,
¶262.

205a

Further, the admitted prior art discloses a
lavatory wherein the upper portion of the forward
wall is configured to abut an upper surface of the
cabin area.

206a
[’742 Claim 13] The method of claim 11,
wherein the upper projection defines an
interior storage space in the aircraft
lavatory.
To the extent “an interior storage space in the
aircraft lavatory” is described in the ’742 Patent, it
is admitted to be prior art in Figure 1. The admitted
prior art shows “a secondary space in said interior
lavatory space above the passenger seat back.” The
specification of the ’742 Patent describes “the
forward wall portion defines a secondary space 36 in
the interior lavatory space.” Ex. 1001, 4:43-45. Such
a space is shown in both Figure 1 and Figure 2. Ex.
1004, ¶¶205-206, 263. Further, a person of ordinary
skill in the art would recognize that prior art
lavatories often include interior storage spaces,
e.g., trash receptacles, space for additional paper
towels or toilet paper, space for routing plumbing,
etc. Ex. 1004, ¶207.

The KLM Crew Rest document also shows

207a
interior storage spaces within the enclosed lavatory
space defined by the upper projection as shown in
the annotated figure below. Ex. 1009; Ex. 1004,
¶111.

A person of ordinary skill in the art would
understand that the enclosed space of a lavatory
would continue to contain secondary storage spaces,
such as amenity stowage, after applying a contour to
the forward wall as shown by the KLM Crew Rest
document. Ex. 1004, ¶207.
[’742 Claim 14] The method of claim 8,
wherein the upwardly and aftwardly
inclined seat back is in an upright and
not a reclined position.
A person of ordinary skill in the art would
recognize that the seat shown in the KLM Crew Rest
document is positioned further aft than it could be
positioned without the recess. Ex. 1004, ¶266, Ex.
1007, ¶13.

208a
Further, a person of ordinary skill in the art
would recognize that the seat could be moved further
aft, such that the seat was in the recess when in an
unreclined position. Id. One motivation for doing so
would be to increase the amount of space in front of
the passenger seat, thereby increasing the pitch of
the rows of seats in the aircraft or allowing an
additional row of seats to be added. Id.
[’742 Claim 15] The method of claim 8,
wherein the at least one first recess
extends along substantially a full width
of the contoured forward partition.
The KLM Crew Rest document shows a recess
that extends along substantially the full width of the
of the contoured forward partition. Ex. 1004, ¶¶237,
267.

209a
[’742 Claim 16] The method of claim 8,
wherein replacing the previouslyinstalled forward partition with the
contoured forward partition permits the
aft-extending seat support to be
positioned farther aft in the cabin area
than was possible when the previouslyinstalled forward partition was installed
in the cabin area.
A person of ordinary skill in the art would be
motivated to modify a flat wall lavatory to use the
KLM Crew Rest design on the forward wall of a
lavatory. Ex. 1004, ¶270. A person of ordinary skill
in the art would recognize that the seat shown in the
KLM Crew Rest document is positioned further aft
than it could be positioned without the recess. Id.;
Ex. 1007, ¶13. A person of ordinary skill in the art
would recognize that the seat could be moved further
aft, such that the seat was in the recess when in an
unreclined position. Ex. 1004, ¶270. One motivation
for doing so would be to increase the amount of space
in front of the passenger seat, thereby increasing the
pitch of the rows of seats in the aircraft or allowing
an additional row of seats to be added. Id.
Further, as explained above with regard to Claim
8, Element C, it was well known in the prior art to
include a lower recess to receive an aft-extending
seat support. Ex. 1004, ¶¶191-192, 271. As Mr.
Anderson explains, a person of ordinary skill in the
art would be motivated to modify an enclosure, such
as a lavatory, to include a second recess to receive
aft facing seat supports. Id. Such a modification is
nothing more than the application of known

210a
technology for its intended purpose. Id. The result of
such a modification is predictable, allowing the seat
to be positioned further aft in an aircraft. Id.

IX. Any Secondary Considerations Cannot
Overcome
the
Obviousness.

Clear

Evidence

of

Patent Owner may attempt to overcome the clear
obviousness of the challenged claims by pointing to
alleged
secondary
considerations
of
nonobviousness. The Board has already considered
Patent Owner’s secondary considerations in the
prior IPR regarding the parent ’838 Patent. The
Board determined that Patent Owner’s secondary
considerations were insufficient in the face of the
strong evidence of obviousness in view of Betts. Ex.
1003, at 23-24. Patent Owner’s secondary
considerations fail here for the same reasons.
First, evidence of second considerations is
significant only if there is a nexus between the
claimed invention and the evidence. Ormco Corp. v.
Align Tech., Inc., 463 F.3d 1299, 1311-12 (Fed. Cir.
2006) (“Evidence of commercial success, or other
secondary considerations, is only significant if there
is a nexus between the claimed invention and the
commercial success.”). All types of objective evidence
of non-obviousness must be shown to have such a
nexus. Chums, Inc. v. Cablz, Inc., IPR2014-01240,
Paper No. 43 at 27 (PTAB Feb. 8, 2016) (citations
omitted).
Patent Owner cannot establish a nexus here
because all claim elements were known in the prior

211a
art. When objective evidence results from something
that is not “both claimed and novel in the claim,
there is no nexus to the merits of the claimed
invention.” In re Kao, 639 F.3d 1057, 1068 (Fed. Cir.
2011) (emphasis in original); ClassCo, Inc. v. Apple,
Inc. 838 F.3d 1214, 1220 (Fed. Cir. 2016) (“A nexus
may not exist where, for example, the merits of the
claimed invention were ‘readily available in the
prior art.’” (quoting Richdel, Inc. v. Sunspool Corp.,
714 F.2d 1573, 1580 (Fed. Cir. 1983)); ArcelorMittal
France v. AK Steel Corp., 700 F.3d 1317, 1325 (Fed.
Cir. 2012) (“[O]ur cases make clear that the
commercial success of the embodiment with
additional unclaimed features is to be considered
when evaluating the obviousness of the claim,
provided that embodiment’s success has a sufficient
nexus to the claimed and novel features of the
invention.” (emphasis added)). No claim element is
novel and there is thus no nexus to any secondary
consideration of non-obviousness.
Second, contrary to Patent Owner’s assertion,
prior art lavatory designs included contours that
intruded on the interior space of the lavatory. Ex.
1004, ¶¶60-64. Two prior art examples are shown
below:

212a
US 7,284,287, Ex.
1012

U.S. 2009/0050738 A1,
Ex. 1013

Patent Owner’s argument that one of ordinary skill
in the art would not have contoured a lavatory wall
or intruded on interior lavatory space simply has no
merit. Further, the patent itself makes clear that the
disclosure is not limited to lavatories with a wall
that intrudes on passenger space. Rather, the patent
explains that “the present invention can provide a
more spacious lavatory or other enclosure with no
need to move adjacent seats or other structures
forward.” Ex. 1001, 1:65- 67.
Finally, even if Patent Owner were able to
establish any secondary considerations and a nexus
to them, secondary considerations are insufficient to
overcome a strong case of obviousness, like the one
here. Wyers v. Master Lock Co., 616 F.3d 1231, 1246
(Fed. Cir. 2010) (“[S]econdary considerations of
nonobviousness . . . simply cannot overcome a strong

213a
prima facie case of obviousness.”); Leapfrog Enters.,
Inc. v. Fisher–Price, Inc., 485 F.3d 1157, 1162 (Fed.
Cir. 2007) (holding that the objective considerations
of nonobvious-ness presented, including substantial
evidence of commercial success, praise, and long- felt
need, were inadequate to overcome a strong showing
of primary considerations that rendered the claims
at issue invalid); Rothman v. Target Corp., 556 F.3d
1310, 1322 (Fed. Cir. 2009) (“a strong prima facie
obviousness showing may stand even in the face of
considerable
evidence
of
secondary
considerations.”); Stamps.com Inc. v. Endicia, Inc.,
437 Fed.Appx. 897, 905 (Fed. Cir. 2011) (“Given the
strong showing of obviousness, we find that the
evidence
of
secondary
considerations
was
inadequate to overcome the legal conclusion that the
contested claims would have been obvious.”).

X. Conclusion
In view of the foregoing, Petitioner respectfully
submits that there is a reasonable likelihood that
Petitioner will prevail with respect to claims 8 and
10-16 of the ’742 Patent. Accordingly, Petitioner
requests that the Board grant this petition and
initiate an inter partes review.

Respectfully submitted,

By: /s/ John C. Alemanni
John C. Alemanni

214a
Registration No. 47,384

Lead Counsel
Back-Up Counsel
John C. Alemanni (Reg. Dean W. Russell (Reg.
No. 47,384)
No. 33,452)
David A. Reed (Reg. No.
Postal and Hand61,226)
Delivery Address:
Michael T. Morlock (Reg.
Kilpatrick Townsend & No. 62,245)
Stockton LLP
Postal and Hand4208 Six Forks Road,
Suite 1400
Delivery Address:
Raleigh, NC 27609
Kilpatrick Townsend &
Telephone: (919) 420Stockton LLP
1724
1100 Peachtree Street,
Fax: (919) 420-1800
NE, Suite 2800
jalemanni@kilpatrickto Atlanta, GA 30309-4528
Telephone: (404) 815wnsend.com
6500
Fax: (404) 815-6555
drussell@kilpatricktowns
end.com
dreed@kilpatricktownsen
d.com
mmorlock@kilpatricktown
send.com
Andrew Rinehart (Reg.
No. 75,537)

215a
Postal and HandDelivery Address:
Kilpatrick Townsend &
Stockton LLP
1001 West Fourth Street
Winston-Salem, NC
27101-2400
Telephone: (336) 6077300
Fax: (336) 734-2621
arinehart@kilpatricktow
nsend.com

216a
CERTIFICATE OF WORD COUNT
The undersigned certifies pursuant to 37 C.F.R.
§ 42.24(d) that the foregoing Petition for Inter
Partes Review excluding any table of contents,
table of authorities, certificates of service or word
count, or appendix of exhibits or claim listing,
contains 10,997 words according to the wordprocessing program used to prepare this paper
(Microsoft Word). Including annotations in figures,
Petitioner certifies that this Petition for Inter
Partes Review does not exceed the applicable typevolume limit of 37 C.F.R. § 42.24(a).

Dated: April 13, 2017

/s/ John C. Alemanni
Counsel for Petitioner

217a
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on the date
below a copy of this Petition for Inter Partes
Review has been served by Express Mail upon the
following:
OBLON, MCCLELLAND, MAIER &
NEUSTADT, L.L.P.
1940 DUKE STREET
ALEXANDRIA VA 22314
With a courtesy copy sent via email to:
Samuel Franklin Baxter
McKool Smith
sbaxter@mckoolsmith.co
m

Andrei Iancu
Irell & Manella - Los
Angeles
aiancu@irell.com

Morgan Chu
Irell & Manella - Los
Angeles
mchu@irell.com

Leah Johannesson
Irell & Manella - Los
Angeles
ljohannesson@irell.co
m

Benjamin Haber
Irell & Manella - Los
Angeles
bhaber@irell.com
Michael R Fehner
Irell & Manella - Newport
Beach mfehner@irell.com

Joseph M Lipner
Irell & Manella - Los
Angeles
jlipner@irell.com

218a
Dated: April 13, 2017

By: /s/ John C. Alemanni
John C. Alemanni
Registration No. 47,384
Lead Counsel for
Petitioner

219a
APPENDIX F
UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
C&D ZODIAC, INC.,
Petitioner
v.
B/E AEROSPACE, INC.,
Patent Owner.
Patent No. 9,073,641
Filing Date: October 1, 2013
Issue Date: July 7, 2015
Title: AIRCRAFT INTERIOR LAVATORY

Inter Partes Review No. _______
PETITION FOR INTER PARTES REVIEW

220a
TABLE OF CONTENTS
I.

Summary ................................................. 229a
A.

Real Party-in-Interest .................. 230a

B.

Related Matters ............................ 230a
Zodiac Seats US LLC, a limited
liability company organized and
existing under the laws of Texas. 232a
Heath Tecna, Inc., a corporation
organized and existing under the laws
of Delaware. .................................. 232a
Northwest Aerospace Technologies,
Inc., a corporation organized and
existing under the laws of
Washington. .................................. 232a

C. Fees .................................................... 232a
D. Designation of Lead Counsel and Backup
Counsel.......................................... 232a
E. Service Information ........................... 232a
F. Power of Attorney ............................... 233a
G. Standing ............................................. 233a
II. Background .................................................. 233a
A.

Priority Date and Family ............. 234a

B.

221a
The Written Specification and Figures
....................................................... 234a

....................................................... 236a
C.

The Earlier IPR and Underlying
Litigations ..................................... 236a

Ex. 1003 at 12 (emphasis added). ........... 237a

....................................................... 237a
III. Statement of Relief Requested ................... 239a

222a
IV. Summary of the Prior Art ........................... 239a
A.

Admitted Prior Art (Exhibit 1001)239a

....................................................... 240a
B.

Betts (Exhibit 1005) ..................... 242a

C.

The KLM Crew Rest Document
(Exhibit 1009) ............................... 244a

V. Motivation to Combine ................................. 249a
A.

Motivation to Combine APA and Betts
....................................................... 249a

One of ordinary skill in the art would
understand that the forward wall of
the enclosure shown in Betts would
also be suitable for use with other
aircraft enclosures, including
lavatories. Ex. 1004, ¶59. In an
aircraft, as a row of seats is moved

223a
further aft, the first thing that would
make contact with a flat wall is the
top of the back of the seat. Ex. 1004,
¶59. And so Betts includes a recess
that receives that portion of the seat
back. Applying the contoured wall of
Betts to a lavatory allows the row of
seats placed immediately in front of
that contoured wall to be placed
further aft. Ex. 1004, ¶59. ............ 252a
The challenged patent does not distinguish
between different types of enclosures,
instead explaining that the recessed
forward wall is applicable to all types
of aircraft cabin enclosures, e.g., “[t]he
present invention relates generally to
aircraft enclosures, and more
particularly relates to an aircraft
cabin enclosure, such as a lavatory, an
aircraft closet, or an aircraft galley.”
Ex. 1001, 1:20-23. As Mr. Anderson
explains, multiple different types of
prior art enclosures include one or
more recesses to enable seats to be
positioned further aft in a cabin. Ex.
1004, ¶59. Combining different types
of enclosures, designs and shapes of
recesses, and seat geometries would
have been obvious to one of skill in the
art and provides the predictable result
of allowing a seat to be positioned
further aft. .................................... 253a
Patent Owner has argued in the Underlying

224a
Litigation that a person of ordinary
skill would not have applied a recess
to a lavatory at least because the
industry had been reluctant to
decrease the width out of concern that
airlines and passengers would not
accept narrower lavatory spaces. But
even if Patent Owner were correct,
whether a narrower lavatory would be
acceptable to airlines and passengers
has no bearing on the obviousness of
applying a contoured wall to a
lavatory. Orthopedic Equip. Co. v.
U.S., 702 F.2d 1005, 1013 (Fed. Cir.
1983) (“[T]he fact that the two
disclosed apparatus would not be
combined by businessmen for
economic reasons is not the same as
saying that it could not be done
because skilled persons in the art felt
that there was some technological
incompatibility that prevented their
combination. Only the latter fact is
telling on the issue of
nonobviousness”). Customer
acceptance of a narrow lavatory is a
market force, not a technical
challenge. See Friskit, Inc. v. Real
Networks, Inc., 306 Fed. App’x 610,
617-18 (Fed. Cir. 2009). ................ 253a
B.

Motivation to Combine APA and the
KLM Crew Rest Document ........... 254a

VI. Factual Background .................................... 257a

A.
B.
VII.

225a
Declaration Evidence.................... 257a
Person of Ordinary Skill in the Art
....................................................... 257a

Claim Construction ................................. 258a
A.

“Recess” ......................................... 258a

VIII. Full Statement of the Reasons for the
Relief Requested ........................... 259a
Patent Owner’s argument that one of ordinary skill
in the art would not have contoured a
lavatory wall or intruded on interior lavatory
space simply has no merit. Further, the
patent itself makes clear that the disclosure
is not limited to lavatories with a wall that
intrudes on passenger space. Rather, the
patent explains that “the present invention
can provide a more spacious lavatory or
other enclosure with no need to move
adjacent seats or other structures forward.”
Ex. 1001, 1:59- 61. ................................... 312a
Finally, even if Patent Owner were able to
establish any secondary considerations and a
nexus to them, secondary considerations are
insufficient to overcome a strong case of
obviousness, like the one here. Wyers v.
Master Lock Co., 616 F.3d 1231, 1246 (Fed.
Cir. 2010) (“[S]econdary considerations of
nonobviousness . . . simply cannot overcome
a strong prima facie case of obviousness.”);
Leapfrog Enters., Inc. v. Fisher–Price, Inc.,

226a
485 F.3d 1157, 1162 (Fed. Cir. 2007) (holding
that the objective considerations of
nonobvious-ness presented, including
substantial evidence of commercial success,
praise, and long- felt need, were inadequate
to overcome a strong showing of primary
considerations that rendered the claims at
issue invalid); Rothman v. Target Corp., 556
F.3d 1310, 1322 (Fed. Cir. 2009) (“a strong
prima facie obviousness showing may stand
even in the face of considerable evidence of
secondary considerations.”); Stamps.com Inc.
v. Endicia, Inc., 437 Fed.Appx. 897, 905 (Fed.
Cir. 2011) (“Given the strong showing of
obviousness, we find that the evidence of
secondary considerations was inadequate to
overcome the legal conclusion that the
contested claims would have been obvious.”).
.................................................................. 312a
X.

Conclusion ............................................... 313a

227a
LIST OF EXHIBITS
PETITIONER
EXHIBIT
1001
1002
1003
1004
1005

DESCRIPTION
U.S. Patent No. 9,073,641 (“the ’641
Patent”).
Prosecution History of U.S. Patent
No. 9,073,641.
Final Written Decision in IPR201400727.
Declaration of Alan Anderson.

1006

U.S. Patent No. 3,738,497 to Betts
(“Betts”).
Rendering of the KLM Crew Rest.

1007

Declaration of Paul Sobotta .

1008

Letters from Petitioner to Patent
Owner Regarding Prior Art, dated
April 7, 2014; April 25, 2014; May
15, 2015; and June 9,
2014.
File History from Application No.
09/947,275, which issued as
U.S. Patent No. 6,520,451 to Moore.
U.S. Patent No. 6,520,451 to Moore
(“Moore”).
U.S. Patent No. 4,884,767 to
Shibata (“Shibata”).
US Patent No. 7,284,287 to Cooper
(“Cooper”).
U.S. 2009/0050738 A1 to Breuer
(“Breuer”).

1009

1010
1011
1012
1013

228a
PETITIONER
EXHIBIT
1014

1015

1016
1017
1018
1019
1020

1021

DESCRIPTION
Unopposed Motion to Withdraw
Motion for Preliminary Injunction in
B/E Aerospace, Inc. v. Zodiac
Aerospace, et al., No. 2:14-cv-210,
Dkt. 47 (E.D. Tex. Jun. 6, 2014).
Voluntary Dismissal in B/E
Aerospace, Inc. v. Zodiac Aerospace,
et al., No. 2:14-cv-210, Dkt. 50 (E.D.
Tex. Jun. 19, 2014).

Patent Owner’s Opening Brief in
Federal Circuit Appeal Nos. 161496, 16-1497.
U.S. Patent No. 8,590,838 (“the
’838 Patent”).
Declaration of Scott Savian, dated
March 20, 2017, including Exhibits
A-E thereto.
Declaration of Vince Huard, dated
March 10, 2017, including Exhibits
A-I thereto.
McDonnell Douglas DC-10
Customer Configuration Summary
(a/k/a Orange Book), revised
October 1978 (the “Orange Book”).
U.S. Patent No. 6,742,840 to
Bentley (“Bentley”)

229a

I. Summary
Through counsel, C&D Zodiac, Inc.
(“Petitioner”) hereby petitions for initiation of inter
partes review of claims 1, 3-10, and 12-17 of U.S.
Patent No. 9,073,641 (“the ’641 Patent”), assigned to
B/E Aerospace, Inc. (“Patent Owner”). A copy of the
’641 Patent is attached as Exhibit 1001 and a copy
of the prosecution history of the ’641 Patent is
attached as Exhibit 1002.
The ’641 Patent includes just four columns of
description, less than one column of which is the
three-paragraph “Detailed Description.” The patent
describes an enclosure for use in an aircraft (e.g., a
closet or a lavatory). The first figure admits that an
enclosure with a flat forward wall was well known
in the art. The only aspect of the purported invention
that is not admitted to be prior art is the recessed
forward wall of the embodiment shown in Figure 2.
And as explained in further detail below, aircraft
enclosures with recessed forward walls have been
known and used in the art for decades.
During an IPR of the parent of the ’641
Patent, the Board already considered the dispositive
issue here: whether it was obvious to apply a curved
forward wall to a lavatory. The Board found that it
was obvious. Yet, the Examiner inexplicably ignored
the Board’s decision without mentioning it and
allowed Patent Owner’s follow-on claims directed to
the same subject matter already determined to be
obvious—lavatories with a recessed forward wall. In
view of the prior art, Petitioner respectfully requests
that the Board again find that the same subject

230a
matter already determined to be obvious with
respect to the parent patent is also obvious with
respect to the children. Accordingly, Petitioner
requests that the Board cancel the challenged claims
of the ’641 Patent.
A. Real Party-in-Interest
The real party-in-interest, C&D Zodiac, Inc.,
is a Delaware corporation with its principal business
address at 5701 Bolsa Avenue, Huntington Beach,
California 92647. No other entity is controlling,
directing, or funding the submission of this petition
and any proceeding initiated as a result therefrom.
B. Related Matters
The ’641 Patent is asserted against Petitioner
in B/E Aerospace, Inc. v. Zodiac Aerospace, Inc. et
al., No. 2:14-cv-01417 (E.D. Tex., Dec. 15, 2016) (the
“Underlying Litigation”). Patent Owner also asserts
the following four related patents in that case: U.S.
Patent Nos. 9,365,292; 9,434,476; 9,440,742; and
D764,031. Patent Owner has sought a preliminary
injunction against Petitioner in the Underlying
Litigation. On or around the time this Petition is
filed, Petitioner also will file Petitions for Inter
Partes Review challenging the three related utility
patents. On April 10, 2017 Petitioner filed a Post
Grant Review challenging the claim of D764,031,
which has been assigned PGR2017-00019.
All five of the asserted patents in the
Underlying Litigation claim priority to U.S. Patent
No. 8,590,838 (“the ’838 Patent”). Patent Owner

231a
previously asserted the ’838 Patent against
Petitioner in B/E Aerospace, Inc. v. Zodiac
Aerospace, Inc. et al., No. 2:14-cv-210 (E.D. Tex.
Mar. 11, 2014) (the “Prior Litigation”). Patent
Owner also sought a preliminary injunction against
Petitioner in that case. During the Prior Litigation,
Petitioner sent Patent Owner a series of letters
containing invalidating prior art. See Ex. 1008.
Patent Owner subsequently withdrew its motion for
preliminary injunction and voluntarily dismissed
the Prior Litigation on June 19, 2014. Exs. 1014;
1015.
Petitioner also filed a Petition for Inter Partes
Review of the ’838 Patent. That earlier IPR was
assigned Case No. IPR2014-00727, and received a
Final Written Decision on October 26, 2015. The
Board held claims 1, 3-7, 9, 10, 12-14, 16-19, 21, 22,
24-29, 31, and 33-37 unpatentable. That Final
Written Decision is attached hereto as Exhibit 1003.
That Decision is currently on appeal to the Federal
Circuit where it is assigned Case Nos. 16-1496, 161497.
There are several entities related to
Petitioner also being sued for infringement of the
patents identified above. Petitioner is an indirectlyowned subsidiary of Zodiac Aerospace, a Societe
Anonyme organized and existing under the laws of
France. Petitioner is a wholly owned subsidiary of
Zodiac US Corporation, a corporation organized and
existing under the laws of Delaware.
Zodiac
Aerospace and Zodiac US Corporation have been
sued for infringement of the patents identified above
in the Underlying Litigation. Also sued for

232a
infringement of the patents identified above in the
Underlying Litigation are:
x

Zodiac Seats US LLC, a limited liability
company organized and existing under the
laws of Texas.

x

Heath Tecna, Inc., a corporation organized
and existing under the laws of Delaware.

x

Northwest Aerospace Technologies, Inc., a
corporation organized and existing under
the laws of Washington.

C. Fees
This petition is accompanied by a fee payment
of $23,000, which includes the $9,000 inter partes
review request fee, and the $14,000 inter partes
review post-institution fee. Petitioner further
authorizes a debit from Deposit Account 20- 1430 for
whatever additional payment is necessary in
granting this petition.
D. Designation of Lead Counsel and Backup
Counsel
Lead Counsel for Petitioner is John C.
Alemanni (Reg. No. 47,384), of Kilpatrick Townsend
& Stockton LLP. Back-up counsel for Petitioner are
Dean W. Russell (Reg. No. 33,452), David A. Reed
(Reg. No. 61,226), Michael T. Morlock (Reg. No.
62,245), and Andrew Rinehart (Reg. No. 75,537).
E. Service Information

233a
As identified in the attached Certificate of
Service, a copy of the present petition, in its entirety,
is being served to the address of the attorneys or
agents of record for the ’641 Patent and to the
attorneys of record in the Underlying Litigation.
Petitioner may be served at its counsel, Kilpatrick
Townsend & Stockton LLP. Petitioner consents to
service via email to its lead and backup counsel at
the
following
email
address:ZodiacBEIPR@kilpatricktownsend.com.
F. Power of Attorney
A power of attorney with designation of
counsel is filed herewith in accordance with 37
C.F.R. § 42.10(b).
G. Standing
The ’641 Patent was filed on October 1, 2013,
and claims priority to a utility application filed on
April 18, 2011 and therefore is eligible for inter
partes review immediately following the date of the
grant of the patent. 37 C.F.R. § 42.102(a)(2).
Further, the ’641 Patent is currently asserted in a
co-pending litigation, and this petition is being filed
within one year of Petitioner being served with a
complaint for infringement. Petitioner certifies that
the ’641 Patent is available for inter partes review
and that Petitioner is not barred or estopped from
requesting an inter partes review challenging the
patent claims on the grounds identified in this
petition.
II. Background

234a
A. Priority Date and Family
The ’641 Patent issued on July 7, 2015 from
Application No. 14/043,500, filed on Oct. 1, 2013.
The ’641 Patent claims priority to U.S. Patent No.
8,590,838, filed on April 18, 2011, and to Provisional
Application No. 61/326,198, filed April 20, 2010, and
Provisional Application No. 346,835, filed May 20,
2010. Thus, the earliest possible effective filing date
is April 20, 2010.
Several other related patents also claim
priority to the ’838 Patent, including U.S. Patent
Nos. 9,440,742; 9,365,292; 9,434,476; and D764,031.
The related utility patents share a common
disclosure with the ’641 Patent.
B. The Written Specification and Figures
The ’641 Patent relates to an aircraft
enclosure, “such as a lavatory, an aircraft closet, or
an aircraft galley,” having a forward wall (i.e., the
wall toward the nose of the aircraft) with a recess
that substantially conforms to the aft (i.e., back)
surface of a passenger seat located immediately
forward of the enclosure. Ex. 1001, 2:14-223.

235a
The challenged claims relate to an enclosure
with a contoured forward wall to allow a row of seats
to be placed slightly further aft in an aircraft. As
explained in further detail below, Figure 1 of the
’641 Patent admits that every claim element, other
than a contoured forward wall, was known in the
prior art. The only other figure—Figure 2—shows an
embodiment with a contoured forward wall with the
same prior art seat as shown in Figure 1 positioned
slightly further aft.

Such a contoured forward wall was well
known in the art long before the earliest claimed
priority date, April 20, 2010. This is clear from
Figure 1 of Ex. 1005 (Betts), which shows an
airplane enclosure with a contoured forward wall
from the early 1970s. The forward wall of Betts is
almost identical to the forward wall shown in Figure
2 of the ’641 Patent. And an embodiment of the Betts
enclosure flew on commercial DC-10 aircraft for
decades before the earliest claimed priority date. Ex.
1004, ¶¶43, 46; Ex. 1020, at 143-163 (showing

236a
commercial embodiments of Betts). This is a fact
that Patent Owner itself has admitted to the Federal
Circuit. Ex. 1016, 26 (“Betts was patented in 1973.
It was actually built and flown on DC-10 aircraft, for
decades.”).

C. The Earlier
Litigations

IPR

and

Underlying

In an earlier proceeding addressing the
claims of this patent’s parent—the ’838 Patent (Ex.
1017)—the Board invalidated most of those claims
as obvious in view of Betts (Ex. 1005). In so doing,
the Board specifically found that:

Petitioner has shown that it would
have been obvious to apply the recessed
forward wall design of Betts to other
enclosures,
including
single-spaced
lavatories.

237a
Ex. 1003 at 12 (emphasis added).
In addition to Betts, there are many other
examples of contoured wall enclosures in the prior
art. Indeed, one of Patent Owner’s own engineers
designed a prior art enclosure that was installed in
Boeing 747 aircraft in the 1990s. Ex. 1006, 1007. An
annotated image of this enclosure is shown below.

Further, before the application that led to the
’641 Patent was filed, Patent Owner was aware that
Petitioner commercialized enclosures with recessed
forward walls long before the earliest claimed
priority date. See Ex. 1008.

238a
Ex. 1001, Figure
2

Petitioner’s
S4
Enclosure

Petitioner’s
S4
Enclosure

Indeed, when Petitioner identified this prior
art to Patent Owner (Ex. 1008) Patent Owner
withdrew its previous Motion for Preliminary
Injunction and voluntarily dismissed its previous
complaint asserting the ’838 Patent against
Petitioner. See Exs. 1014 and 1015.
In spite of all this, Patent Owner continued
filing applications and convinced an examiner to
allow the ’641 Patent along with other continuations
of the ’838 Patent. Several of these are now asserted
against Petitioner. Each utility patent shares a
common specification, and claims a contoured
forward wall along with a collection of other
features. Each of these other features are either
admitted to be prior art in Figure 1 or are not
described in the patents’ written description, which
comprises just four columns, less than one column of
which
is
the
three-paragraph
“Detailed
Description.” Ex. 1001.

239a
The prior art discloses or renders obvious
every limitation in the challenged claims. Petitioner
respectfully requests that this inter partes review
proceeding be instituted.
III. Statement of Relief Requested
Pursuant to 35 U.S.C. § 311 and 37 C.F.R. §
42.104(b), this petition requests cancellation of
claims 8 and 10-16 as rendered obvious under 35
U.S.C. § 103 by the following combinations:
x

Admitted Prior Art (“APA”) in Exhibit 1001
and U.S. Patent No. 3,738,497 to Betts et al.
(“Betts”) (Exhibit 1005), in view of the
knowledge of a person of ordinary skill in the
art.

x

APA in Exhibit 1001 and the KLM Crew Rest
documents (Exhibit 1009), in view of the
knowledge of a person of ordinary skill in the
art.

IV. Summary of the Prior Art
A. Admitted Prior Art (Exhibit 1001)
A flat wall lavatory and a passenger seat were
both well known in the art before the earliest
claimed priority date of the ’641 Patent. Figure 1 of
the ’641 Patent shows a flat wall lavatory and
passenger seat and states that these were “prior
art.” Ex. 1001, 3:65-67 (emphasis added) (“FIG. 1 is
a schematic diagram of a prior art installation of a
lavatory immediately aft of and adjacent to an
aircraft passenger seat.”).

240a

Further, the ’641 Patent includes additional
admissions that such lavatories were known prior
art. “Aircraft lavatories, closets and other full height
enclosures commonly have forward walls that are
flat in a vertical plane.” Ex. 1001, 1:21-22. Many of
the features found in the claims are anticipated or
obvious in view of this admitted prior art. A
summary of the admitted prior art shown in Figure
1 is in the graphic below. Ex. 1004, ¶86.

241a

The Board may rely on this admitted prior art.
“Admissions in the specification regarding the prior
art are binding on the patentee for purposes of a
later inquiry into obviousness.” PharmaStem
Therapeutics, Inc. v. ViaCell, Inc., 491 F.3d 1342,
1362 (Fed. Cir. 2007); see also In re Nomiya, 509 F.2d
566, 570-71 (CCPA 1975) (“We see no reason why
appellants’ representations in their application
should not be accepted at face value as admissions
that Figs. 1 and 2 may be considered ‘prior art’ for
any purpose, including use as evidence of
obviousness under § 103.”); Constant v. Advanced
Micro–Devices, Inc., 848 F.2d 1560, 1570 (Fed. Cir.
1988) (“A statement in a patent that something is in
the prior art is binding on the applicant and
patentee for determinations of anticipation and
obviousness.”); I/P Engine, Inc. v. AOL, Inc. 576
Fed.Appx. 982, 987 (Fed. Cir. 2014) (“Given that its
own patents acknowledge that using the original
search query for filtering was a ‘conventional’
technique, I/P Engine cannot now evade invalidity

242a
by arguing that integrating the query into the
filtering process was a non- obvious departure from
the prior art.”).
The only aspect of the purported invention in the
’641 Patent that is not admitted prior art is the
contoured forward wall depicted in Figure 2.

But enclosures with contoured forward walls
were well-known in the art as described below.
B. Betts (Exhibit 1005)
Exhibit 1005, U.S. Patent No. 3,738,497 to Betts
et al. (“Betts”), is assigned to McDonnell Douglas
Corporation and issued on June 12, 1973, and is thus
prior art under 35 U.S.C. § 102(b). Betts describes a
coat closet with a recessed forward wall that
“provide[s] more room for passengers in an aircraft
or other vehicle.” Ex. 1005, 1:5-7. The design shown
in Betts was implemented and flown on commercial

243a
DC-10 aircraft well before the earliest claimed
priority date. Ex. 1004, ¶¶43, 46.
Figure 1 of Betts is a side elevation that shows
an assembly of an overhead coat closet for a cabin of
an aircraft that is located immediately aft of and
adjacent to a passenger seat. The forward wall of
Betts is very similar to that shown in Figure 2 of the
’641 Patent.
Betts Figure 1

Ex. 1001, Figure 2

The Betts passenger seat has an exterior aft
surface that is substantially not flat in a vertical
plane. See Ex. 1005, Fig. 1; 2:7-14. Betts explains
that this contour is positioned “to provide a space for
seatback 12 to be tilted rearwardly.” Ex. 1005, 2:1924. One of ordinary skill in the art would understand
that the coat closet includes walls forming a

244a
complete enclosure of the closet. Ex. 1004, ¶45.
Betts states that the passenger seat is “of the
type having a tiltable backrest 12 for the comfort of
the occupant.” Ex. 1005, 2:8-9. Thus, as described
and shown in Betts Figure 1, the passenger seat is
contoured and reclineable and therefore not flat in a
vertical plane. The seat back shown in Betts closely
conforms to the shape of the recess in the forward
wall of the enclosure. Ex. 1004, ¶45.
C. The KLM Crew
(Exhibit 1009)

Rest

Document

In 1991, Flight Structures, Inc. (“FSI”)—a
company B/E now owns—was awarded a contract to
develop a crew rest for Royal Dutch Airlines, better
known as KLM. Ex. 1007, ¶7. Specifically, FSI was
awarded a contract to develop an overhead crew rest
for KLM’s 747-400 aircraft. FSI developed the KLM
Crew Rest during 1991 and 1992. Ex. 1007, ¶7. The
KLM Crew Rest was designed to include berths in
the overhead space of KLM’s 747-400 aircraft for
crew members to rest during lengthy flights. Ex.
1007, ¶9.
To provide access to the overhead crew rest, FSI
designed an entry on the right side of the aircraft.
The entry was modeled on a lavatory envelope (i.e.,
the outer walls forming a lavatory enclosure) and
was located at a typical location for a lavatory on a
747-400 aircraft. Ex. 1007, ¶10. The interior of the
lavatory envelope was modified to include a
staircase in place of a toilet, which allows the crew
to access the overhead space. Ex. 1007, ¶10. A

245a
rendering of the prior art KLM Crew Rest is shown
below.

The image of the KLM Crew Rest above was
included in the file history of an issued patent. See
Ex. 1009, at 70.
The Board may rely on the KLM Crew Rest
document in that file history as prior art. Patent
Owner submitted information regarding the KLM
Crew Rest in an Information Disclosure Statement
during pendency of the application that issued as
U.S. Patent No. 6,520,451. See Ex. 1009, at 66-91.
This Information Disclosure Statement was
submitted on March 18, 1999, more than ten years
before the earliest claimed priority date. Id. at 64.

246a
And U.S. Patent No. 6,520,451 issued on February
18, 2003, several years before the earliest claimed
priority date. Ex. 1010.
Thus, these documents were made available to
the public no later than the issue date of U.S. Patent
No. 6,520,451, February 18, 2003, when its file
history was made available to the public. Ex. 1010;
See 37 C.F.R. § 1.11(a) (“The specification, drawings,
and all papers relating to the file of: A published
application; a patent; or a statutory invention
registration are open to inspection by the public, and
copies may be obtained . . .”). These KLM-related
documents are therefore printed publications that
may be used in this proceeding.
The Board has held previously that a file history
is available as prior art. Duodecad It Servs.
Luxembourg S.A.R.L., IPR2015-01036, 2016 WL
6946904 (Oct. 20, 2016) (“It is undisputed that Chen
FH was fully available to anyone who ordered it. We
find that one of ordinary skill, being aware of Chen,
would consult its file history. We conclude, based on
the record as fully developed, that Chen FH is
available as prior art against the challenged
claims.”). This is fully consistent with the MPEP,
which explains “[i]n the examination of an
application, it is sometimes necessary to inspect the
application papers of some previously abandoned
application (provisional or nonprovisional) or
granted patent.” MPEP § 901.01(a). The MPEP goes
on to provide Examiners with instructions for
locating file wrappers for patented and abandoned
applications. Id.

247a

The Board’s decision in Duodecad is consistent
with Federal Circuit precedent, which holds that to
qualify as a printed publication, a reference “must
have been sufficiently accessible to the public
interested in the art.” In re Cronyn, 890 F.2d 1158,
1160 (Fed. Cir. 1989). A reference is sufficiently
accessible if it has been indexed or cataloged. Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1348
(Fed. Cir. 2016) (“we generally inquire whether the
reference was sufficiently indexed or cataloged.”).
The Federal Circuit has found that an issued patent
is “classified and indexed,” and that this is sufficient
to “provid[e] the roadmap that would have allowed
one skilled in the art to locate the [] application.”
Bruckelmyer v. Ground Heaters, Inc., 445 F.3d 1374,
1378–79 (Fed. Cir. 2006); see also Ultimax Cement
Mfg. Corp. v. CTS Cement Mfg. Corp., 587 F.3d 1339,
1355-56 (Fed. Cir. 2009) (“Information disclosed in a
patent, even a foreign one, is ‘generally known to the
public,’ especially the relevant public . . . Indeed, one
of the primary purposes of patent systems is to
disclose inventions to the public.”); Guardian Media
Technologies, Ltd. v. Amazon.com, Inc., 2014 WL
12561616 *5 (C.D. Cal. Dec. 9, 2014) (finding a
patent application file history as prior art as of the
date the patent issued). Here, the KLM Crew Rest
document was included in the publicly available file
wrapper of an issued patent and thus is prior art.
Further, “[a]ccessibility goes to the issue of
whether interested members of the relevant public
could obtain the information if they wanted to.”
Constant v. Advanced Micro–Devices, Inc., 848 F.2d

248a
1560, 1568 (Fed. Cir. 1988). The Federal Circuit has
further explained that “a published article with an
express citation to the potentially invalidating
reference would [] provide the necessary guidance.”
Blue Calypso, 815 F.3d at 1350. This is also the
case here, as the face of U.S. Patent No. 6,520,451
identifies the KLM Crew Rest submission in a
related technical area. Ex. 1010, 1:11-17 (emphasis
added) (“This invention relates generally to resting
and sleeping quarters for an aircraft crew . . . in a
space-saving and weight-saving configuration
occupying substantially otherwise unused
space aboard an aircraft.”).

Ex. 1010.
Thus, this issued patent provides a “roadmap” for
how to locate that reference, e.g., by accessing the
publicly available file wrapper. And the Board may
therefore rely on the printed publication describing
the KLM Crew Rest.
While Petitioner relies on the black and white
version of the KLM Crew Rest document shown in
Exhibit 1009, a color version is shown below and
attached as Exhibit 1006.1

1

See Ex. 1007, ¶17.

249a

V. Motivation to Combine
A. Motivation to Combine APA and Betts
As discussed in Section IV.A above, the ’742
Patent admits that a flat wall lavatory was well
known in the prior art before its earliest claimed
priority date. This is further evidenced by Exhibit
1011, U.S. Patent No. 4,884,767 to Shibata
(“Shibata”), which issued in 1989 and includes
figures showing flat wall lavatories, which it admits
were prior art as of its filing date, 1988.

250a

It would have been obvious to one of ordinary
skill in the art to modify a prior art flat wall lavatory
to include a contoured forward wall like the wall
shown in Betts. Ex. 1004, ¶¶56-64.
First, the Board has previously considered this
very combination, and found that it would be obvious
to make such a modification. Indeed, the Board
stated:
Petitioner has shown that it would have
been obvious to apply the recessed
forward wall design of Betts to other
enclosures,
including
single-spaced
lavatories.
Ex. 1003 at 12 (emphasis added).

251a
Second, as Mr. Anderson explains, a primary goal
of the design of interiors of commercial aircraft is
efficient use of valuable passenger cabin space. Ex.
1004, ¶57. Efficient use of space allows an aircraft
to accommodate more passengers and/or to
accommodate passengers more comfortably, thereby
increasing the utility of the aircraft. Ex. 1004, ¶57.
As of April 2010, a primary motivation of one of
ordinary skill in the art of aircraft interior design
would have been to make efficient use of space in the
aircraft interior cabin. Ex. 1004, ¶57.
The contoured forward facing wall shown in
Betts advantageously provides additional space to
locate a seat further aft in an aircraft. Ex. 1004, ¶58.
Betts says that the coat hanger rack is elevated “to
provide more passenger room.” Ex. 1005, Abstract.
Betts also describes that it “provide[s] more room for
passengers in an aircraft or other vehicle.” Ex. 1005,
1:5-7. As shown in the annotated figure below, the
seat shown in Betts could not be located in the
position in which it is shown if the forward wall were
flat. Ex. 1004, ¶58; Ex. 1005. Thus, this contoured
forward wall makes more efficient use of the
valuable space in the aircraft passenger cabin than
would be available with a flat forward wall. Ex.
1004, ¶58.

252a

One of ordinary skill in the art would
understand that the forward wall of the enclosure
shown in Betts would also be suitable for use with
other aircraft enclosures, including lavatories. Ex.

253a
1004, ¶59. In an aircraft, as a row of seats is moved
further aft, the first thing that would make contact
with a flat wall is the top of the back of the seat. Ex.
1004, ¶59. And so Betts includes a recess that
receives that portion of the seat back. Applying the
contoured wall of Betts to a lavatory allows the row
of seats placed immediately in front of that
contoured wall to be placed further aft. Ex. 1004,
¶59.
The challenged patent does not distinguish
between different types of enclosures, instead
explaining that the recessed forward wall is
applicable to all types of aircraft cabin enclosures,
e.g., “[t]he present invention relates generally to
aircraft enclosures, and more particularly relates to
an aircraft cabin enclosure, such as a lavatory, an
aircraft closet, or an aircraft galley.” Ex. 1001, 1:2023. As Mr. Anderson explains, multiple different
types of prior art enclosures include one or more
recesses to enable seats to be positioned further aft
in a cabin. Ex. 1004, ¶59. Combining different types
of enclosures, designs and shapes of recesses, and
seat geometries would have been obvious to one of
skill in the art and provides the predictable result of
allowing a seat to be positioned further aft.
Patent Owner has argued in the Underlying
Litigation that a person of ordinary skill would not
have applied a recess to a lavatory at least because
the industry had been reluctant to decrease the
width out of concern that airlines and passengers
would not accept narrower lavatory spaces. But even
if Patent Owner were correct, whether a narrower
lavatory would be acceptable to airlines and

254a
passengers has no bearing on the obviousness of
applying a contoured wall to a lavatory. Orthopedic
Equip. Co. v. U.S., 702 F.2d 1005, 1013 (Fed. Cir.
1983) (“[T]he fact that the two disclosed apparatus
would not be combined by businessmen for economic
reasons is not the same as saying that it could not be
done because skilled persons in the art felt that
there was some technological incompatibility that
prevented their combination. Only the latter fact is
telling on the issue of nonobviousness”). Customer
acceptance of a narrow lavatory is a market force,
not a technical challenge. See Friskit, Inc. v. Real
Networks, Inc., 306 Fed. App’x 610, 617-18 (Fed.
Cir. 2009).
B. Motivation to Combine APA and the
KLM Crew Rest Document
As discussed in Section IV.A above, a flat wall
lavatory was well known in the prior art before the
earliest claimed priority date of ’742 Patent. It would
have been obvious to one of ordinary skill in the art
to modify a prior art lavatory to include a contoured
forward wall like the wall shown in the KLM Crew
Rest document. Ex. 1004, ¶¶65-72.
As noted above, and explained by Mr. Anderson,
a primary goal of the design of interiors of
commercial aircraft is efficient use of valuable
passenger cabin space. Ex. 1004, ¶66. Efficient use
of space allows an aircraft to accommodate more
passengers and/or to accommodate passengers more
comfortably, thereby increasing the utility of the
aircraft. Ex. 1004, ¶66. As of April 2010, a primary
motivation of one of ordinary skill in the art of

255a
aircraft interior design would have been to make
efficient use of space in the aircraft interior cabin.
Ex. 1004, ¶66. The contoured forward facing wall
shown in the KLM Crew Rest document
advantageously provides additional space to locate a
seat further aft in an aircraft. Ex. 1004, ¶66. The
recess in the forward wall of the KLM Crew Rest was
designed to allow the last row of seats in front of the
contoured wall to sit further aft in the aircraft, yet
still be able to recline. Id.; Ex. 1007, ¶13.
The seat in the KLM Crew Rest could not be
located in the position in which it is shown if the
forward wall was flat, because a flat wall would
restrict the passenger’s ability to recline the seat
and this was not permitted by the customer
requirements for the crew rest; rather, if the wall
were flat, the seat would need to be moved forward.
Ex. 1007, ¶12; Ex. 1004, ¶67. One of ordinary skill
in the art would understand that the forward wall of
the enclosure used by the KLM Crew Rest would be
suitable for use in a lavatory, at least because the
KLM Crew Rest itself is designed for occupancy by
people and is based on a lavatory envelope, without
a toilet, but including “a lavatory sink (and related
plumbing), lighting, a mirror, soap dispenser, shaver
outlet and amenity stowage.” Ex. 1007, ¶16; Ex.
1004, ¶67.
Further one of ordinary skill in the art would
recognize that in an aircraft, as a row of seats is
moved further aft, the first thing that makes contact
with a flat wall is the top of the back of the seat. Ex.
1004, ¶68. And so the KLM Crew Rest includes a
recessed forward wall that receives that portion of

256a
the seat back. Ex. 1004, ¶68. Including the
contoured wall of the KLM Crew Rest document
allows the row of seats placed immediately in front
of that contoured wall to be placed further aft. Ex.
1004, ¶68.
The challenged patent explains that the claimed
concept is equally applicable to all types of aircraft
cabin enclosures, e.g., “[t]he present invention
relates generally to aircraft enclosures, and more
particularly relates to an aircraft cabin enclosure,
such as a lavatory, an aircraft closet, or an aircraft
galley.” Ex. 1001, 1:20-23. As Mr. Anderson
explains, multiple different types of prior art
enclosures include one or more recesses to enable
seats to be positioned further aft in a cabin. Ex.
1004, ¶68. Combining different types of enclosures,
designs and shapes of recesses, and seat geometries
would have been obvious to one of skill in the art and
provides the predictable result of allowing a seat to
be positioned further aft.
Further, one of the designers of the KLM Crew
Rest, Robert Papke, confirmed during direct
testimony elicited by attorneys for Patent Owner
that this contoured wall was really the logical way
to allow seats to be placed further aft in an aircraft.
Ex. 1004, ¶69; Papke Tr. at 190:1-11.

257a

VI. Factual Background
A. Declaration Evidence
This petition is supported by the declaration of
Mr. Alan Anderson. Mr. Anderson worked at Boeing
for 43 years. From 1999-2011 Mr. Anderson was the
Director of Engineering, Payload Systems, where he
oversaw all engineering for interiors for all models
of Boeing aircraft. He was also Chief Engineer for
Interiors for the development of the 787 Interior
from 2002 until 2008. Mr. Anderson’s declaration is
attached as Exhibit 1004.
B. Person of Ordinary Skill in the Art
A person of ordinary skill in the art of the ’742
Patent would have had a bachelor’s degree in
mechanical engineering, industrial design, or a
similar discipline, or the equivalent experience, with
at least two years of experience in the field of aircraft
interior design. Ex. 1004, ¶¶27-29.

258a

VII. Claim Construction
In inter partes review, claim terms are
interpreted
under
a
“broadest
reasonable
construction” standard. See 37 C.F.R. § 42.100(b).
Under 37 C.F.R. § 1.42.104(b)(4), the “claim terms
are presumed to take on their ordinary and
customary meaning.” See 77 Fed. Reg. 48699 (2012),
Response to Comment 35. The interpretation of the
claims presented either implicitly or explicitly
herein should not be viewed as constituting, in whole
or in part, Petitioner’s own interpretation of such
claims for the purposes of any litigation or
proceeding where the claim construction standard
differs from the broadest reasonable interpretation,
but instead should be viewed as a broadest
reasonable claim construction.
A. “Recess”
The ’641 Patent describes a forward wall with
one or more recesses that permit a seat positioned in
front of the forward wall to be positioned further aft
than would be possible if the wall were flat. See Ex.
1001, 4:36-42 (“the recess 34 and the lower recess
100 combine to permit the passenger seat 16 to be
positioned farther aft in the cabin than would be
possible if the lavatory enclosure 10 included a
conventional flat and vertical forward wall without
recesses like that shown in FIG. 1, or included a
forward wall that did not include both recesses 34,
100.”). The ’641 Patent further describes that the
recesses cause the forward wall to be “substantially
not flat in the vertical plane.” Ex. 1001, 4:24-26
(“The forward wall portion has a shape that is

259a
substantially not flat in the vertical plane, and
preferably is shaped to include a recess 34 . . .”).
Based on the description, a wall that is substantially
not flat is a wall that includes a contour. Thus, the
broadest reasonable interpretation of a “recess” as
used by the ’641 Patent is at least broad enough to
include “a wall that includes a contour in the vertical
plane.”

VIII. Full Statement of the Reasons for the
Relief Requested

A. Claims 1, 3-10, and 12-17 are Obvious
Under 35 U.S.C. § 103 over APA and
Betts.
The combination of APA and Betts teaches or
renders obvious to one of skill in the art each
element of the challenged claims and each
challenged claim as a whole as described in this
section. As discussed in Section V above, one of skill
in the art would be motivated to modify the APA in
view of the teachings of Betts.
[’641 Claim 1 Preamble] An aircraft lavatory
for a cabin of an aircraft of a type that includes
a forward-facing passenger seat that includes
an upwardly and aftwardly inclined seat back
and an aft-extending seat support disposed
below the seat back, the lavatory comprising:
Figure 1 of Betts is a side elevation that shows
an assembly of an enclosure that is located
immediately aft of and adjacent to a passenger seat
and is nearly identical to Figure 2 of the ’641 Patent.

260a
Ex. 1004, ¶¶172-174
Betts, Figure 1

Ex. 1001, Figure 2

As explained above, a person of ordinary
skill in the art would be motivated to modify
a flat wall lavatory to use the Betts design on
the forward wall of a lavatory. Ex. 1004, ¶174.
The only seat shown or described in the
’641 Patent is admitted to be prior art. Ex.
1004, ¶¶174. Thus, “a forward-facing
passenger seat that includes an upwardly and
aftwardly inclined seat back and an aftextending seat support disposed below the
seat back,” is admitted to be prior art. Ex.
1004, ¶174. Figure 1 also shows a prior art

261a
lavatory for a cabin of an aircraft. Ex. 1001,
Fig. 1 (annotated).

[’641 Claim 1 Element A] a lavatory unit
including a forward wall portion and defining
an enclosed interior lavatory space, said
forward wall portion configured to be
disposed proximate to and aft of the passenger
seat and including an exterior surface having
a shape that is substantially not flat in a
vertical plane;
As described in detail above, an airplane lavatory
was well known in the prior art and the ’641 Patent
admits that a flat wall lavatory is known in the art.
Such a prior art lavatory includes “a forward wall
portion and defining an enclosed interior lavatory
space.” Ex. 1004, ¶¶176-178.

262a
As is shown below, Betts includes a contoured
forward wall. Ex. 1004, ¶178. A person of ordinary
skill in the art would realize that this contoured
forward wall could be used in place of a flat forward
wall on an aircraft lavatory. Id. One motivation to do
so would be to allow the seat be placed further aft in
an aircraft cabin. Id.
Betts, Figure 1

’641 Patent Figure 2

[’641 Claim 1 Element B] wherein said forward
wall portion is shaped to substantially
conform to the shape of the upwardly and
aftwardly inclined seat back of the passenger
seat, and includes a first recess configured to
receive at least a portion of the upwardly and
aftwardly inclined seat back of the passenger

263a
seat therein, and
As is shown in the annotated figure below, Betts
shows an aircraft passenger seat that is positioned
at least partially within the contoured forward wall.
Ex. 1004, ¶¶181-182. Thus, this seat is received by
the contoured wall. Id. Further, the back of this seat
is both upwardly and aftwardly inclined. Id.

The recess shown in Betts “substantially
conforms to a contour of an aft surface of the
upwardly and aftwardly inclined seat back.” Ex.
1004, ¶183. As shown below, the design of Betts

264a
Figure 1 is substantially the same as the design
shown in Figure 2 of the ’641 Patent. Id.
Betts Figure 1

’641 Patent Figure 2

[’641 Claim 1 Element C] further includes a
second recess configured to receive at least a
portion of the aft-extending seat support
therein when at least a portion of the
upwardly and aftwardly inclined seat back of
the passenger seat is received within the first
recess.
As is shown in the annotated figure below,
Betts shows an aircraft passenger seat that is
positioned at least partially within the contoured

265a
forward wall. Ex. 1004, ¶¶186-187. Thus, this seat
is received by the contoured wall. Id. Further, the
back of this seat is both upwardly and aftwardly
inclined. Id.

266a
As explained in Section V above, a person of
ordinary skill in the art would be motivated to
modify a flat forward facing wall of a lavatory to
include a recess to allow a passenger seat to be
positioned further aft in the aircraft cabin. Ex. 1004,
¶188. Adding a second recess is no less obvious than
adding the first recess. A seat with an aft extending
seat support is well known in the art. See, e.g., Ex.
1001, Figure 1.

A person of ordinary skill in the art would realize
that when such a seat is moved further aft, the first
component to impact the wall is the seat back. Ex.
1004, Ex. 1004, ¶¶189, 250. As explained above,
Betts includes a forward facing recess that receives
the seat back. Id.
As the seat is moved further aft, the next
component to impact the wall is the aft seat support.
Ex. 1004, ¶¶191, 250. As Mr. Anderson explains, a
person of ordinary skill in the art would be

267a
motivated to modify an enclosure, such as a
lavatory, to include a second recess to receive aft
facing seat supports. Id. Such a modification is
nothing more than the application of known
technology for its intended purpose. Id. The result of
such a modification is predictable, allowing the seat
to be positioned further aft in an aircraft. Id.
Patent Owner cannot argue this difference
between the above cited prior art is sufficient to
render the claims patentable. The “mere existence of
differences between the prior art and an invention
does not establish the invention’s nonobviousness.
The gap between the prior art and respondent’s
system is simply not so great as to render the system
nonobvious to one reasonably skilled in the art.”
Dann v. Johnston, 425 U.S. 219, 230 (1976); see also
MPEP § 2141 (“The proper analysis is whether the
claimed invention would have been obvious to one of
ordinary skill in the art after consideration of all the
facts.”). Mr. Anderson explains in detail why this
difference would be obvious to one or ordinary skill
in the art. Ex. 1004, ¶¶186-192.
As evidence of this modification being well
known, Mr. Anderson cites to three examples of
prior art enclosures that include a lower recess to
receive a seat support. Ex. 1004, ¶192. Each of these
designs was sold and included in passenger aircraft
well before the earliest claimed priority date of the
’641 Patent. Ex. 1004,¶192. Patent Owner was
aware of at least the SAS MD-90 Aft-Storage during
prosecution of the application that led to the ’641
Patent. Ex. 1008.

268a

[’641 Claim 3] The aircraft lavatory of claim 1,
wherein said forward wall portion further
includes a projection configured to project
over the passenger seat back when at least a
portion of the upwardly and aftwardly
inclined seat back of the passenger seat is
received within the first recess and at least a
portion of the aft- extending seat support is
received within the second recess.
As is shown in the annotated figure below, Betts
shows an aircraft passenger seat that is positioned
at least partially within the contoured forward wall.
Ex. 1005. This shows a projection over the passenger
seat back when at least a portion of the upwardly
and aftwardly inclined seat back of the passenger
seat is received. Ex. 1004, ¶¶193-195.

269a

Further, as explained above with regard to Claim
1, Element C, a person of ordinary skill in the art
would be motivated to modify a flat forward wall to
include a second recess to receive at least a portion
of an aft extending seat support. Ex. 1004, ¶196. One
motivation for such a modification would be to allow
for the seat to be positioned further aft in an
airplane cabin.
[’641 Claim 4] The aircraft lavatory of claim 1,
wherein said lavatory unit is taller than the

270a
passenger seat.
As is shown below, both the Betts enclosure
and the admitted prior art enclosure in Figure 1 are
taller than a passenger seat. Ex. 1004, ¶¶106-108,
197

[’641 Claim 5] The aircraft lavatory of claim 1,
wherein said forward wall portion includes a
lower portion that is disposed under the
passenger seat back when at least a portion of
the upwardly and aftwardly inclined seat back
of the passenger seat is received within the
first recess and at least a portion of the aftextending seat support is received within the

271a
second recess.
As is shown in the annotated figure below, Betts
shows an aircraft passenger seat that is positioned
at least partially within the contoured forward wall.
Ex. 1004, ¶¶198-199. This shows a lower portion
that is disposed under the passenger seat back when
at least a portion of the upwardly and aftwardly
inclined seat back of the passenger seat is received
within the first recess. Id.

272a
Further, as explained above with regard to Claim
1, Element C, a person of ordinary skill in the art
would be motivated to modify a flat forward wall to
include a second recess to receive at least a portion
of an aft extending seat support. Ex. 1004, ¶196. One
motivation for such a modification would be to allow
for the seat to be positioned further aft in an
airplane cabin. Ex. 1004, ¶201.

[’641 Claim 6] The aircraft lavatory of claim 1,
wherein said first recess in said forward wall portion
is disposed between an upper wall portion and a
lower wall portion. Ex. 1004, ¶¶202-203.

273a

[’641 Claim 7] The aircraft lavatory of claim 1,
wherein said forward wall portion defines a
secondary space in said interior lavatory
space above the passenger seat back.

274a
The admitted prior art shows “a secondary space
in said interior lavatory space above the passenger
seat back.” The specification of the ’641 Patent
describes “the forward wall portion defines a
secondary space 36 in the interior lavatory space.”
Ex. 1001, 4:43-45. Such a space is shown in both
Figure 1 and Figure 2. Ex. 1004, ¶¶205-206.
Further, a person of ordinary skill in the art would
recognize that prior art lavatories often include
secondary storage spaces, e.g., trash receptacles,
space for additional paper towels or toilet paper,
space for routing plumbing, etc. Ex. 1004, ¶207. A
person of ordinary skill in the art would further
understand that the enclosed space of a lavatory
would continue to contain the prior art secondary
storage spaces after applying a contour to the
forward wall. Id.

[’641 Claim 8 Preamble] An aircraft lavatory
for an aircraft, the lavatory comprising:
As explained above, the ’641 Patent admits that
an aircraft lavatory was known in the prior art. Ex.

275a
1001, Fig. 1; Ex. 1004, ¶208.
[’641 Claim 8, Element A] a forward partition;
an aft partition; and a lavatory space disposed
between the forward partition and the aft
partition;
As explained above, the ’641 Patent admits that
an aircraft lavatory was known in the prior art. Ex.
1001, Fig. 1; Ex. 1004, ¶209. This lavatory shows a
forward partition, an aft partition, and a lavatory
spaced disposed between these two partitions. Id.
[’641 Claim 8, Element B] wherein the forward
partition comprises: a forward-extending
upper portion; an aft-extending mid-portion;
and a forward-extending lower portion; and
As is shown in the annotated figures below, Betts
discloses a forward- extending upper portion; an aftextending mid-portion; and a forward-extending
lower portion. Ex. 1004, ¶¶210-211.

276a

[’641 Claim 8, Element C] wherein the forwardextending upper portion, the aft-extending
mid-portion, and the forward-extending lower
portion combine to define a first aft-extending
recess disposed between the upper forwardextending portion and the forward-extending
lower portion, and

277a
As is shown in the annotated Figure above, “the
forward-extending upper portion, the aft-extending
mid-portion, and the forward-extending lower
portion combine to define a first aft-extending recess
disposed between the upper forward- extending
portion and the forward-extending lower portion.”
Ex. 1004, ¶¶213-214.
[’641 Claim 8, Element D] wherein the forward
partition further defines a second aftextending recess proximate to a lower end of
the forward partition, the second aftextending recess being configured to receive
at least a portion of an aft-extending seat
support of a forward-positioned passenger
seat therein.
As explained above, a person of ordinary skill in
the art would be motivated to modify a flat forward
facing wall of a lavatory to include a recess to allow
a passenger seat to be positioned further aft in the
aircraft cabin. Ex. 1004, ¶¶215-216. A seat with an
aft extending seat support is well known in the art.
Ex. 1001, Fig. 1; Ex. 1004, ¶216.

278a

A person of ordinary skill in the art would realize
that when such a seat is moved further aft, the first
component to impact the wall is the seat back. Ex.
1004, ¶217. As explained above, Betts includes a
forward facing recess that receives the seat back. Id.
As the seat is moved further aft, the next
component to impact the wall is the aft seat support.
Ex. 1004, ¶218. As Mr. Anderson explains, a person
of ordinary skill in the art would be motivated to
modify an enclosure, such as a lavatory, to include a
second recess to receive aft facing seat supports. Id.
Such a modification is nothing more than the
application of known technology for its intended
purpose. Id. The result of such a modification is
predictable, allowing the seat to be positioned
further aft in an aircraft. Id.
Further, as discussed above with regard to Claim
1, Element C, a person of ordinary skill in the art
would recognize that such a modification was well
known in the art. Ex. 1004, ¶219 As evidence of this

279a
modification being well known, Mr. Anderson cites
to three examples of prior art enclosures that include
a lower recess to receive a seat support. Ex. 1004,
¶192. These designs were sold and included in
passenger aircraft well before the earliest claimed
priority date of the ’641 Patent. Ex. 1004, ¶¶76-78.
SAS MD-90
Aft-Storage
October 2004

737 Storage

747 Storage

February
1994

December
2009

[‘641 Claim 9] The aircraft lavatory according
to claim 8 wherein the first aft extending
recess defined by the forward-extending
upper portion, the aft-extending mid-portion,
and the forward- extending lower portion of

280a
the forward partition is configured to receive
an aft-extending seat back of the forward
positioned passenger seat.
As described above with regard to Claim 8,
Element D, Betts shows an aircraft passenger seat
that is positioned at least partially within the
contoured forward wall. Ex. 1004, ¶¶220-221. Thus,
this seat is received by the contoured wall. Id.
Further, the back of this seat is both upwardly and
aftwardly inclined. Id.

281a

[’641 Claim 10] The aircraft lavatory
according to claim 9 wherein said forward extending upper portion is configured to

282a
project over at least a portion of the forwardpositioned passenger seat.
As is shown in the annotated figure below, Betts
shows an aircraft passenger seat that is positioned
at least partially within the contoured forward wall.
Ex. 1004, ¶¶223-224. This shows a projection over
the passenger seat back when at least a portion of
the upwardly and aftwardly inclined seat back of the
passenger seat is received. Id.

[’641 Claim 12] The aircraft lavatory according
to claim 9 wherein said lavatory is taller than

283a
the forward-positioned passenger seat.
See analysis of claim 4 above.
[’641 Claim 13] The aircraft lavatory according
to claim 8 wherein the aft partition is
substantially vertical and substantially
planar.
As shown in the admitted prior art of Figure 1 of
the ’641 Patent, the aft partition is substantially
vertical and substantially planar. Ex. 1004, ¶227.

[’641 Claim 14] The aircraft lavatory according
to claim 8 wherein the width of the lavatory
space disposed between the forward partition
and the aft partition comprises an upper
width, a lower width, and a mid-width, and
wherein the upper width and the lower width
are both substantially wider than the midwidth.

284a
As discussed in Section V above, a person of
ordinary skill in the art would be motivated to
modify a flat wall lavatory to include a contoured
forward wall. Ex. 1004, ¶¶228-229. A person of
ordinary skill in the art would recognize that such a
modification could impact the interior width of the
lavatory. Ex. 1004, ¶229. This is clear from the
positioning of the recess shown in Figure 1 of Betts,
which is substantially the same as Figure 2 of the
’641 Patent. Id. To the extent that Figure 2 of the
’641 Patent describes this limitation, the limitation
is also disclosed by Figure 1 of Betts. Id.
Betts, Figure 1

Ex. 1001, Figure 2

285a
[’641 Claim 15] The aircraft lavatory according
to claim 8 wherein the upper forwardextending portion, the aft-extending midportion, and the forward-extending lower
portion of the forward partition form a
substantially continuous surface.
As shown in Figure 1 of Betts, the upper forwardextending portion, the aft- extending mid-portion,
and the forward-extending lower portion of the
forward partition form a substantially continuous
surface. Ex. 1004, ¶¶231-232.

286a
[’641 Claim 16] The aircraft lavatory
according to claim 8 wherein said first aftextending recess extends along substantially a
full width of said forward partition.
Figure 1 of Betts shows a side elevational view of
the coat closet enclosure. Ex. 1005, 1:58-59; Ex.
1004, ¶¶234-235. The side elevational view shows
the coat closet enclosure from a horizontal plane
beside the enclosure. Id. One of ordinary skill in the
art would understand from Figure 1 that the recess
extends the full width of the forward wall. Id.
Further, nothing in Betts suggests that the
recess only extends a portion of the width of the
forward wall. Ex. 1004, ¶236. Moreover, one of
ordinary skill in the art would be motivated to
extend the recess the full width of the forward wall
in order to accommodate the full row of seats
installed immediately forward of the wall. Id. In fact,
the commercial embodiments of the Betts closet
(found on DC- 10s) had a recess that extended the
full width of the forward partition. Id.
Further, the side elevation view shown in Figure
1 is essentially identical to the schematic diagram of
Figure 2 of the ’641 Patent. Ex. 1001. The term
“width” appears nowhere in the specification of the
’641 Patent. See Ex. 1001. To the extent that Figure
2 of the ’641 Patent describes this limitation, the
limitation is also disclosed by Figure 1 of Betts.

287a
[’641 Claim 17] The aircraft lavatory
according to claim 8 wherein said lavatory has
a top, a bottom, a height therebetween, and a
middle therebetween, said lavatory has
varying lengths along the height of the
lavatory, and said lavatory is longer at the top
of the lavatory than at the bottom of the
lavatory.
The prior art lavatory shown in Figure 1 of the
’641 Patent shows a lavatory that has a top, a
bottom, a height therebetween, and a middle
therebetween. Further, as discussed in Section V
above, a person of ordinary skill in the art would be
motivated to modify a flat wall lavatory to include a
contoured forward wall. Ex. 1004, ¶¶238-239. A
person of ordinary skill in the art would recognize
that such a modification could impact the interior of
the lavatory, e.g., the width or the lengths along the
height of the lavatory. Id. This is clear from the
positioning of the recess shown in Figure 1 of Betts,
which is substantially the same as Figure 2 of the
’641 Patent. Id. To the extent that Figure 2 of the
’641 Patent describes this limitation, the limitation
is also disclosed by Figure 1 of Betts. Id

Betts Figure 1

288a
’641 Patent Figure 2

B. Claims 1, 3-10, and 12-17 are Obvious
Under 35 U.S.C. § 103 over APA and the KLM
Crew Rest Document.
The combination of APA and the KLM Crew Rest
document teaches or renders obvious to one of skill
in the art each element of the challenged claims and
each challenged claim as a whole as described in this
section. As discussed in Section V above, one of skill
in the art would be motivated to modify the APA in
view of the teachings of the KLM Crew Rest
document.

289a
[’641 Claim 1 Preamble] An aircraft lavatory
for a cabin of an aircraft of a type that includes
a forward-facing passenger seat that includes
an upwardly and aftwardly inclined seat back
and an aft-extending seat support disposed
below the seat back, the lavatory comprising:
The admitted prior art discloses the preamble of
claim 1 including an aircraft lavatory for a cabin of
an aircraft and a forward-facing passenger seat that
includes an upwardly and aftwardly inclined seat
back and an aft-extending seat support disposed
below the seat back. Ex. 1004, ¶172-174.

290a

As explained in Section V above, a person of
ordinary skill in the art would be motivated to
modify a flat wall lavatory to use the KLM Crew
Rest design on the forward wall of a lavatory. The
KLM Crew Rest document shows a side elevation of
a lavatory enclosure. Ex. 1004, ¶175. The enclosure
has a contoured wall to allow space for a seat that is
located forward of and proximate to the aircraft
enclosure. Id. The KLM Crew Rest document shows
“a forward-facing passenger seat.” Id. This seat
includes “an upwardly and aftwardly inclined seat

291a
back.” Id. The seat shown in the KLM Crew Rest
document includes or could be modified to include a
prior art seat with an aft extending seat support. Id.

[’641 Claim 1 Element A] a lavatory unit
including a forward wall portion and defining
an enclosed interior lavatory space, said
forward wall portion configured to be
disposed proximate to and aft of the passenger
seat and including an exterior surface having
a shape that is substantially not flat in a
vertical plane;
As described in detail above, an airplane lavatory
was well known in the prior art and the ’641 Patent
admits that a flat wall lavatory is known in the art.
Such a prior art lavatory includes “a forward wall
portion and defining an enclosed interior lavatory
space.” Ex. 1004, ¶¶177.

292a
As is shown below, the KLM Crew Rest rendering
includes a contoured forward wall. Ex. 1004, ¶179.
A person of ordinary skill in the art would realize
that this contoured forward wall could be used in
place of a flat forward wall on an aircraft lavatory.
Id. One motivation to do so would be to allow the seat
be placed further aft in an aircraft cabin. Id.

The contoured forward wall includes an exterior
surface having a shape that is substantially not flat
in a vertical plane.
[’641 Claim 1 Element B] wherein said forward
wall portion is shaped to substantially
conform to the shape of the upwardly and
aftwardly inclined seat back of the passenger
seat, and includes a first recess configured to
receive at least a portion of the upwardly and
aftwardly inclined seat back of the passenger
seat therein, and
As is shown in the annotated Figure above, the

293a
KLM Crew Rest rendering discloses a contoured
forward wall. This contoured forward wall includes
a recess configured to receive an upwardly and
aftwardly inclined seat back of a passenger seat. Ex.
1004, ¶181, 184-185.
Further, the recess in the KLM Crew Rest was
designed to allow the last row of seats positioned in
front of the contoured wall to sit further aft in the
aircraft, yet still be able to recline. Ex. 1007, ¶13.
Thus, if there were no recess, this seat would need
to be positioned further forward to allow for recline.
Ex. 1004, ¶184. Thus, the contoured wall allows for
this seat to sit further aft than it otherwise would be
able to sit, and therefore receives the seat back. Id.
Further, one of ordinary skill in the art would be
motivated to restrict the recline of the seat and move
the seat further aft. Id. A motivation for doing so
would be to increase the pitch of seats between rows
or allow for additional rows of seats. Id.
The recess shown in the KLM Crew Rest
document “substantially conform[s] to the shape of
the upwardly and aftwardly inclined seat back of the
passenger seat.” Ex. 1004, ¶185. As Mr. Sobotta
explains, the design includes a “recess that would
receive the seatback of the row of seats located in
front of the entry enclosure.” Ex. 1007, ¶13. This is
shown in the annotated figure below.

294a

[’641 Claim 1 Element C] further includes a
second recess configured to receive at least a
portion of the aft-extending seat support
therein when at least a portion of the
upwardly and aftwardly inclined seat back of
the passenger seat is received within the first
recess.
As noted above, Figure 1 of the ’641 Patent
admits that a seat with an aft extending seat
support is well known in the art. Ex. 1004, ¶¶186187. Further, the KLM Crew Rest document shows
both a passenger seat and a contoured forward
partition. Ex. 1004, ¶190. As explained above, the
passenger seat is positioned is positioned such that
it could not recline without a contoured forward
wall, thus this seat is at least partially within the
contour and is thus received by the recess. Id.
As explained above, a person of ordinary skill in
the art would be motivated to modify the forward

295a
wall of an enclosure to include a second recess to
accommodate known prior art seat designs that
include an aft-extending seat support. Ex. 1004,
¶191. Such a modification is nothing more than the
application of known technology for its intended
purpose. Id. The result of such a modification is
predictable, allowing the seat to be positioned
further aft in an aircraft. Id.
Patent Owner cannot argue this difference
between the above cited prior art is sufficient to
render the claims patentable. The “mere existence of
differences between the prior art and an invention
does not establish the invention’s nonobviousness.
The gap between the prior art and respondent’s
system is simply not so great as to render the system
nonobvious to one reasonably skilled in the art.”
Dann v. Johnston, 425 U.S. 219, 230 (1976); see also
MPEP § 2141. Mr. Anderson explains in detail why
this difference would be obvious to one or ordinary
skill in the art. Ex. 1004, ¶¶186-192.

296a
SAS MD-90
Aft-Storage
October 2004

737 Storage
February 1994

747
Storage
December
2009

As evidence of this modification being well
known, Mr. Anderson cites to three examples of
prior art enclosures that include a lower recess to
receive a seat support. Ex. 1004, ¶192. Each of
these designs was sold and included in passenger
aircraft well before the earliest claimed priority
date of the ’641 Patent. Id.

’641 Claim 3] The aircraft lavatory of claim 1,
wherein said forward wall portion further
includes a projection configured to project
over the passenger seat back when at least a
portion of the upwardly and aftwardly
inclined seat back of the passenger seat is
received within the first recess and at least a
portion of the aft- extending seat support is
received within the second recess.
The recess in the KLM Crew Rest document was

297a
designed to allow the last row of seats in front of the
contoured wall to sit further aft in the aircraft, yet
still be able to recline. Ex. 1007, ¶13. A person of
ordinary skill in the art would recognize that when
the seat reclines into the recess in the KLM Crew
Rest, the upper part of the recess will project overtop
of the passenger seat back. Ex. 1004, ¶195.
Further, as explained above with regard to Claim
1, Element C, a person of ordinary skill in the art
would be motivated to modify a flat forward wall to
include a second recess to receive at least a portion
of an aft extending seat support. Ex. 1004, ¶¶186192, 196. One motivation for such a modification
would be to allow for the seat to be positioned further
aft in an airplane cabin. Id.
[’641 Claim 4] The aircraft lavatory of
claim 1, wherein said lavatory unit is taller
than the passenger seat.
As is shown below, the prior art enclosure in
Figure 1 and the KLM Crew Rest document are
taller than a passenger seat. Ex. 1004, ¶¶106-108,
197.

298a

[’641 Claim 5] The aircraft lavatory of claim 1,
wherein said forward wall portion includes a
lower portion that is disposed under the
passenger seat back when at least a portion of
the upwardly and aftwardly inclined seat back
of the passenger seat is received within the
first recess and at least a portion of the aftextending seat support is received within the
second recess.
As is shown in the annotated figure below, the
KLM Crew Rest document shows an aircraft
passenger seat that is positioned at least partially
within the contoured forward wall. Ex. 1004, ¶200.
This shows a lower portion that is disposed under
the passenger seat back when at least a portion of
the upwardly and aftwardly inclined seat back of the
passenger seat is received within the first recess. Ex.

299a
1004, ¶200.

[’641 Claim 6] The aircraft lavatory of claim 1,
wherein said first recess in said forward wall
portion is disposed between an upper wall
portion and a lower wall portion.
As is shown in the annotated figures below,
the KLM Crew Rest document discloses a first recess
in said forward wall portion is disposed between an
upper wall portion and a lower wall portion. Ex.
1004, ¶204.

300a

[’641 Claim 7] The aircraft lavatory of claim 1,
wherein said forward wall portion defines a
secondary space in said interior lavatory
space above the passenger seat back.
The admitted prior art shows “a secondary space
in said interior lavatory space above the passenger
seat back.” The specification of the ’641 Patent
describes “the forward wall portion defines a
secondary space 36 in the interior lavatory space.”
Ex. 1001, 4:43-45. Such a space is shown in both
Figure 1 and Figure 2. Ex. 1004, ¶205-206. Further,
a person of ordinary skill in the art would recognize
that prior art lavatories often include secondary
storage spaces, e.g., trash receptacles, space for
additional paper towels or toilet paper, space for
routing plumbing, etc. Ex. 1004, ¶207. A person of
ordinary skill in the art would further understand
that the enclosed space of a lavatory would continue
to contain the prior art secondary storage spaces

301a
after applying a contour to the forward wall. Id.

[’641 Claim 8 Preamble] An aircraft lavatory
for an aircraft, the lavatory comprising:
As explained above, the ’641 Patent admits that
an aircraft lavatory was known in the prior art. Ex.
1001, Fig. 1; Ex. 1004, ¶208.
[’641 Claim 8, Element A] a forward partition;
an aft partition; and a lavatory space disposed
between the forward partition and the aft
partition;
As explained above, the ’641 Patent admits that
an aircraft lavatory was known in the prior art. Ex.
1001, Fig. 1; Ex. 1004, ¶209. This lavatory shows a
forward partition, an aft partition, and a lavatory
spaced disposed between these two partitions. Id.
[’641 Claim 8, Element B] wherein the forward
partition comprises: a forward-extending
upper portion; an aft-extending mid-portion;

302a
and a forward-extending lower portion; and
As is shown in the annotated figures below, the
KLM Crew Rest document shows a forwardextending upper portion; an aft-extending midportion; and a forward-extending lower portion. Ex.
1004, ¶¶210-211.

[’641 Claim 8, Element C] wherein the forwardextending upper portion, the aft-extending
mid-portion, and the forward-extending lower
portion combine to define a first aft-extending
recess disposed between the upper forwardextending portion and the forward-extending
lower portion, and
As is shown in the annotated Figure above, “the
forward-extending upper portion, the aft-extending
mid-portion, and the forward-extending lower
portion combine to define a first aft-extending recess

303a
disposed between the upper forward- extending
portion and the forward-extending lower portion.”
Ex. 1004, ¶¶213-214.
[’641 Claim 8, Element D] wherein the forward
partition further defines a second aftextending recess proximate to a lower end of
the forward partition, the second aftextending recess being configured to receive
at least a portion of an aft-extending seat
support of a forward-positioned passenger
seat therein.
As explained above, a person of ordinary skill in
the art would be motivated to modify a flat forward
facing wall of a lavatory to include a recess to allow
a passenger seat to be positioned further aft in the
aircraft cabin. Ex. 1004, ¶¶215-216. A seat with an
aft extending seat support is well known in the art.
Ex. 1001, Fig. 1; Ex. 1004, ¶216. A seat with an aft
extending seat support is well known in the art. Ex.
1001, Fig. 1; Ex. 1004, ¶216.

304a
A person of ordinary skill in the art would realize
that when such a seat is moved further aft, the first
component to impact the wall is the seat back. Ex.
1004, ¶217. As explained above, the KLM Crew Rest
document includes a forward-facing recess that
receives the seat back. Id.
As the seat is moved further aft, the next
component to impact the wall is the aft seat support.
Ex. 1004, ¶218. As Mr. Anderson explains, a person
of ordinary skill in the art would be motivated to
modify an enclosure, such as a lavatory, to include a
second recess to receive aft facing seat supports. Id.
Such a modification is nothing more than the
application of known technology for its intended
purpose. Id. The result of such a modification is
predictable, allowing the seat to be positioned
further aft in an aircraft. Id.
Further, as discussed above with regard to
Claim 1, Element C, a person of ordinary skill in the
art would recognize that such a modification was
well known in the art. Ex. 1004, ¶219. As evidence
of this modification being well known, Mr. Anderson
cites to three examples of prior art enclosures that
include a lower recess to receive a seat support. Ex.
1004, ¶192. Each of these designs was sold and
included in passenger aircraft well before the
earliest claimed priority date of the ’641 Patent. Ex.

305a
1004, ¶¶76-78.
SAS MD-90
Aft-Storage
October
2004

737 Storage

747 Storage

February
1994

December
2009

[’641 Claim 9] The aircraft lavatory
according to claim 8 wherein the first aft
extending recess defined by the forwardextending upper portion, the aft-extending
mid-portion, and the forward- extending
lower portion of the forward partition is
configured to receive an aft-extending seat
back of the forward positioned passenger
seat.
As described above with regard to Claim 1,
Element B, the KLM Crew Rest document shows
a contoured forward wall. Ex. 1004, ¶222. This
contoured forward wall includes a recess

306a
configured to receive an upwardly and aftwardly
inclined seat back of a passenger seat. Id.
[’641 Claim 10] The aircraft lavatory
according to claim 9 wherein said forward extending upper portion is configured to
project over at least a portion of the
forward-positioned passenger seat.
As explained above, the seat in the KLM Crew
Rest reclines into the contour in the forward wall.
Ex. 1004, ¶225. Thus, at least part of the forward
wall is protrudes overtop of the upwardly and
aftwardly reclined seat back. Id.
[’641 Claim 12] The aircraft lavatory
according to claim 9 wherein said lavatory
is taller than the forward-positioned
passenger seat.
See analysis of claim 4 above.
[’641 Claim 13] The aircraft lavatory
according to claim 8 wherein the aft
partition is substantially vertical and
substantially planar.
As shown in the admitted prior art of Figure 1 of
the ’641 Patent, the aft partition is substantially
vertical and substantially planar. Ex. 1004, ¶227.

307a

[’641 Claim 14] The aircraft lavatory according
to claim 8 wherein the width of the lavatory
space disposed between the forward partition
and the aft partition comprises an upper
width, a lower width, and a mid-width, and
wherein the upper width and the lower width
are both substantially wider than the midwidth.
As discussed in Section V above, a person of
ordinary skill in the art would be motivated to
modify a flat wall lavatory to include a contoured
forward wall. Ex. 1004, ¶230. A person of ordinary
skill in the art would recognize that such a
modification could impact the interior width of the
lavatory. Id. This is clear from the positioning of the
recess shown in the KLM Crew Rest rendering,
which is substantially the same as Figure 2 of the
’641 Patent. Id. To the extent that Figure 2 of the
’641 Patent describes this limitation, the limitation
is also disclosed by the KLM Crew Rest document.

308a
Id.
[’641 Claim 15] The aircraft lavatory according
to claim 8 wherein the upper forwardextending portion, the aft-extending midportion, and the forward-extending lower
portion of the forward partition form a
substantially continuous surface.
As shown in the annotated rendering of the KLM
Crew Rest below, the upper forward-extending
portion, the aft-extending mid-portion, and the
forward- extending lower portion of the forward
partition form a substantially continuous surface.
Ex. 1004, ¶233.

[’641 Claim 16] The aircraft lavatory according
to claim 8 wherein said first aft-extending
recess extends along substantially a full width
of said forward partition.
The KLM Crew Rest document shows a recess

309a
that extends along substantially the full width of the
of the contoured forward partition. Ex. 1004, ¶237.

[’641 Claim 17] The aircraft lavatory according
to claim 8 wherein said lavatory has a top, a
bottom, a height therebetween, and a middle
therebetween, said lavatory has varying
lengths along the height of the lavatory, and
said lavatory is longer at the top of the
lavatory than at the bottom of the lavatory.

The prior art lavatory shown in Figure 1 of the
’641 Patent shows a lavatory that has a top, a
bottom, a height therebetween, and a middle
therebetween. Further, as discussed in Section V
above, a person of ordinary skill in the art would be
motivated to modify a flat wall lavatory to include a

310a
contoured forward wall. Ex. 1004, ¶¶238-240. A
person of ordinary skill in the art would recognize
that such a modification could impact the interior of
the lavatory, e.g., the width or the lengths along the
height of the lavatory. Id. This is clear from the
positioning of the recess shown in the KLM Crew
Rest rendering which is substantially the same as
Figure 2 of the ’641 Patent. Ex. 1004, ¶240. To the
extent that Figure 2 of the ’641 Patent describes this
limitation, the limitation is also disclosed by the
KLM Crew Rest document. Id

XI.

Any Secondary Considerations Cannot
Overcome the Clear Evidence of Obviousness.
Patent Owner may attempt to overcome the clear
obviousness of the challenged claims by pointing to
alleged
secondary
considerations
of
nonobviousness. The Board has already considered
Patent Owner’s secondary considerations in the
prior IPR regarding the parent ’838 Patent. The
Board determined that Patent Owner’s secondary
considerations were insufficient in the face of the
strong evidence of obviousness in view of Betts. Ex.
1003, at 23-24. Patent Owner’s secondary
considerations fail here for the same reasons.
First, evidence of second considerations is
significant only if there is a nexus between the
claimed invention and the evidence. Ormco Corp. v.
Align Tech., Inc., 463 F.3d 1299, 1311-12 (Fed. Cir.
2006) (“Evidence of commercial success, or other
secondary considerations, is only significant if there
is a nexus between the claimed invention and the
commercial success.”). All types of objective evidence

311a
of non-obviousness must be shown to have such a
nexus. Chums, Inc. v. Cablz, Inc., IPR2014-01240,
Paper No. 43 at 27 (PTAB Feb. 8, 2016) (citations
omitted).
Patent Owner cannot establish a nexus here
because all claim elements were known in the prior
art. When objective evidence results from something
that is not “both claimed and novel in the claim,
there is no nexus to the merits of the claimed
invention.” In re Kao, 639 F.3d 1057, 1068 (Fed. Cir.
2011) (emphasis in original); ClassCo, Inc. v. Apple,
Inc. 838 F.3d 1214, 1220 (Fed. Cir. 2016) (“A nexus
may not exist where, for example, the merits of the
claimed invention were ‘readily available in the
prior art.’” (quoting Richdel, Inc. v. Sunspool Corp.,
714 F.2d 1573, 1580 (Fed. Cir. 1983)); ArcelorMittal
France v. AK Steel Corp., 700 F.3d 1317, 1325 (Fed.
Cir. 2012) (“[O]ur cases make clear that the
commercial success of the embodiment with
additional unclaimed features is to be considered
when evaluating the obviousness of the claim,
provided that embodiment’s success has a sufficient
nexus to the claimed and novel features of the
invention.” (emphasis added)). No claim element is
novel and there is thus no nexus to any secondary
consideration of non-obviousness.
Second, contrary to Patent Owner’s assertion,
prior art lavatory designs included contours that
intruded on the interior space of the lavatory. Ex.
1004,
¶¶60-64. Two prior art examples are shown
below:

312a
US 7,284,287, Ex. 1012

U.S. 2009/0050738 A1,
Ex. 1013

Patent Owner’s argument that one of ordinary skill
in the art would not have contoured a lavatory wall
or intruded on interior lavatory space simply has no
merit. Further, the patent itself makes clear that the
disclosure is not limited to lavatories with a wall
that intrudes on passenger space. Rather, the patent
explains that “the present invention can provide a
more spacious lavatory or other enclosure with no
need to move adjacent seats or other structures
forward.” Ex. 1001, 1:59- 61.
Finally, even if Patent Owner were able to
establish any secondary considerations and a nexus
to them, secondary considerations are insufficient to
overcome a strong case of obviousness, like the one
here. Wyers v. Master Lock Co., 616 F.3d 1231, 1246
(Fed. Cir. 2010) (“[S]econdary considerations of
nonobviousness . . . simply cannot overcome a strong
prima facie case of obviousness.”); Leapfrog Enters.,

313a
Inc. v. Fisher–Price, Inc., 485 F.3d 1157, 1162 (Fed.
Cir. 2007) (holding that the objective considerations
of nonobvious-ness presented, including substantial
evidence of commercial success, praise, and long- felt
need, were inadequate to overcome a strong showing
of primary considerations that rendered the claims
at issue invalid); Rothman v. Target Corp., 556 F.3d
1310, 1322 (Fed. Cir. 2009) (“a strong prima facie
obviousness showing may stand even in the face of
considerable
evidence
of
secondary
considerations.”); Stamps.com Inc. v. Endicia, Inc.,
437 Fed.Appx. 897, 905 (Fed. Cir. 2011) (“Given the
strong showing of obviousness, we find that the
evidence
of
secondary
considerations
was
inadequate to overcome the legal conclusion that the
contested claims would have been obvious.”).

X.

Conclusion

In view of the foregoing, Petitioner respectfully
submits that there is a reasonable likelihood that
Petitioner will prevail with respect to claims 8 and
10-16 of the ’742 Patent. Accordingly, Petitioner
requests that the Board grant this petition and
initiate an inter partes review.

Respectfully submitted,

By: /s/ John C. Alemanni
John C. Alemanni
Registration No. 47,384

314a

Lead Counsel
Back-Up Counsel
John C. Alemanni (Reg. Dean W. Russell (Reg.
No. 47,384)
No. 33,452)
David A. Reed (Reg. No.
Postal and Hand61,226)
Michael T. Morlock (Reg.
Delivery Address:
Kilpatrick Townsend & No. 62,245)
Stockton LLP
Postal and Hand4208 Six Forks Road,
Suite 1400
Delivery Address:
Raleigh, NC 27609
Kilpatrick Townsend &
Telephone: (919) 420Stockton LLP
1724
1100 Peachtree Street,
Fax: (919) 420-1800
NE, Suite 2800
jalemanni@kilpatrickto Atlanta, GA 30309-4528
Telephone: (404) 815wnsend.com
6500
Fax: (404) 815-6555
drussell@kilpatricktowns
end.com
dreed@kilpatricktownsen
d.com
mmorlock@kilpatricktown
send.com
Andrew Rinehart (Reg.
No. 75,537)

315a
Postal and HandDelivery Address:
Kilpatrick Townsend &
Stockton LLP
1001 West Fourth Street
Winston-Salem, NC
27101-2400
Telephone: (336) 6077300
Fax: (336) 734-2621
arinehart@kilpatricktow
nsend.com

316a
CERTIFICATE OF WORD COUNT
The undersigned certifies pursuant to 37 C.F.R.
§ 42.24(d) that the foregoing Petition for Inter Partes
Review excluding any table of contents, table of
authorities, certificates of service or word count, or
appendix of exhibits or claim listing, contains 12,590
words according to the word-processing program
used to prepare this paper (Microsoft Word).
Including annotations in figures, Petitioner certifies
that this Petition for Inter Partes Review does not
exceed the applicable type-volume limit of 37 C.F.R.
§ 42.24(a).
Dated: April 13, 2017

/s/ John C. Alemanni
Counsel for Petitioner

317a
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on the date
below a copy of this Petition for Inter Partes
Review has been served by Express Mail upon the
following:
OBLON, MCCLELLAND, MAIER &
NEUSTADT, L.L.P.
1940 DUKE STREET
ALEXANDRIA VA 22314
With a courtesy copy sent via email to:
Samuel Franklin Baxter
McKool Smith
sbaxter@mckoolsmith.co
m

Andrei Iancu
Irell & Manella - Los
Angeles
aiancu@irell.com

Morgan Chu
Irell & Manella - Los
Angeles
mchu@irell.com

Leah Johannesson
Irell & Manella - Los
Angeles
ljohannesson@irell.co
m

Benjamin Haber
Irell & Manella - Los
Angeles
bhaber@irell.com
Michael R Fehner
Irell & Manella - Newport
Beach mfehner@irell.com

Joseph M Lipner
Irell & Manella - Los
Angeles
jlipner@irell.com

318a
Dated: April 13, 2017

By: /s/ John C. Alemanni
John C. Alemanni
Registration No. 47,384
Lead Counsel for
Petitioner

319a
APPENDIX G
UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
C&D ZODIAC, INC.,
Petitioner
v.
B/E AEROSPACE, INC.,
Patent Owner.
Case IPR2017-01276
Patent 9,073,641
Patent 9,365,292
Patent 9,434,476
Patent 9,440,742 B2
Before JENNIFER S. BISK, SCOTT A. DANIELS,
and RICHARD H. MARSCHALL, Administrative
Patent Judges.
MARSCHALL, Administrative Patent Judge.
Declaration of Alan Anderson Under
37 C.F.R. § 1.68

320a
I, Alan Anderson, declare as follows:
I.

Introduction
1.

My name is Alan Anderson, and I reside
in Woodinville, WA. I am an independent
consultant. I am over eighteen years of
age, and I would otherwise be competent
to testify as to the matters set forth herein
if I am called upon to do so.

2.

I submit this Declaration at the request
of C&D Zodiac, Inc. for consideration by
the Patent Trial and Appeal Board in the
Inter Partes Reviews of U.S. Patent Nos.
9,073,641 (“the ’641 patent”); 9,365,292
(“the ’292 patent”); 9,434,476 (“the ’476
patent”); and 9,440,472 (“the ’472 patent”)
(collectively, “the challenged patents”).

3.

In forming my opinions, I rely on my
knowledge and experience in the field and
on documents and information referenced
in this Declaration.

A.

Background and Expertise

4.

My CV is shown in Exhibit A following
the signature line of this declaration. I
earned a Bachelor of Science in
Mechanical
Engineering
from
the
University of Washington in 1968.

5.

From 1968 to 2011, I was employed by
The Boeing Company. I first joined Boeing
as an engineering designer for aircraft

321a
interiors in 1968. I remained employed
with Boeing for 43 years. In 1978, I was
promoted to engineering manager,
responsible for managing engineering
designers. In 1988, I was promoted to
senior engineering manager, responsible
for
managing
other
engineering
managers. In 1992, I was promoted to
Chief Engineer for 747 and 767 Payload
Systems, responsible for overseeing all
engineering of the aircraft cabin. I was
promoted to Director of Engineering,
Payload Systems in 1999, where I
oversaw all engineering for airplane
interiors for all models of Boeing aircraft
until my retirement in 2011. Additionally,
I also served as Chief Engineer for
Interiors for the development of the 787
Interior from 2002 until 2008.
6.

During my 43 years with Boeing, I
obtained significant, broad experience
with the design and configuration of
interiors of commercial aircraft. I have
specific experience with layout of
passenger accommodations (“LOPA”) for
aircraft. I also have specific experience
with the design of aircraft enclosures,
such as lavatories, closets, and galleys.

7.

I am named as an inventor on U.S. Patent
No.
7,222,820,
entitled
“Aircraft
Lavatory.”

8.

9.

B.
10.

322a
I maintained an active Professional
Engineer license in the State of
Washington during my career with
Boeing.
I have been retained by C&D Zodiac, Inc.
(“C&D Zodiac”) as an expert witness in
the above referenced litigation. I worked
as a technical consultant for C&D Zodiac
from 2012-2014. No part of my
compensation from C&D Zodiac is
dependent upon the outcome of these
proceedings or any issue in these
proceedings.
Information Considered
In forming my opinions, in addition to my
knowledge and experience, I have
considered the following documents and
things that I have obtained, or that have
been provided to me:

•

U.S. Patent No. 8,590,838 (herein “’838
patent”) (attached as Exhibit 1017 to the
Petitions for inter partes review).

•

Prosecution history for the ’838 Patent.

•

U.S. Patent No. 9,434,476 (herein “’476
patent”).

•

Prosecution history for the ’476 patent.

•

U.S. Patent No. 9,365,292 (herein “’292
patent”).

323a

•

Prosecution history for the ’292 patent.

•

U.S. Patent No. 9,440,742 (herein “’742
patent).

•

Prosecution history for the ’742 patent.

•

U.S. Patent No. 9,073,641 (herein “’641
patent”)

•

Prosecution history for the ’641 patent.

•

Documents submitted during the inter partes
review of the ’838 patent, IPR2014-00727.

•

Final Written Decision in the inter partes
review of the ’838 patent, IPR2014-00727
(attached as Exhibit 1003 to the Petitions for
inter partes review)

•

U.S. Patent No. 3,738,497 to Betts et al.,
(“Betts”) (attached as Exhibit 1005 to the
Petitions for inter partes review).

•

McDonnell
Douglas
DC-10
Customer
Configuration Summary (a/k/a Orange Book),
revised October 1978 (attached as Exhibit
1020 to the Petitions for inter partes review).

•

Crew Rest for KLM 747-400 Aircraft (“KLM
Crew Rest”) (attached as Exhibits 1006 and in
Exhibit 1009 to the Petitions for inter partes
review).

•

U.S. Patent No. 4,884,767 to Shibata
(“Shibata”) (attached as Exhibit 1011 to the

324a
Petitions for inter partes review).

•

U.S. Patent No. 6,742,840 to Bentley
(“Bentley”) (attached as Exhibit 1021 to the
Petitions for inter partes review).

•

U.S. Patent No. 7,284,287 to Cooper
(“Cooper”) (attached as Exhibit 1012 to the
Petitions for inter partes review).

•

U.S. 2009/0050738 A1 to Breuer (“Breuer”)
(attached as Exhibit 1013 to the Petitions for
inter partes review).

•

C&D Aerospace SAS S4 MD-90 Aft-Storage
(“MD-90
Storage”
or
“S4
Storage”)
C&D0086593-94; C&D0075655-681 (attached
as Exhibit 1018, at pages 19-20 and 49-75 to
the Petitions for inter partes review).

•

Heath Tecna Qantas 737 Storage (“737
Storage”)
C&D0075650,
C&D0079852
(attached as Exhibit 1019, at page 10 to the
Petitions for inter partes review)

•

Heath Tecna Qantas 747 Storage (“747
Storage”) C&D0075683,

•

HT0001550 (attached as Exhibit 1019, at
page 104 to the Petitions for inter partes
review).

•

Declaration of Vince Huard dated March 10,
2017 and supporting Exhibits (attached as
Exhibit 1019 to this Declaration).

325a

II.

•

Declaration of Scott Savian dated March 20,
2017 (attached as Exhibit 1018 to this
Declaration)

•

Declaration of Paul Sobotta submitted in
IPR2017-00727, dated April 2, 2015 (attached
as Exhibit 1007 to the Petitions for inter
partes review).

•

Transcript of March 15, 2017, Deposition of
Robert Papke.

•

Other documents cited herein.
LEGAL STANDARDS FOR
PATENTABILITY

11.

In expressing my opinions and
considering the subject matter of the
claims of the ’292, ’476, ’641, and ’742
patents (collectively “the Challenged
Patents”), I am relying upon certain legal
principles that counsel has explained to
me.

12.

First, I understand that for an invention
claimed in a patent to be found
patentable, it must be, among other
things, new and not obvious from what
was known before the invention was
made.

13.

I understand the information that is used
to evaluate whether an invention is new
and not obvious is generally referred to as
“prior art” and generally includes patents

326a
and printed publications (e.g., books,
articles, product manuals, company
publications, etc.).
14.

I understand that in this proceeding C&D
Zodiac, Inc. has the burden of proving that
the claims of the patents-at-issue are
anticipated by or obvious from the prior
art by a preponderance of the evidence. I
understand that “a preponderance of the
evidence” is evidence sufficient to show
that a fact is more likely true than it is not
true.

15.

I understand that in this proceeding, the
claims must be given their broadest
reasonable interpretation consistent with
the specification. The claims after being
given
their
broadest
reasonable
interpretation are then to be compared to
the information disclosed in the prior art.

16.

I understand that in this proceeding, the
information that may be evaluated is
limited
to
patents
and
printed
publications. My analysis below compares
the claims to patents and printed
publications that I understand are prior
art to the patents-at-issue.

17.

I understand that there are two ways in
which prior art may render a patent claim
unpatentable. First, the prior art can be
shown to “anticipate” the claim. Second,
the prior art can be shown to have made

327a
the claim “obvious” to a person of ordinary
skill in the art. My understanding of the
two legal standards is set forth below.
A.

Anticipation

18.

I understand that a claimed invention is
not patentable if it is anticipated by the
prior art. I understand that the following
standards govern the determination of
whether a patent claim is “anticipated” by
the prior art.

19.

I understand that the “prior art” includes
patents and printed publications that
existed before the earliest filing date (the
“effective filing date”) of the patent. I also
understand that a patent will be prior art
if it was filed before the effective filing
date, while a printed publication will be
prior art if it was publicly available before
that date.

20.

I understand that, for a patent claim to
be “anticipated” by the prior art, each and
every requirement of the claim must be
found, expressly or inherently, in a single
prior art reference. I understand that a
prior art reference inherently discloses a
claim limitation if the limitation is
necessarily present in the reference.

B.

328a
Obviousness

21.

I understand that a claimed invention is
not patentable if it would have been
obvious to a person of ordinary skill in the
field of the invention at the time the
invention was made. I understand that
the following standards govern the
determination of whether a claim in a
patent is obvious.

22.

I understand that to find a claim in a
patent obvious, one must make certain
findings regarding the claimed invention
and the prior art. Specifically, I
understand that the obviousness question
requires consideration of four factors
(although not necessarily in the following
order):

•

The scope and content of the prior art;

•

The differences between the prior art and the
claims at issue;

•

The knowledge of a person of ordinary skill in the
pertinent art; and

•

Whatever
objective
factors
indicating
obviousness or non-obviousness may be present
in any particular case.
23.

I understand that the objective indicia
that may bear on the question of
obviousness or non-obviousness include
whether the claimed invention proceeded

329a
in a direction contrary to the accepted
wisdom in the field, whether there was a
long-felt but unresolved need in the field
that was satisfied by the claimed
invention, whether others had tried but
failed to make the claimed invention,
whether others copied the claimed
invention, whether the claimed invention
achieved any unexpected results, whether
the claimed invention was praised by
others, whether others have taken
licenses to use the claimed invention,
whether experts or those skilled in the
field of the claimed invention expressed
surprise or disbelief regarding the
claimed invention, and whether products
incorporating the claimed invention have
achieved commercial success.
24.

In addition, I understand that the
obviousness inquiry should not be done in
hindsight, but must be done using the
perspective of a person of ordinary skill in
the relevant art as of the effective filing
date of the patent.

25.

I also understand that under the correct
analysis, any need or problem known in
the field of endeavor at the time of
invention and addressed by the patent
can provide a reason for combining the
elements in the manner claimed. I also
understand that the combination of
familiar elements according to known
methods is likely to be obvious when it

330a
does no more than yield predictable
results. I further understand that the
following are examples of other factors
that may show obviousness:

•

a combination that only unites old elements with
no change in their respective functions is
unpatentable. As a result, the combination of
familiar elements according to known methods is
likely to be obvious when it does no more than
yield predictable results,

•

a predictable variation of a work in the same or a
different field of endeavor is likely obvious if a
person of ordinary skill would be able to
implement the variation,

•

an invention is obvious if it is the use of a known
technique to improve a similar device in the same
way, unless the actual application of the
technique would have been beyond the skill of the
person of ordinary skill in the art. In this case, a
key inquiry is whether the improvement is more
than the predictable use of prior art elements
according to their established functions,

•

an invention is obvious if there existed at the
time of invention a known problem for which
there was an obvious solution encompassed by
the patent’s claims.

•

inventions that were “obvious to try” — chosen
from a finite number of identified, predictable
solutions, with a reasonable expectation of
success — are likely obvious,

331a

•

known work in one field of endeavor may prompt
variations of it for use in either the same field or
a different one based on design incentives or
other market forces if the variations would have
been predictable to one of ordinary skill in the
art, and

•

an explicit teaching, suggestion, or motivation in
the art to combine references, while not a
requirement for a finding of obviousness, is a
helpful insight in determining on which a finding
of obviousness may be based.
26.

III.

Finally, I understand that even if a
claimed invention involves more than
substitution of one known element for
another or the application of a known
technique to a piece of prior art ready for
improvement, the invention may still be
obvious. I also understand that in such
circumstances courts may need to look to
interrelated
teachings
of
multiple
patents; the effects of demands known to
the design community or present in the
marketplace;
and
the
background
knowledge possessed by a person having
ordinary skill in the art to determine if the
claimed invention is obvious

Person of Ordinary Skill in the Art
27.

It is my opinion that the field of the
Challenged Patents is aircraft interior
design, specifically the design of aircraft

332a
enclosures, such as lavatories, closets,
and galleys. [See ’476 patent, 1:16-20].
28.

It is my opinion that one of ordinary skill
in the art as of April 20, 2010, the earliest
claimed priority date of the Challenged
Patents, would have had a bachelor’s
degree in mechanical engineering,
industrial design, or a similar discipline,
or the equivalent experience, with at least
two years of experience in the field of
aircraft interior design.

29.

While a formal bachelor’s degree is
recited above in my definition, the term
“equivalent experience” is meant to
include a person who may have achieved
the equivalent knowledge through years
of experience in the field of aircraft
interior design.

30.

As I explain above, I have worked in the
area of aircraft interior design for many
years, and I consider myself to be at least
a person of ordinary skill in the art.

IV.

Claim Interpretation
31.

In coming to the opinions stated herein I
have analyzed the claim terms and
interpreted them to have their broadest
reasonable construction consistent with
the specification of the challenged
patents. I reserve the right to provide

333a
supplemental opinions on the meaning of
terms used by the claims.
V.

The Challenged Patents
32.

Each of the four Challenged Patents is
entitled “Aircraft Interior Lavatory” and
has the same specification and figures.
Each of the four Challenged Patents
claims priority to Application No.
13/089,063, which issued as the ’838
patent. The earliest claimed priority date
of the ’838 patent is the April 20, 2010
filing date of Provisional Application No.
61/326,198. Each of the prior art
references I address herein was available
prior to April 20, 2010, thus I have not
analyzed whether each claim of the
Challenged Patents is entitled to the
claimed priority date.

33.

According to the Background section of
the Challenged Patents, prior art aircraft
enclosures, such as lavatories or closets,
had forward walls that are flat in a
vertical plane. The Challenged Patents
further explain that the prior art flat
forward walls cause inefficient use of
space when juxtaposed with the contoured
seatback of passenger seats installed
forward of the enclosures:

“Aircraft lavatories, closets and other full height
enclosures commonly have forward walls that are
flat in a vertical plane. Structures such as

334a
passenger seats installed forward of such aircraft
lavatories, closets and similar full height
enclosures often have shapes that are contoured
in the vertical plane. The juxtaposition of these
flat walled enclosures and contoured structures
renders significant volumes unusable to both the
function of the flat walled lavatory or enclosure
and the function of the contoured seat or other
structure.”
[’476 patent, at 1:24-32].
34.

Figure 1 of the Challenged Patents
depicts an example of a prior art
installation of an enclosure with a flat
forward wall aft of and adjacent to a
typical prior art passenger seat:

35.

The Background section of the Challenged
Patents further provides that it would be
desirable to provide for more efficient use
of space in the aircraft interior:

335a
“It would be desirable to provide an aircraft
lavatory or other enclosure that can reduce or
eliminate the gaps and volumes of space
previously required between lavatory enclosures
and adjacent structures to allow an adjacent
structure such as passenger seating installed
forward of the lavatory or other enclosure to be
installed further aft, providing more space
forward of the lavatory or enclosure for
passenger seating or other features than has
been possible in the prior art. Alternatively, the
present invention can provide a more spacious
lavatory or other enclosure with no need to move
adjacent seats or other structures forward.”
[’476 patent, at 1:54-64].
36.

The Challenged Patents provide a
forward wall of an enclosure with an aftextending recess to receive the aft portion
of the passenger seat installed forward of
the enclosure. The forward wall of the
Challenged Patents is shaped to
substantially conform to the shape of the
passenger seat or other cabin structure
immediately forward of the enclosure.

37.

Figure 2 of the Challenged Patents is a
schematic diagram of an installation of a
lavatory “according to the present
invention” that is immediately aft of a
passenger seat:

336a

38.

Figure 2 is the only embodiment of the
alleged invention depicted in the
Challenged Patents. The only difference
between Figure 1 (the prior art) and
Figure 2 (the embodiment of the alleged
invention) is the shape of the forward wall
of the lavatory enclosure.

39.

In a “preferred aspect” the Challenged
Patents provide that the enclosure unit is
a lavatory. [’476 patent, 2:53-55]. The
specification does not, however, describe
that the space-saving design of the
forward wall is particularly suitable for
lavatories as compared to other enclosure
units. Instead, the specification of the ’476
patent states that the forward wall is
advantageous for lavatories or other
enclosures, including closets or galleys.

337a
[See ’476 patent, 2:1722 (“Briefly, and in
general terms, the present invention
provides for an enclosure, such as a
lavatory, an aircraft closet, or an aircraft
galley, for example, for a cabin of an
aircraft including a structure having an
aft portion with a substantially vertically
extending exterior aft surface that is
substantially not flat in a vertical plane.”);
2:31-33 (“The enclosure unit can be a
lavatory, an aircraft closet, or an aircraft
galley, for example.”); 4:18-22 (“the
present invention provides for an
enclosure 10, such as a lavatory for a
cabin 12 of an aircraft (not shown),
although the enclosure may also be an
aircraft closet, or an aircraft galley, or
similar enclosed or structurally defined
spaces, for example.”)].
40.

Similarly, during prosecution of the ‘838
Patent, to which each of the Challenged
Patents claims priority, the applicant did
not distinguish between lavatories and
other enclosures:

“As is discussed in paragraph 0005 of the
specification of the present application, it is
desirable to provide an aircraft lavatory or other
enclosure that can reduce or eliminate gaps and
volumes of space such as would occur in
Thompson after of the rear group of seats, to
allow adjacent passenger seating installed
forward of the lavatory or other enclosure to be
installed further aft, providing more space

338a
forward of the lavatory or enclosure for
passenger seating or other features that has been
heretofore possible in the prior art.”
[’838 prosecution history, pp. 260-261 (April 3, 2013
Response to Non-Final Office Action)].

VI.

41.

Thus, the Challenged Patents equate
various types of aircraft enclosures and
provides that their forward wall design
would be suitable for any such enclosure.

42.

Further, the Challenged Patents describe
the exterior, but do not describe interior
fixtures, such as whether there is a toilet,
plumbing, electrical systems, etc., which a
person of skill in the art would know may
be installed in the lavatory.

PRIOR ART
A.

U.S. Patent No. 3,738,497 to Betts
(“Betts”)

43.

U.S. Patent No. 3,738,497 to Betts et al.
(“Betts”) is assigned to McDonnell
Douglas Corporation and issued on June
12, 1973 from Application No. 148,459.
This design was implemented and flown
on commercial DC-10 aircraft. I
understand that Betts qualifies as prior
art to each of the Challenged Patents.

44.

Figure 1 of Betts is a side elevation that
shows an assembly of an overhead coat
closet for a cabin of an aircraft that is

339a
located immediately aft of and adjacent to
a passenger seat and is nearly identical to
Figure 2 of the Challenged Patents:

45.

Figure 1 of Betts is likely not drawn to
scale. However, it shows the intended
functionality of the concept disclosed in
Betts. This concept includes a recessed
wall to provide additional space for
passengers in the cabin of an aircraft. See
Betts, Abstract (“to provide more
passenger room”); 1:6-7 (“provide more
room for passengers in an aircraft or other
vehicle”); 2:19-24 (“The lower portion 30 of
the coat compartment 18 slants
rearwardly to provide a space for seatback
12 to be tilted rearwardly as desired by
the occupant. The top 32 of storage space
16 also slants rearwardly so as not to
interfere with seatback 12 when tilted.”).
The passenger seat back shown in Figure
1 closely conforms to the shape of the
recess in the forward wall of the

340a
enclosure. A person of ordinary skill in the
art would understand that the Betts coat
closet includes walls forming an enclosure
of the closet.
46.

The Betts closet was installed on DC-10
aircraft. I saw the Betts closet as a
passenger on at least one commercial
flight. I have reviewed the DC-10
Customer Configuration Summary, which
was an Exhibit in the inter partes review
of the ‘838 patent. See McDonnell Douglas
DC-10
Customer
Configuration
Summary, revised October 1978, attached
as Exhibit 1004 to IPR2014-00727. This
documents
shows
the
commercial
embodiment of the Betts closet, which I
have pasted below. I do not rely on this
commercial embodiment in coming to my
conclusion that the Challenged Patents
are invalid. However, its commercial
embodiments confirm my understanding
and memory of the concept disclosed in
Betts. The image below is captured from
page 145 of the document.

341a

B.

Crew Rest for KLM 747-400 Aircraft
(“KLM Crew Rest”)

47.

I understand that on or about 1991 FSI
was awarded a contract to develop a crew
rest for Royal Dutch Airlines, better
known as KLM. Sobotta Declaration, at ¶
7. Specifically, FSI was awarded a
contract to develop an overhead crew rest
for KLM’s 747-400 aircraft. FSI developed
the KLM Crew Rest during 1991 and
1992. Sobotta Declaration, at ¶ 7.

48.

The KLM Crew Rest was designed to
include overhead berths in the overhead
space of KLM’s 747-400 aircraft for crew
members to rest and sleep during lengthy

342a
flights. Sobotta Declaration, at ¶ 9.
Including these overhead berths allowed
crew members to rest outside of the
passenger area. This increased the space
available to passengers in the passenger
area, and thus increased the amount of
revenue space in the aircraft. The airline
could use this space to include additional
seats or more space for seats with more
recline and leg room.
49.

I understand that to provide crew member
access to the overhead crew rest, FSI
designed an entry in front of door 4 (i.e.,
the fourth door from the front of the
aircraft) on the right side of the aircraft.
The entry was modeled on a lavatory
envelope (i.e., the outer walls forming a
lavatory enclosure) and was located at a
typical location for a lavatory on a 747-400
aircraft. Sobotta Declaration, at ¶ 10. To
provide entry to the overhead crew rest,
the interior of lavatory envelope was
modified to include a staircase in place of
a toilet, which allows crew to access the
overhead space. Sobotta Declaration, at ¶
10.

50.

I understand that the crew rest, including
the recessed forward wall of the crew rest
entry, was put into service on or about
November 9, 1992, and was manufactured
in Arlington, Washington. Sobotta
Declaration, at ¶ 19. I understand that
this product, referred to herein as the

343a
KLM Crew Rest qualifies as prior art to
each of the Challenged Patents. A
rendering of the prior art KLM Crew Rest
is shown below.

51.

An additional rendering of the KLM Crew
Rest is shown below:

344a

VII.

SUMMARY OF OPINIONS

52.

As explained in further detail in the
following paragraphs, in my opinion at
least the following claims are invalid in
view of both: (1) a prior art flat wall
lavatory in view of Betts; and (2) a prior
art flat wall lavatory in view of the KLM
Crew Rest:

•

claims 1-12 of U.S. Patent No. 9,365,292;

•

claims 1-6 of U.S. Patent No. 9,434,476;

•

claims 1, 3-10, and 12-17 of U.S. Patent No.
9,073,641; and

•

claims 8 and 10-16 of U.S. Patent No. 9,440,742.

A.

345a
Flat Wall Lavatories were WellKnown Prior Art.

53.

A flat wall lavatory was well known in
the art prior to the earliest claimed
priority date of the Challenged Patents.
Figure 1 of the Challenged Patents shows
a flat wall lavatory and states that such a
lavatory was “prior art.” ‘476 Patent at
col. 4:6-8 (“FIG. 1 is a schematic diagram
of a prior art installation of a lavatory
immediately aft of and adjacent to an
aircraft passenger seat.”)

54.

Further,
the
Challenged
Patent’s
description
includes
additional
admissions that such lavatories were
known prior art. “Aircraft lavatories,
closets and other full height enclosures
commonly have forward walls that are flat
in a vertical plane.” ‘476 Patent at col.
1:24-26.

55.

346a
To the extent that the Challenged
Patents do not expressly admit that flat
wall lavatories were well known in the
art, it is clear from U.S. Patent No.
4,884,767 to Shibata (“Shibata”) that flat
wall lavatories were well known in the
art. Shibata issued in 1989 and includes
Figures showing flat wall lavatories,
which it admits were prior art as of its
filing date, 1988.

B.

347a
It Would Have Been Obvious to
Modify a Prior Art Flat Wall
Lavatory to Include the Curved
Forward Wall Shown in Betts

56.

As discussed above, a flat wall lavatory
was well known in the prior art before the
earliest claimed priority date of the
Challenged Patents. In my opinion it
would have been obvious to one of
ordinary skill in the art to modify a prior
art flat wall lavatory to include a curved
forward wall like the wall shown in Betts.

57.

A primary goal of the design of interiors
of commercial aircraft is efficient use of
valuable passenger cabin space. Efficient
use of space allows an aircraft to
accommodate more passengers and/or to
accommodate
passengers
more
comfortably, thereby increasing the
utility of the aircraft. As of April 2010, a
primary motivation of one of ordinary
skill in the art of aircraft interior design
would have been to make efficient use of
space in the aircraft interior cabin.

58.

The curved forward facing wall shown in
Betts advantageously provides additional
space to locate a seat further aft in an
aircraft. Betts says that the coat hanger
rack is elevated to “provide more room for
passengers in an aircraft.” Betts, 1:5-7,
Abstract (“A coat hanger rack silently
elevated above passenger seats to store

348a
coats overhead and to provide more
passenger room.”). As shown in the figure
below, the seat shown in Betts could not
be located in the position in which it is
shown if the forward wall were flat. Thus,
this curved forward wall makes more
efficient use of the valuable space in the
aircraft passenger cabin than would be
available with a flat forward wall.

59.

60.

349a
Further, one of ordinary skill in the art
would understand that the forward wall of
the enclosure shown in Betts would also
be suitable for use with other aircraft
enclosures, including lavatories. In an
aircraft, as you move a row of seats
further aft, the first thing that would
make contact with a flat wall is the top of
the back of the seat. For this reason, Betts
includes a recess to receive that portion of
the seat back. Including the curved wall of
Betts in a lavatory would achieve the
same benefit, allowing the row of seats
placed immediately in front of that curved
wall to be placed further aft. A person of
ordinary skill in the art would have been
motivated to apply the curved wall of
Betts to a lavatory to achieve that same
benefit. Thus, combining different types of
enclosures and employing different types
and designs of recesses would have been
obvious to one of skill in the art.
I understand that Patent Owner has
asserted that one of ordinary skill in the
art would not apply a curved wall to a
lavatory because it would take up interior
space in the lavatory. I disagree with this
assertion for a number of reasons. First,
one of ordinary skill in the art would
understand that applying a recess to a
forward wall of a lavatory would not
necessarily take up interior space
passenger space in the lavatory. Further,
the Challenged Patents themselves make

350a
clear that the design may actually
“provide a more spacious lavatory,” and
thus the design is not required to
encroach on the space of the passenger.
See ‘476 Patent at 1:62-64 (“Alternatively,
the present invention can provide more
spacious lavatory or other enclosure with
no need to move adjacent seats or other
structures forward.”).
61.

In addition, other prior art references
clearly show a lavatory wall that is either
curved or slanted could be used in an
aircraft lavatory. Two examples are
shown below:

62.

I am informed that both Cooper and
Breuer are prior art to the Challenged
Patents, and both make clear that it was
well known in the art to use curved or
slanted lavatory walls in aircraft
lavatories prior to the filing date of the
Challenged Patents

63.

64.

C.

65.

351a
Over the course of my career, lavatory
manufacturers have tended to decrease
the size of lavatories. For example,
aircraft designs in the 1960s and 1970s
often included space for passengers to
change clothes. Over time as additional
seats were included on the aircraft,
lavatory space shrunk. Using a curved
wall on a lavatory is just the next logical
step in this progression as airlines accept
smaller lavatories
Further, a person of ordinary skill in the
art would recognize that many aircraft
already include smaller lavatories, such
as those in the forward area of the aircraft
cabin. These lavatories are often smaller
due to the curvature of the aircraft. One
example is the 737, which often has a
lavatory directly behind the cockpit. This
lavatory has a smaller depth than
lavatories at the rear of the aircraft, in
part because of the curvature of the
shaped exterior of the front of the aircraft.
It Would Have Been Obvious to
Modify a Prior Art Flat Wall
Lavatory to Include the Curved
Forward Wall Shown in the KLM
Crew Rest
As discussed above, a flat wall lavatory
was well known in the prior art before the
earliest claimed priority date of the
Challenged Patents. In my opinion it

352a
would have been obvious to one of
ordinary skill in the art to modify a prior
art flat wall lavatory to include a curved
forward wall like the forward wall shown
in the KLM Crew Rest.
66.

A primary goal of the design of interiors of
commercial aircraft is efficient use of
valuable passenger cabin space. Efficient
use of space allows an aircraft to
accommodate more passengers and/or to
accommodate
passengers
more
comfortably, thereby increasing the
utility of the aircraft. As of April 2010, a
primary motivation of one of ordinary
skill in the art of aircraft interior design
would have been to make efficient use of
space in the aircraft interior cabin. The
curved forward facing wall shown in the
KLM Crew Rest advantageously provides
additional space to locate a seat further
aft in an aircraft. The recess in the KLM
Crew Rest was designed to allow the last
row of seats in front of the curved wall to
sit further aft in the aircraft while still
having the ability to recline. Sobotta
Declaration, at ¶ 13. Were recline not
required, a person of ordinary skill in the
art also would understand that a recessed
forward wall could be provided to receive
the seat back of an unreclined passenger
seat, allowing it to be placed further aft
than would be possible with a flat wall
design.

67.

68.

353a
The seat in the KLM Crew Rest could not
be located in the position in which it is
shown if the forward wall were flat,
because a flat wall would restrict the
passenger’s ability to recline the seat,
which was not permitted by the customer
requirements for the KLM Crew Rest.
Sobotta Declaration, at ¶ 12. One of
ordinary skill in the art would understand
that the forward wall of the enclosure
used by the KLM Crew Rest would be
suitable for use in a lavatory, at least
because the KLM Crew rest itself is based
on a lavatory envelope, without a toilet,
but including “a lavatory sink (and
related plumbing), lighting, a mirror, soap
dispenser, shaver outlet and amenity
stowage.” Sobotta Declaration, at ¶ 16.
Further one of ordinary skill in the art
would recognize that in an aircraft, as you
move a row of seats further aft, the first
thing that would make contact with a flat
wall is the top of the back of the seat. For
this reason, the KLM Crew Rest includes
a recessed forward wall that receives that
portion of the seat back. Including the
curved wall of the KLM Crew Rest allows
the row of seats placed immediately in
front of that curved wall to be placed
further aft. Thus, combining different
types of enclosures (e.g., a flat wall
lavatory with the curved wall lavatory
design of the KLM Crew Rest) and
employing different types and designs of

354a
recesses would have been obvious to one
of skill in the art.
69.

Further, one of the designers of the KLM
Crew Rest, Robert Papke, confirmed
during direct testimony elicited by
attorneys for B/E Aerospace that this
curved wall of the KLM Crew Rest was
the really logical way to allow seats to be
placed further aft in an aircraft. See
Papke Tr. at 190:1-11:

70.

For the reasons discussed above, BE’s
arguments for why a lavatory would not
use a curved wall are both incorrect.
Other prior art references clearly show a
lavatory wall that is either curved or
slanted could be used in an aircraft
lavatory. See, e.g., Cooper and Breuer.

71.

Further, as I explain above, over the
course
of
my
career,
lavatory

355a
manufacturers have tended to decrease
the size of lavatories. For example,
aircraft designs in the 1960s and 1970s
often included space for passengers to
change clothes. Over time as additional
seats were included on the aircraft,
lavatory space shrunk. Using a curved
wall on a lavatory is just the next logical
step in this progression
as airlines
accept smaller lavatories.
72.

D.

73.

Further, a person of ordinary skill in the
art would recognize that many aircraft
already include smaller lavatories, such
as those in the forward area of the aircraft
cabin. These lavatories are often smaller
due to the curvature of the aircraft. One
example is the 737, which often has a
lavatory directly behind the cockpit. This
lavatory has a smaller depth than
lavatories at the rear of the aircraft, in
part because of the curvature of the
shaped exterior of the front of the aircraft.
It Would Have Been Obvious to
Modify a Prior Art Flat Wall
Lavatory to Include a Lower Recess
to Receive Seat Supports.
As discussed above, a flat wall lavatory
was well known in the prior art before the
earliest claimed priority date of the
Challenged Patents. In my opinion it
would have been obvious to one of
ordinary skill in the art to modify a prior

356a
art flat wall lavatory to include a recess in
the lower part of the wall to receive seat
supports.
74.

As discussed above, as of April 2010, a
primary motivation of one of ordinary
skill in the art of aircraft interior design
would have been to make efficient use of
space in the aircraft interior cabin. One
way to accomplish a more efficient use of
space is to reduce the space between seats
and monuments in the aircraft (e.g., walls
for closets or lavatories). Prior art seats
vary in terms of the distance that the seat
supports extend in the aft direction. As
seats are moved closer to these
monuments, the rearmost component of
the seat may impact the monument. As
discussed above, a person of ordinary skill
in the art would recognize that as a seat
is moved further aft the seat support
necessarily is also moved further aft. As
the seat is moved aft the feet of the seat
support may come into contact with the
lower section of the wall. Creating one or
more recesses to accommodate whatever
portion(s) of the seat support that would
contact the forward wall of the enclosure
is the obvious solution to this known
problem.

75.

Many prior art monuments included a
lower recess to accommodate the rear seat
support. The images of the MD-90
Storage, 737 Storage, and 747 Storage

357a
enclosure units are three examples of
enclosure units with a floor-level recess to
allow seat supports to be positioned
further aft in the cabin. I understand that
each of these designs is prior art but that
these designs are not available as prior
art in this proceeding even though they
pre-date the earliest priority date for the
Challenged Patents. Thus, I do not rely on
these designs as a basis for invalidity.
However, these designs inform my
opinion by confirming that lower recesses
were a well-known solution to provide
space for seat supports where a recess for
a seat back in the forward wall of the
enclosure unit permitted the seat to be
located further aft. Thus, floor-level
recesses for seat supports would have
been obvious to a person of ordinary skill
in the art.

358a
76.

With regard to the SAS S4 Aft-Storage for
the MD-90 (“MD-90 Storage” or “S4
Storage”), I understand that on or around
September and October 2004 C&D
Aerospace shipped stowage assemblies
incorporating a curved wall design (called
the S4 enclosure) to Scandinavian
Airlines System (better known as “SAS”)
and that this product was shipped from a
C&D facility in California. Savian
Declaration, at ¶¶ 11-15. I also
understand that on or around August
2001 C&D Aerospace offered these S4
enclosures for sale to SAS. Savian
Declaration, at ¶¶ 11-15. As is shown in
the figure above, the MD-90 Storage
includes a wall with a forward facing
recess to receive a seatback when the seat
is in an unreclined position. The MD-90
Storage also includes a lower recess
configured to receive the rear seat legs.
The two recesses enable the seat to be
positioned further rearward than they
would be positioned if the face of the wall
were flat. Further, a tie rod is visible
indicating that the MD-90 Storage is
affixed to the top of the ceiling.

77.

With regard to the Heath Tecna Qantas
737 Storage (“737 Storage”), I understand
that on or around February 9, 2004,
Heath Tecna offered to sell a design for a
curved wall stowage assembly to Qantas
for use in the Boeing 737 aircraft. See

359a
Huard Decl. at ¶¶ 8-16. I understand that
this product, which I refer to as the 737
Storage, qualifies as prior art to each of
the Challenged Patents. A drawing of the
prior art 737 Storage is shown above. As
is shown above, the 737 Storage includes
a lower recess configured to receive the
rear seat legs. This recess allows a seat to
be positioned closer to the front face of the
wall than would be possible if the wall
were flat. I note that the lower storage
shown above is not a doghouse attached to
the front of a flat-walled closet, but rather
an integral part of the enclosure. Indeed,
it is clear from the drawing that this is a
unified structure. Further, I understand
that the forward wall is shaped to conform
to the shape of a passenger seat located
immediately in front of the forward wall
shown above. Huard Decl. at ¶ 10.
Further, as shown above, the forward wall
is contoured to include a chamfer that
forms a recess at floor level to receive
passenger seat legs. Huard Decl. at ¶ 10.
78.

With regard to the Heath Tecna Qantas
747 Storage (“747 Storage”), I understand
that on or around December 14, 2009,
Heath Tecna sold a design for a curved
wall stowage assembly to Qantas for use
in the Boeing 747 aircraft. See Huard
Decl. at ¶¶ 8-16. I understand that this
product, which I refer to as the 747
Storage, qualifies as prior art to each of
the Challenged Patents. A rendering of

360a
the prior art 747 Storage is shown above.
As is shown above, the 747 Storage
includes a lower recess configured to
receive the rear seat legs. This recess
allows a seat to be positioned closer to the
front face of the wall than would be
possible if the wall were flat.
79.

E.

80.

A person of ordinary skill in the art would
be motivated to modify a flat wall lavatory
or a flat wall lavatory modified as
discussed above to include a recess in the
lower part of the wall. This modification
provides for the predictable result of more
efficient use of space, allowing for more
seats in a cabin by moving the aftmost row
further aft in the cabin.
Airplane Seats were Well Known in
the Prior Art and It would have
been Obvious to Position a Known
Airplane Seat in Front of a Curved
Wall Lavatory
Airplane seats were well known in the art
before the earliest claimed priority date of
the Challenged Patents. The Challenged
Patents admit that passenger seats were
well known in the art. The seat shown in
Figure 1 (prior art) of the Challenged
Patents is the same as the seat shown in
Figure 2. As reflected in the Challenged
Patents, the shape of passenger seats was
known to a person of ordinary skill in the
art.

361a

81.

Further, both Betts or the KLM Crew
Rest shows an airplane passenger seat.
Each of these seats include well known
components, e.g., “a seat back with an
exterior aft surface that is substantially
not flat,” “a seat bottom,” “seat support
that interfaces with the floor of the
aircraft cabin and holds the seat bottom in
an elevated position above the floor of the
aircraft cabin.”

82.

Further, to the extent any of these aspects
of a passenger seat are not fully disclosed
in the above references, they are plainly
shown in U.S. Patent No. 6,742,840 to
Bentley (“Bentley”). Bentley issued on
June 1, 2004, and I understand that
Bentley is prior art to each of the
Challenged Patents. Bentley describes an
adjustable airplane seat, which is

362a
substantially the same as the seat shown
in Figures 1 and 2 of the Challenged
Patents. Figures 2A-C and 5 from the
prior art Bentley patent are shown below.

363a
83.

F.

84.

Further, to the extent a seat is not
disclosed by the references above, it would
have been obvious to a person of ordinary
skill in the art to substitute the seat
shown in either Betts or the KLM Crew
Rest with either the prior art seat shown
in Figure 1 of the Challenged Patents or
the seat shown in Bentley. A person of
ordinary skill in the art would recognize
that airplane seats are configured to be
coupled to a seat track and are therefore
moveable and removable/replaceable. A
person of ordinary skill in the art
necessarily would configure the shape of
an enclosure to conform to the shape of a
passenger seat to be located adjacent to
the enclosure. A person of ordinary skill in
the art further would recognize that seats
are often replaced, e.g., to provide
additional passenger comfort and/or to
update seat technology. This replacement
has the predictable result of providing a
new seat in the aircraft.
It is Well Known in the Prior Art
that a Lavatory Could Include a
Toilet
As I note above, the Challenged Patents
do not include a description of the toilet or
plumbing required to operate a toilet.
Indeed, the Challenged Patents provide
no description of the configuration of the
interior components of the lavatory.

364a
Installing a toilet in airplane lavatory was
well known to one of ordinary skill in the
art prior to the earliest claimed priority
date of the Challenged Patents. Boeing
commercial aircraft were outfitted with
toilets in flat-walled lavatories long before
the time I started working at Boeing in
1968. A person of ordinary skill in the art
would recognize that a toilet could be
installed in an airplane lavatory. As three
examples, Cooper, Breuer, and Shibata
show an airplane lavatory that includes a
toilet. Cooper explains that “Persons
Wishing to use the sink 112 or the toilet
110 in the first section 102 may do so
Without preventing others from using the
urinal 120 within the second section 104.”
Similarly, Breuer states “the distance
between the first region and the floor of
the module is less than 180 cm, for
example even less than 150 cm or 130 cm,
such that the use of a toilet seat in that
region is possible but erect standing is not
possible.” Breuer at [0007]. Similarly,
Shibata states “Items installed within the
lavatory module are lavatory equipments
including a toilet bowl, a washstand, a
toilet closet for storing amenities . . . ”
Shibata at col. 1:19-21.

365a

85.

G.
86.

A person of ordinary skill in the art would
therefore realize the a lavatory with a
curved wall could include a toilet. For
example, Cooper shows a curved wall
lavatory that includes a toilet. Including a
toilet on a curved wall lavatory is nothing
more than the inclusion of elements
known in the prior art for their intended
use and achieves the predictable result of
making a toilet available to passengers of
an aircraft that includes a curved wall
lavatory.
Admitted Prior Art
As noted above, the Challenged Patents
admit that everything shown in Figure 1
is prior art. Many of the features found in
the claims are anticipated or obvious in
view of this admitted prior art. A
summary of the admitted prior art shown
in Figure 1 is in the graphic below.

366a

87.

Further, the prior art I discuss above
clearly shows that these claim elements
were well known in the art and therefore
cannot render the claims patentable.

88.

I am informed that a claim must be
interpreted as a whole. To clarify my
analysis in the table below I highlight
claim limitations that are admitted to be
prior art by Figure 1 of the Patents or are
not described by the Challenged Patents.
These elements are all admitted prior art
and well known in the field.

Claim
Limitations
s
“aircraft

Admitted
Prior Art

292
Figure 1,
patent, which is

Well
Known
Prior Art
Other such
lavatories

367a
Limitations
enclosure”

Claim
s

Well
Known
Prior Art

admitted
prior art, is
described as
a “lavatory
enclosure”
with “a
conventiona
l flat and
vertical
forward
wall.” ‘476
Patent at
col. 4.

having flat
walls were
well known
in the art.
See, e.g.,
Shibata
Figures 3
and 4.

Figure 1,
which is
admitted
prior art,
“a
illustrates a
passenger
476
seat”
patent, prior art
claims aircraft
“said
passenger
1, 2
passenger
seat with
seat having 641
these
a seat back patent, limitations,
with an
claim 1 which are
exterior aft
also
surface that
described in
is
the
background.
substantiall

Passenger
seats such
as that
illustrated
in Figure 1
were also
well known
in the art.
See, e.g.,
Bentley.

“aircraft
enclosure
unit”
“enclosure
unit”
“lavatory”
“aircraft
lavatory”

“an aircraft
passenger
seat”

claim
1, 6

Admitted
Prior Art

476
patent,
claims
1, 2
742
patent,
claim 8
641
patent,
claims
1, 8
292
patent,
claims
1, 6

368a
Limitations
y not flat”
“a seat
bottom, and
a seat
support
that
interfaces
with the
floor of the
aircraft
cabin and
holds the
seat bottom
in an
elevated
position
above the
floor of the
aircraft
cabin”
“a forwardfacing
passenger
seat that
includes an
upwardly
and
aftwardly
inclined
seat back

Claim
s

Admitted
Prior Art
The same
passenger
seat is
shown in
Figure 2.
While “seat
bottom” and
“elevated
position”
are not
mentioned
in the
specification
, they are
shown in
Figure 1.
“including
an aircraft
cabin
structure
having an
aft portion
with a
substantiall
y vertically
extending
exterior aft
surface that
is
substantiall

Well
Known
Prior Art

369a
Limitations

Claim
s

and an aftextending
seat support
disposed
below the
seat back”

“single
enclosed
space that
includes a
toilet”

Admitted
Prior Art

Well
Known
Prior Art

y not flat in
a vertical
plane.” ‘476,
col. 1:20-22.
“Structures
such as
passenger
seats
installed
forward of
such
aircraft
lavatories,
closets and
similar full
height
enclosures
often have
shapes that
are
contoured in
the vertical
plane.” ‘476,
col. 1:26-29.
292
patent,
claims
1&6
476
patent,

While
“single
enclosed
space” and
“toilet” are
not

While
“toilet” is
not
described
anywhere in
the

370a
Limitations

Claim
s

Admitted
Prior Art

claims
1&2

described in
the
Challenged
Patents. If
the lavatory
in Figure 2
is a single
enclosed
space, then
the lavatory
in Figure 1
is as well.
Further,
while the
term “toilet”
is not
mentioned
in the
specification
, one of skill
in the art
would
understand
that when
the prior art
lavatory or
the lavatory
in Figure 2
are
installed,
they would

Well
Known
Prior Art
specification
, aircraft
lavatories
have
generally
included
toilets well
before April
2010. See.,
e.g.,
Shibata,
Cooper, or
Breuer.

371a
Limitations

Claim
s

Admitted
Prior Art

Well
Known
Prior Art

include a
toilet.
“single
enclosed
space is
taller than
said
passenger
seat”
“a lavatory
unit
including a
forward
wall portion
and
defining an
enclosed
interior
lavatory
space”

292
patent,
claims
1&6
476
patent,
claims
1&2
641
patent,
claims
1, 4, 8
& 12

If the
lavatory in
Figure 2 is
an enclosed
lavatory
space, then
the lavatory
in Figure 1
is as well.

Figure 1
shows that
the lavatory
has a
forward
641
wall or
patent,
partition; a
claim
vertical,
13
planar aft
partition; a
“a forward
lavatory
partition;
space in
an aft
between;
partition;
and the
and
single
a lavatory
enclosed
space
space of the
disposed
prior art
between the
lavatory is

Aircraft
lavatories
are taller
than a
passenger
seat. See.,
e.g., Shibata
or Cooper.

372a
Limitations

Claim
s

forward
partition
and the aft
partition”

Admitted
Prior Art

Well
Known
Prior Art

taller than
the prior art
passenger
seat.

“wherein
said
lavatory
unit is taller
than the
passenger
seat.”
“wherein
said
lavatory is
taller than
the
forwardpositioned
passenger
seat.”
“wherein
the aft
partition is
substantiall
y vertical
and
substantiall
y planar.”
“single

292

While they

It was well

373a
Limitations
enclosed
space
includes
one or more
secondary
storage
spaces”

Claim
s

Admitted
Prior Art

patent, are not
claims labeled,
2&7
Figure 1
includes the
641
same areas
patent,
as Figure 2
claim 7
describes as
742
secondary
“said
patent, storage
forward
claim
spaces
wall portion
13
within the
defines a
lavatory.
secondary
Thus the
space in
prior art
said
lavatory is a
interior
single
lavatory
enclosed
space above
space that
the
includes one
passenger
or more
seat back.”
secondary
“wherein
storage
the upper
areas.
projection
defines an
interior
storage
space in the
aircraft
lavatory.”

Well
Known
Prior Art
known to
include
secondary
storage in a
lavatory for
amenities
and
plumbing as
examples.
See., e.g.,
Shibata
(disposal
opening 27)
or Cooper
(storage
cabinet
300).

374a
Limitations
“a
contoured
shape of the
exterior aft
surface of
the seat
back”
“said
exterior aft
surface of
the seat
back has a
contoured
shape”
“a contour
of an aft
surface of
the
upwardly
and
aftwardly
inclined
seat back.”
“upwardly
and
aftwardly
inclined
seat back”

Claim
s

Admitted
Prior Art

While the
terms
“upwardly
and
aftwardly
476
inclined”
patent,
and
claims
“reclined”
3&4
do not
742
appear in
patent, the
claims specification
10, 11 , the prior
& 14
art
passenger
seat in
Figure 1
has an
upwardly
and
aftwardly
inclined
seat back.
And the
seat is
shown in an
unreclined,
i.e., not a
reclined,
position.
This is
292
patent,
claims
9 & 10

Well
Known
Prior Art
This seat
shape was
well known
and is
similar to
the shape
shown in
Bentley.

375a
Limitations

Claim
s

“the
upwardly
and
aftwardly
inclined
seat back is
in an
upright and
not a
reclined
position.”
“said
contoured
shape
includes a
first section
extending
along a first
axis and a
second
section
extending
along a
second axis,
said first
section
adapted to
support a
passenger’s
head and

Admitted
Prior Art

Well
Known
Prior Art

typical of
passenger
seats,
including
those made,
sold, and
used prior
to April
2010.

292
patent,
claims
11 &
12

The
language
about the
first and
second axis
and support
476
of a
patent,
passenger
claims
appear
5&6
nowhere in
the
specification
. However,
the prior art
seat shown
in Figure 1
has a shape
that meets
these

This seat
shape was
well known
and is
similar to
the shape
shown in
Bentley.

376a
Limitations
said second
section
adapted to
support a
passenger’s
back,
wherein
said first
axis is not
parallel
with said
second axis”
89.

Claim
s

Admitted
Prior Art

Well
Known
Prior Art

limitations.

The remaining elements of the claims are
shown below. Each of the remaining
limitations of the claims relate to Figure 2
of the Challenged Patents, i.e., an
enclosure with a contoured forward wall
that receives a seat back. The table below
summarizes these remaining claim
limitations and the claims in which they
are found.

Limitations
“said forward wall being
substantially not flat and
configured to receive a portion of
the exterior aft surface of said seat
back when the seat back is in an
unreclined seat position”

Claims
292
patent,
claims 1
&6
476
patent,

377a
Limitations
Claims
“a portion of the exterior aft
claims 1
surface of said passenger seat back & 2
in the unreclined seat position is
476
received by said forward wall”
patent,
“the contoured forward partition
claims 1
comprises at least one first recess
&2
configured to receive at least a
742
portion of an upwardly and
patent,
aftwardly inclined seat back of a
claim 8
passenger seat therein”
641
“said forward wall portion
patent,
configured to be disposed
claims
proximate to and aft of the
1, 6, 8 &
passenger seat and including an
9
exterior surface having a shape
that is substantially not flat in a
vertical plane”
“includes a first recess configured
to receive at least a portion of the
upwardly and aftwardly inclined
seat back of the passenger seat
therein”
“wherein said first recess in said
forward wall portion is disposed
between an upper wall portion and
a lower wall portion.”
“wherein the forward partition
comprises: a forward- extending
upper portion; an aft-extending
mid-portion;
and a forward-extending lower

378a
Limitations
portion; and wherein the forwardextending upper portion, the aftextending mid-portion, and the
forward-extending lower portion
combine to define a first aftextending recess disposed between
the upper forward-extending
portion and the forward-extending
lower portion”
“wherein the first aft extending
recess defined by the forwardextending upper portion, the aftextending mid-portion, and the
forward-extending lower portion
of the forward partition is
configured to receive an aftextending seat back of the
forward-positioned passenger
seat.”
“at least one second recess
configured to receive at least a
portion of an aft-extending seat
support of the passenger seat”
“further includes a second recess
configured to receive at least a
portion of the aft-extending seat
support therein when at least a
portion of the upwardly and
aftwardly inclined seat back of the
passenger seat is received within
the first recess.”
“the forward partition further

Claims

742
patent,
claim 8
641
patent,
claims 1
&8

379a
Limitations
defines a second aft- extending
recess proximate to a lower end of
the forward partition, the second
aft-extending recess being
configured to receive at least a
portion of an aft- extending seat
support of a forward-positioned
passenger seat therein.”
“forward wall is adapted to
provide additional space forward
of the aircraft enclosure unit for
said seat support to be positioned
further aft in the cabin”
“said forward wall is adapted to
provide more space forward of the
enclosure unit such that the seat
support can be positioned further
aft in the cabin”
“the portion of the exterior aft
surface of said seat back received
by the forward wall is
substantially more than a headrest
portion of the exterior aft surface
of the seat back.”
“the portion of the exterior aft
surface of said seat back received
by the forward wall is more than
an upper half of the exterior aft
surface of the seat back.”
“said forward wall is shaped to
substantially conform to [a/the]
contoured shape of the exterior aft
surface of the seat back when the

Claims

292
patent,
claims 1
&6
476
patent,
claims 1
&2
292
patent,
claim 3

292
patent,
claim 4
292
patent,
claims 9

380a
Limitations
seat back is in the unreclined
position”
“the at least one first recess
substantially conforms to a
contour of an aft surface of the
upwardly and aftwardly inclined
seat back”
“said forward wall portion is
shaped to substantially conform to
the shape of the upwardly and
aftwardly inclined seat back of the
passenger seat”
“said forward wall is also
configured to receive at least an
aft-extending portion of the seat
support of said passenger seat”
“reducing the volume of unusable
space in the cabin area by
reducing or eliminating gaps that
existed between the previouslyinstalled forward wall and the
passenger seat.”
“the contoured forward partition
further comprises an upper
projection that, upon installation,
protrudes forward over a top of
the upwardly and aftwardly
inclined seat back.”
“said forward wall portion further
includes a projection configured to
project over the passenger seat
back when at least a portion of the

Claims
& 10
476
patent,
claims
3, 4
742
patent,
claim 10
641
patent,
claim 1
292
patent,
claims 5
&8
742
patent,
claim 8

742
patent,
claim 11
641
patent,
claims
3, 10

381a
Limitations
upwardly and aftwardly inclined
seat back of the passenger seat is
received within the first recess
and at least a portion of the aftextending seat support is received
within the second recess.”

Claims

“said forward-extending upper
portion is configured to project
over at least a portion of the
forward-positioned passenger
seat.”
“the upper projection is
configured to abut an upper
surface of the cabin area”

742
patent,
claim 12

“the at least one first recess
extends along substantially a full
width of the contoured forward
partition”

742
patent,
claim 15
641
patent,
claim 16

“wherein said first aft-extending
recess extends along substantially
a full width of said forward
partition”
“the contoured forward partition
permits the aft- extending seat
support to be positioned farther
aft in the cabin area”

742
patent,
claim 16

“said forward wall portion
includes a lower portion that is
disposed under the passenger seat
back when at least a portion of the
upwardly and aftwardly inclined

641
patent,
claim 5

382a
Limitations
seat back of the passenger seat is
received within the first recess
and at least a portion of the aftextending seat support is received
within the second recess.”

Claims

“said lavatory has a top, a bottom,
a height therebetween, and a
middle therebetween, said
lavatory has varying lengths along
the height of the lavatory, and said
lavatory is longer at the top of the
lavatory than at the bottom of the
lavatory.”

641
patent,
claims
14 and
17

“wherein the width of the lavatory
space disposed between the
forward partition and the aft
partition comprises an upper
width, a lower width, and a midwidth, and wherein the upper
width and the lower width are
both substantially wider than the
mid-width.”
“wherein the upper forwardextending portion, the aftextending mid-portion, and the
forward-extending lower portion
of the forward partition form a
substantially continuous surface.”

641
patent,
claim 15

383a
90.

Such a contoured forward wall was well
known in the prior art. As shown below,
each of Betts and the KLM Crew Rest are
substantially the same as Figure 2 of the
Challenged Patents.

91.

Each shows an enclosure with a contoured
forward wall configured to receive a seat
back. Each of the enclosures has a
different shape for the contour. This is not
surprising because each forward wall
would have been designed based on
different customer specifications or
requirements (e.g., different aircraft,
different passenger seats, etc.). Designing
the shape of the recess to meet those

384a
requirements and to conform to the shape
of the passenger seat would have been a
routine task within the skill of a person of
ordinary skill in the art. Each enclosure
shown below renders obvious the claims of
the Challenged Patents.

92.

Patent Owner may argue that some
claims require a second recess configured
to receive a seat support. For the reasons
I explain above, it would be obvious to
modify a flat wall lavatory to include a
second recess.

93.

Further, while I do not rely on this art in
coming to my conclusion of invalidity, the
prior art below demonstrates the
knowledge of persons of ordinary skill in
the art and well-known solutions to the
problem. Thus, the prior art below
informs my opinion that including a
second recess configured to receive an aft-

385a
extending seat support was well known in
the art.

VIII. ANALYSIS OF SPECIFIC CLAIM
ELEMENTS
A.

‘292 Patent, Claims 1-12 are Obvious
In View of the Prior Art

[ ‘292 Claim 1 Preamble] An aircraft
enclosure for a cabin of an aircraft, the
cabin including a passenger seat located
forward of and proximate to the aircraft
enclosure, said passenger seat having a
seat back with an exterior aft surface
that is substantially not flat, a seat
bottom, and a seat support that
interfaces with the floor of the aircraft

386a
cabin and holds the seat bottom in an
elevated position above the floor of the
aircraft cabin, the aircraft enclosure
comprising:
94.

I am informed that the preamble may not
be a limitation. However, to the extent
that it is a limitation, in my opinion this
element is obvious in view of a flat wall
lavatory and seat shown in Figure 1 of the
Challenged Patents as modified by Betts
or the KLM Crew Rest.

95.

As I explain above, a person of ordinary
skill in the art would be motivated to
modify a flat wall lavatory to use the Betts
design on the forward wall of a lavatory.
Figure 1 of Betts is a side elevation that
shows an assembly of an enclosure that is
located immediately aft of and adjacent to
a passenger seat and is nearly identical to
Figure 2 of the Challenged Patents.

387a
96.

As I explain above, a person of ordinary
skill in the art would be motivated to
modify a flat wall lavatory to use the KLM
Crew Rest design on the forward wall of a
lavatory. The KLM Crew Rest shows a
side elevation of a lavatory enclosure. The
enclosure has a curved wall to allow space
for a seat that is located forward of and
proximate to the aircraft enclosure.

97.

Further, as discussed above, a passenger
seat “having a seat back with an exterior
aft surface that is substantially not flat, a
seat bottom, and a seat support that
interfaces with the floor of the aircraft
cabin and holds the seat bottom in an
elevated position above the floor of the
aircraft cabin” was well known in the art
prior to the earliest claimed priority date
of the Challenged Patents, and to the

388a
extent such a seat is not already disclosed
by Betts or the KLM Crew Rest, it would
have been obvious to use the prior art
design along with one of these designs for
a curved wall.
[‘292 Claim 1, Element A] an enclosure
unit having a forward wall, said forward
wall being part of an outer boundary
defining a single enclosed space that
includes a toilet,
98.

In my opinion, Figure 1 of the Challenged
Patents admits that this element was
known in the prior art. Further, in my
opinion a person of ordinary skill in the
art would have been familiar with prior
art lavatories that had a forward wall that
was part of an outer boundary defining a
single enclosed space that includes a
toilet.

99.

I note that the Challenged Patents
include no definition or description of a
single enclosed space. However, I
understand that Patent Owner asserts
that an airplane lavatory meets the
definition of a single enclosed space. Prior
art Figure 1 of the Challenged Patents as
well as each of Betts and the KLM Crew
Rest discloses an outer boundary defining
either a single enclosed space of an
enclosure. Further, to the extent a single
enclosed space is not disclosed by these
three references, as I discuss above, it

389a
would be obvious to apply these curved
walls for use in an airplane lavatory,
which Patent Owner asserts meets the
definition of single enclosed space.
[‘292 Claim 1, Element B] said forward
wall being substantially not flat and
configured to receive a portion of the
exterior aft surface of said seat back
when the seat back is in an unreclined
seat position;
100.

In my opinion this element is obvious in
view of a flat wall lavatory and seat shown
in Figure 1 of the Challenged Patents as
modified by Betts or the KLM Crew Rest.

101.

As I explain above, a person of ordinary
skill in the art would be motivated to
modify a flat wall lavatory to use the Betts
design on the forward wall of a lavatory.
Further, as I explain above, a person of
ordinary skill in the art would recognize
that a toilet for use in an airplane was
well known in the art and could have
easily been installed in a curved wall
lavatory. A flat wall lavatory including a
prior art toilet, as modified by the curved
wall of Betts discloses “an enclosure unit
having a forward wall, said forward wall
being part of an outer boundary defining
a single enclosed space that includes a
toilet,
said
forward
wall
being
substantially not flat and configured to
receive a portion of the exterior aft surface

390a
of said seat back when the seat back is in
an unreclined seat position.” This is
further shown in the annotated Figure
below. Further, it is clear that the seat
shown in Betts is positioned further aft
than it could be positioned if there were
no recess because the seat back is within
the recess. Thus the recess is configured
to receive the seat back. Further, as I
noted above, the seat shown in Betts is in
substantially the same position as the
seat shown in Figure 2 of the Challenged
Patents. Thus, in my opinion this seat is
in an unreclined position.
102.

As I explain above, a person of ordinary
skill in the art would be motivated to
modify a flat wall lavatory to use the KLM
Crew Rest design on the forward wall of a
lavatory. Further, as I explain above, a
person of ordinary skill in the art would
recognize that a toilet for use in an
airplane was well known in the art and
could have easily been installed in a
curved wall lavatory. A flat wall lavatory
including a prior art toilet, as modified by
the curved wall of the KLM Crew Rest
discloses “an enclosure unit having a
forward wall, said forward wall being part
of an outer boundary defining a single
enclosed space that includes a toilet, said
forward wall being substantially not flat
and configured to receive a portion of the
exterior aft surface of said seat back.” This
is further shown in the annotated Figure

391a
below. Further, a person of ordinary skill
in the art would recognize that the seat
shown in the KLM Crew rest is positioned
further aft than it could be positioned
without the recess. A person of ordinary
skill in the art would recognize that the
seat could be moved further aft, such that
the seat was in the recess when in an
unreclined position. One motivation for
doing so would be to increase the amount
of space in front of the passenger seat,
thereby increasing the pitch of the rows of
seats in the aircraft or allowing an
additional row of seats to be added.

[‘292 Claim 1, Element C] wherein said
forward wall is adapted to provide
additional space forward of the
enclosure unit for said seat support to be
positioned further aft in the cabin when

392a
compared with a position of said seat
support if said forward wall was instead
substantially flat; and
103.

In my opinion this element is obvious in
view of a flat wall lavatory and seat shown
in Figure 1 of the Challenged Patents as
modified by Betts or the KLM Crew Rest.
A person of ordinary skill in the art would
recognize that a seat is fixed to a seat
support. Thus, as the seat is moved, the
seat support will also move further aft.

104.

With regard to both Betts the seat and
the seat support is positioned further aft
in the cabin, which is clear because the
seat is plainly within the recess in the
wall. This is shown in the annotated
figure below.

393a

105.

With regard to the KLM Crew Rest, the
recess in the KLM Crew Rest was
designed to allow the last row of seats
positioned in front of the curved wall to sit
further aft in the aircraft, yet still be able
to recline. Sobotta Declaration, at ¶ 13.
Thus, if there were no recess, this seat
would need to be positioned further
forward to allow for recline. Thus, the
curved wall allows for this seat to sit
further aft than it otherwise would be able
to sit. Furthermore, if seat recline were
not required, a person of ordinary skill in
the art would further be motivated to
restrict the seat recline and position the

394a
seat further aft to provide more room in
the passenger cabin for increased seat
pitch or additional rows of seats.
[‘292 Claim 1, Element D] wherein said
single enclosed space is taller than said
passenger seat.
106.

In my opinion this element is obvious in
view of a flat wall lavatory and seat shown
in Figure 1 of the Challenged Patents as
modified by Betts or the KLM Crew Rest.

107.

As is shown in the annotated figures
above, the enclosure units in each of Betts
and the KLM Crew Rest is taller than the
seat positioned in front of them.

108.

As I noted above, the Challenged Patents
include no definition or description of a
single enclosed space. However, each of
Betts and the KLM Crew Rest discloses
an outer boundary defining either a single
enclosed space or an enclosure. Further,
to the extent a single enclosed space is not
disclosed by these three references, as I
discuss above, it would be obvious to
modify any of these three curved walls for
use in an airplane lavatory, which Patent
Owner asserts meets the definition of
single enclosed space.

[‘292 Claim 2] The apparatus of claim 1,
wherein said single enclosed space

395a
includes one or more secondary storage
spaces.
109.

In my opinion this element is obvious in
view of a flat wall lavatory and seat shown
in Figure 1 of the Challenged Patents as
modified by Betts or the KLM Crew Rest.
The Challenged Patents do not define the
term
“secondary
storage
spaces,”
however, by any reasonable definition for
this term, secondary storage spaces inside
a lavatory were known in the art. Indeed,
the admitted prior art Figure 1 of the
Challenged Patent shows secondary
storage space inside the prior art lavatory.

110.

As I explain above, a person of skill in the
art would be motivated to modify a prior
art lavatory to include the curved forward
wall design shown in Betts. One of
ordinary skill in the art would recognize
that a lavatory will include components
that Patent Owner has identified as
meeting the secondary storage space
claim limitation, e.g., trash storage and
receptacles, and storage space under the
sink and behind the toilet, among other
places.

111.

Further, the KLM Crew Rest clearly
shows secondary storage spaces, such as
amenity stowage. Sobotta Declaration, at
¶ 16 (the crew rest includes “a lavatory
sink (and related plumbing), lighting, a

396a
mirror, soap dispenser, shaver outlet and
amenity stowage.”).
[‘292 Claim 3] The apparatus of claim 1,
wherein the portion of the exterior aft
surface of said seat back received by the
forward wall is substantially more than
a headrest portion of the exterior aft
surface of the seat back.
112.

In my opinion this element is obvious in
view of a flat wall lavatory and seat shown
in Figure 1 of the Challenged Patents as
modified by Betts or the KLM Crew Rest.

113.

The Challenged Patents do not define
what is meant by “substantially more
than a headrest portion of the exterior aft
surface of the seat back.” However, under
any reasonable definition this is obvious
in view of the disclosure of Betts or the
KLM Crew Rest.

114.

To the extent this claim limitation is not
already disclosed by Figure 1 of Betts or
the KLM Crew rest a person of ordinary
skill in the art would recognize that the
seat shown in these references could be
moved further aft, e.g., to increase seat
pitch or to allow for an additional row of
seats in the aircraft.

[‘292 Claim 4] The apparatus of claim 1,
wherein the portion of the exterior aft
surface of said seat back received by the

397a
forward wall is more than an upper half
of the exterior aft surface of the seat
back.
115.

In my opinion this element is obvious in
view of a flat wall lavatory and seat shown
in Figure 1 of the Challenged Patents as
modified by Betts or the KLM Crew Rest.

116.

The Challenged Patents do not define
what is meant by “more than an upper
half of the exterior aft surface of the seat
back.” To the extent this claim limitation
is not already disclosed by Figure 1 of
Betts or the KLM Crew rest a person of
ordinary skill in the art would recognize
that the seat shown in these references
could be moved further aft, e.g., to
increase seat pitch or to allow for an
additional row of seats in the aircraft.

[‘292 Claim 5] The apparatus of claim 1,
wherein said forward wall is also
configured to receive at least an aftextending portion of the seat support of
said passenger seat.
117.

In my opinion this element is obvious in
view of a flat wall lavatory and seat shown
in Figure 1 of the Challenged Patents, as
modified by Betts or the KLM Crew Rest.

118.

As is shown in the annotated figure
below, the challenged patents admit that

398a
a seat with an aft extending seat support
is well known in the art.

119.

As I explain above, a person of ordinary
skill in the art would realize that when
such a seat is moved further aft, the first
component to impact the wall is the seat
back. As I explain above, Betts includes a
forward facing recess that receives the
seat back.

120.

Further, the KLM Crew Rest shows both
a passenger seat and a contoured forward
partition. As I explain above, the
passenger seat is positioned is positioned
such that it could not recline without a
contoured forward wall, thus this seat is
at least partially within the contour and
is thus received by the recess.

121.

122.

399a
Further, a person of ordinary skill in the
art would understand that as the seat is
moved further aft, the next component to
impact the wall is the aft seat support. A
person of ordinary skill in the art would
be motivated to modify an enclosure, such
as a lavatory, to include a second recess to
receive aft facing seat supports. In my
opinion, this modification is nothing more
than the application of known technology
for its intended purpose. The result of
such a modification is predictable,
allowing the seat to be positioned further
aft in an aircraft.
As evidence of this modification being
well known, I include three examples of
prior art enclosures that included a lower
recess to accommodate aft- extending seat
supports. I understand that these designs
are not available as prior art in this
proceeding. Thus, I do not rely on these
designs as a basis for invalidity. However,
these designs inform my opinion by
confirming that such a modification was
well known in the art, and thus would
have been obvious to a person of ordinary
skill in the art.

400a

[‘292 Claim 6 preamble] A combination of
an aircraft enclosure unit and an
aircraft passenger seat for installation
in an aircraft cabin, the combination
comprising:
123.

I am informed that the preamble may not
be a limitation. However, to the extent
that it is a limitation, in my opinion this
element is obvious in view of a flat wall
lavatory and seat shown in Figure 1 of the
Challenged Patents as modified by Betts
or the KLM Crew Rest. I incorporate my
analysis discussed above with regard to
[‘292 Claim 1, Preamble].

[‘292 Claim 6 Element A] said passenger
seat configured to be located forward of

401a
and proximate to the aircraft enclosure
unit, said passenger seat having a seat
back with an exterior aft surface that is
substantially not flat, a seat bottom, and
a seat support that interfaces with the
floor of the aircraft cabin and holds the
seat bottom in an elevated position
above the floor of the aircraft cabin;
124.

In in my opinion this element is obvious in
view of a flat wall lavatory and seat shown
in Figure 1 of the Challenged Patents as
modified by Betts or the KLM Crew Rest.
I incorporate my analysis discussed above
with regard to [‘292 Claim 1, Preamble].

[‘292 Claim 6 Element B] the aircraft
enclosure unit having a forward wall,
said forward wall being part of an outer
boundary defining a single enclosed
space that includes a toilet,
125.

In in my opinion this element is obvious
in view of a flat wall lavatory and seat
shown in Figure 1 of the Challenged
Patents as modified by Betts or the KLM
Crew Rest. I incorporate my analysis
discussed above with regard to [‘292
Claim 1, Element A].

[‘292 Claim 6 Element C] said forward
wall being substantially not flat and
configured to receive a portion of the
exterior aft surface of said seat back

402a
when the seat back is in an unreclined
seat position;
126.

In in my opinion this element is obvious
in view of a flat wall lavatory and seat
shown in Figure 1 of the Challenged
Patents as modified by Betts or the KLM
Crew Rest. I incorporate my analysis
discussed above with regard to [‘292
Claim 1, Element B].

[‘292 Claim 6 Element D] wherein said
forward wall is adapted to provide
additional space forward of the aircraft
enclosure unit for said seat support to be
positioned further aft in the cabin when
compared with a position of said seat
support if said forward wall was
substantially flat; and
127.

In in my opinion this element is obvious
in view of a flat wall lavatory and seat
shown in Figure 1 of the Challenged
Patents as modified by Betts or the KLM
Crew Rest. I incorporate my analysis
discussed above with regard to [‘292
Claim 1, Element C].

[‘292 Claim 6 Element E] wherein said
single enclosed space is taller than said
passenger seat.
128.

In in my opinion this element is obvious
in view of a flat wall lavatory and seat
shown in Figure 1 of the Challenged

403a
Patents as modified by Betts or the KLM
Crew Rest. I incorporate my analysis
discussed above with regard to [‘292
Claim 1, Element D].
[‘292 Claim 7] The apparatus of claim 6,
wherein said single enclosed space
includes one or more secondary storage
spaces within said boundary defining
said single enclosed space.
129.

In in my opinion this element is obvious
in view of a flat wall lavatory and seat
shown in Figure 1 of the Challenged
Patents as modified by Betts or the KLM
Crew Rest. I incorporate my analysis
discussed above with regard to [‘292
Claims 2 and 6].

[‘292 Claim 5] The apparatus of claim 6,
wherein said forward wall is also
configured to receive at least an aftextending portion of the seat support of
said passenger seat.
130.

In in my opinion this element is obvious
in view of a flat wall lavatory and seat
shown in Figure 1 of the Challenged
Patents as modified by Betts or the KLM
Crew Rest. I incorporate my analysis
discussed above with regard to [‘292
Claims 6 and 5].

[‘292 Claim 9] The aircraft enclosure of
claim 1, wherein said forward wall is

404a
shaped to substantially conform to a
contoured shape of the exterior aft
surface of the seat back when the seat
back is in the unreclined position.
131.

In in my opinion this element is obvious
in view of a flat wall lavatory and seat
shown in Figure 1 of the Challenged
Patents as modified by Betts or the KLM
Crew Rest. The Challenged Patents do not
include a definition for what is meant by
“substantially conform” but as shown in
Figure 2 of the Challenged Patents, the
forward wall is not required to precisely
conform to the shape of the passenger
seat. As is shown in the Figure below, the
walls of each of Betts and the KLM Crew
Rest substantially conform to a contoured
shape of the exterior aft surface of the seat
back. Further, in both cases the seat is
provided with the ability to recline, but if
the ability to recline the seat were
removed or not required, a person of
ordinary skill in the art would have
designed the shape of the recess to
substantially conform to the shape of the
passenger seat in its upright (i.e.,
unreclined) position. A person of ordinary
skill in the art would have been motivated
to do so to more efficiently maximize the
use of space in the cabin.

405a

132.

I also incorporate my analysis discussed
above with regard to [‘292 Claim 6 and
Claim 1].

[‘292 Claim 10] The apparatus of claim 6,
wherein said exterior aft surface of the
seat back has a contoured shape, and
said forward wall is shaped to
substantially conform to the contoured
shape of the exterior aft surface of the
seat back when the seat back is in the
unreclined position.
133. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest.
134. As I explain above, the only seat shown in the
Challenged Patents includes a contoured shape and
is admitted to be prior art. Further, a seat with a
contoured shape is well known in the art. See
Bentley, discussed above. A person of ordinary skill

406a
in the art would realize that seats on an airplane
could be removed and replaced. Thus, a person of
ordinary skill in the art could replace any of the
seats shown in Betts or the KLM Crew Rest with a
prior art seat design. Further, a person of ordinary
skill in the art would have designed the shape of the
recess to substantially conform to the shape of the
passenger seat to more efficiently maximize the use
of space in the cabin.
135. I also incorporate my analysis discussed
above with regard to [‘292 Claim 6, Claim 9, Claim 1
Element A].
[‘292 Claim 11] The aircraft enclosure of
claim 9, wherein said contoured shape
includes a first section extending along a
first axis and a second section extending
along a second axis, said first section
adapted to support a passenger’s head
and said second section adapted to
support a passenger’s back, wherein said
first axis is not parallel with said second
axis.
136. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest.
137. As I explain above, the only seat shown in the
Challenged Patents includes a contoured shape and
is admitted to be prior art. This seat has “a
contoured shape includes a first section extending
along a first axis and a second section extending

407a
along a second axis, said first section adapted to
support a passenger’s head and said second section
adapted to support a passenger’s back, wherein said
first axis is not parallel with said second axis.”
138. Further, a seat with “a contoured shape
includes a first section extending along a first axis
and a second section extending along a second axis,
said first section adapted to support a passenger’s
head and said second section adapted to support a
passenger’s back, wherein said first axis is not
parallel with said second axis” is well known in the
art. See Bentley, discussed above. Further, the KLM
Crew Rest shows a passenger seat with a contoured
shape that includes a first section extending along a
first axis for supporting a passenger’s head and a
second section extending along a second axis for
supporting a passenger’s back. As I explain above, a
person of ordinary skill in the art would realize that
seats on an airplane could be removed and replaced.
Thus, a person of ordinary skill in the art could
replace any of the seats shown in Betts or the KLM
Crew Rest with another prior art seat design.
[‘292 Claim 12] The apparatus of claim
10, wherein said contoured shape
includes a first section extending along a
first axis and a second section extending
along a second axis, said first section
adapted to support a passenger’s head
and said second section adapted to
support a passenger’s back, wherein said
first axis is not parallel with said second
axis.

408a
139. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘292 Claims 10 and 11].
B.

‘476 Patent, Claims 1-6 are Obvious

[‘476 Claim 1 Preamble] A method of
retrofitting an aircraft to provide
additional passenger seating in the
cabin of said aircraft, the cabin
including a passenger seat having a seat
back with an exterior aft surface that is
substantially not flat, a seat bottom, and
a seat support that interfaces with the
floor of the aircraft cabin and holds the
seat bottom in an elevated position
above the floor of the aircraft cabin, the
method comprising the steps of:
140. I am informed that the preamble may not be
a limitation. However, to the extent that it is a
limitation, in my opinion this element is obvious in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents as modified by Betts or
the KLM Crew Rest. I incorporate my analysis
discussed above with regard to [‘292 Claim 1,
Preamble].
141. A prior art flat wall lavatory could be
modified to include the contoured forward wall
shown in either Betts or the KLM Crew Rest. As I
explain above, a motivation for doing so would be to

409a
enable a row of passenger seats to sit further aft in
the aircraft cabin.
142. A person of ordinary skill in the art also
would understand that a lavatory modified to
include the contoured forward wall of Betts or the
KLM Crew Rest could be sold and installed for either
line fit or retrofit applications, which are the two
major types of contracts for the aircraft lavatory
market. Thus, the claimed method of retrofitting
would have been well-known and obvious to a person
of ordinary skill in the art.
[‘476 Claim 1 Element A] installing an
aircraft enclosure unit comprising: a
forward wall, said forward wall being
part of an outer boundary defining a
single enclosed space that includes a
toilet,
143. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘292 Claim 1, Element A].
[‘476 Claim 1 Element B] said forward
wall being substantially not flat and
configured to receive a portion of the
exterior aft surface of the seat back
when the seat back is in an unreclined
seat position
144. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of

410a
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘292 Claim 1, Element B].
145. A prior art flat wall lavatory could be
modified to include the contoured front wall shown
in either Betts or the KLM Crew Rest. As I explain
above, a motivation for doing so would be to enable
a row of passenger seats to sit further aft in the
aircraft cabin.
[‘476 Claim 1 Element C] wherein said
forward wall is adapted to provide more
space forward of the enclosure unit such
that the seat support can be positioned
further aft in the cabin than if the cabin
included another enclosure unit having
a substantially flat front wall located in
substantially the same position in the
cabin as the forward wall, and
146. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘292 Claim 1, Element C].
[‘476 Claim 1 Element D] wherein said
enclosed space is taller than the
passenger seat; and
147. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the

411a
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘292 Claim 1, Element D].
[‘476 Claim 1 Element E] positioning said
seat support further aft in said aircraft
cabin than said seat support could have
been positioned prior to retrofitting said
aircraft, whereby a portion of the
exterior aft surface of said passenger
seat back in the unreclined seat position
is received by said forward wall.
148. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest.
149. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat wall
lavatory to use the Betts design on the forward wall
of a lavatory. Further, it is clear that the seat shown
in Betts is positioned further aft than it could be
positioned if there were no recess in the forward wall
because the seat back is within the recess. Thus the
recess is configured to receive the seat back.
Further, as I noted above, the seat shown in Betts is
in substantially the same position as the seat shown
in Figure 2 of the Challenged Patents. Thus, in my
opinion this seat is in an unreclined position.
150. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat wall
lavatory to use the KLM Crew Rest design on the
forward wall of a lavatory. A person of ordinary skill
in the art would recognize that the seat shown in the

412a
KLM Crew rest is positioned further aft than it could
be positioned without the recess. A person of
ordinary skill in the art would recognize that the
seat could be moved further aft, such that the seat
was in the recess when in an unreclined position.
One motivation for doing so would be to increase the
amount of space in front of the passenger seat,
thereby increasing the pitch of the rows of seats in
the aircraft or allowing an additional row of seats to
be added.

[‘476 Claim 2 Preamble] A method of
providing an aircraft with more
passenger seats in the aircraft’s cabin,
the method comprising the steps of:
151. I am informed that the preamble may not be
a limitation. However, to the extent that it is a
limitation, in my opinion this element is obvious in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents as modified by Betts or

413a
the KLM Crew Rest. I incorporate my analysis
discussed above with regard to [‘476 Claim 1
Preamble].
[‘476 Claim 2 Element A] installing a
combination of an enclosure unit and a
passenger seat in the aircraft, said
passenger seat having a seat back, a seat
bottom, and a seat support that
interfaces with the floor of the aircraft
cabin and holds the seat bottom in an
elevated position above the floor of the
aircraft
cabin,
the
combination
comprising
152. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘476 Claim 1 Preamble and
Element A].
[‘476 Claim 2 Element B] the passenger
seat being configured to be located
forward of and proximate to the
enclosure unit,
153. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, which shows a passenger
seat located forward of and proximate to the
enclosure unit, as modified by Betts or the KLM
Crew Rest. As shown below, each of Betts and the
KLM Crew Rest also show an enclosure unit and a

414a
passenger seat forward of and proximate to the
enclosure unit.

[‘476 Claim 2 Element C] the enclosure
unit being located aft of the passenger
seat, the enclosure unit having a forward
wall, said forward wall being part of an
outer boundary defining a single
enclosed space that includes a toilet,
154. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘476 Claim 1 Element A].
[‘476 Claim 2 Element D] said forward
wall being substantially not flat and
configured to receive a portion of the
exterior aft surface of the passenger seat
back in an unreclined seat position,

415a
155. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘476 Claim 1 Element B].
[‘476 Claim 2 Element E] wherein said
forward wall is adapted to provide more
space forward of the enclosure unit such
that the seat support can be positioned
further aft in the cabin than if the cabin
included another enclosure unit having
a front wall that is substantially flat and
is located in substantially the same
position in the cabin as the forward wall,
156. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘476 Claim 1 Element C].
[‘476 Claim 2 Element F] wherein said
enclosed space is taller than the
passenger seat,
157. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘476 Claim 1 Element D].
[‘476 Claim 2 Element G] whereby said
seat support is installed further aft in
said cabin than would be possible if the

416a
substantially flat front wall of the other
enclosure
unit
was
located
in
substantially the same position in the
aircraft cabin as the forward wall, and
158. In my opinion this element is obvious i in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents, as modified by Betts or
the KLM Crew Rest. I incorporate my analysis
discussed above with regard to [‘476 Claim 1
Element E].
[‘476 Claim 2 Element H] whereby a
portion of the exterior aft surface of said
passenger seat back in the unreclined
seat position is received by said forward
wall.
159. In my opinion this element is obvious i in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents, as modified by Betts or
the KLM Crew Rest. I incorporate my analysis
discussed above with regard to [‘476 Claim 1
Element E].
[‘476 Claim 3] The method of claim 1,
wherein said exterior aft surface of the
passenger seat back has a contoured
shape, and wherein said forward wall is
shaped to substantially conform to the
contoured shape of the exterior aft
surface of the passenger seat back when
the exterior aft surface of said passenger
seat back in the unreclined position is
received by said forward wall whereby a

417a
portion of the exterior aft surface of said
passenger seat back in the unreclined
seat position is received by said forward
wall.
160. In in my opinion this element is obvious in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents as modified by Betts or
the KLM Crew Rest.
161. As I explain above, the only seat shown in the
Challenged Patents includes a contoured shape and
is admitted to be prior art. Further, a seat with a
contoured shape is well known in the art. See
Bentley, discussed above. A person of ordinary skill
in the art would realize that seats on an airplane
could be removed and replaced. Thus, a person of
ordinary skill in the art could replace any of the
seats shown in Betts or the KLM Crew Rest with
another prior art seat design.
162. The Challenged Patents do not include a
definition for what is meant by “substantially
conform” but as shown in Figure 2 of the Challenged
Patents, the forward wall is not required to precisely
conform to the shape of the passenger seat. As is
shown in the figure below, the walls of Betts and the
KLM Crew Rest substantially conforms to a
contoured shape of the exterior aft surface of the seat
back.
163. For Betts and the KLM Crew Rest the seat is
provided with the ability to recline, but if the ability
to recline the seat were removed or not required, a
person of ordinary skill in the art would have

418a
designed the shape of the recess to receive and
substantially conform to the shape of the passenger
seat in its upright (i.e., unreclined) position.
Designing recess to receive the seat back when the
seat back is in an unreclined position would have
been an obvious design choice to a person of ordinary
skill in the art. A person of ordinary skill in the art
would have been motivated to do so to more
efficiently maximize the use of space in the cabin.
164. I also incorporate my analysis discussed
above with regard to [‘292 Claim 1 Element A].
165. It is clear that the seat shown in Betts is
positioned further aft than it could be positioned if
there were no recess because the seat back is within
the recess. Thus the recess receives the seat back.
Further, as I noted above, the seat shown in Betts is
in substantially the same position as the seat shown
in Figure 2 of the Challenged Patents. Thus, in my
opinion this seat is in an unreclined position.
166. A person of ordinary skill in the art would
recognize that the seat shown in the KLM Crew Rest
is positioned further aft than it could be positioned
without the recess. A person of ordinary skill in the
art would recognize that the seat could be moved
further aft, such that the seat was in the recess when
in an unreclined position. One motivation for doing
so would be to increase the amount of space in front
of the passenger seat, thereby increasing the pitch of
the rows of seats in the aircraft or allowing an
additional row of seats to be added.

419a

[‘476 Claim 4] The method of claim 2,
wherein said exterior aft surface of the
passenger seat back has a contoured
shape, and wherein said forward wall is
shaped to substantially conform to the
contoured shape of the exterior aft
surface of the passenger seat back when
the exterior aft surface of said passenger
seat back in the unreclined position is
received by said forward wall.
167. In in my opinion this element is obvious in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents as modified by Betts or
the KLM Crew Rest. I incorporate my analysis
discussed above with regard to [‘476 Claim 2 and
Claim 3].
[‘476 Claim 5] The method of claim 3,
wherein said contoured shape includes a
first section extending along a first axis
and a second section extending along a

420a
second axis, said first section adapted to
support a passenger’s head and a second
adapted to support a passenger’s back,
wherein said first axis is not parallel
with said second axis.
168. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest.
169. As I explain above, the only seat shown in the
Challenged Patents is admitted to be prior art. This
seat has “a contoured shape includes a first section
extending along a first axis and a second section
extending along a second axis, said first section
adapted to support a passenger’s head and said
second section adapted to support a passenger’s
back, wherein said first axis is not parallel with said
second axis.”
170. Further, a seat with “a contoured shape
includes a first section extending along a first axis
and a second section extending along a second axis,
said first section adapted to support a passenger’s
head and said second section adapted to support a
passenger’s back, wherein said first axis is not
parallel with said second axis” is well known in the
art. See Bentley, discussed above. Further, a seat
with “a contoured shape includes a first section
extending along a first axis and a second section
extending along a second axis, said first section
adapted to support a passenger’s head and said
second section adapted to support a passenger’s
back, wherein said first axis is not parallel with said

421a
second axis” is well known in the art. See Bentley,
discussed above. Further, the KLM Crew Rest shows
a passenger seat with a contoured shape that
includes a first section extending along a first axis
for supporting a passenger’s head and a second
section extending along a second axis for supporting
a passenger’s back. As I explain above, a person of
ordinary skill in the art would realize that seats on
an airplane could be removed and replaced. Thus, a
person of ordinary skill in the art could replace any
of the seats shown in Betts or the KLM Crew Rest
with another prior art seat design.
[‘476 Claim 6] The method of claim 4,
wherein said contoured shape includes a
first section extending along a first axis
and a second section extending along a
second axis, said first section adapted to
support a passenger’s head and a second
adapted to support a passenger’s back,
wherein said first axis is not parallel
with said second axis.
171. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘476 Claim 4 and Claim 5].
C.

‘641 Patent, Claims 1, 3-10, and 1217 are Obvious

[‘641 Claim 1 Preamble] An aircraft
lavatory for a cabin of an aircraft of a
type that includes a forward-facing

422a
passenger seat that includes an
upwardly and aftwardly inclined seat
back and an aft-extending seat support
disposed below the seat back, the
lavatory comprising:
172. I am informed that the preamble may not be
a limitation. However, to the extent that it is a
limitation, in my opinion this element is obvious in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents as modified by Betts or
the KLM Crew Rest.
173. Figure 1 of Betts is a side elevation that
shows an assembly of an enclosure that is located
immediately aft of and adjacent to a passenger seat
and is nearly identical to Figure 2 of the ’641 Patent.

174. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat wall
lavatory to use the Betts design on the forward wall
of a lavatory. Further, the only seat shown or

423a
described in the ‘641 Patent is admitted to be prior
art. Thus, “a forward-facing passenger seat that
includes an upwardly and aftwardly inclined seat
back and an aft-extending seat support disposed
below the seat back,” is admitted to be prior art.
However, to the extent it is not, as shown in the
annotated figure below, Figure 1 of Betts shows “a
forward- facing passenger seat.” This seat includes
“an upwardly and aftwardly inclined seat back.” The
seat further includes “an aft-extending seat support
disposed below the seat back.”

175. The KLM Crew Rest shows a side elevation of
a lavatory enclosure. The enclosure has a contoured
wall to allow space for a seat that is located forward
of and proximate to the aircraft enclosure. Further,
the KLM Crew Rest shows “a forward-facing
passenger seat.” This seat includes “an upwardly
and aftwardly inclined seat back.” The seat shown in
the KLM Crew Rest could be modified to include a

424a
prior art seat with an aft extending seat support.
One motivation for such a modification would be to
increase the structural strength of the seat supports
by providing a longer base.

[‘641 Claim 1 Element A] a lavatory unit
including a forward wall portion and
defining an enclosed interior lavatory
space, said forward wall portion
configured to be disposed proximate to
and aft of the passenger seat and
including an exterior surface having a
shape that is substantially not flat in a
vertical plane;
176. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of

425a
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
177. As described in detail above, an airplane
lavatory was well known in the prior art and the ’641
Patent admits that a flat wall lavatory is known in
the art. Such a prior art lavatory includes “a forward
wall portion and defining an enclosed interior
lavatory space.”
178. Further, as is shown below, Betts includes a
contoured forward wall. In my opinion, a person of
ordinary skill in the art would realize that this
contoured forward wall could be used in place of a
flat forward wall on a prior art flat-walled aircraft
lavatory. One motivation to do so would be to allow
the seat be placed further aft in an aircraft cabin.

179. Further, as is shown below, the KLM Crew
Rest includes a contoured forward wall that is used
on a lavatory envelope. In my opinion, a person of
ordinary skill in the art would realize that this
contoured forward wall could be used in place of a
flat forward wall on an aircraft lavatory. One

426a
motivation to do so would be to allow the seat be
placed further aft in an aircraft cabin.

180. The contoured forward wall includes an
exterior surface having a shape that is substantially
not flat in a vertical plane.
[‘641 Claim 1 Element B] wherein said
forward wall portion is shaped to
substantially conform to the shape of the
upwardly and aftwardly inclined seat
back of the passenger seat, and includes
a first recess configured to receive at
least a portion of the upwardly and
aftwardly inclined seat back of the
passenger seat therein, and

427a
181. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
182. As is shown in the annotated figure below,
Betts shows an aircraft passenger seat that is
positioned at least partially within the contoured
forward wall. This seat is received by the contoured
wall. Further, the back of this seat is both upwardly
and aftwardly inclined.

183. In my opinion, the recess shown in Betts
“substantially conforms to a contour of an aft surface
of the upwardly and aftwardly inclined seat back.”

428a
As shown below, the design of Betts Figure 1 is
substantially the same as the design shown in
Figure 2 of the ’641 Patent.

184. The recess in the KLM Crew Rest was
designed to allow the last row of seats positioned in
front of the contoured wall to sit further aft in the
aircraft, yet still be able to recline. Ex. 1007, |13.
Thus, if there were no recess, this seat would need
to be positioned further forward to allow for recline.
Thus, the contoured wall allows for this seat to sit
further aft than it otherwise would be able to sit, and
therefore receives the seat back. Further, one of
ordinary skill in the art would be motivated to
restrict the recline of the seat and move the seat into
the recess. A motivation for doing so would be to
increase the pitch of seats between rows or allow for
additional rows of seats.

185. In my opinion, the recess shown in the KLM
Crew Rest “substantially conform[s] to the shape of
the upwardly and aftwardly inclined seat back of the

429a
passenger seat.” As Mr. Sobotta explains, the design
includes a “recess that would receive the seatback of
the row of seats located in front of the entry
enclosure.” Ex. 1007, ¶ 13. This is shown in the
annotated figure below.

[‘641 Claim 1 Element C] further includes
a second recess configured to receive at
least a portion of the aft-extending seat
support therein when at least a portion
of the upwardly and aftwardly inclined
seat back of the passenger seat is
received within the first recess.
186. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of

430a
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
187. As is shown in the annotated figure below,
Betts shows an aircraft passenger seat that is
positioned at least partially within the contoured
forward wall. This seat is received by the contoured
wall. The back of this seat is both upwardly and
aftwardly inclined.

431a
188. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat
forward facing wall of a lavatory to include a recess
to allow a passenger seat to be positioned further aft
in the aircraft cabin. The challenged patents admit
that a seat with an aft extending seat support is well
known in the art..

189. As I explain above, a person of ordinary skill
in the art would realize that when such a seat is
moved further aft, the first component to impact the
wall is the seat back. As I explain above, Betts
includes a forward facing recess that receives the
seat back.
190. Further, the KLM Crew Rest shows both a
passenger seat and a contoured forward partition.

432a
As I explain above, the passenger seat is positioned
is positioned such that it could not recline without a
contoured forward wall, thus this seat is at least
partially within the contour and is thus received by
the recess.
191. Further, a person of ordinary skill in the art
would understand that as the seat is moved further
aft, the next component to impact the wall is the aft
seat support. A person of ordinary skill in the art
would be motivated to modify an enclosure, such as
a lavatory, to include a second recess to receive aft
facing seat supports. In my opinion, this
modification is nothing more than the application of
known technology for its intended purpose. The
result of such a modification is predictable, allowing
the seat to be positioned further aft in an aircraft.
192. As evidence of this modification being well
known, I include three examples of prior art
enclosures that included a lower recess to
accommodate aft- extending seat supports. I
understand that these designs are not available as
prior art in this proceeding. Thus, I do not rely on
these designs as a basis for invalidity. However,
these designs inform my opinion by confirming that
such a modification was well known in the art, and
thus would have been obvious to a person of ordinary
skill in the art.

433a

[‘641 Claim 5] The aircraft lavatory of
claim 1, wherein said forward wall
portion further includes a projection
configured to project over the passenger
seat back when at least a portion of the
upwardly and aftwardly inclined seat
back of the passenger seat is received
within the first recess and at least a
portion of the aft- extending seat
support is received within the second
recess.
193. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
194. As is shown in the annotated figure below,
Betts shows an aircraft passenger seat that is
positioned at least partially within the contoured

434a
forward wall. This shows a projection over the
passenger seat back when at least a portion of the
upwardly and aftwardly inclined seat back of the
passenger seat is received.

195. The recess in the KLM Crew Rest was
designed to allow the last row of seats in front of the
contoured wall to sit further aft in the aircraft, yet
still be able to recline. Ex. 1007, ¶13. A person of
ordinary skill in the art would recognize that when
the seat reclines into the recess in the KLM Crew
rest, the upper part of the recess will project overtop
of the passenger seat back.
196. Further, as I explain above with regard to
[‘641 Claim 1, Element C] a person of ordinary skill
in the art would be motivated to modify a flat

435a
forward wall to include a second recess to receive at
least a portion of an aft extending seat support. One
motivation for such a modification would be to allow
for the seat to be positioned further aft in an
airplane cabin.
[‘641 Claim 4] The aircraft lavatory of
claim 1, wherein said lavatory unit is
taller than the passenger seat.
197. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘476 Claim 1 Element C].
[‘641 Claim 5] The aircraft lavatory of
claim 1, wherein said forward wall
portion includes a lower portion that is
disposed under the passenger seat back
when at least a portion of the upwardly
and aftwardly inclined seat back of the
passenger seat is received within the
first recess and at least a portion of the
aft- extending seat support is received
within the second recess.
198. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest
199. As is shown in the annotated figure below,
Betts shows an aircraft passenger seat that is
positioned at least partially within the contoured

436a
forward wall. This shows a lower portion that is
disposed under the passenger seat back when at
least a portion of the upwardly and aftwardly
inclined seat back of the passenger seat is received
within the first recess.

200. Further, as is shown in the annotated figure
below, the KLM Crew Rest shows an aircraft
passenger seat that is positioned at least partially
within the contoured forward wall. This shows a
lower portion that is disposed under the passenger
seat back when at least a portion of the upwardly

437a
and aftwardly inclined seat back of the passenger
seat is received within the first recess

201. Further, as I explain above with regard to
[‘641 Claim 1, Element C] a person of ordinary skill
in the art would be motivated to modify a flat
forward wall to include a second recess to receive at
least a portion of an aft extending seat support. One
motivation for such a modification would be to allow
for the seat to be positioned further aft in an
airplane cabin.
[‘641 Claim 6] The aircraft lavatory of
claim 1, wherein said first recess in said
forward wall portion is disposed
between an upper wall portion and a
lower wall portion.

438a
202. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
203. As is shown in the annotated figures below,
Betts discloses a first recess in said forward wall
portion is disposed between an upper wall portion
and a lower wall portion.

439a
204. Further, as is shown in the annotated figures
below, the KLM Crew Rest discloses a first recess in
said forward wall portion is disposed between an
upper wall portion and a lower wall portion.

[641 Claim 7] The aircraft lavatory of
claim 1, wherein said forward wall
portion defines a secondary space in said
interior lavatory space above the
passenger seat back.
205. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
206. Figure 1 of the challenged patents shows “a
secondary space in said interior lavatory space above

440a
the passenger seat back.” The specification of the
’641 Patent describes “the forward wall portion
defines a secondary space 36 in the interior lavatory
space.” ‘641 Patent, col. 4:43-45. Such a space is
shown in both Figure 1 and Figure 2.

207. Further, a person of ordinary skill in the art
would recognize that many prior art lavatories and
other enclosures—including the KLM Crew Rest—
included secondary storage spaces, e.g., trash
receptacles, space for additional paper towels or
toilet paper, space for routing plumbing, etc. A
person of ordinary skill in the art would recognize
that the enclosed space of a lavatory would continue
to have such stowage even with a contoured forward
wall, as shown by the KLM Crew Rest.
[‘641 Claim 8 Preamble] An aircraft
lavatory for an aircraft, the lavatory
comprising:

441a
208. In my opinion this element is obvious i in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents. As I explain above, the
’641 Patent admits that an aircraft lavatory was
known in the prior art. See, e.g., ’641 Patent at
Figure 1.
[‘641 Claim 8, Element A] a forward
partition; an aft partition; and a lavatory
space disposed between the forward
partition and the aft partition;
209. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents. As I explain above, the ’641
Patent admits that an aircraft lavatory was known
in the prior art. See, e.g., ’641 Patent at Figure 1.
This lavatory shows a forward partition, an aft
partition, and a lavatory spaced disposed between
these two partitions.
[‘641 Claim 8, Element B] wherein the
forward partition comprises: a forwardextending upper portion; an aftextending mid-portion; and a forwardextending lower portion; and
210. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest.
211. As is shown in the annotated figures below,
Betts discloses a forward-extending upper portion;

442a
an aft-extending mid-portion; and a forwardextending lower portion.

212. Further, as is shown in the annotated figures
below, the KLM Crew Rest discloses a forwardextending upper portion; an aft-extending midportion; and a forward-extending lower portion.

443a

[‘641 Claim 8, Element C] wherein the
forward-extending upper portion, the
aft-extending mid-portion, and the
forward-extending
lower
portion
combine to define a first aft-extending
recess disposed between the upper
forward-extending portion and the
forward-extending lower portion, and
213. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis above of
[‘641 Claim 8, Element B]
214. As is shown in the annotated Figures above,
in both the KLM Crew Rest and Betts “the forwardextending upper portion, the aft-extending midportion, and the forward-extending lower portion
combine to define a first aft- extending recess

444a
disposed between the upper forward-extending
portion and the forward-extending lower portion.”
[‘641 Claim 8, Element D] wherein the
forward partition further defines a
second aft-extending recess proximate
to a lower end of the forward partition,
the second aft-extending recess being
configured to receive at least a portion
of an aft-extending seat support of a
forward-positioned
passenger
seat
therein.
215. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest
216. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat
forward facing wall of a lavatory to include a recess
to allow a passenger seat to be positioned further aft
in the aircraft cabin. A seat with an aft extending
seat support is well known in the art. See
Challenged Patents at Figure 1.

445a

217. A person of ordinary skill in the art would
realize that when such a seat is moved further aft,
the first component to impact the wall is the seat
back. As I explain above, both Betts and the KLM
Crew Rest include a forward facing recess that
receives the seat back.
218. As the seat is moved further aft, the next
component to impact the wall is the aft seat support.
A person of ordinary skill in the art would be
motivated to modify an enclosure, such as a
lavatory, to include a second recess to receive aft
facing seat supports. Such a modification is nothing
more than the application of known technology for
its intended purpose. The result of such a

446a
modification is predictable, allowing the seat to be
positioned further aft in an aircraft..
219. Further, as I discuss above with regard to
[‘641, Claim 1, Element C] a person of ordinary skill
in the art would recognize that such a modification
was well known in the art.
[‘641 Claim 9] The aircraft lavatory
according to claim 8 wherein the first aft
extending recess defined by the forwardextending upper portion, the aftextending mid-portion, and the forwardextending lower portion of the forward
partition is configured to receive an aftextending seat back of the forward
positioned passenger seat.
220. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest.
221. As I describe above with regard to [‘641
Claim 8, Element D] Betts shows an aircraft
passenger seat that is positioned at least partially
within the contoured forward wall. Thus, this seat is
received by the contoured wall. Further, the back of
this seat is both upwardly and aftwardly inclined.

447a

222. Similarly, as I explain above, The curved
forward facing wall shown in the KLM Crew Rest
advantageously provides additional space to locate a
seat further aft in an aircraft. The recess in the KLM
Crew Rest was designed to allow the last row of seats
in front of the curved wall to sit further aft in the
aircraft, yet still be able to recline. Sobotta

448a
Declaration, at ¶ 13. Thus, the KLM Crew Rest
includes a recess configured to receive an upwardly
and aftwardly inclined seat back of a passenger seat.
[‘641 Claim 10] The aircraft lavatory
according to claim 9 wherein said
forward -extending upper portion is
configured to project over at least a
portion of the forward-positioned
passenger seat.
223. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
224. As is shown in the annotated figure below,
Betts shows an aircraft passenger seat that is
positioned at least partially within the contoured
forward wall. This shows a projection over the
passenger seat back when at least a portion of the
upwardly and aftwardly inclined seat back of the
passenger seat is received.

449a

450a

225. As I explain above, the seat in the KLM crew
rest is reclines into the contour in the forward wall.
Thus, at least part of the forward wall is protrudes
overtop of the upwardly and aftwardly reclined seat
back.
[‘641 Claim 12] The aircraft lavatory
according to claim 9 wherein said
lavatory is taller than the forwardpositioned passenger seat.
226. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘476 Claim 1 Element C].

451a
[‘641 Claim 13] The aircraft lavatory
according to claim 8 wherein the aft
partition is substantially vertical and
substantially planar.
227. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents. As shown in Figure 1 of the
Challenged Patents, the aft partition is
substantially vertical and substantially planar.

[‘641 Claim 14] The aircraft lavatory
according to claim 8 wherein the width
of the lavatory space disposed between
the forward partition and the aft
partition comprises an upper width, a
lower width, and a mid-width, and
wherein the upper width and the lower

452a
width are both substantially wider than
the mid-width.
228. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
229. As discussed above, a person of ordinary skill
in the art would be motivated to modify a flat wall
lavatory to include a contoured forward wall. A
person of ordinary skill in the art would recognize
that such a modification could impact the interior
width of the lavatory. This is clear from the
positioning of the recess shown in Figure 1 of Betts,
which is substantially the same as Figure 2 of the
Challenged Patents. To the extent that Figure 2 of
the Challenged Patents describes this limitation, the
limitation is also disclosed by Figure 1 of Betts.

230. Further, as discussed above, a person of
ordinary skill in the art would be motivated to
modify a flat wall lavatory to include a contoured

453a
forward wall. A person of ordinary skill in the art
would recognize that such a modification could
impact the interior width of the lavatory. This is
clear from the positioning of the recess shown in the
KLM Crew Rest, which is substantially the same as
Figure 2 of the Challenged Patents. Thus, in my
opinion, to the extent that Figure 2 of the
Challenged Patents describes this limitation, the
limitation is also disclosed by the KLM Crew Rest.
[‘641 Claim 15] The aircraft lavatory
according to claim 8 wherein the upper
forward-extending portion, the aftextending mid-portion, and the forwardextending lower portion of the forward
partition
form
a
substantially
continuous surface.
231. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
232. As shown in Figure 1 of Betts, the upper
forward-extending portion, the aft-extending midportion, and the forward-extending lower portion of
the forward partition form a substantially
continuous surface.

454a

233. Further, as shown in the annotated Figure of
the KLM Crew Rest below, the upper forwardextending portion, the aft-extending mid-portion,
and the forward-extending lower portion of the
forward partition form a substantially continuous
surface.

455a

‘641 Claim 16] The aircraft lavatory
according to claim 8 wherein said first
aft-extending recess extends along
substantially a full width of said forward
partition.
234. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest
235. Figure 1 of Betts shows a side elevational
view of the coat closet enclosure. Betts, 1:58-59. The
side elevational view shows the coat closet enclosure
from a horizontal plane beside the enclosure. One of
ordinary skill in the art would understand from
Figure 1 that the recess extends the full width of the
forward wall.
236. Further, nothing in Betts suggests that the
recess only extends a portion of the width of the
forward wall. One of ordinary skill in the art would

456a
be motivated to extend the recess the full width of
the forward wall in order to accommodate the full
row of seats installed immediately forward of the
wall. In fact, the commercial embodiments of the
Betts closet (found on DC-10s) had a recess that
extended the full width of the forward partition.
237. In my opinion, the KLM Crew rest shows a
recess that extends along substantially the full
width of the of the contoured forward partition.

[‘641 Claim 17] The aircraft lavatory
according to claim 8 wherein said
lavatory has a top, a bottom, a height
therebetween,
and
a
middle
therebetween, said lavatory has varying
lengths along the height of the lavatory,

457a
and said lavatory is longer at the top of
the lavatory than at the bottom of the
lavatory.
238. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
239. The prior art lavatory shown in Figure 1 of
the Challenged Patents shows a lavatory that has a
top, a bottom, a height therebetween, and a middle
therebetween. Further, as discussed above, a person
of ordinary skill in the art would be motivated to
modify a flat wall lavatory to include a contoured
forward wall. A person of ordinary skill in the art
would recognize that such a modification could
impact the interior of the lavatory, e.g., the width or
the lengths along the height of the lavatory. This is
clear from the positioning of the recess shown in
Figure 1 of Betts, which is substantially the same as
Figure 2 of the ’641 Patent. To the extent that Figure
2 of the ’641 Patent describes this limitation, the
limitation is also disclosed by Figure 1 of Betts.
Further, claim 8 of Betts even requires “… a tilt back
seat in front of said closet whereby said back tilts
under said sloping portion and clothes on said rack
are moved vertically for storage over said seat.”
Thus, Betts contemplates a closet with varying
dimensions, including one wherein the top of the
closet extends over the seat back.

458a

240. Similarly, a person of ordinary skill in the art
would recognize on review of a flat wall lavatory as
modified by the KLM Crew Rest would recognize
that such a modification would impact the interior of
the lavatory, e.g., the width or the lengths along the
height of the lavatory. This is clear from the
positioning of the recess shown in the KLM Crew
Rest which is substantially the same as Figure 2 of
the Challenged Patents. Thus, in my opinion, to the
extent that Figure 2 of the ’641 Patent describes this
limitation, the limitation is also disclosed by the
KLM Crew Rest.
D.

‘742 Patent, Claims 8 and 10-16 are
Obvious

[‘742 Claim 8 Preamble] A method for
reducing a volume of unusable space in
a cabin area of a passenger aircraft,
comprising:

459a
241. I am informed that the preamble may not be
a limitation. However, to the extent that it is a
limitation, in my opinion this element is obvious in
view of a flat wall lavatory and seat shown in Figure
1 of the Challenged Patents as modified by Betts or
the KLM Crew Rest.
242. The Challenged Patents do not define the
term “unusable space,” however, by any reasonable
definition for this term, Betts or the KLM Crew Rest
render the preamble obvious.
243. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat wall
lavatory to use the Betts design on the forward wall
of a lavatory. Figure 1 of Betts is a side elevation
that shows an assembly of an enclosure that is
located immediately aft of and adjacent to a
passenger seat and is nearly identical to Figure 2 of
the Challenged Patents. The Betts wall allows the
seat to be positioned further aft so that it is received
by the recess. Applying the forward wall of Betts to
a lavatory would reduce a volume of unusable space
in the cabin of a passenger aircraft.

460a

244. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat wall
lavatory to use the KLM Crew Rest design on the
forward wall of a lavatory. The KLM Crew Rest
shows a lavatory envelope. The enclosure has a
curved wall to allow space for a seat that is located
forward of and proximate to the aircraft enclosure to
be positioned further aft and be received by the
recess.

461a

245. As I explain above, each of these designs
allows for passenger seats to be placed further aft
than they could be placed with a flat wall. This
allows for additional seating in the cabin of an

462a
aircraft when installed and reduces the volume of
unusuable space in the cabin of the aircraft.
[‘742 Claim 8 Element A] replacing at
least a previously-installed forward
partition of a pre-existing aircraft
lavatory in the cabin area of the
passenger aircraft with a contoured
forward partition, wherein an outward
facing vertical surface of the previously
installed
forward
partition
is
substantially flat, and
246. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. As is shown in the diagrams below,
each of Betts and the KLM Crew Rest includes a
contoured forward partition. Further, any of these
contoured forward partitions could replace a flat
forward partition.

463a
[‘742 Claim 8 Element B] the contoured
forward partition comprises at least one
first recess configured to receive at least
a portion of an upwardly and aftwardly
inclined seat back of a passenger seat
therein, and
247. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. As is shown in the diagrams below,
each of these references discloses a forward wall that
includes a recess configured to receive an upwardly
and aftwardly inclined seat back of a passenger seat.

248. With regard to Betts, the seat and the seat
support are positioned further aft in the cabin,
which is clear because the seat is plainly within the
recess in the wall. Thus, the recess receives the seat
back. This is shown in the annotated figure below.

464a

249. With regard to the KLM Crew Rest, the
recess in the KLM Crew Rest was designed to allow
the last row of seats positioned in front of the curved
wall to sit further aft in the aircraft, yet still be able
to recline. Sobotta Declaration, at 13. Thus, if there

465a
were no recess, this seat would need to be positioned
further forward to allow for recline. Thus, the curved
wall allows for this seat to sit further aft than it
otherwise would be able to sit, and therefore receives
the seat back. Further, one of ordinary skill in the
art would be motivated to restrict the recline of the
seat and move the seat into the recess. A motivation
for doing so would be to increase the pitch of seats
between rows or allow for additional rows of seats.
[‘742 Claim 8 Element C] at least one
second recess configured to receive at
least a portion of an aft-extending seat
support of the passenger seat therein;
and
250. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest. I incorporate my analysis above of
[‘641 Claim 1, Element C].
[‘742 Claim 8 Element D] installing the
passenger seat in front of the contoured
forward
partition;
wherein,
upon
installation, the at least one first recess
receives at least a portion of the
upwardly and aftwardly inclined seat
back, and the second recess receives at
least a portion of the aft-extending seat
support,
251. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the

466a
KLM Crew Rest. I incorporate my analysis discussed
above with regard to [‘742 Claim 8 Elements B and
C] and [’641 Claim 8 Element D].
252. Further, as I explain above, the only seat
shown in the Challenged Patents is admitted to be
prior art. And each of Betts and the KLM Crew Rest
discloses an airplane seat installed forward of a
contoured forward wall. Further, airplane seats
were well known in the art. See, e.g., Bentley.
[‘742 Claim 8 Element E] thereby
reducing the volume of unusable space
in the cabin area by reducing or
eliminating gaps that existed between
the previously-installed forward wall
and the passenger seat.
253. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest.
254. The term “unusable space” is not defined or
explained in the Challenged Patents. This term is
unclear, as all space in an airplane is usable, e.g., a
coat or reading material could be place in the space
between a seat and a forward facing wall. However,
as best as I understand the term “unusable space,”
this element is obvious in view of a flat wall lavatory
modified by one of Betts or the KLM Crew Rest. I
incorporate my analysis above of [‘742 Claim 8
Preamble].

467a
[‘742 Claim 10] The method of claim 8,
wherein the at least one first recess
substantially conforms to a contour of an
aft surface of the upwardly and
aftwardly inclined seat back.
255. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate herein my analysis of
[‘742 Claim 8 Element B].
256. In my opinion, the recess shown in Betts
“substantially conforms to a contour of an aft surface
of the upwardly and aftwardly inclined seat back.”
For example, as shown below, the design of Betts
Figure 1 is substantially the same as the design
shown in Figure 2 of the Challenged Patents.

257. Further, the recess shown in the KLM Crew
Rest “substantially conforms to a contour of an aft
surface of the upwardly and aftwardly inclined seat
back.” As Mr. Sobotta explains, the design includes

468a
a “recess that would receive the seatback of the row
of seats located in front of the entry enclosure.” This
is shown in the annotated figure below.

258. With regard to “a contour of an aft surface of
the upwardly and aftwardly inclined seat back,” the
only seat disclosed in the ’742 patent is admitted to
be prior art.
[‘742 Claim 11] The method of claim 8,
wherein
the
contoured
forward
partition further comprises an upper
projection that, upon installation,
protrudes forward over a top of the
upwardly and aftwardly inclined seat
back.

469a
259. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest.
260. As is shown in the annotated figures below,
Betts discloses “an upper projection that, upon
installation, protrudes forward over a top of the
upwardly and aftwardly inclined seat back.”

261. Further, as I explain above, the seat in the
KLM crew rest is reclines into the contour in the
forward wall. Thus, at least part of the forward wall
is protrudes overtop of the upwardly and aftwardly
reclined seat back.

470a
[‘742 Claim 12] The method of claim 11,
wherein the upper projection is
configured to abut an upper surface of
the cabin area.
262. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. As is shown in the annotated
Figures in my analysis of [‘742 Claim 11], the upper
projection shown in each of these figures abuts an
upper surface of the cabin area, e.g., the interior
ceiling of the aircraft.
[‘742 Claim 13] The method of claim 11,
wherein the upper projection defines an
interior storage space in the aircraft
lavatory.
263. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest. I incorporate my analysis of [‘641
Claim 7].
[‘742 Claim 14] The method of claim 8,
wherein the upwardly and aftwardly
inclined seat back is in an upright and
not a reclined position.
264. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents as modified by Betts or the
KLM Crew Rest.

471a
265. The seat shown in Betts is in substantially
the same position as the seat shown in Figure 2 of
the Challenged Patents. Thus, in my opinion this
seat is in an unreclined position.
266. A person of ordinary skill in the art would
recognize that the seat shown in the KLM Crew rest
is positioned further aft than it could be positioned
without the recess. A person of ordinary skill in the
art would recognize that the seat could be moved
further aft, such that the seat was in the recess when
in an unreclined position. One motivation for doing
so would be to increase the amount of space in front
of the passenger seat, thereby increasing the pitch of
the rows of seats in the aircraft or allowing an
additional row of seats to be added.

[‘742 Claim 15] The method of claim 8,
wherein the at least one first recess
extends along substantially a full width
of the contoured forward partition.

472a
267. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest. I incorporate my analysis above of
[‘641 Claim 16].
[‘742 Claim 16] The method of claim 8,
wherein replacing the previouslyinstalled forward partition with the
contoured forward partition permits the
aft-extending seat support to be
positioned farther aft in the cabin area
than was possible when the previouslyinstalled forward partition was installed
in the cabin area.
268. In my opinion this element is obvious in view
of a flat wall lavatory and seat shown in Figure 1 of
the Challenged Patents, as modified by Betts or the
KLM Crew Rest
269. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat wall
lavatory to use the Betts design on the forward wall
of a lavatory. Further, it is clear that the seat shown
in Betts is positioned further aft than it could be
positioned if there were no recess in the forward wall
because the seat back is within the recess. Thus the
recess is configured to receive the seat back.
Further, as I noted above, the seat shown in Betts is
in substantially the same position as the seat shown
in Figure 2 of the Challenged Patents. Thus, in my
opinion this seat is in an unreclined position.

473a
270. As I explain above, a person of ordinary skill
in the art would be motivated to modify a flat wall
lavatory to use the KLM Crew Rest design on the
forward wall of a lavatory. A person of ordinary skill
in the art would recognize that the seat shown in the
KLM Crew rest is positioned further aft than it could
be positioned without the recess. A person of
ordinary skill in the art would recognize that the
seat could be moved further aft, such that the seat
was in the recess when in an unreclined position.
One motivation for doing so would be to increase the
amount of space in front of the passenger seat,
thereby increasing the pitch of the rows of seats in
the aircraft or allowing an additional row of seats to
be added.

271. Further, as I explain above, it would be
obvious to modify a prior art flat wall lavatory to

474a
include a second recess. I incorporate my analysis
above of [‘641 Claim 1, Element C].
IX.

SUMMARY

272. I note that my analysis is continuing and that
I may modify or supplement my conclusions as I
receive additional information. I declare under
penalty of perjury that the foregoing Declaration is
true and correct.
Dated: April 13, 2017

/s/ Alan J. Anderson
Alan J. Anderson

475a
Exhibit A - Anderson CV
Professional Experience
The Mission Zero Foundation
Founding Board Member, 2015 to Present
The Ray C Anderson Foundation
Advisory Board Member, 2013 to Present
Independent Consultant
The Boeing Company, 2012-2014
C&D Zodiac, 2012-2014
The Boeing Company
x 1968 to 1978; Design Engineer, then Lead
Engineer (747, 707, 727, 737 and 757
Programs)
responsible
for
developing
Engineering
Detail,
Assembly
and
Installation Drawings, Component and
System Specifications, Test and Certification
Plans. Coordinating Airline Requirements for
Cargo Handling Equipment, Passenger and
Crew Oxygen Systems, Galleys, Seats and
Lavatories.
x 1978 to 1988; Engineering Design Manager
(727, 737, 757 and 7J7 Programs) for Oxygen,
Insulation, Interior Linings, Waste, Water,
Cargo, Galleys and Lavatories.
x 1978 to 1992; Chief Engineer Payload
Systems Advanced Programs, Overseeing
Technology and New Product Development
for Payload Systems.
x 1992 to 1999; Chief Engineer 747 and 767
Payload Systems, overseeing all Engineering
activity for Payload Systems

476a
x

x

1999 to 2011; Chief Engineer and Director of
Engineering, Payload Systems, overseeing
Engineering staffing, technical development,
and commonality for both parts and processes
across all Boeing Airplane Interiors
2003 to 2011; Chief Engineer, Interiors, 787
Program, developing requirements, budgets
and schedules for the program and being
responsible to bring the 787 Interior to
market.

Education
University of Washington
Bachelor of Science, Mechanical
Engineering, 1964 to 1968
Dartmouth College
National Science Foundation Student,
Engineering Design. 1965
Columbian Business School
Executive Education, 1996
Professional Activities and Associations
x US
(Air
Transport
Association)
Representative to the European Cabin Safety
Working Group, 1991 to 1992.

477a
APPENDIX H
(12) United States Patent
Cook et al.
(10) Patent No.: US 9,440,742 B2
(45) Date of Patent: Sep. 13, 2016
(54) AIRCRAFT INTERIOR LAVATORY
(71) Applicant: B/E Aerospace, Inc., Wellington,
FL (US)
(72) Inventors: Donald F. Cook, Arlington, WA
(US); Liberty Harrington, Seattle, WA (US);
Philipp Steiner, Seattle, WA (US); Robert K.
Brauer, Seattle, WA (US); Trevor Skelly, Mercer
Island, WA (US)
(73)
Assignee:
B/E
Wellington, FL (US)

AEROSPACE,

INC.,

(*) Notice: Subject to any disclaimer, the term of this
patent is extended or adjusted under 35 U.S.C.
154(b) by 0 days.
(21) Appl. No.: 15/141,338
(22) Filed: Apr. 28, 2016
(65) Prior Publication Data
US 2016/0236783 A1 Aug. 18, 2016
Related U.S. Application Data

478a
(63) Continuation of application No. 14/709,409,
filed on May 11, 2015, which is a continuation of
application No. 14/043,500, filed on Oct. 1, 2013, now
Pat. No. 9,073,641, which is a continuation of
application No.
(Continued)
(51) Int. Cl.
B64D 11/06 (2006.01)
B64D 11/02 (2006.01)
B64F 5/00 (2006.01)
(52) U.S. Cl.
CPC B64D 11/02 (2013.01); B64D 11/06 (2013.01);
B64F 5/00 (2013.01)
(58) Field of Classification Search
CPC B64D 11/00; B64D 2011/0046; B64D 11/0023;
B64D 11/06; B64D 2011/0617; B64D 2011/0665;
B64D 11/02; B64D 29/00; B64D 29/02
See application file for complete search history.
(56) References Cited
U.S. PATENT DOCUMENTS
2,650,368 A 9/1953 Evans
2,760,443 A 8/1956 Gobrecht

479a
2,914,001 A 11/1959 Murphy
3,738,497 A 6/1973 Betts et al.
(Continued)
FOREIGN PATENT DOCUMENTS
DE 694 22 723 6/2000
DE 697 25 542 4/2004
(Continued)
OTHER PUBLICATIONS
International Search Report, Sep. 15, 2011, 8 pages.
(Continued)
Primary Examiner — Benjamin P Lee
(74) Attorney, Agent, or Firm — Obion, McClelland,
Maier & Neustadt, L.L.P.
(57) ABSTRACT
A lavatory for an aircraft cabin includes a wall
having a forward wall portion disposed immediately
aft of and substantially conforming to an exterior aft
surface of an aircraft cabin structure, such as a
passenger seat, that is substantially not flat in a
vertical plane. The forward wall portion includes a
forward projection over an aft portion of the adjacent
passenger seat. The forward wall portion can define
a secondary space in the interior lavatory space,

480a
which can provide an amenity stowage space, and
can include design elements providing visual space.
17 Claims, 1 Drawing Sheet

481a
Related U.S. Application Data
13/089,063, filed on Apr. 18, 2011, now Pat. No.
8,590,838.
(60) Provisional application No. 61/346,835, filed on
May 20, 2010, provisional application No.
61/326,198, filed on Apr. 20, 2010.
(56) References Cited
U.S. PATENT DOCUMENTS
4,055,317 A 10/1977 Greiss
4,884,767 A 12/1989 Shibata
5,150,863 A 9/1992 Hozumi et al.
5,333,416 A 8/1994 Harris et al.
5,340,059 A 8/1994 Kanigowski
5,482,230 A 1/1996 Bird et al.
5,529,265 A 6/1996 Sakurai
5,577,358 A 11/1996 Franke
5,611,503 A 3/1997 Brauer
5,716,026 A 2/1998 Pascasio et al.
6,000,659 A 12/1999 Brauer
6,079,669 A 6/2000 Hanay et al.

482a
6,237,872 B1 5/2001 Bar-Levav
6,615,421 B2 9/2003 Itakura
6,822,812 B1 11/2004 Brauer
6,874,731 B1 4/2005 Brauer et al.
6,889,936 B1 5/2005 Pho et al.
D508,173 S 8/2005 Guard et al.
D516,496 S 3/2006 Guard et al.
D533,129 S 12/2006 Guard et al.
7,156,345 B2 1/2007 Brauer et al.
7,222,820 B2 5/2007 Wentland et al.
7,252,267 B2 8/2007 Young et al.
7,284,287 B2 10/2007 Cooper et al.
7,331,545 B2 2/2008 Young et al.
7.448.574 B2 11/2008 Young et al.
7.448.575 B2 11/2008 Cheung et al.
7,469,860 B2 12/2008 Young et al.
7,516,919 B2 4/2009 Young et al.
D606,923 S 12/2009 Young et al.
D617,254 S 6/2010 Guard et al.

483a
7,871,039 B2 1/2011 Fullerton et al.
7,934,679 B2 5/2011 Bock et al.
8,087,613 B2 1/2012 Fullerton et al.
8,096,502 B2 1/2012 Bock et al.
8,109,469 B2 2/2012 Breuer et al.
8,162,258 B2 4/2012 Joannis et al.
8,167,244 B2 5/2012 Johnson et al.
8,177,163 B2 5/2012 Wilcynski et al.
8,590,838 B2 11/2013 Cook et al.
D705,909 S 5/2014 Koyama et al.
2006/0192050 A1 8/2006 Cheung et al.
2007/0164157 A1 7/2007 Park
2007/0170310 A1 7/2007 Bock et al.
2007/0241232 A1 10/2007 Thompson
2007/0295863 A1 12/2007 Thompson
2009/0050738 A1 2/2009 Breuer et al.
2009/0065642 A1 3/2009 Cheung et al.
2009/0146004 A1 6/2009 Plant
2009/0200422 A1 8/2009 Johnson et al.

484a
2009/0255437 A1 10/2009 Hachet et al.
2010/0059625 A1 3/2010 Saint-Jalmes et al.
2010/0181425 A1 7/2010 Guering et al.
2011/0121134 A1 5/2011 Schotte et al.
2011/0139930 A1 6/2011 Sutthoff et al.
2011/0210205 A1 9/2011 Bock et al.
2012/0112505 A1 5/2012 Breuer et al.
2012/0253752 A1 10/2012 Brauer
2012/0273614 A1 11/2012 Ehlers et al.
2012/0325964 A1 12/2012 Hawkins et al.
2013/0206906 A1 8/2013 Burrows et al.
2014/0014774 A1 1/2014 Pozzi et al.
2014/0027572 A1 1/2014 Ehlers et al.
2014/0027574 A1 1/2014 Obadia et al.
2015/0363656 A1 12/2015 Brauer
FOREIGN PATENT DOCUMENTS
EP 0 722 404 7/1996
EP 0 850 834 7/1998
EP 1281614 3/2005

485a
EP 1 685 023 8/2006
WO 03026495 4/2003
WO 2005014395 2/2005
WO 2005080196 9/2005
WO 2007006938 1/2007
OTHER PUBLICATIONS
McDonnel Douglas, DC-10 Customer Configuration,
Oct. 1978, 177 pages.
C&D Zodiac, Inc.’s proposal to Scandinavian
Airlines System to manufacture S4 Storage Unit,
Aug. 23, 2001, 17 pages.
C&D Zodiac, Inc.’s drawings with a leading p.
entitled “MD90,” 27 pages.
Photographs of C&D Zodiac, Inc.’s S4 storage unit, 5
pages. C&D Zodiac, Inc.’s Petition for Inter Partes
Review of U.S. Pat. No.
8,590,838 (including Exhibits tabs 1-9), May 2, 2014,
856 pages. Technical Proposal by FSI to Air France
regarding a Door 4 overhead crew rest station for the
Boeing 747, Aug. 3, 1994, 10 pages.
Rendering and photographs of Boeing 747 overhead
crew station, 3 pages.
B/E Aerospace, Inc.’s Motion for Preliminary
Injunction, May 16,

486a
2014, 25 pages.
Greg Chamitoff Declaration in support of B/E
Aerospace, Inc.’s Motion for Preliminary Injunction,
May 14, 2014, 39 pages. International Search
Report, Jan. 27, 2015, 5 pages, from PCT/
US2013/050342 published as WO 2014/014780 on
Jan. 23, 2014. Slide Deck, B/E Aerospace, Spacewall
Technology, Examiner Interview, Feb. 24, 2016, 53
pages.

487a

488a
AIRCRAFT INTERIOR LAVATORY
CROSS-REFERENCES TO RELATED
APPLICATIONS
This application is a continuation of and claims
the benefit of priority from U.S. Ser. No. 14/709,409,
filed May 11, 2015, which is a continuation of U.S.
Ser. No. 14/043,500, filed on Oct. 1, 2013, U.S. Pat.
No. 9,073,641, issue date Jul. 7, 2015, which is a
continuation of U.S. Ser. No. 13/089,063, filed on
Apr. 18, 2011, U.S. Pat. No. 8,590,838, issue date
Nov. 26, 2013, which claims priority from
Provisional Application No. 61/326,198, filed Apr.
20, 2010, and Provisional Application No.
61/346,835, filed May 20, 2010, which are
incorporated by reference in their entirety herein.
BACKGROUND OF THE INVENTION
The present invention relates generally to
aircraft enclosures, and more particularly relates to
an aircraft cabin enclosure, such as a lavatory, an
aircraft closet, or an aircraft galley, for example,
including an aircraft cabin structure having an aft
portion with a substantially vertically extending
exterior aft surface that is substantially not flat in a
vertical plane.
Aircraft lavatories, closets and other full height
enclosures commonly have forward walls that are
flat in a vertical plane. Structures such as passenger
seats installed forward of such aircraft lavatories,
closets and similar full height enclosures often have
shapes that are contoured in the vertical plane. The

489a
juxtaposition of these flat walled enclosures and
contoured structures renders significant volumes
unusable to both the function of the flat walled
lavatory or enclosure and the function of the
contoured seat or other structure. Additionally, due
to the lack of a provision for structural load sharing,
conventional aircraft lavatories require a gap
between the lavatory enclosures and adjacent
structures, resulting in a further inefficiency in the
use of space.
Aircraft
bulkheads,
typically
separating
passenger cabin areas or classes of passenger
service, are in common use, and typically have a
contour permitting passengers seated behind the
bulkhead to extend their feet modestly under the
premium seats immediately forward of the
bulkhead. These provide a comfort advantage to
passengers seated behind the bulkhead, but provide
no increased efficiency in the use of space, in that
they do not enable the seats fore and aft of the
bulkhead to be placed more closely together. Short,
floor-mounted stowage boxes, typically no taller
than the bottom cushion of a passenger seat, are
often positioned between the flat wall of current
lavatories or other enclosures and passenger seats.
These provide no improvement to the utility or
spatial efficiency of the lavatory or other enclosure.
While they do provide some useful stowage for
miscellaneous items, they do not provide sufficient
additional stowage to provide more space for
passenger seating.
It would be desirable to provide an aircraft
lavatory or other enclosure that can reduce or

490a
eliminate the gaps and volumes of space previously
required between lavatory enclosures and adjacent
structures to allow an adjacent structure such as
passenger seating installed forward of the lavatory
or other enclosure to be installed further aft,
providing more space forward of the lavatory or
enclosure for passenger seating or other features
than has been possible in the prior art.
Alternatively, the present invention can provide a
more spacious lavatory or other enclosure with no
need to move adjacent seats or other structures
forward.
It would also be desirable to provide an aircraft
lavatory or other enclosure with a wall to bear loads
from an adjacent passenger seating or other
structure, permitting elimination of a required gap
between the lavatory or other enclosure and the
adjacent passenger seating or other structure,
making more space available for other uses. In
addition, enabling a lavatory or other enclosure to
bear loads from an adjacent structure can reduce the
combined weight of the lavatory or other enclosure
and the adjacent structure.
It also would be desirable to provide an aircraft
lavatory or other enclosure that can reduce or
eliminate the gaps and volumes of space previously
required between lavatory enclosures and adjacent
structures, to allow the installation of an increased
number of passenger seats, to increase the value of
the aircraft. The present invention meets these and
other needs.
SUMMARY OF THE INVENTION

491a
Briefly, and in general terms, the present
invention provides for an enclosure, such as a
lavatory, an aircraft closet, or an aircraft galley, for
example, for a cabin of an aircraft including a
structure having an aft portion with a substantially
vertically extending exterior aft surface that is
substantially not flat in a vertical plane. The
enclosure structure permits a combination of the
enclosure with the structure in a manner that
permits significant saving of space in the aircraft,
which in turn permits more seats to be installed, or
more space to be offered per seat, increasing the
value of the aircraft.
Accordingly, in one presently preferred aspect,
the present invention provides for an enclosure unit
for a cabin of an aircraft including an aircraft cabin
structure having an aft portion with an exterior aft
surface that is substantially not flat in a vertical
plane. The enclosure unit can be a lavatory, an
aircraft closet, or an aircraft galley, for example. In
one presently preferred aspect, the enclosure unit
includes one or more walls that are taller than an
adjacent aircraft cabin structure, the one or more
walls defining an interior enclosure space and
having a forward wall portion. The forward wall
portion is configured to be disposed immediately aft
of and adjacent to or abutting the exterior aft surface
of the aircraft cabin structure, and the forward wall
portion is shaped to substantially conform to the
shape of the exterior aft surface of the aircraft cabin
structure.
In another presently preferred aspect, the
enclosure unit includes an enclosure stall unit, and

492a
the aircraft cabin structure is a passenger seat
installed immediately forward of the enclosure stall
unit. In another presently preferred aspect, the
forward wall portion of the enclosure unit is
configured to accept loads from the aircraft
passenger seat. In another presently preferred
aspect, the forward wall portion includes a forward
projection configured to project over an aft portion of
the adjacent passenger seat immediately forward of
the enclosure stall unit.
In another presently preferred aspect, the
enclosure is a lavatory, including a lavatory stall
unit with one or more walls having a forward wall
portion. The one or more walls define an interior
lavatory space, and the forward wall portion is
configured to be disposed immediately aft of and
adjacent to or abutting an aircraft cabin structure
having an exterior aft surface having a shape that is
substantially not flat in a vertical plane. In a
presently preferred aspect, the forward wall portion
is shaped to substantially conform to the shape of
the exterior aft surface of the aircraft cabin
structure.
In another presently preferred aspect, the
aircraft cabin structure is a passenger seat installed
immediately forward of the lavatory stall unit, and
the forward wall portion of the lavatory stall unit is
configured to accept loads from the passenger seat.
In another presently preferred aspect, the forward
wall portion includes a forward projection
configured to project over an aft portion of the
adjacent passenger seat immediately forward of the
lavatory stall unit. In another presently preferred

493a
aspect, the forward wall portion defines a secondary
space in the interior lavatory space in an area
forward of an aft-most portion of the forward wall
portion. The secondary space can provide an
amenity stowage space inside the lavatory stall unit
in the area forward of an aft-most portion of the
forward wall portion, and can include design
elements providing visual space inside the lavatory
in the area forward of an aft-most portion of the
forward wall portion.
In another presently preferred aspect, the
present invention provides for an assembly of an
aircraft enclosure unit and an aircraft cabin
structure for an aircraft cabin, the assembly in
combination including an aircraft cabin structure
having an exterior aft surface having a shape that is
substantially not flat in a vertical plane, and an
aircraft enclosure unit including at least one wall
having a forward wall portion. The one or more walls
define an interior enclosure space, the forward wall
portion is disposed immediately aft of and adjacent
to the aircraft cabin structure, and the forward wall
portion is shaped to substantially conform to the
shape of the exterior aft surface of the aircraft cabin
structure. In another presently preferred aspect, the
aircraft cabin structure is a passenger seat installed
immediately forward of the aircraft enclosure unit.
In another presently preferred aspect, the forward
wall portion is configured to accept loads from the
aircraft passenger seat. In another presently
preferred aspect, the forward wall portion includes a
forward projection configured to project over an aft
portion of the adjacent passenger seat immediately
forward of the aircraft enclosure unit.

494a
In another presently preferred aspect, the
aircraft enclosure unit is a lavatory stall, and the
one or more walls define an interior lavatory space.
In another presently preferred aspect, the forward
wall portion defines a secondary space in the interior
lavatory space in an area forward of an aft-most
portion of the forward wall portion.
In another presently preferred aspect, the
present invention provides for an assembly of an
aircraft lavatory unit and an aircraft cabin structure
for an aircraft cabin, in which the assembly in
combination includes an aircraft cabin structure
having an exterior aft surface having a shape that is
substantially not flat in a vertical plane, and an
aircraft lavatory stall unit including one or more
walls having a forward wall portion. In another
presently preferred aspect, the one or more walls
define an interior lavatory space, the forward wall
portion is disposed immediately aft of and adjacent
to the aircraft cabin structure, and the forward wall
portion is shaped to substantially conform to the
shape of the exterior aft surface of the aircraft cabin
structure. In another presently preferred aspect, the
aircraft cabin structure is a passenger seat installed
immediately forward of the aircraft lavatory stall
unit, and wherein the forward wall portion of the
aircraft lavatory stall unit is configured to accept
loads from the passenger seat. In another presently
preferred aspect, the forward wall portion includes a
forward projection configured to project over an aft
portion of the adjacent passenger seat immediately
forward of the aircraft lavatory stall unit. In another
presently preferred aspect, the forward wall portion
defines a secondary space in the interior lavatory

495a
space in an area forward of an aft-most portion of the
forward wall portion.
These and other aspects and advantages of the
invention will become apparent from the following
detailed description and the accompanying
drawings, which illustrate by way of example the
features of the invention.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 is a schematic diagram of a prior art
installation of a lavatory immediately aft of and
adjacent to an aircraft passenger seat.
FIG. 2 is a schematic diagram of an installation
of a lavatory according to the present invention
immediately aft of and adjacent to or abutting an
aircraft cabin passenger seat.
DETAILED DESCRIPTION OF THE
PREFERRED EMBODIMENTS
Referring to the drawings, which are provided by
way of example, and not by way of limitation, the
present invention provides for an enclosure 10, such
as a lavatory for a cabin 12 of an aircraft (not
shown), although the enclosure may also be an
aircraft closet, or an aircraft galley, or similar
enclosed or structurally defined spaces, for example.
As is illustrated in FIG. 2, the cabin includes a
structure 14, and the enclosure may be taller than
the cabin structure. The cabin structure can be a
passenger seat 16, for example, installed
immediately forward of the enclosure and having an

496a
aft portion 18 with and exterior aft surface 20 that
is substantially not flat in a vertical plane 22. The
lavatory includes a lavatory stall unit 24 having one
or more walls 26 having a forward wall portion 28.
The one or more walls define an interior lavatory
space 30, and the forward wall portion is configured
to be disposed immediately aft of and adjacent to or
abutting the exterior aft surface of the aircraft cabin
structure. The forward wall portion has a shape that
is substantially not flat in the vertical plane, and
preferably is shaped to include a recess 34 such that
the forward wall portion substantially conforms to
the shape of the exterior aft surface of the aircraft
cabin structure. In a presently preferred aspect, the
forward wall portion of the lavatory stall unit is
configured to accept loads from the passenger seat.
As shown in FIG. 2, the forward wall portion 28 can
be configured to provide a lower recess 100 formed
between the forward wall portion 28 and the cabin
deck 102. As also shown in FIG. 2, the lower recess
100 can be configured to receive at least a portion of
an aft-extending seat support 17 therein. As can be
seen by comparing FIG. 1 and FIG. 2, the recess 34
and the lower recess 100 combine to permit the
passenger seat 16 to be positioned farther aft in the
cabin than would be possible if the lavatory
enclosure 10 included a conventional flat and
vertical forward wall without recesses like that
shown in FIG. 1, or included a forward wall that did
not include both recesses 34, 100.
In another presently preferred aspect, the
forward wall portion defines a secondary space 36 in
the interior lavatory space in an area 38 forward of
an aft-most portion 40 of the forward wall portion,

497a
and the forward wall portion includes a forward
projection 42 configured to project over the aft
portion of the adjacent passenger seat back 44
immediately forward of the lavatory stall unit. The
secondary space can include an amenity stowage
space 46 inside the lavatory stall unit in the area
forward of the aft-most portion of the forward wall
portion, and the secondary space can include design
elements providing visual space, such as a visual
perception of space, inside the lavatory in the area
forward of an aft-most portion of the forward wall
portion.
It will be apparent from the foregoing that while
particular forms of the invention have been
illustrated and described, various modifications can
be made without departing from the spirit and scope
of the invention. Accordingly, it is not intended that
the invention be limited, except as by the appended
claims.
The invention claimed is:
1. An aircraft lavatory for an aircraft, the
aircraft lavatory comprising:
an aft partition; and
a forward partition, including
a forward-extending upper portion,
an aft-extending mid-portion, and
a

forward-extending
wherein

lower

portion,

498a
the forward-extending upper portion,
the aft-extending mid-portion, and
the
forward-extending
lower
portion combine to define a first aftextending recess disposed between
the
forward-extending
upper
portion and the forward-extending
lower portion, wherein the first aftextending recess is configured to
receive an aft-extending seat back
of a forward-positioned passenger
seat therein, and
the forward partition further defines at
least one second aft-extending
recess proximate to a lower end of
the forward partition, the at least
one second aft-extending recess
being configured to receive at least
a portion of an aft-extending seat
support of the forward-positioned
passenger seat therein,
wherein the forward partition is
configured to accept loads from the aftextending seat back;
wherein the aft partition and forward
partition define a lavatory space
disposed therebetween.
2. The aircraft lavatory of claim 1, wherein
the first aft-extending recess and the at least
one second aft-extending recess permit the
aft-extending seat support to be positioned

499a
further aft in a cabin area of the aircraft when
compared with a position of said aft-extending
seat support if said forward partition was
instead substantially flat.
3. The aircraft lavatory of claim 1, wherein
the first aft-extending recess substantially
conforms to a contour of an aft surface of the
aft-extending seat back.
4. The aircraft lavatory of claim 1, wherein
the forward extending upper portion is
adapted to protrude forwardly over a top of
the aft-extending seat back.
5. The aircraft lavatory of claim 1, wherein
the aft-extending seat back is in an upright
and not a reclined position.
6. The aircraft lavatory of claim 1, wherein
the first aft-extending recess extends along
substantially a full width of the forward
partition.
7. The aircraft lavatory of claim 1, wherein
the first aft-extending recess and the at least
one second aft-extending recess permit the
aft-extending seat support to be positioned in
a manner that reduces a volume of unusable
space in a cabin area of the aircraft by
reducing or eliminating gaps that would
otherwise exist between a substantially flat
forward partition of the aircraft lavatory and
the forward-positioned passenger seat.

500a
8. A method for reducing a volume of
unusable space in a cabin area of a passenger
aircraft, comprising:
replacing at least a previously-installed
forward partition of a pre-existing aircraft
lavatory in the cabin area of the passenger
aircraft with a contoured forward
partition, wherein
an outward facing vertical surface of the
previously-installed forward partition
is substantially flat, and
the contoured forward partition comprises
at least one first recess configured to
receive at least a portion of an
upwardly and aftwardly inclined
seat back of a passenger seat
therein, and
at least one second recess configured to
receive at least a portion of an aftextending seat support of the
passenger seat therein; and
installing the passenger seat in front of the
contoured forward partition;
wherein, upon installation,
the at least one first recess receives at
least a portion of the upwardly and
aftwardly inclined seat back, and

501a
the second recess receives at least a
portion of the aft-extending seat
support,
thereby reducing the volume of unusable
space in the cabin area by reducing or
eliminating gaps that existed between
the previously-installed forward wall
and the passenger seat.
9. The method of claim 8, wherein the
contoured forward partition is adapted to
receive loads from the passenger seat.
10. The method of claim 8, wherein the at
least one first recess substantially conforms to
a contour of an aft surface of the upwardly
and aftwardly inclined seat back.
11. The method of claim 8, wherein the
contoured
forward
partition
further
comprises an upper projection that, upon
installation, protrudes forward over a top of
the upwardly and aftwardly inclined seat
back.
12. The method of claim 11, wherein the
upper projection is configured to abut an
upper surface of the cabin area.
13. The method of claim 11, wherein the
upper projection defines an interior storage
space in the aircraft lavatory.

502a
14. The method of claim 8, wherein the
upwardly and aftwardly inclined seat back is
in an upright and not a reclined position.
15. The method of claim 8, wherein the at
least one first recess extends along
substantially a full width of the contoured
forward partition.
16. The method of claim 8, wherein
replacing the previously-installed forward
partition with the contoured forward
partition permits the aft-extending seat
support to be positioned farther aft in the
cabin area than was possible when the
previously-installed forward partition was
installed in the cabin area.
17. The method of claim 8, wherein a
combined weight of the contoured forward
partition and passenger seat is reduced in
comparison to a combined weight of the
previously installed forward partition and the
passenger seat.

503a
APPENDIX I
(12) United States Patent
Cook et al.
(10) Patent No.: US 9,073,641 B2
(45) Date of Patent: Jul. 7, 2015
(54) AIRCRAFT INTERIOR LAVATORY
(71) Applicant: B/E Aerospace, Inc., Wellington,
FL (US)
(72) Inventors: Donald F. Cook, Arlington, WA
(US); Liberty Harrington, Seattle, WA (US);
Philipp Steiner, Seattle, WA (US); Robert K.
Brauer, Seattle, WA (US); Trevor Skelly, Mercer
Island, WA (US)
(73) Assignee: B/E Aerospace, Inc., Wellington, FL
(US)
(*) Notice: Subject to any disclaimer, the term of this
patent is extended or adjusted under 35 U.S.C.
154(b) by 0 days.
(21) Appl. No.: 14/043,500
(22) Filed: Oct. 1, 2013
(65) Prior Publication Data
US 2014/0158825A1
Jun. 12, 2014

504a
Related U.S. Application Data
(63) Continuation of application No. 13/089,063,
filed on Apr. 18, 2011, now Pat. No. 8,590,838.
(60) Provisional application No. 61/346,835, filed on
May 20, 2010, provisional application No. 61/326,
198, filed on Apr. 20, 2010.
(51) Int. Cl.
B64D 11/06 (2006.01)
B64D 11/02 (2006.01)
B64C 1/10 (2006.01)
(52) U.S. Cl.
CPC. B64D 11/02 (2013.01); B64C 1/10 (2013.01);
Y02T 50/46 (2013.01)
(58) Field of Classification Search
CPC B64D 11/00; B64D 2011/0046; B64D 11/0023;
B64D 11/06; B64D 2011/0617; B64D 2011/0665;
B63B 11/00; B63B 11/02; B63B 29/00; B63B 29/02;
E47K 3/00; E47K 11/00
USPC 244/1 R, 118.5, 118.6, 129.1, 117 R; 114/116
See application file for complete search history.
(56) References Cited
U.S. PATENT DOCUMENTS

505a
2,650,368 A 9, 1953 Evans
2,760,443 A * 8/1956 Gobrecht 105,315
(Continued)
FOREIGN PATENT DOCUMENTS
EP 1281614 A1 3/2005
WO 03026495 A2 4/2003
(Continued)
OTHER PUBLICATIONS
EPO, International Search Report and Written
Opinion for PCT international Application No.
PCT/US2011/033090 dated Sep. 15, 2011.
(Continued)
Primary Examiner — Benjamin P Lee
(74) Attorney, Agent, or Firm — Fulwider Patton
LLP

506a
(57) ABSTRACT
A lavatory for an aircraft cabin includes a wall
having a forward wall portion disposed immediately
aft of and substantially conforming to an exterior aft
surface of an aircraft cabin structure, such as a
passenger seat, that is substantially not flat in a
vertical plane. The forward wall portion includes a
forward projection over an aft portion of the adjacent
passenger seat. The forward wall portion can define
a secondary space in the interior lavatory space,
which can provide an amenity stowage space, and
can include design elements providing visual space.
17 Claims, 1 Drawing Sheet

507a
(56) References Cited
U.S. PATENT DOCUMENTS
2,914,001 A * 11/1959 Murphy 105,315
3,738,497 A 6/1973 Betts et al.
4,055,317 A 10/1977 Greiss
4,884,767 A 12/1989 Shibata
5,150,863 A 9/1992 Hozumi et al.
5,333,416 A 8/1994 Harris et al.
5,340,059 A 8/1994 Kanigowski
5,482,230 A 1/1996 Bird et al.
5,529,265 A 6/1996 Sakurai
5,577,358 A 11/1996 Franke
5,716,026 A * 2/1998 Pascasio et al. 244/18.6
6,079,669 A 6/2000 Hanay et al.
6,615,421 B2 9/2003 Itakura
6,889,936 B1 5/2005 Pho et al.
7,222,820 B2 5/2007 Wentland et al.
7,284,287 B2 * 10/2007 Cooper et al. 4/664
7,448,575 B2 * 11/2008 Cheung et al. 244/118.6

508a
7,934,679 B2 5/2011 Bock et al.
8,096,502 B2 1/2012 Bock et al.
8,109,469 B2 2/2012 Breuer et al.
8,162,258 B2 4/2012 Joannis et al.
8,167,244 B2 5/2012 Johnson et al.
8,177,163 B2 5/2012 Wilcynski et al.
2006/0192050 A1 8/2006 Cheung et al.
2007/0164157 A1 * 7/2007 Park 244/118.6
2007/0170310 A1 7/2007 Bock et al.
2007/0241232 A1 10/2007 Thompson
2007/0295863 A1 12/2007 Thompson
2009/0050738 A1 2/2009 Breuer
2009/0065642 A1 3/2009 Cheung et al.
2009/0200422 A1 8/2009 Johnson
2009/0255437 A1 10/2009 Hatchet
2010/0059625 A1 3/2010 Saint-Jalmes et al.
2010/0181425 A1 7/2010 Guering et al.
2011/0121134 A1 5/2011 Schotte et al.
2011/0139930 A1 6/2011 Sutthoff et al.

509a
2011/0210205 A1 9/2011 Bocket al.
2012/0112505 A1 5/2012 Breuer et al.
2012/0273614 A1 11/2012 Ehlers et al.
2012/0325964 A1 12/2012 Hawkins et al.
2013/0206906 A1 8/2013 Burrows et al.
2014/0014774 A1 1/2014 Pozzi et al.
2014/0027572 A1 1/2014 Ehlers et al.
FOREIGN PATENT DOCUMENTS
WO 2005014395 A1 2/2005
WO 2005080196 A1 9/2005
WO 2007006938 A1 1/2007
OTHER PUBLICATIONS
McDonnell
Douglas,
DC-10
Configuration, Oct. 1978, 177 pages.

Customer

C&D Zodiac, Inc.’s proposal to Scandinavian
Airlines System to manufacture S4 Storage Unit,
Aug. 23, 2001, 17 pages.
C&D Zodiac, Inc.’s drawings with a leading page
entitled “MD90,” 27 pages.
Photographs of C&D Zodiac, Inc.’s S4 Storage unit,
5 pages.

510a
C&D Zodiac, Inc.’s Petition for Inter Partes Review
of U.S. Patent No. 8,590,838 (including exhibits/tabs
1-9), May 2, 2014,856 pages.
Technical Proposal by FSI to Air France regarding a
Door 4 overhead crew rest station for the Boeing 747,
Aug. 3, 1994, 10 pages.
Rendering and photographs of Boeing 747 overhead
crew rest station, 3 pages.
B/E Aerospace, Inc. Motion for
Injunction, May 16, 2014, 25 pages.

Preliminary

Greg Chamitoff Declaration in support of B/E
Aerospace, Inc.’s Motion for Preliminary Injunction,
May 14, 2014, 39 pages.
Chinese Search Report, Aug. 5, 2014, 1 page, from
Chinese application No. 20118.00202050.
* cited by examiner

511a

512a
AIRCRAFT INTERIOR LAVATORY
CROSS-REFERENCES TO RELATED
APPLICATIONS
This continuation application is based upon U.S.
Ser. No. 13/089,063, filed on Apr. 18, 2011, which
claims priority from Provisional Application No.
61/326,198, filed Apr. 20, 2010, and Provisional
Application No. 61/346,835, filed May 20, 2010,
which are incorporated by reference in their entirety
herein.
BACKGROUND OF THE INVENTION
The present invention relates generally to
aircraft enclosures, and more particularly relates to
an aircraft cabin enclosure, such as a lavatory, an
aircraft closet, or an aircraft galley, for example,
including an aircraft cabin structure having an aft
portion with a substantially vertically extending
exterior aft surface that is substantially not flat in a
vertical plane.
Aircraft lavatories, closets and other full height
enclosures commonly have forward walls that are
flat in a vertical plane. Structures such as passenger
seats installed forward of such aircraft lavatories,
closets and similar full height enclosures often have
shapes that are contoured in the vertical plane. The
juxtaposition of these flat walled enclosures and
contoured structures renders significant volumes
unusable to both the function of the flat walled
lavatory or enclosure and the function of the
contoured seat or other structure. Additionally, due

513a
to the lack of a provision for structural load sharing,
conventional aircraft lavatories require a gap
between the lavatory enclosures and adjacent
structures, resulting in a further inefficiency in the
use of space.
Aircraft
bulkheads,
typically
separating
passenger cabin areas or classes of passenger
service, are in common use, and typically have a
contour permitting passengers seated behind the
bulkhead to extend their feet modestly under the
premium seats immediately forward of the
bulkhead. These provide a comfort advantage to
passengers seated behind the bulkhead, but provide
no increased efficiency in the use of space, in that
they do not enable the seats fore and aft of the
bulkhead to be placed more closely together. Short,
floor-mounted stowage boxes, typically no taller
than the bottom cushion of a passenger seat, are
often positioned between the flat wall of current
lavatories or other enclosures and passenger seats.
These provide no improvement to the utility or
spatial efficiency of the lavatory or other enclosure.
While they do provide some useful stowage for
miscellaneous items, they do not provide sufficient
additional stowage to provide more space for
passenger seating.
It would be desirable to provide an aircraft
lavatory or other enclosure that can reduce or
eliminate the gaps and volumes of space previously
required between lavatory enclosures and adjacent
structures to allow an adjacent structure such as
passenger seating installed forward of the lavatory
or other enclosure to be installed further aft,

514a
providing more space forward of the lavatory or
enclosure for passenger seating or other features
than has been possible in the prior art.
Alternatively, the present invention can provide a
more spacious lavatory or other enclosure with no
need to move adjacent seats or other structures
forward.
It would also be desirable to provide an aircraft
lavatory or other enclosure with a wall to bear loads
from an adjacent passenger seating or other
structure, permitting elimination of a required gap
between the lavatory or other enclosure and the
adjacent passenger seating or other structure,
making more space available for other uses. In
addition, enabling a lavatory or other enclosure to
bear loads from an adjacent structure can reduce the
combined weight of the lavatory or other enclosure
and the adjacent structure.
It also would be desirable to provide an aircraft
lavatory or other enclosure that can reduce or
eliminate the gaps and volumes of space previously
required between lavatory enclosures and adjacent
structures, to allow the installation of an increased
number of passenger seats, to increase the value of
the aircraft. The present invention meets these and
other needs.
SUMMARY OF THE INVENTION
Briefly, and in general terms, the present
invention provides for an enclosure, such as a
lavatory, an aircraft closet, or an aircraft galley, for
example, for a cabin of an aircraft including a

515a
structure having an aft portion with a substantially
vertically extending exterior aft surface that is
substantially not flat in a vertical plane. The
enclosure structure permits a combination of the
enclosure with the structure in a manner that
permits significant saving of space in the aircraft,
which in turn permits more seats to be installed, or
more space to be offered per seat, increasing the
value of the aircraft.
Accordingly, in one presently preferred aspect,
the present invention provides for an enclosure unit
for a cabin of an aircraft including an aircraft cabin
structure having an aft portion with an exterior aft
surface that is substantially not flat in a vertical
plane. The enclosure unit can be a lavatory, an
aircraft closet, or an aircraft galley, for example. In
one presently preferred aspect, the enclosure unit
includes one or more walls that are taller than an
adjacent aircraft cabin structure, the one or more
walls defining an interior enclosure space and
having a forward wall portion. The forward wall
portion is configured to be disposed immediately aft
of and adjacent to or abutting the exterior aft surface
of the aircraft cabin structure, and the forward wall
portion is shaped to substantially conform to the
shape of the exterior aft surface of the aircraft cabin
structure.
In another presently preferred aspect, the
enclosure unit includes an enclosure stall unit, and
the aircraft cabin structure is a passenger seat
installed immediately forward of the enclosure stall
unit. In another presently preferred aspect, the
forward wall portion of the enclosure unit is

516a
configured to accept loads from the aircraft
passenger seat. In another presently preferred
aspect, the forward wall portion includes a forward
projection configured to project over an aft portion of
the adjacent passenger seat immediately forward of
the enclosure stall unit.
In another presently preferred aspect, the
enclosure is a lavatory, including a lavatory stall
unit with one or more walls having a forward wall
portion. The one or more walls define an interior
lavatory space, and the forward wall portion is
configured to be disposed immediately aft of and
adjacent to or abutting an aircraft cabin structure
having an exterior aft surface having a shape that is
substantially not flat in a vertical plane. In a
presently preferred aspect, the forward wall portion
is shaped to substantially conform to the shape of
the exterior aft surface of the aircraft cabin
structure.
In another presently preferred aspect, the
aircraft cabin structure is a passenger seat installed
immediately forward of the lavatory stall unit, and
the forward wall portion of the lavatory stall unit is
configured to accept loads from the passenger seat.
In another presently preferred aspect, the forward
wall portion includes a forward projection
configured to project over an aft portion of the
adjacent passenger seat immediately forward of the
lavatory stall unit. In another presently preferred
aspect, the forward wall portion defines a secondary
space in the interior lavatory space in an area
forward of an aft-most portion of the forward wall
portion. The secondary space can provide an

517a
amenity stowage space inside the lavatory stall unit
in the area forward of an aft-most portion of the
forward wall portion, and can include design
elements providing visual space inside the lavatory
in the area forward of an aft-most portion of the
forward wall portion.
In another presently preferred aspect, the
present invention provides for an assembly of an
aircraft enclosure unit and an aircraft cabin
structure for an aircraft cabin, the assembly in
combination including an aircraft cabin structure
having an exterior aft surface having a shape that is
substantially not flat in a vertical plane, and an
aircraft enclosure unit including at least one wall
having a forward wall portion. The one or more walls
define an interior enclosure space, the forward wall
portion is disposed immediately aft of and adjacent
to the aircraft cabin structure, and the forward wall
portion is shaped to substantially conform to the
shape of the exterior aft surface of the aircraft cabin
structure. In another presently preferred aspect, the
aircraft cabin structure is a passenger seat installed
immediately forward of the aircraft enclosure unit.
In another presently preferred aspect, the forward
wall portion is configured to accept loads from the
aircraft passenger seat. In another presently
preferred aspect, the forward wall portion includes a
forward projection configured to project over an aft
portion of the adjacent passenger seat immediately
forward of the aircraft enclosure unit.
In another presently preferred aspect, the
aircraft enclosure unit is a lavatory stall, and the
one or more walls define an interior lavatory space.

518a
In another presently preferred aspect, the forward
wall portion defines a secondary space in the interior
lavatory space in an area forward of an aft-most
portion of the forward wall portion.
In another presently preferred aspect, the
present invention provides for an assembly of an
aircraft lavatory unit and an aircraft cabin structure
for an aircraft cabin, in which the assembly in
combination includes an aircraft cabin structure
having an exterior aft surface having a shape that is
substantially not flat in a vertical plane, and an
aircraft lavatory stall unit including one or more
walls having a forward wall portion. In another
presently preferred aspect, the one or more walls
define an interior lavatory space, the forward wall
portion is disposed immediately aft of and adjacent
to the aircraft cabin structure, and the forward wall
portion is shaped to substantially conform to the
shape of the exterior aft surface of the aircraft cabin
structure. In another presently preferred aspect, the
aircraft cabin structure is a passenger seat installed
immediately forward of the aircraft lavatory stall
unit, and wherein the forward wall portion of the
aircraft lavatory stall unit is configured to accept
loads from the passenger seat. In another presently
preferred aspect, the forward wall portion includes a
forward projection configured to project over an aft
portion of the adjacent passenger seat immediately
forward of the aircraft lavatory stall unit. In another
presently preferred aspect, the forward wall portion
defines a secondary space in the interior lavatory
space in an area forward of an aft-most portion of the
forward wall portion.

519a
These and other aspects and advantages of the
invention will become apparent from the following
detailed description and the accompanying
drawings, which illustrate by way of example the
features of the invention.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 is a schematic diagram of a prior art
installation of a lavatory immediately aft of and
adjacent to an aircraft passenger seat.
FIG. 2 is a schematic diagram of an installation
of a lavatory according to the present invention
immediately aft of and adjacent to or abutting an
aircraft cabin passenger seat.
DETAILED DESCRIPTION OF THE
PREFERRED EMBODIMENTS
Referring to the drawings, which are provided by
way of example, and not by way of limitation, the
present invention provides for an enclosure 10, such
as a lavatory for a cabin 12 of an aircraft (not
shown), although the enclosure may also be an
aircraft closet, or an aircraft galley, or similar
enclosed or structurally defined spaces, for example.
As is illustrated in FIG. 2, the cabin includes a
structure 14, and the enclosure may be taller than
the cabin structure. The cabin structure can be a
passenger
seat 16,
for
example,
installed
immediately forward of the enclosure and having an
aft portion 18 with and exterior aft surface 20 that
is substantially not flat in a vertical plane 22. The
lavatory includes a lavatory stall unit 24 having one

520a
or more walls 26 having a forward wall portion 28.
The one or more walls define an interior lavatory
space 30, and the forward wall portion is configured
to be disposed immediately aft of and adjacent to or
abutting the exterior aft surface of the aircraft cabin
structure. The forward wall portion has a shape that
is substantially not flat in the vertical plane, and
preferably is shaped to include a recess 34 such that
the forward wall portion substantially conforms to
the shape of the exterior aft surface of the aircraft
cabin structure. In a presently preferred aspect, the
forward wall portion of the lavatory stall unit is
configured to accept loads from the passenger seat.
As shown in FIG. 2, the forward wall portion 28 can
be configured to provide a lower recess 100 formed
between the forward wall portion 28 and the cabin
deck 102. As also shown in FIG. 2, the lower
recess 100 can be configured to receive at least a
portion of an aft-extending seat support 17 therein.
As can be seen by comparing FIG. 1 and FIG. 2, the
recess 34 and the lower recess 100 combine to
permit the passenger seat 16 to be positioned
farther aft in the cabin than would be possible if the
lavatory enclosure 10 included a conventional flat
and vertical forward wall without recesses like that
shown in FIG. 1, or included a forward wall that did
not include both recesses 34, 100.
In another presently preferred aspect, the
forward wall portion defines a secondary space 36 in
the interior lavatory space in an area 38 forward of
an aft-most portion 40 of the forward wall portion,
and the forward wall portion includes a forward
projection 42 configured to project over the aft
portion
of
the
adjacent
passenger
seat

521a
back 44 immediately forward of the lavatory stall
unit. The secondary space can include an amenity
stowage space 46 inside the lavatory stall unit in the
area forward of the aft-most portion of the forward
wall portion, and the secondary space can include
design elements providing visual space, such as a
visual perception of space, inside the lavatory in the
area forward of an aft-most portion of the forward
wall portion.
It will be apparent from the foregoing that while
particular forms of the invention have been
illustrated and described, various modifications can
be made without departing from the spirit and scope
of the invention. Accordingly, it is not intended that
the invention be limited, except as by the appended
claims.
We claim:
1. An aircraft lavatory for a cabin of an aircraft of
a type that includes a forward-facing passenger seat
that includes an upwardly and aftwardly inclined
seat back and an aft-extending seat support
disposed below the seat back, the lavatory
comprising:
a lavatory unit including a forward wall portion
and defining an enclosed interior lavatory space,
said forward wall portion configured to be disposed
proximate to and aft of the passenger seat and
including an exterior surface having a shape that is
substantially not flat in a vertical plane; and

522a
wherein said forward wall portion is shaped to
substantially conform to the shape of the upwardly
and aftwardly inclined seat back of the passenger
seat, and includes a first recess configured to receive
at least a portion of the upwardly and aftwardly
inclined seat back of the passenger seat therein, and
further includes a second recess configured to
receive at least a portion of the aft-extending seat
support therein when at least a portion of the
upwardly and aftwardly inclined seat back of the
passenger seat is received within the first recess.
2. The aircraft lavatory of claim 1, wherein said
forward wall portion is configured to accept loads
from the passenger seat back.
3. The aircraft lavatory of claim 1, wherein said
forward wall portion further includes a projection
configured to project over the passenger seat back
when at least a portion of the upwardly and
aftwardly inclined seat back of the passenger seat is
received within the first recess and at least a portion
of the aft-extending seat support is received within
the second recess.
4. The aircraft lavatory of claim 1, wherein said
lavatory unit is taller than the passenger seat.
5. The aircraft lavatory of claim 1, wherein said
forward wall portion includes a lower portion that is
disposed under the passenger seat back when at
least a portion of the upwardly and aftwardly
inclined seat back of the passenger seat is received
within the first recess and at least a portion of the

523a
aft-extending seat support is received within the
second recess.
6. The aircraft lavatory of claim 1, wherein said
first recess in said forward wall portion is disposed
between an upper wall portion and a lower wall
portion.
7. The aircraft lavatory of claim 1, wherein said
forward wall portion defines a secondary space in
said interior lavatory space above the passenger seat
back.
8. An aircraft lavatory for an aircraft, the
lavatory comprising:
a forward partition;
an aft partition; and
a lavatory space disposed between the forward
partition and the aft partition;
wherein the forward partition comprises:
a forward-extending upper portion;
an aft-extending mid-portion; and
a forward-extending lower portion; and
wherein the forward-extending upper portion,
the aft-extending mid-portion, and the forwardextending lower portion combine to define a first aftextending recess disposed between the upper

524a
forward-extending portion
extending lower portion, and

and

the

forward-

wherein the forward partition further defines a
second aft-extending recess proximate to a lower end
of the forward partition, the second aft-extending
recess being configured to receive at least a portion
of an aft-extending seat support of a forwardpositioned passenger seat therein.
9. The aircraft lavatory according to claim
8 wherein the first aft extending recess defined by
the forward-extending upper portion, the aftextending mid-portion, and the forward-extending
lower portion of the forward partition is configured
to receive an aft-extending seat back of the forwardpositioned passenger seat.
10. The aircraft lavatory according to claim
9 wherein said forward-extending upper portion is
configured to project over at least a portion of the
forward-positioned passenger seat.
11. The aircraft lavatory according to claim
9 wherein said forward partition is configured to
accept loads from the forward-positioned passenger
seat.
12. The aircraft lavatory according to claim
9 wherein said lavatory is taller than the forwardpositioned passenger seat.
13. The aircraft lavatory according to claim
8 wherein the aft partition is substantially vertical
and substantially planar.

525a
14. The aircraft lavatory according to claim
8 wherein the width of the lavatory space disposed
between the forward partition and the aft partition
comprises an upper width, a lower width, and a midwidth, and wherein the upper width and the lower
width are both substantially wider than the midwidth.
15. The aircraft lavatory according to claim
8 wherein the upper forward-extending portion, the
aft-extending mid-portion, and the forwardextending lower portion of the forward partition
form a substantially continuous surface.
16. The aircraft lavatory according to claim
8 wherein said first aft-extending recess extends
along substantially a full width of said forward
partition.
17. The aircraft lavatory according to claim
8 wherein said lavatory has a top, a bottom, a height
therebetween, and a middle therebetween, said
lavatory has varying lengths along the height of the
lavatory, and said lavatory is longer at the top of the
lavatory than at the bottom of the lavatory.

